<html>
<title> - H. RES. 755, ARTICLES OF IMPEACHMENT AGAINST PRESIDENT DONALD J. TRUMP</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]






                        MARKUP OF: H. RES. 755,
                    ARTICLES OF IMPEACHMENT AGAINST
                       PRESIDENT DONALD J. TRUMP
                                VOLUME I

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                          DECEMBER 11-13, 2019

                               ----------                              

                           Serial No. 116-69

                               ----------                              

         Printed for the use of the Committee on the Judiciary





              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





        Available http://judiciary.house.gov or www.govinfo.gov
                               ______

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-401                     WASHINGTON : 2020 






















                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr., 
HENRY C. ``HANK'' JOHNSON, Jr.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                                VOLUME I

                          DECEMBER 11-13, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     2
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     5
The Honorable Zoe Lofgren, a Member of Congress from the State of 
  California, Committee on the Judiciary.........................     8
The Honorable F. James Sensenbrenner, a Member of Congress from 
  the State of Wisconsin, Committee on the Judiciary.............     9
The Honorable Sheila Jackson Lee, a Member of Congress from the 
  State of Texas, Committee on the Judiciary.....................    11
The Honorable Steve Chabot, a Member of Congress from the State 
  of Ohio, Committee on the Judiciary............................    12
The Honorable Steve Cohen, a Member of Congress from the State of 
  Tennessee, Committee on the Judiciary..........................    14
The Honorable Louie Gohmert, a Member of Congress from the State 
  of Texas, Committee on the Judiciary...........................    15
The Honorable Hank Johnson, a Member of Congress from the State 
  of Georgia, Committee on the Judiciary.........................    16
The Honorable Jim Jordan, a Member of Congress from the State of 
  Ohio, Committee on the Judiciary...............................    18
The Honorable Ted Deutch, a Member of Congress from the State of 
  Florida, Committee on the Judiciary............................    19
The Honorable Ken Buck, a Member of Congress from the State of 
  Colorado, Committee on the Judiciary...........................    21
The Honorable Karen Bass, a Member of Congress from the State of 
  California, Committee on the Judiciary.........................    22
The Honorable John Ratcliffe, a Member of Congress from the State 
  of Texas, Committee on the Judiciary...........................    24
The Honorable Cedric Richmond, a Member of Congress from the 
  State of Louisiana, Committee on the Judiciary.................    26
The Honorable Martha Roby, a Member of Congress from the State of 
  Alabama, Committee on the Judiciary............................    27
The Honorable Hakeem Jeffries, a Member of Congress from the 
  State of New York, Committee on the Judiciary..................    29
The Honorable Matt Gaetz, a Member of Congress from the State of 
  Florida, Committee on the Judiciary............................    30
The Honorable David Cicilline, a Member of Congress from the 
  State of Rhode Island, Committee on the Judiciary..............    32
The Honorable Mike Johnson, a Member of Congress from the State 
  of Louisiana, Committee on the Judiciary.......................    33
The Honorable Eric Swalwell, a Member of Congress from the State 
  of California, Committee on the Judiciary......................    35
The Honorable Andy Biggs, a Member of Congress from the State of 
  Arizona, Committee on the Judiciary............................    36
The Honorable Jamie Raskin, a Member of Congress from the State 
  of Maryland, Committee on the Judiciary........................    38
The Honorable Tom McClintock, a Member of Congress from the State 
  of California, Committee on the Judiciary......................    39
The Honorable Pramila Jayapal, a Member of Congress from the 
  State of Washington, Committee on the Judiciary................    41
The Honorable Debbie Lesko, a Member of Congress from the State 
  of Arizona, Committee on the Judiciary.........................    42
The Honorable Val Demings, a Member of Congress from the State of 
  Florida, Committee on the Judiciary............................    43
The Honorable Guy Reschenthaler, a Member of Congress from the 
  State of Pennsylvania, Committee on the Judiciary..............    44
The Honorable Lou Correa, a Member of Congress from the State of 
  California, Committee on the Judiciary.........................    46
The Honorable Ben Cline, a Member of Congress from the State of 
  Virginia, Committee on the Judiciary...........................    47
The Honorable Mary Gay Scanlon, a Member of Congress from the 
  State of Pennsylvania, Committee on the Judiciary..............    48
The Honorable Kelly Armstrong, a Member of Congress from the 
  State of North Dakota, Committee on the Judiciary..............    50
The Honorable Sylvia Garcia, a Member of Congress from the State 
  of Texas, Committee on the Judiciary...........................    51
The Honorable Greg Steube, a Member of Congress from the State of 
  Florida, Committee on the Judiciary............................    53
The Honorable Joe Neguse, a Member of Congress from the State of 
  Colorado, Committee on the Judiciary...........................    54
The Honorable Lucy McBath, a Member of Congress from the State of 
  Georgia, Committee on the Judiciary............................    56
The Honorable Greg Stanton, a Member of Congress from the State 
  of Arizona, Committee on the Judiciary.........................    57
The Honorable Madeleine Dean, a Member of Congress from the State 
  of Pennsylvania, Committee on the Judiciary....................    58
The Honorable Debbie Mucarsel-Powell, a Member of Congress from 
  the State of Florida, Committee on the Judiciary...............    60
The Honorable Veronica Escobar, a Member of Congress from the 
  State of Texas, Committee on the Judiciary.....................    61

                            MARKUP MATERIALS

H. Res. 755, Articles of Impeachment Against President Donald J. 
  Trump..........................................................    68
Amendment in the Nature of a Substitute to H.R. 755, Offered by 
  Mr. Nadler (NY)................................................    83
Amendment to the Amendment in the Nature of a Substitute to H. 
  Res. 755 Offered by Mr. Jordan (OH)............................    95
Amendment to the Amendment in the Nature of a Substitute to H. 
  Res. 755 Offered by Mr. Gaetz (FL).............................   196
Amendment to the Amendment in the Nature of a Substitute to H. 
  Res. 755 Offered by Mr. Biggs (AZ).............................   250
Amendment to the Amendment in the Nature of a Substitute to H. 
  Res. 755 Offered by Mr. Reschenthaler (PA).....................   333

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE MARKUP

Article, Los Angeles Times, ``Trump Froze Military Aid--as 
  Ukrainian Soldiers Perished in Battle,'' October 15, 2019 
  Submitted by the Honorable Zoe Lofgren.........................   106
Memorandum from President Trump, Telephone Conversation with 
  President Volodymyr Zelensky of Ukraine, July 25, 2019 
  Submitted by the Honorable Ben Cline...........................   126
Letter from Matthew Morgan (Office of the Vice President) to 
  Chairman Elijah Cummings (HCOR), Chairman Eliot Engel (HFAC), 
  Chairman Adam Schiff (HPSCI), October 15, 2019 Submitted by the 
  Honorable Andy Biggs...........................................   144
Letter from Matthew Morgan (Office of the Vice President) to 
  Chairman Adam Schiff (HPSCI), October 11, 2019 Submitted by the 
  Honorable Andy Biggs...........................................   146
Article, Time, ``Exclusive: Top Ukraine Official Andriy Yermak 
  Casts Doubt on Key Impeachment Testimony,'' December 10, 2019 
  Submitted by the Honorable Matt Gaetz..........................   156
Article, The Philadelphia Inquirer, ``Impeach President Donald 
  Trump--Philadelphia Inquirer Editorial Board,'' December 11, 
  2019 Submitted by the Honorable Steve Cohen....................   170
Article, The Boston Globe, ``Impeach the president,'' December 5, 
  2019 Submitted by the Honorable Steve Cohen....................   173
Article, USA Today, ``USA TODAY's Editorial Board: Impeach 
  President Trump,'' December 11, 2019 Submitted by the Honorable 
  Steve Cohen....................................................   176
Article, Los Angeles Times, ``Editorial: We've seen enough. Trump 
  should be impeached,'' December 7, 2019 Submitted by the 
  Honorable Steve Cohen
Letter to Congress from Legal Scholars, December 6, 2019 
  Submitted by the Honorable David Cicilline.....................   188
Article, Los Angeles Times, ``Trump Froze Military Aid--as 
  Ukrainian Soldiers Perished in Battle,'' October 15, 2019 
  Submitted by the Honorable Sheila Jackson Lee..................   204
Article, CNBC, ``Trump Asked Top Political Advisors Whether he 
  Should Worry About Running Against Joe Biden,'' March 6, 2019 
  Submitted by the Honorable David Cicilline.....................   266
Article, Newsweek, ``Thirteen Ukrainian Soldiers Died During 
  Trump-Ordered Freeze on Military Aid,'' October 4, 2019 
  Submitted by the Honorable Karen Bass..........................   256
Remarks by President Trump and President Zelensky of Ukraine 
  Before Bilateral Meeting, New York, NY Submitted by the 
  Honorable Mike Johnson.........................................   272
Article, New York Times, ``In Fight for Judiciary Slot, Democrats 
  Broach the ``I'' Word: Impeachment,'' December 18, 2017 
  Submitted by the Honorable Matt Gaetz..........................   284
Article, Los Angeles Times, ``Trump Froze Military Aid--as 
  Ukrainian Soldiers Perished in Battle,'' October 15, 2019 
  Submitted by the Honorable Eric Swalwell.......................   292
Letter From John Rood (DOD) to Four Committee Chairs, May 23, 
  2019 Submitted by the Honorable Ted Deutch.....................   304
Article, Roll Call, ``Ukrainian Lives Hung in Balance as Trump 
  Help up Aid,'' October 24, 2019 Submitted by the Honorable Zoe 
  Lofgren........................................................   310
Article, The Guardian, ``Roger Stone to Michael Cohen: the men in 
  Trump's orbit implicated in crimes,'' November 15, 2019 
  Submitted by the Honorable Cedric Richmond.....................   322
Letter from Pat A. Cipollone (White House) to Speaker Nancy 
  Pelosi, et al., October 8, 2019 Submitted by the Honorable Zoe 
  Lofgren........................................................   338
Letter from Chairman Eliot L. Engel (HFAC), Chairman Adam B. 
  Schiff (HPSCI), and Chairman Elijah E. Cummings (HCOR), to John 
  J. Sullivan (Department of State), October 1, 2019 Submitted by 
  the Honorable Guy Reschenthaler................................   376
FOIA Production, December 12, 2019 DOD and OMB to Center for 
  Public Integrity Submitted by the Honorable Veronica Escobar...   442

 
 H. RES. 755, ARTICLES OF IMPEACHMENT AGAINST PRESIDENT DONALD J. TRUMP

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 7:00 p.m., in Room 
1100, Longworth House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Raskin, Jayapal, Demings, Correa, Scanlon, 
Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-Powell, 
Escobar, Collins, Sensenbrenner, Chabot, Gohmert, Jordan, Buck, 
Ratcliffe, Roby, Gaetz, Johnson of Louisiana, Biggs, 
McClintock, Lesko, Reschenthaler, Cline, Armstrong, and Steube.
    Staff Present: Amy Rutkin, Chief of Staff; Perry Apelbaum, 
Staff Director and Chief Counsel; Aaron Hiller, Deputy Chief 
Counsel and Chief Oversight Counsel; Barry Berke, Counsel; Norm 
Eisen, Counsel; Arya Hariharan, Deputy Chief Oversight Counsel; 
James Park, Chief Constitution Counsel; Joshua Matz, Counsel; 
Sarah Istel, Counsel; Matthew Morgan, Counsel; Kerry Tirrell, 
Counsel; Sophia Brill, Counsel; Charles Gayle, Counsel; Maggie 
Goodlander, Counsel; Matthew N. Robinson, Counsel; Ted Kalo, 
Counsel; Priyanka Mara, Professional Staff Member; William S. 
Emmons, Legislative Aide/Professional Staff Member; Madeline 
Strasser, Chief Clerk; Rachel Calanni, Legislative Aide/
Professional Staff Member; Julian Gerson, Professional Staff 
Member; Anthony Valdez, Fellow; Thomas Kaelin, Fellow; David 
Greengrass, Senior Counsel; John Doty, Senior Advisor; Moh 
Sharma, Member Services and Outreach Advisor; John Williams, 
Parliamentarian; Jordan Dashow, Professional Staff Member; 
Shadawn Reddick-Smith, Communications Director; Daniel Schwarz, 
Director of Strategic Communications; Kayla Hamedi, Deputy 
Press Secretary; Kingsley Animley, Director of Administration; 
Tim Pearson, Publications Specialist; Janna Pickney, IT 
Director; Faisal Siddiqui, Deputy IT Manager; Nick Ashley, 
Intern; Alex Espinoza, Intern; Alex Thomson, Intern; Mariam 
Siddiqui, Intern; Catherine Larson, Intern; Kiah Lewis, Intern; 
Brendan Belair, Minority Staff Director; Bobby Parmiter, 
Minority Deputy Staff Director/Chief Counsel; Ashley Callen, 
Minority Chief Oversight Counsel; Danny Johnson, Minority 
Oversight Counsel; Jake Greenberg, Minority Oversight Counsel; 
Paul Taylor, Minority Chief Counsel, Constitution Subcommittee; 
Daniel Flores, Minority Chief Counsel, Antitrust Subcommittee; 
Ella Yates, Minority Member Services Director; Jon Ferro, 
Minority Parliamentarian; and Erica Barker, Minority Deputy 
Parliamentarian.
    Chairman Nadler. The Judiciary Committee will please come 
to order. Quorum being present. Without objection, the Chair's 
authorized to declare recess at any time. Pursuant to Committee 
Rule 2, and House Rule 11, clause 2, the Chair may postpone 
further proceedings today on the question of approving any 
measure or matter, or adopting an amendment for which a 
recorded vote for the yeas and nays are ordered.
    Today we meet to begin consideration of Articles of 
Impeachment against President Donald J. Trump. Although it is 
our custom to limit opening statements to the Chair and Ranking 
Member of the committee, as I informed the Ranking Member, I 
believe that for such an important and solemn occasion as this, 
it would be appropriate for all members to have an opportunity 
to make an opening statement. Before we begin, I want to note 
the absence of our colleague, Ted Lieu, who required a medical 
procedure Monday evening, and will be unable to attend this 
markup. I understand he is in good spirits and plans to be back 
at work next week. His statement will be made part of the 
record, and I know that all of my colleagues join me in wishing 
him a speedy recovery.
    I will now recognize myself for an opening statement. 
Today, we begin consideration of two Articles of Impeachment 
against President Donald J. Trump. The first article charges 
that the President used the powers of his public office to 
demand that a foreign government attack his political rivals. 
The second article charges that the President obstructed the 
congressional investigation into his conduct. Other Presidents 
have resisted congressional oversight, but President Trump's 
stonewall was complete, absolute, and without precedent in 
American history. Taken together, the two articles charge 
President Trump with placing his private political interest 
above our national security, above our free and fair elections, 
and above our ability to hold public officials accountable.
    This committee now owes it to the American people to give 
these articles close attention and to describe their factual 
basis, meaning, and importance. I believe that three questions 
should frame our debate: First, does the evidence show clearly 
that the President committed these acts? Second, do they rise 
to the level of impeachable high crimes and misdemeanors? 
Third, what are the consequences for our national security, for 
the integrity of our elections, and for our country if we fail 
to act?
    To the first question, there can be no serious debate about 
what President Trump did. On July 25th of this year, when he 
spoke to President Zelensky of Ukraine by telephone, President 
Trump had the upper hand. Ukraine had been invaded by Russia. 
Zelensky had only recently been elected. He badly needed our 
help. He needed it in the form of military aid already 
appropriated by Congress because of our national security 
interests in Ukraine, and he needed help in the form of an Oval 
Office meeting, so he could show the world that the United 
States stands with him against Russian aggression.
    President Trump should have focused on America's national 
security and on the interest of the American people on that 
call. Instead, he completely ignored them in order to push his 
own personal, political interests. President Trump asked for a 
favor. He wanted Ukraine to announce two bogus investigations: 
One into former Vice President Biden, his leading opponent in 
the 2020 election; and another, to advance a conspiracy theory 
that Ukraine, not Russia, attacked our elections in 2016.
    These were not legitimate requests. Neither were supported 
by the evidence. One investigation was designed to help 
President Trump conceal the truth about the 2016 election. The 
other was designed to help him gain an advantage in the 2020 
campaign. Both were divorced from reality and from official 
U.S. policy.
    The evidence proves that these requests were not related to 
any real interest in rooting out corruption. President Trump 
eagerly does business with corrupt governments every day. The 
evidence shows that President Trump did not care if real 
investigations took place. A public announcement that the 
Government of Ukraine was investigating his rivals would have 
been enough for him to release the aid, whether or not an 
actual investigation ever took place.
    After the call, President Trump ratcheted up the pressure. 
He dangled the offer of an Oval Office meeting. He withheld 
$391 million in military aid. His personal lawyer traveled to 
pressure the Ukrainians directly. The President deployed other 
agents, including outside the official channels of diplomacy, 
to make his desires clear. By September, President Zelensky was 
ready to comply to announce the two fake investigations. Then 
the scandal broke into the open. Caught in the act, the 
President was forced to release the aid.
    When the House of Representatives opened an inquiry into 
the President's actions, President Trump did everything in his 
power to obstruct the investigation. He declared across-the-
board resistance. He ordered every official in the Federal 
Government to defy all subpoenas related to the inquiry. At his 
command, the administration also refused to produce a single 
document related to the inquiry, not one.
    To put this obstruction into context, during the Watergate 
hearings, President Nixon turned over recordings of his 
conversations in the Oval Office. Later, President Clinton 
handed over his DNA. President Trump's obstruction was, by 
contrast, absolute.
    Those are the facts. They are overwhelming. There is no 
denying them. Having reviewed the evidence, we come to our 
second question: Is the President's proven conduct impeachable? 
The answer is simple, absolutely.
    Under Article I of the Constitution, a President can be 
impeached for high crimes and misdemeanors. The highest of high 
crimes is abuse of power. It occurs when a President uses his 
official powers to serve his own personal, selfish interests at 
the expense of the public good. To the founding generation that 
had fought a king and won our freedom, it was a specific, well-
defined offense.
    The first Article of Impeachment charges President Trump 
with abuse of power. The article describes President Trump's 
conduct, and lays out two aggravating factors that we must 
consider. In pressuring Ukraine for a personal favor, President 
Trump both betrayed our national security and attempted to 
corrupt our elections. When the President weakens an ally who 
advances American security interests by fighting an American 
adversary, the President weakens America, and when the 
President demands that a foreign government investigate his 
domestic political rivals, he corrupts our elections.
    To the Founders, this kind of corruption was especially 
pernicious. Free and fair elections are the bedrock of our 
democracy. If our elections are corrupt, everything is corrupt.
    The President faces a second Article of Impeachment for his 
ongoing efforts to obstruct a lawful investigation into his 
conduct. We have never, in the history of our Nation, seen a 
President categorically defy Congress in this matter. If the 
President can first abuse his power, and then stonewall all 
congressional requests for information, Congress cannot fulfill 
its duty to act as a check and balance against the executive 
and the President becomes a dictator.
    Later tonight, you will hear more about both articles and 
how they describe a pattern of behavior that President Trump 
seems determined to repeat again and again. My colleagues will 
also address various procedural objections that had been raised 
in the President's defense, but there is one of those 
objections that I wish to address right away.
    Some ask, why not take more time? Why is this necessary 
now? Why do we need to impeach the President? Why not let the 
next election handle it? This brings us to the third and final 
question, what is the risk if we do not act?
    Over the past 94 days since the House investigation began, 
indeed, over the last 3 years, one indisputable truth has 
emerged: If we do not respond to President Trump's abuses of 
power, the abuses will continue. We cannot rely on an election 
to solve our problems when the President threatens the very 
integrity of that election, nor can we sit on our hands while 
the President undermines our national security, and while he 
allows his personal interests and the interests of our 
adversary, Russia, to advance.
    The President's personal lawyer was in Ukraine again just 
last week. That was not 3 years ago. That was not 3 months ago. 
That was Saturday. President Trump's continuing abuses of power 
jeopardize our security and our elections. The threat is 
urgent. If we do not act now, what happens next will be our 
responsibility as well as his.
    I will close with a word to my Republican colleagues. I 
know you. I have worked with many of you for years. I consider 
you to be good and decent public servants. I know this moment 
may be difficult, but you still have a choice. I hope every 
member of this committee will withstand the political pressures 
of the moment. I hope that none of us attempt to justify 
behavior that we know in our heart is wrong. I hope that we are 
able to work together to hold this President, or any President, 
accountable for breaking his most basic obligations to the 
country and to its citizens.
    And while you think about that choice, please keep in mind 
that one way or the other, President Trump will not be 
President forever. When his time has passed, when his grip on 
our politics is gone, when our country returns, as surely it 
will, to calmer times and stronger leadership, history will 
look back on our actions here today. How would you be 
remembered? We have each taken an oath to support and defend 
the Constitution against all enemies, foreign and domestic. I 
hope to be remembered for honoring that oath. I hope you feel 
the same.
    And so, with a heavy heart, but clear in my duty to our 
country, I support these Articles of Impeachment. I urge my 
colleagues to support them as well.
    I yield back the balance of my time. I now recognize the 
distinguished Ranking Member of the Judiciary Committee, the 
gentleman from Georgia, Mr. Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman. I find it amazing at 
best, hilarious, I guess at worst, that we come to, quote, a 
solemn and amazing moment. We have been on this path since 
November 2016. This is not new. We have been trying this for 
almost 3 years if you are a majority member of this party. The 
only thing that has changed is the opportunity from last 
November when you became the majority. The only thing that 
changed in your desire to impeach this President was that you 
became the majority, and we have spent all year in this 
committee trying to impeach the President.
    We have occasionally had markups on bills, most of which so 
partisan they cannot even go forward in the Senate. Most of 
which that do not address any issue that we have talked about, 
but it is amazing to me that we are taking it now at such a 
solemn oath that we have made up something to now come to this 
point to say, This is very solemn, like it jumped up and snuck 
up on you.
    It is about, like, the holiday season. It doesn't jump up 
and sneak up on you when you have been expecting it the whole 
time. And that is what we have been doing. What has been 
amazing to me was, is some things that we have seen. So let's 
just take some perspective here for a little while. What has 
our committee, this great committee, come to? That is the 
question for us. Let's just take it for just a moment inside 
these impeachment hearings.
    This is our third. I will count it into tomorrow for three. 
Three hearings in this committee of impeachment, and that is 
all we are having. What do we get out of those three hearings? 
We had a bunch of law professors, three of which who cannot 
stand the President, who cannot stand his voters, and cannot 
stand the fact that he is still in office, telling us why he 
should be impeached and that inferences were okay to find 
impeachment.
    We had a hearing just 2 days ago from staff lecturing us on 
what is relevant and not relevant, and what they found in the 
report, while the member who wrote the report hid in his closet 
somewhere, I guess, or in his office, not wanting to come face 
the questions of this committee. That should be abhorrent to 
everyone here.
    So let's think about what we have seen and what we have not 
seen. And again, Chairman Schiff is nowhere to be found. When 
we understand this, we look forward. Tonight it has started 
again. We talk about tearing down of national institutions, and 
we start talking about putting our security at risk when 
tonight, even in the chairman's opening statement, we start 
with one of the most amazing takedowns I have ever seen: When 
they can't make their argument that the President pressured Mr. 
Zelensky, they then attack Mr. Zelensky, and then say that he 
was pressured when Mr. Zelensky, on numerous occasions, has 
said, I have not been pressured, I am not being used, the call 
was fine, I am not paying pressure to do anything.
    Then here is what the majority is saying. The majority is 
saying, Mr. Zelensky is a liar and we in this body, the 
Democrats, are tearing down a world leader in the eyes of those 
that don't like him in his own country and Russia who is 
attacking him. Think about that one for just a second. Let that 
sink in.
    When we can't make our case, we tear down--not only try to 
tear down the leader of the free world, President Trump, we are 
tearing down the newly elected leader of the Ukraine.
    This is amazing to me. You can't make your case against the 
President because nothing happened and when President Zelensky 
confirms nothing happened, we start tearing him down. I never 
thought we would cross outside of the ocean to try and 
basically impugn the integrity of a world leader like we have 
been for the last two hearings.
    We have also found--other things that we have found in our 
very minimal hearings here in this body is we have seen that 
other committees have used political vendettas against ranking 
members and others, including members of the press who are 
sitting here tonight, by putting phone records in, naming 
names. I mean, you talk about getting even. We put names, Mr. 
Nunes, Mr. Solomon, others, almost four numbers that we looked 
at, and nobody would own up to it.
    Mr. Goldman--Mr. Schiff, of course, wasn't here--but even 
Mr. Goldman wouldn't own up on who said to do that when they 
could have simply put in the record Congressman one, 
Congressman two, reporter one. No. They got what they wanted. 
They got their drive-by. They got their political smear. That 
is the record being built in Judiciary Committee, not a record 
of facts against this President, a record of a Democratic party 
who has lost all moorings of fairness and good taste. That is 
what we are seeing here and we can have all the flowery opening 
statements tonight we want, but they can't get away from that 
fact.
    What is the big lie that is being perpetrated here on us? 
The big lie is this. And one of the Democrats have told the 
American people they have said this for 3 years. The big lie 
that we are hearing perpetrated tonight is: one, the ends 
justifies the means. The lies that the sham impeachment is okay 
because the threat is so real and so urgent and so imminent. 
The big lies that political expediency is honorable and 
justifiable, and history has shown that to be untrue and 
dangerous. The big lies that Adam Schiff had gained evidence in 
plain sight, he said of President Trump colluding with Russians 
and Special Counsel Mueller's report debunked that lie, but it 
continues to spread like a cancer every time we meet. The big 
lies that the evidence of the impeachment of overwhelming and 
uncontested, the facts are undisputed. The very fact that 
people in this committee dispute the facts make them disputed 
facts, not undisputed facts.
    The problem that we are seeing here is when you even get to 
the articles themselves, abuse of power, when you look at these 
articles and compare them to history, I am glad the chairman 
brought up history. Because I would not write history. It will 
be written for us at a later time because they will not always 
be the majority, as he talked about this President not always 
being President. I do believe he will be President for 5 more 
years. But at this time, there will be a turnover at some 
point, and what do we have? This is the articles that we wrote 
after all of these hearings and all of these grand 
pronouncements, and all these thoughts of crimes in plain 
sight, we get abuse of power with no real dates on this is the 
abuse? It is just generic, vague statements.
    You know why I believe that is, is because the Democrats 
can't come up with an argument for it. They don't have the 
``who knew it and when they knew it.'' All they have is, well, 
here, members, we are going to give you abuse of power. You go 
home pick something you don't like about the President, there 
is your abuse of power. This is a much about political 
expediency as it is anything else, and that should never be in 
Articles of Impeachment. And anybody that defend that is 
treading on very thin ice.
    And then obstruction of Congress. The only obstruction we 
have seen here is obstruction from Chairman Schiff of this 
investigation. He did not turn over the documents as he was 
supposed to. We get those last Saturday in a massive document 
after we have already had a hearing, after we had another--
getting ready for another hearing in which we are supposed to 
lay out the report and tonight, tonight, he sends a letter of 
classified information that has been classified over to us 
tonight. Don't think for a second, American public, that this 
majority wants you to find the truth. The obstruction has only 
occurred from Adam Schiff and the HPSCI and the majority 
keeping people from actually trying to find the truth. That is 
the only obstruction here, so why don't we just have that as an 
obstruction charge, but it will be against Adam Schiff and the 
majority, not the President.
    Two articles like that, abuse of power and obstruction of 
Congress? In 70-something days, the only abuse of power here is 
the majority racing the fastest they have ever had the clock 
and the calendar determining what impeachment looks like. That 
is the abuse of power, as Professor Turley said.
    But before I finish, I cannot stop without this. The real 
legacy of this impeachment hearing will not be the removal of 
Donald Trump as President. In fact, if anything, they see the 
majority for what they are, on a 3-year vendetta to get someone 
that they couldn't beat, and they are desperate to do it before 
he beats them again next year. Here is the real damage, it is 
the institutional damage to this body, it is the institutional 
damage to getting information, even after the hearing started 
from not having the rules followed, from having this committee 
as the chairman warned us about 20 years ago when he said, this 
great committee, the Judiciary Committee, should never accept a 
report from someone else without verifying it, having hearings 
to make sure it was there unless, as the chairman said, we 
become a rubber stamp.
    I don't know about you, but I am not a rubber stamp, and I 
don't like what I have been forced to do. Sit here, be lectured 
to by law professors and a staff that does not wear a pin 
telling us what is relevant or not. We are a rubber stamp of 
the worst kind because we didn't even try to make a point. The 
minority hearing date which, by the way, get ready. We will 
talk about this more, we are going to talk about it some 
tonight, and we will get it shot down tomorrow. And Rules 
Committee will take care of it before reporters and for media 
and people who have watched this body in the institution that I 
have loved all of my life and watched this since I was an 
intern up here being destroyed day after day.
    If the minority has no rights and one day this majority 
will be back in the minority, and they will be crying and 
screaming for minority rights to be upheld, and I will just 
point back to 2019 and say, This is the year you put a dagger 
in minority rights. Justify the most basic obligations of this 
committee have been overrun.
    So tonight, we have experienced--we are in December. After 
a year of trashing this institution, a year of trying to trash 
this administration and this President, we come up with abuse 
of power and can't define it? We come up with obstruction of 
Congress after 72 days.
    I know they are desperate. You know how I know it? Adam 
Schiff's own words yesterday. We can't go to court. That would 
take too long. An election is coming. Let me finish the last 
part of that sentence as he likes to put words into President 
Trump's mouth when he faked the call transcript, No, Adam, what 
you need to continue to say is, we can't beat him next year. 
The only thing we need is a 30-second commercial saying we 
impeached him.
    That is the wrong reason to impeach somebody and the 
American people are seeing through this, but at the end of the 
day, my heart breaks for a committee that has trashed this 
institution and this is where we are now.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    We will now proceed with 5-minute opening statements from 
other members of the committee. I now recognize the gentlelady 
from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. This is a serious moment for our country. I 
have worked on presidential impeachments as part of this 
committee twice before, and a third time brings me no joy. 
Members of Congress all take an oath to uphold the Constitution 
when the President violates the constitutional order, we have 
an obligation to live up to our oath of office to deal with 
that.
    Last week, this committee got direct evidence about the 
President's actions that threaten our national security, 
undermine the integrity of the next election, and his violation 
of his oath. As a staff member to my predecessor, Congressman 
Don Edwards, I watched his opening in the Nixon impeachment, 
and it rings true today. He said the value and beauty of our 
Constitution and representative government, if it is going to 
work, requires that we all respect and obey the Constitution. 
It is the compact we have with each other. Put simply, no one 
is above the law, and the President of the United States must 
follow the Constitution.
    President Trump has not only abused his power for the 
upcoming election, he used a foreign power to do it. George 
Washington would likely be astonished, since he warned against 
the insidious wilds of foreign influence. One of my most vivid 
memories from the 1974 impeachment was Representative Chuck 
Wiggins, one of the most vigorous defenders of President Nixon 
when he realized that Nixon had lied to him. I have been 
waiting for Republican Members here to have their Chuck 
Wiggins' moment, but it seems like we live in an alternate 
reality whereas one columnist recently said, If it swims and 
quacks like a duck, it is a piano. It is understandable that 
Republicans feel loyalty to the leader of their party, but 
loyalty to our country and our Constitution must be greater.
    I have reviewed what Republican committee members said 
during the Nixon impeachment. Representative Larry Hogan said, 
it is not easy for me to align myself against the President, to 
whom I gave my enthusiastic support. But I cannot, in good 
conscience, turn away from the evidence.
    Caldwell Butler, another pro-Nixon Republican said, the 
misuse of powers is the very essence of tyranny, and that 
Nixon's lack of remorse for his misconduct and concern for his 
constitutional responsibility were a factor in the supporting 
impeachment.
    That is a problem today as well. President Trump continues 
his misconduct. He is not contrite. He poses an ongoing threat. 
Representative Butler said this about the Republicans, is, we, 
not the Democrats, who must demonstrate that we are capable of 
enforcing the high standard.
    Where are the Caldwell Butlers and Larry Hogans of today in 
the Republican Party? What is before us is a serious abuse of 
power and obstruction of Congress, and I hope that every member 
here will vote their conscience. We are blessed to live in a 
wonderful free country. An important thing that keeps us free 
is the Constitution of the United States and the generations of 
Americans who have defended that Constitution on the 
battlefield, in the courts, in the Congress.
    The Founders included the impeachment clause in the 
Constitution purposefully, and they gave Congress the sole 
authority to impeach for a reason. If the President who had 
been granted vast powers abuse that power, threaten the 
constitutional order, then Congress could and should act to try 
to curb that abuse. It is the foundation of our free society. 
The power to impeach is not to punish a President. It is to 
protect Americans from a President who would abuse his power, 
upend the constitutional order, and threaten our democracy.
    Regrettably, President Trump has engaged in the abuse of 
power. His failure does not permit us to fail to fulfill our 
oath. It is with considerable regret that I find our country 
faced with the need to impeach President Trump for his abuse of 
power, but the future of our democracy and constitutional order 
require it.
    And I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Mr. Chairman, I agree with everybody 
that tonight is a very solemn night. This is the third time in 
the last 40 years, 45 years that this committee has sat to the 
Articles of Impeachment against the President of the United 
States. What we are debating here, in my opinion, is the 
weakest case in history, and yet, the Democrats have decided to 
go full speed ahead, again, because of the clock and the 
calendar, with an incomplete record, simply by using hearsay 
evidence and trashing the rules of the House every time they 
can in order to speed things up where they preordained 
conclusion, and that is a partisan vote for impeachment, 
something that both the Speaker and the chairman of this 
committee rejected earlier on when they thought they could make 
this bipartisan. If they could have made it bipartisan, they 
blew their opportunity very early on with their trashing of the 
rules, and the trashing of what has been the history of this 
committee.
    Now, let's look at these two articles. Unlike the Nixon and 
Clinton impeachment, there is no crime that is alleged to have 
been committed by the President of the United States. There are 
policy differences, but I would submit that given the 
definition of treason, bribery, and other high crimes and 
misdemeanors, that does not mean that policy differences should 
be enough to remove a President from office. There is no 
allegation of bribery in these articles. There is no allegation 
of extortion. They have defined for themselves what a high 
crime and misdemeanor will be. This bar is so low that what is 
happening is that a future President can be impeached for any 
disagreement when the presidency and the House of 
Representatives are controlled by different parties. And that 
goes back to establishing a parliamentary system, which the 
Framers explicitly rejected at the time of the constitutional 
convention. And the United Kingdom or Canada or other 
parliamentary democracies, if the government loses the 
confidence of a majority of the lower House, the government's 
out, and there either is a new government or a new election 
that happens.
    The Framers didn't want that. We had an independent 
presidency. The President was independently elected. He did not 
serve at the sufferance of Congress. He served for a fixed 
term, and it was only if he really obstructed the functions of 
government or was treasonous, he could be impeached.
    Now let's look at obstruction of Congress. Again, in the 
past, whenever the executive and legislative branches in the 
United States have had a disagreement, they have gone to court, 
and the third branch decides this difference. This committee 
and this majority are so high bound to their clock and their 
calendar that they will not allow the judicial process to work 
out. What brought Richard Nixon down, honestly, was the Supreme 
Court saying that he had to turn over certain documents. And 
within 2 or 3 weeks after that, the President knew his time was 
up. The Republicans had convinced him of that, and he resigned 
mooting out the impeachment.
    So, yes, the Constitution is at stake. The Framers of our 
Constitution's enlightened decisions are at stake. We are not 
to go on the road to becoming a parliamentary democracy, like 
England and Canada are. We need an independent President who 
does not have to suffer to anything a congressional majority 
might throw at him. That is what the courts are for to figure 
it out. And I would appeal to my chairman, the majority members 
of this committee to listen to what Madison and Hamilton had to 
say during the ratification of the Constitution, and during the 
debates at the convention. Put aside your partisan politics and 
don't listen to what Pelosi, Schiff, and Nadler are telling 
you, because the future of our country and the viability of our 
Constitution, as the Framers decided it, are at stake.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Jackson Lee.
    Ms. Jackson Lee. The Constitution begins with, ``We, the 
people of the United States,'' among other things, promote the 
general welfare and establish this Constitution for the United 
States of America. The President of the United States, Donald 
J. Trump, perpetrated constitutional crimes. Why does this 
matter today, now, in this moment of the journey of America's 
history? Because truth matters and where truth rests, trust 
builds. The Constitution is a plain language set of laws that 
Americans for generations have adhered to and been protected 
by. It is a list of crimes the Framers feared and are forbidden 
actions not to be taken by our governors. The Founding Fathers 
believed the bill of rights is a living document, freedom of 
speech and privacy, ending slavery.
    So today, my case will rest on truth and trust. I will 
ignore the politics of impeachment, but rather, the facts and 
truth I must abide by. The Congress has the power to impeach 
the President, the President can be impeached and removed from 
office for the convictions of treason, bribery, high crimes and 
misdemeanors. This is the law of the land, so here are the 
facts: First, President Trump violated his oath of office by 
placing his personal and political interests above the national 
interests by scheming to get Ukraine to investigate a potential 
election opponent. Second, President Trump betrayed the 
national interest by withholding vital, congressionally 
appropriated security to a beleaguered and besieged ally facing 
armed aggression from Russia, America's implacable foe. Third, 
the essential purpose of the scheme concocted by President 
Trump was to enlist a foreign country to help him fix the 2020 
presidential election in his favor, the very type of 
interference our Framers most feared. And then he blocked 
witnesses and documents obstructing Congress.
    These acts are precise and evidence-based and must stand 
the test of truth and trust in a Constitution that has been the 
foundation of this Nation for centuries. The truth is, this 
President did ask for a favor, though. Witnesses under oath 
swore to that. The truth is, $391 million were withheld. The 
truth is, the only goal of the President's acts harm the 
American people, violated his oath, and promoted his 2020 
election. Now, truth raises a question again: Did the President 
follow his oath, another sacred duty, to take care that the 
laws be faithfully executed, that the law saved a besieged 
small nation those monies that were needed by Ukraine?
    Many lives during that time of delay were lost in a country 
fighting for its survival, yes, and, was America's national 
security in jeopardy? Yes. The bright light of this 
constitutional democracy dimmed because of his acts. The truth 
is no longer for all; it is for one man, Donald J. Trump, his 
truth, his way.
    We must reject that abuse of power, because this is not 
America, no one is above the law. Reminded of my grandfather 
who left his native land to join with his wife, and to bring 
his aspirations and hopes to the United States. I am reminded 
that he died an early death because of lack of access to 
healthcare, but yet, I am told he was still inspired by this 
Nation and I am reminded that my widowed grandmother watched 
Eric, Alan, and Samuel go off to war in World War II. These are 
America's stories, families who believe, and when the Commander 
in Chief violates his oath and abuses power, corrupts our 
democracy, it is a continuing threat to our national security.
    The truth is, it becomes like the leaves on a tree. It 
falls to the ground, and the trust that is a cornerstone of our 
democracy, shakes in the stare of a Government no longer for 
the people and by the people, but a Government led by a 
President who undermines our democracy over and over again, and 
even looking forward to interfering with our election in 2020. 
It matters to the waitress on an early bus for the breakfast 
shift. It matters to the steel worker helping to build America. 
It matters to the teacher in our fifth grade social studies 
class. It matters to a mother kissing her young military 
recruit before they go off to their service to this Nation.
    It is important that we begin to understand that we cannot 
be stopped by distractions. This must be the time when we rise 
and sacrifice so that the wheels of justice turn toward right, 
our sacrifice is unselfish, our truth will set this Nation 
free. For this reason, I vote aye and must vote aye on the 
Articles of Impeachment, Article I and Article II for his truth 
is marching on. His truth is marching on. Impeachment cannot be 
warped by equivocation wrapped in doubt. It must be done, both 
by the past and present.
    And the question is, the America that we know and love can 
it survive the pillars of abuse? No, it cannot, and that is why 
I put my faith and trust and truth, and that is why we stand 
tonight for America's future.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Chabot.
    Mr. Chabot. Mr. Chairman, as we consider this evening 
Articles of Impeachment that if adopted by this committee, the 
full House, and, God forbid, garners a two-thirds vote in the 
Senate would result in the overturning of a presidential 
election, it seems appropriate to consider how in the world we 
got here? We are witnessing, I believe, the most tragic mockery 
of justice in the history of this Nation. We are witnessing an 
inexplicable rush to impeach a President who is disliked--no, 
loathed--by most of my Democratic colleagues and by their 
supporters. And as a result of that loathing, they see fit to 
abandon all basic tenets of fairness, due process, and justice 
guaranteed to every American under the Constitution.
    After the farce in the Intelligence Committee, we had 
dumped in our laps a report recommending impeachment with no 
time to adequately consider or review the materials. So much 
for the rules allowing members of the Judiciary Committee, or 
any committee for that matter, to responsibly consider such 
materials, especially if they are involving something as 
important as the impeachment and potential removal of the 
President of the United States.
    The report from the Intelligence Committee was based 
largely on testimony taken in secret depositions in the 
basement of the Capitol Building, which was closed to most 
Members of Congress, closed to the media, and closed to the 
American people.
    If that is not bad enough, the report scandalously 
published the phone records of the President's personal 
attorney, a member of the media, and a fellow member of this 
body. Under what legal authority these phone records were 
obtained, we have no idea. Then last Wednesday, this committee, 
the committee actually charged with handling impeachment, held 
the first of two hearings in which we heard from exactly zero 
fact witnesses. On Saturday, the Democrats on this committee 
announced that they had, without precedent, changed the 
requirements for impeachment so that the commission of an 
actual crime would no longer be necessary to satisfy the 
standard of high crimes and misdemeanors. And they announced 
that the President would not be permitted to present a case in 
his own defense.
    Every school child in America knows that it is improper and 
unfair to change the rules in the middle of the game, Mr. 
Chairman. It is an ex post facto law, and forbidden under the 
Constitution. The flaunting of the law by the majority on this 
committee has been breathtaking. This past Monday, during our 
second hearing, again, without any fact witnesses, we had the 
bizarre situation in which, rather than members questioning 
witnesses, we had staff questioning staff, and even had a staff 
witness get up from the witness stand down there, walk over to 
this dais, and begin questioning another staff witness. At the 
same time, Republicans on this committee were denied the 
absolute right to have a minority hearing day, which is 
guaranteed by this committee's own rules.
    The chairman of this committee, and the majority, have seen 
fit to abuse this committee's rules and ignore the rights of 
the minority with impunity. The majority should keep in mind 
that they will one day be in the minority, and they are setting 
a precedent in which they will likely one day be the victim 
themselves.
    Now, we are debating Articles of Impeachment drafted by the 
majority on this committee, really by Nancy Pelosi and her 
cohorts, without any consultation with the minority party and 
based on what constitutional scholar, Jonathan Turley, called 
wafer-thin evidence.
    Tomorrow, this committee will hold a vote to impeach a 
President without having heard from a single fact witness, and 
without allowing the minority party the ability to call any 
witnesses or present any defense. What a travesty of justice. 
In summary, over the last few weeks, House Democrats have 
either actively participated in, or acquiesced to, the drafting 
of Impeachment Articles based solely on evidence collected in 
secret hearings, closed to the media, and to the American 
people. Constitutionally prohibited ex post facto rules were 
welcomed. The President's Fourth Amendment rights under the 
Constitution were ignored. The President's due process rights 
under the Fifth Amendment, and his right to face his accusers 
and present a defense under the Sixth Amendment were also 
totally ignored.
    If George Orwell had written the script, no one would have 
believed it. People would say that it is ridiculously 
implausible, and yet, here we are. To satisfy their bases 
extreme hatred of President Trump, House Democrats have taken a 
blow torch to House rules, the rule of law, and, most 
frighteningly, to the Bill of Rights. This is a sad day in 
American history, Mr. Chairman. The folks in the liberal media 
might be cheering you on, but I highly doubt that either 
history or the American people will judge you so leniently.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman. Our Constitution 
embodies our values and laws, and invests the power of our 
government and the authority of the people expressed through 
free and fair elections. When President Trump, for his own 
personal political gain, asked for a ``favor'' from a foreign 
leader, he did exactly what our Founding Fathers feared most, 
he invited the influence of a foreign power into our elections. 
This is one of the primary reasons the Founders placed 
impeachment in our Constitution. Last week, Professor Karlan 
summed up his wrongdoing well, when she stated, quote, ``When 
President Trump invited, indeed demanded, foreign involvement 
in our upcoming election, he struck at the very heart of what 
makes this country the republic to which we pledge allegiance. 
That demand constituted an abuse of power.'' She continued on, 
``Drawing a foreign government into our election process is an 
especially serious abuse of power because it undermines 
democracy itself.'' It is as if our Founders could see into 
2019 and when they did, they saw Donald Trump corrupting our 
democracy by saying to President Zelensky of Ukraine, ``I would 
like you to do us a favor, though.''
    President Trump's subversive and illegal action in seeking 
foreign interference are an effrontery to our Constitution, and 
to free and fair elections. They are an affront to our 
Founders. They are an affront to the suffragists who fought for 
women's voting rights. They are an affront to the memory of 
Medgar Evers, a civil rights leader assassinated in Jackson, 
Mississippi.
    They are an affront to the memories of Andrew Goodman, 
James Cheney, and Michael Shwerner, civil rights workers 
murdered in Philadelphia, Mississippi, during the freedom 
summer of 1964, while registering African Americans to vote. 
They are an affront to the memory of Viola Liuzzo, a mother of 
five who was murdered by the Ku Klux Klan while she was in 
Alabama to participate in the Selma to Montgomery march, and 
they are an affront to the memory of the Reverend Martin Luther 
King, Jr., who championed the Voting Rights Act of 1965.
    And they are an affront to every servicemember who has ever 
fought to defend our Nation and our system of self-government 
which is based upon free and fair elections.
    President Trump's attempt to subvert our election was an 
attack on America. The President got caught when the 
whistleblower exposed the President's scheme. Then the 
President sought to cover-up the scheme. He stonewalled 
Congress as we pursued our investigation. He instructed his 
staff, cabinet, and other Federal officials to do the same. 
Previous presidents facing impeachment, even President Nixon, 
cooperated with Congress, but President Trump has thumbed his 
nose at constitutional power, and he refused to appear to 
defend himself.
    Congress is a coequal branch of government and was foremost 
in the Founders' minds. They placed Congress first in Article I 
of the Constitution. President Trump's obstruction of Congress 
is an affront to Peter Rodino, who chaired this committee in 
the summer of 1974 when Congress investigated Nixon's betrayal 
of his oath of office.
    It is also an affront to the memory of Representative 
Barbara Jordan, who as a member of this committee said she 
would not, quote, ``be an idle spectator to the diminution, the 
subversion, the destruction of the Constitution.'' And it is an 
affront to the memory of Congressman Elijah Cummings who knew 
we were better than this. And it is an affront to the many 
patriots who loved this country enough to defy the President's 
tyrannical attempt to prohibit their testimony, including 
Ambassador Yovanovitch, Ambassador Taylor, Lieutenant Colonel 
Vindman, and Dr. Fiona Hill.
    And further, it is an affront to the memory Caldwell 
Butler, a principled Republican of the Judiciary Committee in 
1974. He did not support impeachment before the hearings, but 
he listened to the evidence and that convinced him. He 
announced his vote for impeachment by saying, ``For years we 
Republicans have campaigned against corruption and misconduct, 
but Watergate is our shame.''
    His sense of right and wrong was inviolate. When his mother 
warned him that his future would go, quote, ``down the drain,'' 
unquote, he responded, ``Dear Mother, you are probably right; 
however, I feel that my loyalty to the Republican Party does 
not relieve me of the obligation that I have.'' His mother was 
wrong.
    Representative Butler served for another decade. And 
President Trump's obstruction of Congress is an affront to the 
citizens of my district, all Members of Congress, and all 
Americans who support free and fair elections. We, the people's 
House, have a duty to uphold our oath of office and to be a 
check on a President who abuses his power, betrays his oath, 
and corrupts our elections. Those who want to turn a blind eye 
to President Trump corrupting our democracy will try to get us 
to look away. We should not look away. I will not look away. I 
will remember our Founders' great plan for our great Nation and 
I will remember the rule of law. Above all, I will adhere to my 
oath of office.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back. Mr. Gohmert?
    Mr. Gohmert. This is truly a sad day for America. It is a 
sad week for America. You want to know where the Hogans and 
Butlers are? They are right here. There are people here willing 
to vote against our President, but a funny thing happened on 
the way to this hearing. We just got a report from Obama's 
inspector general, and his report confirms what we had a 
feeling was true, but we were willing to wait and hear what the 
truth was, and that is, the President, nor his campaign, 
committed any crimes. For 3 years, we have heard from people 
that are now in the majority talk about the crimes of the 
President, and where are they? Well, they kept saying, Mr. 
President, come in, you got to testify. We will be fair with 
you. Come tell us about the crimes and here is the crimes you 
have committed.
    And where are they now that we have the Articles of 
Impeachment? A vague abuse of power, obstruction of Congress. 
The very things the majority has done in preventing us from 
having the witnesses that could shed light on this, not 
opinion, but fact witnesses. We needed to hear from those 
witnesses; people like Sean Misko, Abigail Grace, Eric 
Ciaramella, Devon Archer, Joe Biden, Nellie Ohr, Alexandra 
Chalupa, and so many others. They don't want fact witnesses, 
let's hear from professors who hate Donald Trump who are 
willing to sell their education just to make a point against 
somebody they don't like.
    This is a dangerous, dangerous time in America. They talk 
about abuse of power, but they are willing to obscure evidence 
in a basement hearing over and over. They are willing to block 
witnesses from coming in here and testifying before Congress. 
They are willing to obtain and publish phone records of people. 
There are no probable cause. There is no crimes by any of these 
people, but it reminds me a lot of what happened under the Bush 
Department of Justice when we got an IG report that said, there 
were probably over 3,000 national security letters like 
subpoenas sent out on fishing expeditions.
    I was outraged. Here I am, Hogan or Butler, and I was 
talking with Senator Schumer. I was outraged like he was. The 
report said of the abuses, and I call the White House and I 
said, this is outrageous. The abuses of Americans' rights, 
somebody's got to answer for this, and we need a new Attorney 
General, and my mistake was, not demanding a new Director of 
the FBI, because Mueller stayed and he screwed it up even worse 
than it had been before.
    Yeah. Some of us stand up and call it like it is no matter 
which administration is in office and now we have heard from 
Horowitz, we have heard from Barr and Durham, all 3 years 
screaming about lies were the real lies. And at some point, I 
would think, Uh-oh, I am a Democrat. Uh-oh, the report says all 
these things we said were crimes, they didn't happen. They 
didn't exist. It was all a fabrication and, in fact, all four 
of those warrants should never have been issued.
    And I hope some of my friends across the aisle will finally 
join me in saying, let's either get rid of the FISA courts, or 
figure out a way to make them better because they are so 
abusive and they have been. And my party didn't want to fix it; 
their party doesn't want to fix it. It needs to be fixed.
    Let me just say, I came in here, I did not want to get 
emotional, and I have sat through trials that were hard to sit 
through, but nothing like sitting this week in this committee 
hearing. Indeed, like Jefferson, I tremble that God is just and 
his justice won't sleep forever, but the abuses, the 
obstruction of Congress, have come from Congress. I would have 
expected Donald Trump to just say, You came after me, my 
business associates, my family now. I am going back and I am 
going to make billions of dollars, the heck with you guys, but 
he has hung in there. It is amazing.
    At some point, the majority has got to say--they probably 
won't--we are really sorry. There was nothing on which to base 
all those allegations of crimes on and we owe you indeed 
apology. Let's see the Hogans and Butlers in the Democratic 
Party. Hadn't seen one yet.
    Yield back.
    Chairman Nadler. The gentleman yields back. Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman. Until this 
investigation began, I did not support impeaching President 
Trump and I would like to tell you all what changed my mind. 
America first. We have heard those words a lot recently. We 
haven't always agreed on what they mean, but we know this: Our 
Founders created impeachment so that no President could place 
himself above the law.
    Impeachment gives Congress the ability and the 
responsibility to put America first. I don't take that 
responsibility lightly. While I didn't vote for President 
Trump, I respect the office that he holds. I didn't call for 
impeachment when the President shut down our government or 
tried to rip healthcare from those with preexisting conditions, 
or embarrassed us on the world stage, or pardoned political 
cronies, or took money from our troops to fund his wall, or 
tore babies from their mothers at the border.
    I didn't call for his impeachment then, not because I 
supported this President's actions, I simply felt that 
impeachment should be reserved for moments when our democracy 
itself is in danger. When the sign says, in case of emergency, 
break glass, there better be one heck of an emergency.
    I did not call for impeachment before, but I call for 
impeachment today because this is one heck of an emergency. The 
facts are clear: President Trump undermined America's foreign 
policy to pursue what his own national security staff called a 
domestic, political errand. He withheld military aid, putting 
America's national security at risk in what his hand-picked 
ambassador called a quid pro quo.
    President Trump didn't just abuse his power with Ukraine, 
he made them an offer they could not refuse--help me get re-
elected, or you won't get the assistance you desperately need 
from the United States of America.
    And then he tried to cover it up, but fortunately, we the 
people, are not as dumb as President Trump thinks we are. If 
you break the law and withhold documents, we know it is not 
because those documents make you look good, maybe that is why 
more Americans support impeachment now than at any time since 
Richard Nixon's final weeks, or maybe it is because the 
American people understand how much is at stake.
    President Trump's high crimes threaten our democracy 
itself. I am a black man representing Georgia, born when Jim 
Crow was alive and well. To me, the idea that elections can be 
undermined is not theoretical. I have constituents who remember 
what it is like to live in a democracy in name only and they 
can tell you what it is like when powerful men undermine fair 
and free elections.
    They know our Democratic process is fragile. We are here 
because President Trump tried to sabotage that Democratic 
process. He didn't want to let the voters decide. He decided to 
cheat in the upcoming election and he got caught. Let me remind 
my colleagues there is no such thing as attempted cheating. If 
a child copies off a test and a teacher catches them in the 
act, it is not okay just because that child didn't get away 
with it. The cheater got caught, and President Trump got 
caught.
    We know there was a conspiracy, a crime, and a cover-up. 
There is only one thing we don't know, what will Congress do 
about it? Will we hold the President accountable, or will we 
serve as his accomplices? We are not voting on whether 
President Trump should remain in office. That is the Senate's 
job. Our job today is simply to decide whether the President 
crossed a line. If you truly believe President Trump's behavior 
was acceptable, then by all means give him the green light to 
undermine our democracy again. But if you know what the 
American people know, that this moment is different, and our 
very republic is at stake, then it is not too late. Put the law 
above the President, put your oath above your political 
ambition, put the country we all love above the interest of 
just one man. Put America first.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Jordan.
    Mr. Jordan. They are never going to stop. Congressman Green 
said yesterday if the Senate doesn't convict, it will not end. 
This is not about Ukraine. Facts are on the President's side. 
Zelensky said he wasn't pressured. Ukrainians didn't even know 
aid was held at the time of the call, and, most importantly, 
they did nothing to get the aid released. This is about one 
basic fact: The Democrats have never accepted the will of the 
American people. Three weeks ago, Nancy Pelosi called the 
President of the United States an imposter and the attacks on 
the President started before the election.
    July 31, 2016, the FBI opened the Trump-Russia 
investigation and spied on four American citizens associated 
with President Trump's campaign. They took the dossier to the 
FISA court and they lied to the court 17 times. Didn't tell the 
court the guy who wrote the dossier was desperate to stop 
Trump, didn't tell the court the guy who wrote the dossier was 
working for the Clinton campaign, didn't tell the court that 
the guy who wrote the dossier had been fired by the FBI for 
leaking information to the press. And the FBI continued the 
investigation after the election.
    Mr. Jordan. On January 3, 2017, Senator Schumer said this: 
If you mess with the intelligence community, they have six ways 
from Sunday of getting back at you.
    It took all of 3 days for that statement to come true. 
January 6, at Trump Tower, Jim Comey briefs President-elect 
Trump on the dossier, the dossier that the FBI already knew was 
false. They do it so that they can leak it to the press and the 
press will write about the fact they briefed him.
    The President was told he wasn't under investigation when, 
in fact, they were investigating him and trying to trap him at 
that meeting.
    And, of course, they continued their investigation after 
the inauguration. When we deposed Jim Comey in this committee, 
last Congress, he said after 10 months of the FBI's 
investigation they didn't have a thing.
    Comey gets fired on May 9, 2017. Eight days later, Bob 
Mueller gets hired and we get 2 years of the Mueller 
investigation--19 lawyers, 40 agents, 500 warrants, 2,800 
subpoenas, but zero collusion.
    But Democrats don't care about the facts, and they are 
never going to stop. The whistleblower's lawyer said 10 days 
after the President was sworn in: Coup has started, impeachment 
to follow. Sixteen Democrats on this committee voted to move 
forward with impeachment before Bob Mueller ever sat in front 
of this committee and testified, before President Trump and 
President Zelensky ever had their call.
    They are never going to stop with their attacks because 
they can't stand the fact that President Trump is actually 
draining the swamp and doing what he said he would do, and most 
importantly, getting results: taxes cut, regulations reduced, 
economy growing at an unbelievable pace, lowest unemployment in 
50 years, Gorsuch and Kavanaugh on the Court, out of the Iran 
deal, embassy in Jerusalem, hostages home from North Korea, 
and, oh, by the way a new NAFTA agreement coming any day now.
    They can't stand it, and they are never going to stop. And 
it is not just because they don't like the President. It is not 
just because they don't like the President. They don't like us. 
They don't like the 63 million people who voted for this 
President, all of us in flyover country, all of us common folk 
in Ohio, Wisconsin, Tennessee, and Texas. They don't like us.
    How about what Ms. Karlan said last week sitting right 
there, a Democrat professor who came in here and told us what 
she believes: Liberals tend to cluster; conservatives spread 
out because they don't even want to be around themselves.
    How about our colleague, Maxine Waters, June of 2018, when 
she said this: And if you see anybody from that Cabinet in a 
restaurant, in a department store, at a gasoline station, you 
get out and you create a crowd and you push back on them and 
you tell them they are not welcome anymore, anywhere. That is 
scary.
    How about Peter Strzok, the guy who ran the Clinton 
investigation, the guy who ran the Trump-Russia investigation, 
the deputy head of counterintelligence who was fired when he 
said this: Went to a southern Virginia Wal-Mart. I can smell 
the Trump support.
    They don't like us. That is what this is about. They don't 
like the President. They don't like the President's supporters. 
And they dislike us so much they are willing to weaponize the 
government. A few years ago it was the IRS. More recently, it 
was the FBI. And now it is the impeachment power of Congress, 
going after 63 million people and the guy we put in the White 
House.
    Think about what Chairman Schiff did last week. He released 
the phone records of the President's personal lawyer, he 
released the phone records of a member of the press, and he 
released the phone records of a Republican Member of Congress.
    This is scary stuff. This is scary stuff, what they are 
doing. And, frankly, it is dangerous for our country. It is not 
healthy for our country.
    And we should all remember what Emmet Flood told us, the 
President's lawyer, what he told us this past spring when the 
Mueller report first came out: It would be well to remember 
that what can be done to a President can be done to any of us.
    This is scary stuff and serious stuff, and I hope you guys 
will reconsider and stop it while you can.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Deutch.
    Mr. Deutch. I have been worried about the impact of 
President Trump's attacks against our democracy and how they 
are felt by my kids, and how they are felt by our kids, by a 
younger generation that is just beginning to vote, that is just 
beginning to lead.
    And so I asked my kids on our family group text what they 
thought at this moment. And they responded almost immediately, 
and they told me what they were feeling and what their friends 
were feeling. And they confirmed the worst: Their faith in our 
democracy is shaken.
    One of my kids said: Trump has made me feel like our 
country is failing. He has taken away America's common sense. 
Another said: If our democracy is fragile enough to be 
manipulated by the President, then I worry for our future as a 
country.
    Why is our democracy so fragile? Well, the President smears 
the press as the enemy of the people. He attacks verifiable 
facts and calls them fake news. He attacks his opponents in the 
ugliest and the most hateful ways. He degrades diplomats and he 
lashes out at law enforcement. He questions the patriotism of 
those who have bled on our battlefields.
    He questions America's leadership in the world. He believes 
Russia over our intelligence community, Russia over our NATO 
allies, Russia over Ukraine.
    All these things break long-held American positions of 
leadership in the world, and they will all be a part of the 
next election. But we are here at this moment to protect that 
election.
    The President's ongoing attacks on the 2020 elections and 
his effort to cover it up, that is why we are here tonight, the 
President's abuses of power to cheat America's voters and 
threaten our national security. He welcomed Russian 
interference in the 2016 election. He solicited interference by 
Ukraine and by China in our 2020 election.
    The ongoing pattern of this President's abuse of power, his 
obstruction of investigations, refusing to turn over even one 
document, that is what requires us to act now.
    This is a moment that the President has forced upon us. 
These are the high crimes that violate the supreme law of our 
Nation, the Constitution of the United States.
    When my kids were younger we taught them to tell the truth. 
We all teach our kids to tell the truth. If you have got 
nothing to hide, honesty is the clearest path to putting 
trouble behind you. You know that is true. Everyone does.
    If the President had not abused his power, if everything he 
did was truly perfect, he would have asked--no, he would have 
demanded that everyone who works for him come forward and tell 
the truth and bring all of their documents with them, let them 
speak, let them all speak.
    But instead of ordering his staff to tell the truth, he 
silenced them. What message does that send the next generation 
of American voters, the next generation of American leaders? 
The President violated his oath of office to defend and protect 
the Constitution.
    We cannot allow our children to believe that the abuse of 
power by the strongest leader in our country is acceptable or 
that it is normal.
    Yesterday, my daughter sent another text. She said: It 
feels like we are losing the battle to get people to care about 
democracy. I am worried we won't be able to fix it.
    President Trump's violations threaten to break the 
foundation of our democracy. Impeachment, and removal from 
office, is the only way to fix it.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Gohmert. Point of order.
    Chairman Nadler. The gentleman will state his point of 
order.
    Mr. Gohmert. We started this proceeding tonight, and we on 
the minority side do not have the current amendment in the 
nature of a substitute to H. Res. 755, because the one we have 
says the abuse of power is Article I and the other is 
obstruction of Congress.
    Chairman Nadler. The gentleman----
    Mr. Gohmert. And we keep hearing about crimes.
    Chairman Nadler. The gentleman----
    Mr. Gohmert. We should be able to have the amendment that 
includes the crimes you are talking about.
    Chairman Nadler. The gentleman will suspend. That is not a 
point of order.
    Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    How will history judge this impeachment? I believe the 
American people will remember this impeachment effort unkindly, 
instead remembering Democrats have been resisting and looking 
for an excuse to impeach this President since the day he was 
elected.
    There were false charges that pro-Trump Russians had shut 
down the power grids in Vermont. A frivolous lawsuit was filed 
claiming voting machines were rigged in three States. More than 
50 House Democrats boycotted President Trump's swearing-in 
ceremony, including the chairman of this committee.
    The Washington Post ran an article titled, ``The Campaign 
to Impeach President Trump Has Begun,'' on January 17, 2017. 
Strangely enough, the article was posted at 12:19 p.m. while 
the inaugural ceremonies were still happening. The ACLU's 
executive director stated, ``We think that President Trump will 
be in violation of the Constitution and Federal statutes on day 
one.''
    Then the genre of assassination and personal harm began 
with Kathy Griffin posing with a model of Trump's severed head. 
And actor Robert De Niro using his Tony Award's speech to say: 
Eff Trump. I would like to punch him in the face.
    Then came the efforts to impeach based on the Emoluments 
Clause and calls to remove President Trump under the 25th 
amendment due to insanity. Then bureaucrats and President 
Obama's holdover appointees began to run roughshod on the 
Constitution by resisting from within the administration.
    On March 21, 2017, Representative Maxine Waters tweeted, 
``Get ready for impeachment.'' March 21, 2017.
    On May 16, 2017, a Representative from this committee 
became the second Member of the House to raise the topic of 
future impeachment proceedings.
    Representatives Brad Sherman and Al Green introduced the 
Democrats' first impeachment resolution for obstruction of 
justice and Russian interference in July of 2017.
    Representative Cohen, then the ranking member on the 
Subcommittee on the Constitution and Civil Justice, introduced 
five Articles of Impeachment against President Trump in 
November of 2017. Representative Tlaib said, ``We are going to 
impeach the blank,'' during a January 3, 2019, swearing-in 
ceremony.
    What about May 6, 2019, when Representative Al Green said: 
I am concerned that if we don't impeach this President, he will 
get reelected.
    Then Democrats cannot let go of the Russian collusion 
story, even after Special Counsel Robert Mueller stated in his 
report that the Trump campaign did not coordinate with Russia.
    In fact, when Representative Green forced a vote, 95 
colleagues of ours voted in favor of proceeding to impeachment 
on July 17, 2019. Sixteen of our Democratic colleagues on this 
committee voted for that.
    It is clear that my Democrat colleagues have prejudged this 
case. They have ignored the President's right to assert 
executive privilege, asserting that a court case to determine 
the bounds of the President's privilege will take too long to 
serve justice to the American people.
    Democrats are so righteous in their belief that President 
Trump must be impeached that they ignore plain facts.
    Professor Turley was right when he said this impeachment, 
quote, ``will be the shortest investigation, producing the 
thinnest record of wrongdoing, for the narrowest impeachment in 
history,'' end of quote.
    At the end of the day, I want to invoke the words of my 
colleague from the Rules Committee, Congressman Alcee Hastings, 
who said during one debate with the majority's efforts--that 
the majority's efforts would backfire. He said: ``You will 
lose. This will cost you the majority next year, and some of 
you aren't going to be here in the next Congress. I hope you 
have had your fun.''
    Well, I tell my colleagues, go ahead, vote to impeach 
President Trump tomorrow. But when you walk out of this hearing 
room, call your freshman colleagues and tell them they are not 
coming back and you hope they have had their fun. Say goodbye 
to your majority status. And please join us in January of 2021 
when President Trump is inaugurated again.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Bass.
    Ms. Bass. Mr. Chairman, this is a sad day in U.S. history 
when we have to vote on Articles of Impeachment because Donald 
Trump has abused the power of the Office of the Presidency in 
his attempt to cheat his way to reelection.
    This evening we will begin the process because of the 
uncontested facts. President Trump directed military aid 
approved by Congress be withheld until a vulnerable ally 
publicly announced an investigation of the President's top 
opponent in the upcoming election.
    Fortunately, he was caught in the act by a brave patriot 
who took the risk of anonymously reporting, and military 
assistance was finally released. However, during the 8 weeks 
that President Trump withheld military aid from our ally, at 
least 13 Ukrainians died in the field.
    Now, I know Ukraine is far away and it might be difficult 
to imagine how and why this country should be of any concern to 
us here. In part, it is a matter of us honoring our 
commitments.
    But it is more than that. When countries are unstable, they 
can collapse, become failed states, and can be taken over by 
governments hostile to the U.S. or become fertile ground for 
terrorist organizations.
    The President comprised our national security for his 
personal gain when military assistance was withheld from 
Ukraine that left this country vulnerable to a neighbor that 
had already invaded its territory.
    As a member of the Foreign Affairs Committee, I regularly 
meet with heads of state, and I often have to apologize for 
some embarrassing statement or tweet the President has made.
    Since the Ukraine scandal, I have faced questions from 
leaders around the world. They ask: What is going on here? 
Where does the U.S. stand in regard to past commitments? Is 
this Presidency just an anomaly, or has the U.S. Presidency 
been permanently diminished, weakened, corrupted? Has something 
fundamentally changed in the U.S.?
    The world is watching how we handle this crisis. There are 
many nations attempting to reestablish or create democratic 
governments after decades of autocratic or corrupt rule, and 
they are looking to the United States.
    When Members of Congress travel on congressional 
delegations, we emphasize the importance of adhering to the 
rule of law. We encourage leaders to conduct free, fair, and 
transparent elections that are supported by and accountable to 
their citizens.
    Now, Members of Congress have to acknowledge the challenges 
we face in our country, but we explain that because of the U.S. 
Constitution and Bill of Rights, when efforts are made to 
restrict and limit the right to vote, we are free to speak out 
and challenge our government. We preach good governance and 
transparency. We insist that countries fight corruption.
    And one of the best ways to counter abuse is to encourage 
people to come forward and report, but to ensure that when 
people do come forward they are protected and remain anonymous. 
We explain that in the U.S. there are specific laws that 
protect people who come forward.
    Congressional delegations come and go, but there are 
thousands of Federal employees who live and work around the 
world from the State Department, USAID. These patriots work in 
difficult conditions.
    What message does it send around the world when they see 
the President and his supporters attack and attempt to reveal 
the identity of the patriot who took the risk that exposed 
Trump's abuse of his Presidency, his abuse of power?
    What message does it send when the world witnesses the 
President and his supporters denigrate, disrespect, and via 
Twitter harass a patriot while she was testifying in public?
    He has compromised their ability to fight for our values 
and democracy. This is another example of why the actions of 
this President threatens U.S. national security.
    The President's defenders shout, coup, hoax, and 
demonstrate their 150 percent loyalty to the President while 
off the record acknowledge his wrongdoing. People from around 
the world understand this as autocratic behavior. They know if 
they step out of line they might lose their lives, or in this 
instance, they might lose their election.
    The President has forbidden everyone in the administration 
from cooperating even when subpoenaed, leaving the only tool 
available to us impeachment.
    This is not a coup, and it is irresponsible to label a 
constitutional process a coup. It is the responsibility of this 
committee to follow the Constitution.
    The world is waiting to see if we will hold ourselves to 
the democratic principles we insist that others uphold. Will we 
demonstrate our ability to peacefully hold our leaders 
accountable?
    We have an opportunity to show the world how a mature 
democracy handles a crisis. We have an opportunity to show the 
world that our democracy remains strong and it is this 
President that is an anomaly. We have an opportunity to 
demonstrate to the world and in the United States no one is 
above the law, including President Trump.
    This is why we must adopt Articles of Impeachment and take 
the first step toward relieving our Nation and the world of 
this Presidency.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Ratcliffe.
    Mr. Ratcliffe. I thank the chair.
    Article I, section 2, clause 5 of the Constitution gives 
the House of Representatives the sole power of impeachment. The 
Constitution authorizes impeachment only on the basis of 
treason, bribery, or other high crimes and misdemeanors. That 
is the express criteria. Those are the only constitutional 
grounds we have to act upon.
    Today we are marking up two Articles of Impeachment, abuse 
of power and obstruction of Congress. Nowhere does the 
Constitution mention either one. Neither meets the written 
criteria set forth by the Founders. Neither one has ever been 
sustained as the basis for impeachment.
    Which explains why I had two Members of Congress, one 
Republican and one Democrat, approach me on the floor yesterday 
to ask me exactly what obstruction of Congress means. They 
asked because they had never heard of it before.
    We are marking up Articles of Impeachment for offenses that 
aren't crimes, that some Members of Congress have never heard 
of before, much less know what it means.
    The Democrats keep repeating over and over again: The 
President is not above the law. I have said it before, the 
President is not above the law, but he damn sure shouldn't be 
below it either. I have said it before because Democrats have 
tried this before.
    During the Mueller hearing Democrats said repeatedly, 
emphatically, unequivocally that Donald Trump must be impeached 
for obstruction of justice. That was until they heard the 
special counsel admit to me that his obstruction of justice 
analysis was done under a one-of-a-kind, never before used by 
the Department of Justice legal standard that inverted a 
presumption of innocence to a presumption of guilt.
    Now the Democrats are taking it one step further. Instead 
of creating legal standards out of thin air, they are creating 
impeachable offenses out of thin air. Whatever happened to quid 
pro quo, extortion, and bribery? The Democrats have been 
telling us, it was clear, the facts were undisputed, the 
evidence was overwhelming. Except it wasn't any of those things 
and now it is all gone.
    Instead they have reached in to the grab bag for a nebulous 
abuse of power accusation that legal scholars admit is not a 
crime.
    And now Democrats say the President obstructed Congress in 
its investigation into an alleged quid pro quo extortion 
bribery scheme that they now have to concede never existed in 
the first place.
    Gee, where have I heard that before? I remember, it was 
when my same colleagues across the aisle first falsely accused 
the President of collusion and conspiracy with Russia. And when 
that fell apart, they accused him of obstructing justice into 
their investigation of false conspiracy and collusion 
allegations.
    Every time Democrats get caught trying to frame this 
President with some crime he didn't commit, they follow up by 
accusing him of obstructing their efforts to frame him for the 
things that he never did in the first place.
    I would like to say you can't make this stuff up, but it is 
all made up.
    I have got to concede, though, to my colleagues, you all 
move fast. The day after we watched the Russian conspiracy and 
obstruction of justice claims from the special counsel go down 
like the Hindenberg, the next frame job started with a phone 
call where the only two people on the call both said it was a 
great call and none of the things that the Democrats allege 
happened.
    But I will admit, this time it is hard to blame some of my 
colleagues on this committee for doing too much this time 
around. I concede that because the once-respected House 
Judiciary Committee with jurisdiction over the Constitution and 
impeachment was humiliatingly excluded until the bitter end 
from participating at all in matters involving the Constitution 
and impeachment.
    One week. History will reflect that the House Judiciary 
Committee's involvement in the impeachment of President Donald 
J. Trump started with a hearing on Wednesday, December 4, and 
ended with a markup that started 7 days later on Wednesday, 
December 11. How does that sound for fairness? How does that 
sound for due process?
    The Founders warned and feared that today might come. 
Alexander Hamilton said the greatest danger of impeachment 
would be depriving a President of due process. The greatest 
danger, Hamilton said, would be if impeachment was used 
politically by a party that had the most votes in the House 
instead of being used on the basis of guilt or innocence for 
specified crimes under the Constitution.
    And today the committee of jurisdiction, after only 1 week, 
is marking up a bill to impeach a President for crimes that 
aren't specified under the Constitution by the party that has 
the most votes in the House and pledged to impeach him from the 
first day of his Presidency. Today's Democrats are the 
Founders' worst nightmare come true.
    Right now, I imagine most Americans are thinking: If only 
we could impeach them. To those Americans, I say: You can, next 
November.
    Chairman Nadler. The gentleman's time has expired.
    Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman.
    President Trump, on January 20, 2017, you raised your hand 
and swore to preserve, protect, and defend the Constitution. 
Now we must preserve, protect, and defend the Constitution from 
you.
    Donald Trump once bragged he could shoot someone on 5th 
Avenue and get away with it. Well, he is shooting holes in our 
Constitution on Pennsylvania Avenue. We can't let him get away 
with it.
    The Constitution was written and signed over 232 years ago. 
Since then, we have elected 45 Presidents. In all that time 
only four occasions has the House of Representatives considered 
Articles of Impeachment. So I do not take this lightly. I take 
it seriously. I take it very, very seriously.
    I have heard Republicans say: Why are we rushing to 
judgment? This is not a rush to judgment. It is a rush to 
justice. And we must not delay. Corruption is corrosive. It 
eats away like acid. And the longer we wait the more time we 
allow for this President to do irreparable damage to our 
country and our democracy.
    My Lord, just last week the President's political crony, 
Rudy Giuliani, was back at it in Ukraine--Ukraine--continuing 
to create new conspiracy theories. So, please, don't tell us to 
wait, because the corruption continues.
    In trying times like this, many people in this room look 
for guidance in Scripture. Look no further than the story of 
Esther. Esther summoned the courage to stand up to the king and 
speak truth to power. Under threat of execution, she refused to 
hide, saying: ``If I parish, I parish.'' She was willing to 
lose her life to save her people, and some people in this room 
aren't willing to lose an election to save our democracy.
    The truth is staring us in our face. President Trump sent 
roughly $250 million in military aid to Ukraine in 2017. No 
problem. He sent nearly $300 million in military aid in 2018. 
No problem. So what was the problem in 2019? He was behind in 
the polls to Joe Biden. Even FOX News polls showed he was 
losing. He panicked and he concocted this outlandish, corrupt 
conspiracy.
    He withheld congressionally approved military aid for 
Ukraine until Ukraine agreed to do him a personal favor, and 
that personal favor was to announce a bogus investigation 
against the very person beating him in the polls.
    You don't need Sherlock Holmes to figure this one out. We 
have the evidence. The transcript of the call is a crystal 
clear confession.
    His chief of staff, co-conspirator admitted to it in the 
White House press briefing room. We have hours of testimony 
from State Department witnesses, confessions, admissions, 
witnesses, video. We have everything but DNA. What else do you 
need? You need the courage of Esther.
    The Constitution does vest the President with certain 
powers, but not the power to lie, not the power to obstruct, 
not the power to cheat our democracy, not the power to threaten 
our national security.
    There is no question that the President has abused his 
power. If we allow this, look the other way, say it is just 
politics, what are we telling other nations about the rule of 
law? What are we saying about our democracy? What are we 
showing our children if we cower to a bully with a bully 
pulpit?
    During the darkest days of the revolution, Thomas Paine 
wrote: ``These are the times that try men's souls. The summer 
soldier and the sunshine patriot will, in this crisis, shrink 
from the service of their country.''
    To my Republican colleagues, fighting when it is 
comfortable is easy. Running and hiding is easy. But it doesn't 
leave a legacy. How do you want to be remembered during this 
watershed moment in our Nation's history? I ask my Republican 
colleagues, will you stand with President Trump and allow your 
legacy to be tied to his actions? If the tables were turned, do 
you think he would stand with you?
    And let me conclude by reminding the members of this 
committee, on both sides of the aisle, we each took an oath as 
well. We solemnly swore that when the time came we would, and I 
quote, support and defend the Constitution of the United States 
against all enemies, foreign and domestic; that we would bear 
true faith and allegiance to the same; and that we take this 
obligation freely, without any mental reservation or purpose of 
evasion.
    Members of this committee, Members of this House, that time 
has come. The time has come to be the winter soldier. The time 
has come to show the courage of Esther.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mrs. Roby.
    Mrs. Roby. I have made clear how woefully incomplete this 
process has been, how the minority's rights to a hearing have 
been completely disregarded, how no fact witnesses were called 
before us, and how staff questioning staff to get the truth was 
bizarre.
    No matter what any member on this side says here tonight, 
the majority will unanimously vote to send these Articles of 
Impeachment to the House floor. However, I have a duty to 
continue to point out how flawed this process has been.
    All Members of Congress are required to take an oath of 
office at the beginning of every Congress. By taking this oath 
we swear above all else to defend the Constitution of the 
United States.
    I have the distinct honor to represent the hardworking 
people of southeast Alabama. They have placed their trust in me 
to represent their values and be their voice here in Congress.
    This revered and longstanding oath serves as a guiding 
principle for every decision I make as a Member of Congress.
    For the record, let me be clear: I believe in the rule of 
law. I believe that no person is above the law. I believe 
process is vital to this very institution. I have stated time 
and time again before this committee, process matters. Without 
abiding by a framework that adheres to our constitution, we are 
charting a course that does not follow our country's founding 
principles.
    Whether you identify as a Republican, a Democrat, or 
independent, whether you agree or disagree with the President's 
policies, whether you like or even dislike a President, the 
American people should feel cheated by what has taken place 
here.
    We sit here tonight without all the facts of the case 
because the majority decided to conduct an incomplete and 
inadequate pursuit of the truth. Many questions remain.
    With the consequential decision of impeaching a President, 
it is our right and duty to the citizens of this country to 
properly use the powers of congressional oversight to 
adjudicate impasses through the courts and arrive at actual 
undisputed facts of a case that all Americans, regardless of 
ideology, can agree are truthful and honest.
    In the impeachment proceedings of President Nixon, the 
underlying facts were undisputed. In the impeachment 
proceedings of President Clinton, the underlying facts were 
also undisputed.
    Here before us tonight that is not the case. The Articles 
of Impeachment before us in this committee do not meet the 
necessary requirements nor have they followed an exhaustive 
pursuit to even find out all of the facts of the case. 
Therefore, the bar to impeach a sitting President of the United 
States has not been met.
    For the sake of our country and for the future trajectory 
of this body, I implore my colleagues to take a hard look at 
the course of this investigation. It has severely discounted 
the tenets of our democratic system.
    Tomorrow we write history, a history that cannot be undone. 
A dangerous precedent will be set for future majorities of this 
body.
    The American people deserve a process that puts politics 
aside. The American people deserve a process that is led by our 
promise to protect and defend the Constitution. The American 
people simply deserve better.
    And with that, Mr. Chairman, I would like to yield the 
remainder of my time to Mr. Collins.
    Mr. Collins. Thank you for yielding.
    I just want to repeat. We are in an interesting situation. 
We can make up facts or we can not make up facts. But there is 
one fact that needs to be refuted, and that is the idea that 
lives were lost during the pause.
    And Under Secretary Hale testified that funds were 
prospective in this. In fact, on page 85 of his testimony, he 
said: Bear this in mind, this is future assistance. This is not 
to keep the Army going now. It is to help them in the future.
    And so to be careless with the facts on primetime, to say 
that people's lives were lost in this, is just categorically 
wrong. If we actually had a chance to actually go to lessons of 
the testimony, we would actually see that in the testimony of 
Under Secretary Hale as we go forward.
    Again, it is amazing to me, some people are saying you 
don't attack the substance. We attack the substance. It is real 
simple. They got the aid. They didn't do anything to get it. 
And we are attacking the fact that there is no way for us to 
even have talked about this because this process has been such 
a rushed process.
    But that is something that is just not right to say, and 
when no one else can check it, when actually Professor Hale 
said it, and he said that was prospective, not now. Those were 
not losing any lives on money that was not yet there.
    So with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Jeffries.
    Mr. Jeffries. George Washington in his farewell address to 
the Nation counseled America that the Constitution is sacredly 
obligatory upon all. It is in that spirit that we proceed 
today.
    The impeachment of a President is a solemn responsibility 
that we undertake prayerfully. Scripture says in the Book of 
Psalms: ``For the Lord loves justice and will not abandon his 
faithful ones.'' We undertake this responsibility prayerfully.
    We do not take this step to divide, though some will 
cynically argue that the impeachment of this President will 
further divide an already fractured Union. But there is a 
difference between division and clarification.
    Slavery once divided the Nation, but emancipators rose up 
to clarify that all men are created equally.
    Suffrage once divided the Nation, but women rose up to 
clarify that all voices must be heard in our democracy.
    Jim Crow once divided the Nation, but civil rights 
champions rose up to clarify that all are entitled to equal 
protection under the law.
    We do not take this step to divide. And at this moment, 
this committee can rise up to clarify that under the 
Constitution, here in America, no one is above the law.
    There are some who have asked: Why should it matter that 
Donald Trump pressured a foreign government to target an 
American citizen for political gain and at the same time 
withheld, without justification, $391 million in military aid 
from a vulnerable Ukraine that remains at war with Russian-
backed separatists in the east? Why should it matter?
    Perhaps Ronald Reagan posited the best answer when he 
delivered a speech at the foot of the Berlin Wall in 1987 and 
stated: ``East and West do not mistrust each other because we 
are armed. We are armed because we mistrust each other. And our 
differences are not about weapons, but about liberty.'' That is 
at the heart of the Trump-Ukraine scandal: liberty, national 
security, abuse of power.
    America is the leader of the free world. We play that role 
because it is in the best interest of the national security of 
the United States. We play that role because we believe in 
liberty and justice for all. We play that role because freedom 
is in our DNA, freedom from oppression, freedom from tyranny, 
freedom from abuse of power. Freedom is in our DNA.
    What role should this committee play in defending freedom? 
The House is a separate and coequal branch of government. We 
don't work for this President or any President. We work for the 
American people.
    We have a constitutional responsibility to serve as a check 
and balance on an out-of-control executive branch. That is not 
the Democratic Party playbook. That is the playbook in a 
democratic republic.
    James Madison once wrote in Federalist 51 that the House 
should serve as a rival to the executive branch. Why would 
Madison use the word ``rival''? It is because the Framers of 
the Constitution did not want a king, they did not want a 
monarch, they did not want a dictator. They wanted a democracy.
    The House Judiciary Committee must defend our democracy 
because in America no one is above the law, not even the 
President of the United States.
    We must hold this President accountable for his stunning 
abuse of power. We must hold this President accountable for 
undermining America's national security. We must hold this 
President accountable for corrupting our democracy. We must 
impeach this President.
    We can't stop. We won't stop. The Constitution is sacredly 
obligatory upon all.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Gaetz.
    Mr. Gaetz. House Democrats aren't clarifying that no one is 
above the law. They are just clarifying that none of them are 
above partisanship and politics.
    This is the quickest, thinnest, weakest, most partisan 
impeachment in all of American Presidential history. And for 
all the radical left's attacks on the President's honesty, it 
is their lies that continue to fuel this scorched-earth 
strategy of impeachment.
    When a member of this committee said that President Trump 
was an agent of the Russian Government engaged in a criminal 
conspiracy with the Russians, he lied. Needing a new way to 
undermine our President, the Democrats said he obstructed 
justice. But they couldn't make the case, they didn't have the 
facts, and there are no obstruction of justice articles in this 
impeachment.
    So needing another new distraction Chairman Schiff 
announced a whistleblower. He said we would hear from this 
person about bad Presidential conduct. Some in the media 
reported on the whistleblower, raising serious concerns about 
political bias and proper motivation and scandalous 
coordination with a political hit job aligned with none other 
than the operatives of Chairman Adam Schiff.
    With public opinion turning against impeachment, the 
Democrats scurried to assemble focus groups and commission 
polls. They learned that accusing the President of bribery 
would be good politics.
    While Democrat House Members are willing to follow the 
pundits and consultants, the evidence and the witnesses were 
not. Even their seemingly most anti-Trump witness, Lieutenant 
Colonel Vindman, said: I was never involved in anything that I 
would consider bribery or extortion. Lo and behold, there are 
now no bribery articles in this impeachment. Another lie.
    But the biggest lie of all was that House Democrats would 
not put our beautiful Nation through a partisan impeachment. 
Speaker Pelosi said there must be evidence that is compelling 
and bipartisan. Chairman Nadler said impeachment should not be 
partisan. And tonight they stubbornly defy the standard that 
they set for themselves.
    Not only has this weak case failed to convince the 
President's supporters to abandon him, they can't even convince 
the President's congressional critics to go along with this 
sham. Democrats Jeff Van Drew and Collin Peterson don't support 
the President, but they don't support this hot garbage 
impeachment either.
    Congressman Will Hurd is a critic of the President, and he 
told you the truth: This is not impeachable.
    After years of pointless and endless investigations against 
the President, this witch hunt is no longer simply troublesome. 
It has become deeply and excruciatingly tiresome. It is time to 
move on. The American people hate this, and it is making some 
of them hate us.
    This is nothing more than the sloppy, straight-to-DVD 
Ukrainian sequel to the failed Russia hoax. If it seems like 
you have seen this movie before, it is because you have.
    And we know how the cycle goes. Last night CNN or MSNBC's 
promised smoking gun turns into today's disappointing nothing-
burger. It is like Democrats forgot they are trying to impeach 
President Trump for delivering military aid that President 
Obama himself withheld.
    And so now with no crime, no victim, House Democrats 
impeach because they have no agenda for America.
    Impeachment has become reflexive for Democrats. It is what 
they have wanted all along. Impeachment is their passion, their 
drug, their all-consuming ambition and obsession. It has been 
since the moment they stopped crying at the Hillary Clinton 
election night sob-fest.
    They say President Trump abused his power--a sad, low-
energy placeholder for an actual impeachable offense. President 
Trump's true crime in their eyes was winning the 2016 election 
against all odds and against the establishment of both parties.
    The only relevant quid pro quo is the American people's 
decision to send President Trump to the White House in exchange 
for Trump's commitment to support our workers, restore our 
economy, defend our troops, and drain the swamp.
    How dare they accuse President Trump of abusing his power 
when they have released the phone records of journalists and 
Congressmen, contrived a kangaroo court, and subjected this 
administration to more harassment than any other in American 
history? They are the sorest of sore losers.
    The second article accuses President Trump of obstructing 
Congress? If obstruction in Congress is an impeachable offense, 
maybe we best impeach ourselves, for this fact-free impeachment 
has obstructed progress on a budget, on border security, on an 
infrastructure plan, and on economic reforms that will put 
America and the American people first.
    The American people know what this is really about. It is 
not about Ukraine. It is not about Russia. It is not about the 
Democrats nosiness into the executive decisionmaking process. 
It is about the election.
    And so to the America First movement: We will face this 
illegitimate impeachment with our heads high, our facts 
straight, and our commitment to our transformational President 
deeply intensified. We will see you on the field in 2020.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Since our Founders ratified the Constitution in 1788, the 
President of the United States has had a duty to advance our 
national interests, not his own personal or political 
interests.
    Two hundred and 20 years later a Congressman on this 
committee said, and I quote: ``This business of high crimes and 
misdemeanors goes to the question of whether or not the person 
serving as President of the United States put their own 
interests, their personal interests, ahead of public service,'' 
end quote.
    The Congressman who said that was Mike Pence and he was 
exactly right. Impeachable offenses, as Alexander Hamilton 
explained are, and I quote, ``abuses of public trust, injuries 
done to society itself,'' end quote. High crimes, in other 
words, are abuses of power committed against the people. This 
is exactly what President Trump has done.
    And yet, I have to admit, I think the President's 
distractions are working, because most folks are probably 
sitting at home thinking: What in the world has any of this got 
to do with me? How does stopping foreign aid to Ukraine 
actually affect my life?
    That is why with my time I want to take a step back and 
remind everybody in this body and everyone watching at home 
what this is really about: President Donald J. Trump wielded 
the enormous powers of the Presidency to cheat in the 2020 
election.
    Specifically, he used our Nation's leverage over an ally, 
undermining our national security, to try to smear the opponent 
he feared most in the general election. That wasn't an attack 
on Vice President Biden. It was an attack on our democracy.
    And if we don't hold the President accountable for it, we 
will set a catastrophic precedent. Any time a future President 
is afraid of losing reelection, they will feel entitled to do 
whatever it takes to win even if they have to abuse their power 
to do it.
    If we set that precedent, if we decide the President is 
above the law, then we will no longer live in a democracy. We 
will live in a dictatorship, trading the values of Madison for 
the values of Moscow.
    That is why this should matter to every single person 
watching tonight, because if the President gets away with 
trying to cheat in the 2020 election he will no longer be 
responsive to the will of the people.
    That means he could launch wars, sending young people into 
harm's way without worrying about facing repercussions at the 
ballot box. He can continue to separate children from their 
parents and lock them in cages without worrying about public 
outrage. He could take away your healthcare, pocket your tax 
dollars, do whatever he wants.
    If the President can cheat to win reelection, the people 
lose their voice, and he is no longer a President. He is a 
king.
    I am proud to represent the great State of Rhode Island, 
the very first State, that said enough to King George III. And 
once again, I am here on behalf of my State to say enough. In 
America we don't bow to the President, because he works for us, 
we the people.
    But here is the thing: The people don't vote on 
impeachment. Congress does.
    So before I close, I want to speak directly to my 
Republican friends: Wake up. Stop thinking about running for 
reelection. Stop worrying about being primaried. Stop 
deflecting and distracting and treating those you represent as 
if they don't see what is going on, like they are not smart 
enough to realize that you are willfully ignoring the facts to 
protect a corrupt and dangerous President.
    Do what you were elected to do. You didn't swear an oath to 
Donald Trump. You swore an oath to protect and defend the 
Constitution of the United States. Honor that oath. Reach deep 
within yourselves to find the courage to do what the evidence 
requires and the Constitution demands: to put our country above 
your party.
    All you have to do is look at the evidence before you, 
because it will leave you with only one answer: This President 
must be impeached. For our democracy, for our Constitution, for 
the people you represent, and for all that will inherit our 
country from us, I pray you will do the right thing. And 
despite everything that has happened these past few months, I 
still have hope in my heart that you will.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman.
    I appreciate that, Mr. Cicilline. And I was going to make a 
request of my colleagues and friends on the other side as well 
to put country over party also. We are looking at this same set 
of facts with two totally different ways.
    Look, the Founders of this country warned against a single-
party impeachment. You know why? You guys know why. Because 
they feared it would bitterly and perhaps irreparably divide 
our Nation.
    In years past, that risk was openly acknowledged by the 
very Democrats who are leading this single-party impeachment 
charade today. Some of you are famously quoted in saying so.
    Our radical liberal colleagues have vowed to impeach 
President Donald J. Trump since the day of his election. They 
have desperately created a fraudulent, unprecedented process to 
pursue that goal, and now they are pulling the trigger on what 
was described by Professor Turley in his expert testimony here 
just several days ago as, quote, ``the shortest proceeding, 
with the thinnest evidentiary record and the narrowest grounds 
ever used to impeach an American President.''
    We have called this impeachment a sham because we just 
simply don't have a better way to describe it. House Democrats 
have been working to impeach Donald Trump since the very 
beginning. They introduced four separate impeachment 
resolutions while they were in the minority in 2017 and 2018, 
and a new resolution on January--in January 2019, right when 
they took the majority.
    In all, as many as 95 House Democrats--listen--95 of them, 
including 16 of the 24 Democrats sitting on the other side of 
the room in this committee, have already voted to proceed with 
impeachment, and they did it well before the famous phone call 
between Presidents Trump and Zelensky that took place in July 
of 2019.
    Although every previous U.S. President has made unpopular 
decisions and even at times infuriated his political opponents, 
impeachments are, for good reason and by specific design, 
exceedingly rare. In the 243-year history of our Nation, only 
two previous Presidents, Andrew Johnson in 1868 and Bill 
Clinton in 1998, have been impeached by the House. Richard 
Nixon, of course, resigned to avoid it.
    In each of those three previous impeachments evidence 
clearly established that specific criminal acts were committed, 
and that is not the case here.
    The language of the Constitution in Article II, section 4 
shows the inherent weakness of the current case. And you have 
got to look at these details, because Democrats found no 
evidence of treason or bribery or any high crime or misdemeanor 
against President Trump.
    But of course they had already promised his impeachment to 
their liberal base. So they felt they had no choice. They felt 
they had to default. And what did they come up with, these two 
amorphous articles. We have got abuse of power and obstruction 
of Congress.
    Abuse of power is a noncriminal act. It is significant that 
Democrats made this their first article in their document. As 
Professor Turley testified in January, the country has never 
impeached a President solely or largely on the basis of a 
noncriminal abuse of power allegation because it is so 
amorphous. It is debatable. It is very subjective.
    In this case there has to be, he said, clear and 
unequivocal proof of a quid pro quo. That does not exist here.
    Democrats know there is zero direct evidence in the record 
of these proceedings to prove their case, and it is rather 
shocking that they built their impeachment articles on mere 
hearsay, speculation, and conjecture that wouldn't even be 
admissible in your local traffic court.
    Democrats include bold allegations that are completely 
unsupported by the evidentiary record. For example, Article I 
alleges corrupt purposes or intent at least eight times but 
presents zero proof for the claim.
    There is also zero proof that, for example, President Trump 
was pursuing personal benefit or ignored or injured the 
interest of the country. To the contrary, the record is clear 
he was doing exactly the opposite.
    There are four indisputable facts in the record today that 
clearly destroy this case. Both President Trump and President 
Zelensky say there was no pressure exerted. The July 25 call 
transcript shows no conditionality between aid funding and an 
investigation. Ukraine was not aware that aid was delayed when 
the President spoke. And Ukraine never opened an investigation 
but still received aid and a meeting with President.
    The real abuse of power here is on the part of the House 
Democrats as they have recklessly pursued this impeachment, and 
they have done so at the detriment of our rules, our 
procedures, and our constitutionally guaranteed due process.
    There is no way that they have obstructed Congress here--or 
they have a legitimate claim to that--because that is what 
every President has done in the modern era. All the President 
did was assert a legitimate executive privilege and immunity to 
avoid subpoenas to various White House officials, but that has 
always been resolved in the third branch of government, in the 
courts.
    They don't have time for that because they are afraid that 
Donald Trump is going to get reelected, and, in fact, that he 
may get reelected by an even larger margin.
    They can't stand this President. They bristle at literally 
everything he does. But in our system Congress doesn't get to 
remove a President just because they don't like him. They don't 
get to ignore the Constitution just because they abhor his 
policies, his staff members, or his manner of speaking.
    When the rule of law in our system rules we all do better, 
and it has to be followed, defended, and preserved. I pray that 
we can still do that when this charade is over and after this 
dangerous precedent is set for the future of this blessed 
Nation. I would say this again as I did in the last hearing: 
God help us.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Swalwell.
    Mr. Swalwell. When I was 5 my dad was the police chief of 
Algona, Iowa. He was and still is a law and order guy, 
everything by the book.
    So that year when the county fair was going on and the fire 
chief called him and told him that cars were parked illegally 
in the fire lane, it wasn't a close call for my dad. He knew 
what to do.
    Trouble was, the owners of those cars were the mayor and a 
few council members who believed that their titles allowed them 
to park wherever they wanted.
    My dad warned that they were compromising the safety of 
other fairgoers and that they must move. They just laughed at 
my dad and kept their cars there.
    And my dad stuck to his guns, and at the next city council 
meeting he was summoned by the mayor and told he was to fix the 
tickets or be fired.
    My dad believed no one was above the law and held firm. He 
lost his job, and we packed up our little family and moved 
west.
    It was my first lesson in politics: abuse of power and 
executive arrogance. And watching these proceedings and 
watching my colleagues across the aisle ignore and deny facts 
in blind defense of the President of the United States, I am 
certain that had they been in Algona they, too, would have 
supported that lawless mayor.
    Their behavior has been a reminder that too often in 
politics there is more of an emphasis of keeping your job 
rather than doing the right thing.
    But governance is about courage. Think about the courage 
displayed by the witnesses who came forward in this 
investigation, people like Lieutenant Colonel Alexander 
Vindman, Ambassador Marie Yovanovitch, and Dr. Fiona Hill. They 
knew the price they would pay for their truthful testimony. 
They knew that they would be smeared by supporters of the 
President and, sadly, even by the President himself. They knew 
their careers could be impacted, perhaps forever. But they told 
the truth anyway, and they held fast to their oaths to the 
Constitution.
    If they can show that type of courage and risk everything, 
why can't my Republican colleagues?
    The facts here are not in dispute. Donald Trump abused his 
power by putting his pure personal gain over our country.
    Here are the facts. Donald Trump directed Rudy Giuliani to 
smear his political rival. Donald Trump fired an anti-
corruption ambassador who stood in his way. Donald Trump 
withheld $391 million in aid that was essential to Ukraine. And 
Donald Trump withheld a White House meeting unless Ukraine's 
President would do him a favor.
    In this scheme Donald Trump was not an incidental player. 
He was the central player. And anything we don't know about 
what Donald Trump did is because Donald Trump continues to this 
moment to block us from knowing.
    Donald Trump used his office to abuse his power to reelect 
himself. Those are your taxpayer dollars, those are your votes, 
and that is our national security.
    This is no longer about what the President did. We know 
what he did. He admitted it. This is about what will we do. And 
my colleagues are laying a bet that the hardworking people in 
Dublin, California, and Hayward, California, in my district, or 
a mom in Michigan or a farmer in Wisconsin, aren't following 
this and don't care despite how unquestionable the facts are in 
support of impeachment.
    But I have faith in the American people, and I know that 
they know right from wrong, just as my father did. And I know 
that regardless of the title a person holds, no one can abuse 
their power.
    Imagine you are a kid with a paper route, the first job 
that so many Americans have held, and the owner of the local 
paper tells you: You are due for a raise, and I am going to 
give you that raise, but first I need you to remove our 
competitor's paper from every house on your route.
    A 10-year-old should know right from wrong. But our 
children will only know right from wrong if we lead by example. 
Wrong is wrong, from your workplace to the White House.
    There is no times to spare here, no time to waste. This is 
a constitutional crime spree. That is why courage is so badly 
needed right here, right now. Our national security and 
democracy are depending on it.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Biggs.
    Mr. Biggs. Thank you, Mr. Chairman.
    The Democrats have not only drawn different inferences from 
the facts, they have actually created facts to satisfy the 
obsession of their rage. It is a kind of mass hysteria, a kind 
of cognitive dissonance. It is an alternative reality that they 
have created.
    One of our colleagues across the aisle said, ``If the 
President were innocent, he would come forward. He would come 
forward and bring documents, give us all the documents we want, 
and everybody would come.'' To where? To this committee? We 
can't even get a fact witness in here. There is no fact witness 
who can come in here. We get law professors and staff asking 
staff questions. Is he going to go to Schiff's bunker where he 
is holding secret hearings, selectively leaking material that 
is damaging to the President? Is that where you want him to 
come?
    If he is innocent, yeah, bring him to us. We will scotch 
it. We are going to blast it. We are going to basically curb it 
and create the fact situation we want by misinterpreting 
everything you do.
    Well, here is a ``for instance.'' They claim that the 
President publicly--he wanted a public announcement of 
investigations. But the only witness who said anything about 
that was a guy named Gordon Sondland, Ambassador Gordon 
Sondland, who admitted that no one on Earth told him that, but 
he presumed it.
    He also said that the only direct conversation he had with 
the President about these things was that the President said he 
wanted nothing from Ukraine except that it clean up its 
corruption.
    The best evidence is the transcript between President 
Zelensky and President Trump. It shows no conditionality, no 
quid pro quo, no this for that. Aid was never even mentioned on 
the call.
    Subsequently, the President of Ukraine and various 
Ukrainians Government officials said--including those who 
listened to the call--they said, there was no pressure, there 
was no conditions. In fact, the most recent statement was from 
about a week ago from the President of Ukraine. He said, ``It 
was fine. There was no pressure. What's the deal?''
    Well, President Trump apparently--and he did, he said, you 
know, if you can do us a favor, find out what happened in the 
2016 election and with the cooperation of the Attorney General, 
indicating he wanted a real investigation to determine the 
reason for the termination of the Ukraine investigation into 
the corruption of Burisma and all corruption in the Ukraine.
    Well, here we go. We are told by the Democrats, ``You know 
what? There was no attempt. That has been debunked.'' And yet 
Politico wrote in January of 2017, quote, they found evidence 
of Ukrainian Government involvement in the race, meaning the 
2016 race. Multiple media outlets concurred in those facts.
    They claim the focal point of the attack was Joe Biden, but 
President Trump was concerned about all corruption in the 
Ukraine. All of the witnesses testified that that was a 
legitimate concern.
    But the most notorious example of corruption was Burisma, 
who just happened to have on its board of directors Hunter 
Biden. And they say, ``You know what? That is not proper, to 
investigate that type of conduct, because his father is a 
politician.'' That is what that is about. That is the 
corruption, that is the abuse of power that is going on.
    Dems claim that the only reason that President Trump 
released the aid was because the hold on aid became public. 
Well, the fact of the matter is, they produced no evidence on 
that but some timeline, from which they drew some inferences. 
But the stronger inference is that the reason the aid was 
actually released is because, on the same day that it was 
released, the Ukrainian Government implemented two important 
anticorruption laws: the ending of immunity for Ukrainian 
legislators and reinstatement of a vigorous anticorruption 
court.
    With a certain degree of shamelessness, Democrats have 
asserted that President Trump defied subpoenas issued by the 
House. But the fact of the matter is he has allowed a number of 
State Department employees to participate and testify without 
retribution. But he has asserted valid constitutional 
privilege, and he has instructed some not to comply with 
subpoenas that he felt violated that privilege.
    We could assert a remedy, but you don't want to assert a 
remedy. You don't want to go into court. You don't want to 
negotiate with the executive branch. You want to hurry and 
impeach. If you took this to court and you wanted to find out, 
a court would say the privilege is bad, privilege is overly 
broad, and would narrow the privilege. You don't want that. You 
want impeachment. That is all you want.
    And your case comes down to this: It rests on gossip, 
rumors, and innuendos. You don't have direct evidence. You 
don't have direct evidence of this. And that is the crying 
shame here.
    Professor Turley was correct. The abuse of power is not by 
President Trump; it is by this body, who is producing this--
trying to produce this preconceived, preordained result.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Raskin.
    Mr. Raskin. Mr. Chairman, it was a Republican Congressman 
from Maryland, Larry Hogan, who is the father of our current 
Governor, who in 1974, as a member of this committee, 
articulated the task before us tonight. ``Party loyalty,'' he 
said, ``must fall before the law itself. No man, not even the 
President of the United States, is above the law.''
    And Congressman Hogan voted to impeach President Nixon for 
two crimes--two crimes our colleagues claim they never heard of 
before--abuse of power and obstruction of justice. And he voted 
to impeach the President for ordering crimes against democracy 
in the 1972 Presidential election and then blocking Congress's 
efforts to investigate.
    The House had no choice but to impeach, because, under our 
Constitution, the President's job is to take care that the laws 
are faithfully executed. If the President doesn't faithfully 
execute the laws but thwarts them to pursue his own political 
or financial gain, if he commits high crimes and misdemeanors 
against democracy itself, as Richard Nixon did, then 
impeachment is the people's essential instrument for protecting 
the integrity of our elections and maintaining self-government 
in America.
    Today, we bring our fellow citizens overwhelming and 
totally uncontradicted evidence of two high crimes and 
misdemeanors against the American people. And we present this 
evidence to all the American people, not just the 63 million 
invoked by one of our colleagues but the 65.8 million who voted 
for the President's major opponent and the millions who voted 
for other candidates and the millions more who have become 
voters since.
    First, President Trump secretly conditioned a White House 
meeting and the release of hundreds of millions of dollars in 
security assistance that we had voted for Ukraine on the 
Ukrainian President's agreement to become a mouthpiece for 
President Trump's 2020 campaign. Trump executed this scheme for 
one reason and one reason only: to get himself reelected.
    But then, secondly, as official after official in his own 
administration came forward to report the President's 
misconduct and to testify under oath about it, he covered up 
his crime by categorically obstructing Congress's 
investigation, blockading and intimidating witnesses, and 
withholding all of the evidence that he could.
    Now, the Founders predicted a corrupt President might drag 
foreign powers into our politics to promote the President's 
ambitions at the expense of the voting rights and democratic 
sovereignty of the people, and they considered this a key 
impeachable offense.
    In America, elections belong to the people, not the 
President. And that is because the government belongs to the 
people; it doesn't belong to the President. The government is 
not the private property of the President or a royal family. 
Here, as President Gerald Ford said, the people rule. Here, the 
people rule.
    The President's abuse of power and obstruction of Congress 
are not only high crimes, they are crimes in progress right 
now.
    President Trump declares his conduct perfect--indeed, 
absolutely perfect. He says, ``Read the transcript,'' when the 
transcript is proof positive of his guilt. He brags that 
``Article II allows me to do whatever I want,'' demonstrating 
his unfamiliarity with Article II, Section 4, which is all 
about impeachment.
    Look, I have been a professor of constitutional law and 
election law for 29 years. I have devoted my career to 
studying, teaching, and defending the Constitution of the 
United States. And my passion has been popular self-government 
and the democratic and voting rights of the people. And I 
confess that I am afraid if we allow Presidents to invite 
foreign governments to participate overtly or covertly in our 
elections then this becomes in America the new normal.
    Even if our colleagues don't believe a shred of the 
overwhelming evidence that we have seen in this investigation, 
will one of them--will just one of them say that it would be 
wrong for any President to commit the conduct this President is 
accused of? Will any of them say that the President of the 
United States should not drag foreign powers into our 
elections?
    Ben Franklin said, ``I have observed that wrong is always 
growing more wrong until there is no bearing it, but that 
right, however opposed, comes right at last.'' So what must we 
do? Stand by the Constitution and take strong action for your 
country. If you make yourself a sheep, Ben Franklin said, the 
wolves will eat you. Let's stand strong, America, for our 
democracy.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Nearly 2 years ago, the House Intelligence Committee's 
minority, under Adam Schiff, issued its report on FISA abuse. 
It stated that, quote, ``FBI officials did not abuse the 
Foreign Intelligence Surveillance Act process, omit material 
information, or subvert this vital tool to spy on the Trump 
campaign.''
    Well, on Monday, Michael Horowitz issued his detailed 
report that categorically contradicts every contention in Mr. 
Schiff's FISA report. There wasn't a shred of truth in it.
    Yet, also on Monday, Chairman Nadler announced that this 
Judiciary Committee would blindly accept Mr. Schiff's latest 
report on impeachment without a single fact hearing of our own.
    No one disputes that Joe Biden's son was paid millions of 
dollars to sit on the board of a corrupt Ukrainian oil and gas 
company, Burisma, despite having no experience in oil or gas or 
Ukraine, and that Biden threatened to withhold $1 billion in 
loan guarantees to the Ukrainian Government unless it fired 
Prosecutor-General Viktor Shokin.
    Now, Biden says he was merely carrying out administration 
policy and knew nothing of his son's affairs. But Shokin has 
testified in sworn affidavits that he was fired specifically 
because he was about to question Hunter Biden about his 
relationship with Burisma. His successor soon shut down the 
investigation, giving credence to Shokin's sworn testimony.
    Now, the President's July 25 phone call with President 
Zelensky is the centerpiece of the Democrats' case. In it, he 
asks for help in getting to the bottom of scandals that 
involved potentially corrupt interactions between officials in 
Ukraine and the United States. There is no direct evidence that 
the President ever linked aid to an investigation.
    Now, the Constitution vests all executive authority in the 
President, gives him plenary responsibility to conduct our 
foreign affairs, and commands him to take care that the laws be 
faithfully executed.
    Now, among these laws is the Foreign Corrupt Practices Act 
that makes it a crime to secure business in a foreign country 
by offering something of value to a foreign official. And being 
a candidate doesn't shield a person from scrutiny. You can just 
ask candidate Trump about that.
    Also, the National Defense Authorization Act requires the 
administration to determine that Ukraine is taking steps to 
combat corruption. And just because the Secretary of Defense 
certified this in May does not relieve the President of his 
executive authority to review and maintain his administration's 
findings.
    Now, within days of the Zelensky conversation, a handful of 
dissidents within our government hatched a plan to portray it 
as a solicitation to intervene in the election in exchange for 
foreign aid. This false narrative was laid out in a 
whistleblower complaint.
    So far, we have learned that the whistleblower coordinated 
with Adam Schiff's office while concealing that relationship, 
that he is said to be a protege of Joe Biden, and is 
represented by an attorney who 10 days after the inauguration 
tweeted ``Coup has started. First of many steps. Rebellion 
impeachment will follow ultimately.''
    The first article charges the President with the made-up 
crime of abuse of office. Well, he violated no law. He 
exercised authority clearly granted to him by the Constitution. 
Instead, the Democrats would nullify the election because they 
impute to him impure motives.
    Well, this is precisely the abuse of impeachment the 
American Founders feared, that the power to overrule a national 
election would devolve into a weapon of partisan warfare, 
reducing the President to serving at the pleasure of Congress 
and destroying the separation of powers at the heart of our 
Constitution.
    The second article charges the President with obstruction 
of Congress, another made-up crime, because he sought to defend 
in court his constitutional right to maintain the 
confidentiality of policy discussions--the same confidentiality 
that this Congress enjoys. They say this has prevented them 
from securing proof for their charges.
    Yet the Democrats have suppressed nearly every witness 
Republicans have tried to call in the President's defense. In 
free societies, the defendant is allowed to assert his 
constitutional rights, and prosecutors are not allowed to 
decide what witnesses the defense may call. This second article 
turns these principles upside-down.
    Now, I have every confidence the President will be 
acquitted and will be reelected. It is not damage to the 
President I fear. It is damage to the Presidency, to the 
Congress, to the Constitution, the Bill of Rights that the 
Democrats do today by establishing dangerous precedents and 
principles that are antithetical to the rule of law and the 
fundamental architecture of our Constitution.
    I yield back.
    Ms. Scanlon [presiding]. The gentlewoman from Washington is 
recognized.
    Ms. Jayapal. When I was just 16 years old, I came to this 
country by myself. My parents made the ultimate sacrifice of 
placing an ocean between them and their beloved child because 
they believed that America was worth it.
    Two decades later, I raised my hand and I swore my oath to 
country and to Constitution for the first time when I became an 
American citizen of the greatest Nation on this Earth.
    For naturalized citizens like me, being an American is a 
conscious choice and a granted privilege, a dream we chased 
across deserts and seas to join the larger American story, one 
of generations overcoming every challenge and every obstacle, 
because America is worth it.
    Why? What is so different about this shining city upon a 
hill? It is three words: ``We, the people.''
    America is a bold vision rooted in a fragile idea of a 
democracy in which power is derived not from the bloodlines of 
monarchs but from the votes of people. Ours is a Nation of 
imagination and faith, all of us engaged in this great 
experiment of democracy. We take our power and, collectively, 
through our elections, we entrust it to a President who must 
always act in our interest, not in theirs.
    The Framers believed in the promise of America, but they 
also knew the dangers of power unchecked. And so they gifted us 
the Constitution of the United States, the protective and 
connective tissue that functions as the highest law of this 
land and which entrusts this body, the People's House, the 
solemn responsibility to hold the Executive accountable. And 
that is what we confront today.
    The facts are clear: Donald Trump abused the power of the 
Office of the Presidency to pursue his own personal political 
gain and leveraged critically needed, congressionally approved 
military aid to coerce a fragile foreign ally to interfere in 
our elections.
    This is not hearsay. The President was the first and best 
witness in this case. The President admitted to his wrongdoing 
and corrupt intent on national television. The President is the 
smoking gun.
    His obstruction of Congress and blanket directive to deny 
us even a single witness, a single document is unprecedented. 
And yet, in spite of that obstruction, multiple patriots came 
forward and provided damning, corroborating testimony.
    Understand the seriousness of what this means. President 
Trump has solicited foreign interference before, he is doing it 
now, and he will do it again. The smoking gun is already 
reloaded, and whether or not it gets fired, that is up to us.
    The abuse of Presidential power and obstruction of Congress 
are the highest of constitutional crimes and the gravest of 
betrayals. If we allow this President to put himself above the 
law, we allow all future Presidents to be above the law. We 
submit, then, to the fact that we will no longer be a 
democracy; we will be a monarchy or a dictatorship.
    This moment is a test. It is a test of the vision of our 
Framers, the resilience of our Constitution, and the character 
of our elected officials. As we cast our votes, we must reflect 
on our responsibility to our children and our children's 
children. We must summon the courage to do what is right and to 
defend our democracy.
    For this reason, I will vote to impeach Donald J. Trump, 
soberly, shouldering the responsibility that was given to me by 
my constituents and honoring my oath to protect and defend the 
Constitution of the United States of America.
    Mine is not a vote against any person. It is a vote for the 
Constitution and for we, the people, because America is so 
deeply worth it.
    Ms. Scanlon. The gentlewoman from Arizona is recognized.
    Mrs. Lesko. Thank you, Madam Chairman.
    If anyone is guilty of abusing power or obstructing 
Congress around here, it is the Democrats, not the President. 
This is the most corrupt, rigged railroad job I have seen in my 
entire life.
    First, we now have proof that Obama's FBI doctored evidence 
and used knowingly false opposition research, paid for by the 
Democrats and Hillary Clinton, to spy on the Trump campaign.
    Then, Obama's administration started an investigation 
against Trump that lasted nearly 2 years based on false claims 
by Adam Schiff and other Democrats that Trump colluded with 
Russia. They issued 2,800 subpoenas, 500 warrants, and spent 
over $25 million of taxpayer dollars and came up with nothing.
    In fact, the Mueller report determined that no American 
citizen, let alone the President of the United States, colluded 
with Russia.
    But that didn't stop the Democrats. Oh, no. Next, it was 
obstruction of justice; then quid pro quo; then bribery; then 
extortion; then witness tampering; then treason. And the list 
goes on and on. It would be laughable if it wasn't so serious.
    On top of that, Democrats rigged the process from the 
start. First, contrary to all previous impeachment hearings, 
Speaker Pelosi moved fact-witness hearings to Chairman Schiff, 
where the President had no due-process rights to listen to or 
cross-examine witnesses.
    Schiff conducted closed-door hearings in a basement room, 
where he repeatedly blocked Republican Congress Members from 
entering, including me; rejected Republican witness requests; 
silenced Republicans when they tried to ask witnesses 
questions; and constantly leaked selective details to the 
press.
    Not until the hearings reached the Judiciary Committee did 
the Democrats allow the President to even have a chance to hear 
or cross-examine witnesses, but by then it was too late, 
because Chairman Nadler blocked the President from any due 
process by refusing to bring forward any fact witnesses the 
President could cross-examine, and Chairman Nadler refused to 
schedule a minority hearing, again violating House rules.
    Here are the facts: There is no evidence the President 
committed any impeachable offense. Not one Democrat fact 
witness was able to identify a crime. Not one Democrat witness 
established that the President committed bribery, treason, or 
any high crime and misdemeanor, as required under the 
Constitution.
    Democrats have been determined to impeach the President 
since he was elected. In fact, 17 out of the 24 Democrat 
members of this very Judiciary Committee voted in favor of 
impeachment even before the President's phone call and before 
any one of these impeachment hearings took place.
    In closing, there is no evidence that the President 
committed an impeachable offense. But don't take my word for 
it. Take the words from a constitutional attorney who said he 
does not support the President and did not even vote for him. 
In his testimony, he said, and I quote, ``This would be the 
first impeachment in history where there would be considerable 
debate and, in my view, not compelling evidence of a commission 
of a crime. This impeachment not only fails to satisfy the 
standard of past impeachments but would create a dangerous 
precedent.''
    Well, folks, the Democrats have done what they set out to 
do. They are going to impeach the President come heck or high 
water. Doesn't matter that they have no proof. Doesn't matter 
that 17 out of 24 Democrats on this committee already voted in 
favor of impeachment.
    Democrats don't seem to notice or care that it is not the 
President that has committed abuse of power or obstruction of 
Congress but it is them. It is time for my Democratic 
colleagues to look themselves in the mirror.
    And I yield back.
    Ms. Scanlon. The gentlewoman from Florida is recognized.
    Mrs. Demings. This is a defining moment in our history and 
a challenging time for our Nation. But America has been through 
tough times before, and I am sure that we will go through tough 
times again, so I do not fear this moment or this time.
    I grew up in Florida. I am the youngest of seven children. 
My mother cleaned houses for a living, and my father was a 
janitor but he also mowed lawns and picked oranges. I remember 
my dad used to go to work 7 days a week to make ends meet for 
our family.
    I grew up poor, but my parents were good, decent, honest 
people who taught me to be decent and respectful. They taught 
me to work hard and play by the rules and treat others the way 
that I want to be treated.
    You see, I was the first in my family to go to college, 
and, after graduation, I joined the Orlando Police Department 
and started out as a patrol officer, working midnight shifts. 
But the story does not end there. I had the awesome opportunity 
of working my way up through the ranks to become Orlando's 
first woman chief of police. And now I am privileged to serve 
in Congress.
    But hear me clearly: I believe that only in America can a 
little black girl, the daughter of a maid and a janitor, 
growing up in the South in the sixties, have such an amazing 
opportunity.
    So, regardless of the spirited, sometimes painful political 
debates, no one can make me give up on America. You see, I 
believe in the promise of America because I have seen the 
promise of America. I come before you tonight as an American 
Dream realized. Because America is great and decent and our 
democracy complete, because we live in a government of the 
people.
    I have taken four oaths in my lifetime, two as a law 
enforcement officer and two now as a Member of Congress. 
Different oaths, different times, and different places, but 
each oath stated that I will protect and defend the 
Constitution of the United States against all enemies, foreign 
and domestic.
    My oath was not to an individual; it wasn't to a political 
party or institution. My oath was to the United States 
Constitution.
    And I come before you tonight as an African American 
female. I come before you tonight as a descendent of slaves--
slaves who knew they would not make it but dreamed and prayed 
that one day that I would make it. I come before you tonight 
proclaiming that, in spite of America's complicated history, my 
faith is in the Constitution. And I say that today with perfect 
peace.
    I have enforced the laws, and now I write the laws, and I 
know that nobody is above the law. But the law means nothing if 
the accused, whether the man who breaks in your house or the 
President, can destroy evidence, stop witnesses from 
testifying, and blatantly refuse to cooperate in the 
investigation. I ask you to name somebody in your family or in 
your community who can do that.
    The President is the Commander in Chief, and his 
responsibility is great. However, our President put his 
personal interests above the interests of the Nation, 
corrupting and cheating our democracy, and he shall be held 
accountable.
    The Framers were so concerned about a President abusing his 
power that they gave us the power of impeachment. George 
Washington was particularly concerned about unprincipled men 
finding their way into the White House.
    Well, those times have found us. And we only have one 
option, and that is to hold this President accountable. Because 
you know what? Nobody is above the law.
    Thank you, and I yield back.
    Chairman Nadler [presiding]. The gentlelady yields back.
    Mr. Reschenthaler.
    Mr. Reschenthaler. We have heard some great speeches 
tonight, but let's not forget that this is a political hit job. 
Democrats just know they can't beat President Trump in 2020; 
they can't beat the President on his merits. So they have taken 
some thoughts and feelings and assumptions from some unelected 
bureaucrats and decided to impeach a duly elected President.
    But let's just take a step back and just assess where we 
are. We have two Articles of Impeachment against the President: 
abuse of power and obstruction of Congress. Let's just dissect 
each one.
    Let's start with abuse of power. Abuse of power is, at this 
point, just a vestige of quid pro quo. Remember, quid pro quo 
is what the Democrats were calling this before they tested 
``quid pro quo'' with focus groups and found out that 
``bribery'' was a lot more compelling than an old Latin phrase.
    Now the Democrats have dropped bribery, and they have 
accused the President of a very vague term, abuse of power. 
That is because the crime of bribery, quid pro quo, this-for-
that, simply did not take place.
    Chairman Schiff and Chairman Nadler and their cohorts 
cannot make out what lawyers call a prima facie case. I was a 
district judge, and I am telling you, I would have thrown this 
case out at the preliminary hearing level because it has no 
merit. There are no elements to support an underlying crime. 
The Democrats simply cannot make out, again, what we would call 
a prima facie case. This would be dismissed at a very early 
level in court.
    And, remember, President Zelensky has repeatedly said there 
was no pressure. The call transcript, the primary evidence we 
have, not rumors and conjecture of bureaucrats, the actual 
document shows there was no linkage whatsoever between aid and 
the investigation.
    The Ukrainians were not even aware that aid was on hold 
when the President spoke. And Ukraine ultimately never had an 
investigation, yet they received lethal aid, Javelin missiles. 
So, simply put, there was no quid pro quo.
    If the Democrats really want to charge somebody with abuse 
of power, they should look no further than Chairman Schiff. The 
chairman used his subpoena power to subpoena individual phone 
records, then went through those records, singled out Devin 
Nunes in an attempt to smear a ranking member. That is the 
abuse of power.
    You want to talk about more abuse? How about dropping 8,000 
pages of documents on Judiciary Republicans less than 48 hours 
before our last hearing? That is an abuse of power. If this 
were a court of law, Chairman Schiff right now would be facing 
sanctions and would be defending his law license.
    Let's talk about obstruction briefly. Let's deconstruct 
that. Our government, remember, has three branches of 
government, and when there is a disagreement between the 
executive branch and the legislative branch, that is when the 
courts step in to resolve this. And that is what happened when 
Republicans had an issue with President Obama during Fast and 
Furious. That issue went to the courts. But now Democrats 
refuse to go to the courts. And why? It is simple: Because it 
doesn't fit their political timeline to get this to the Senate 
before Christmas.
    The only obstruction here is that of the Democrat Party. 
Let's not forget that, last week, Judiciary Democrats voted 
down my motion to subpoena the whistleblower on partisan lines. 
That was obstruction of Congress. Let's not forget that 
Chairman Nadler refuses to have Chairman Schiff testify here 
under oath. That is obstruction of Congress. And let's not 
forget that the other side still refuses to bring any fact 
witnesses before this committee. Again, that is obstruction of 
Congress.
    So, in conclusion, do we have abuse of power? Yeah, Adam 
Schiff. Do we have obstruction of Congress? Yeah, House 
Democrats. So let's call this for what it is: a political hit 
job.
    Thank you, and I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman.
    I was elected to Congress to work across the aisle with 
Democrats and Republicans to ensure that the voices of my 
constituents were heard loud and clear. They sent me to work 
for good jobs, education, healthcare, safe streets, and 
housing, among other issues.
    As the son of immigrants, my election to Congress is an 
example of the American Dream and how hard work can make the 
American Dream come true. My mom cleaned hotel rooms for $1.60 
an hour when I was growing up, and today her son is a Member of 
Congress.
    Yet, sadly, on my way to Congress, in 2016, the 
Presidential election was tarnished by foreign influence, a 
danger our Founding Fathers warned us about. Then, later on, we 
ask ourselves, did our President solicit foreign interference 
in our democratic elections? And, sadly, the answer is yes. As 
a member of the Homeland Security Committee, I know firsthand 
the dangers and threats that foreign interference present our 
democracy.
    And when our Nation gained its independence, the Framers 
viewed the power of the Presidency as a public trust. The 
Presidency is a public trust.
    The Constitution, the highest law in the land, created a 
system of checks and balances to prevent the creation of a 
king. Congress is a coequal branch of our government, equal 
with the Presidency--let me repeat: Congress is equal with the 
Presidency--with duties that are given to us by the Framers of 
our Constitution. And Congress has the job to investigate the 
allegations of misconduct of the executive branch, including 
our President.
    I don't take impeachment lightly. And I have had the 
opportunity to vote on it, on the resolutions to impeach the 
President on the floor, and every time I have voted no.
    Today, I have listened and studied the evidence presented 
in these hearings, and I am here to do my job as a Member of 
Congress and to protect the American Dream. It is my 
constitutional job to ensure that no one--no one--is above the 
law, and I need to assure that our Nation is secure from all 
threats, foreign and domestic.
    And as my fellow Californian, President Ronald Reagan, once 
said, ``America is a shining city upon a hill whose beacon 
light guides freedom-loving people everywhere.'' And I am here 
today to ensure that America continues to that be shining city 
of democracy and rule of law.
    [Speaking foreign language.]
    Nuestro Pueblo me mando a Washington para trabajar con 
todos, Democratas y Republicanos, para mejorar las vidas de 
nuestras comunidades.
    Tristemente estamos aqui, hoy, contemplando las acciones 
del president de los Estados Unidos. Votare despues de estudiar 
las evidencias y las leyes presentadas.
    Mi voto, sera para asegurar que sigamos siendo una 
democracia, y no una dictadura.
    Muchos de nuestros hijos y hijas, han pagadado el precio de 
nuestra libertad con su sangre. Nuertra liberated y democracia, 
tienen que ser la herencia que les dejamos a nuertros hijos y 
hijas.
    Una democracia existe cuando nadie esta sobre la 
constitucion, y todos somos sujetos a la ley.
    Le pido a dios que nos de sabiduria, y que nos ayude unir 
nuestra querida patria, los Estados Unidos Americanos.
    And today I ask God for wisdom and guidance in uniting our 
great Nation.
    Mr. Chair, I yield.
    Chairman Nadler. The gentleman yields back.
    Mr. Cline.
    Mr. Cline. Thank you, Mr. Chairman.
    John Adams said, ``I first saw the Constitution of the 
United States in a foreign country. I read it with great 
satisfaction, as the result of good heads prompted by good 
hearts, as an experiment better adapted to the genius, 
character, situation, and relations of this Nation and country 
than any which had ever been proposed. I have repeatedly laid 
myself under the most serious obligations to support the 
Constitution. What other form of government, indeed, can so 
well deserve our esteem and love?''
    I love this country and I love this Constitution, which is 
why I am so disappointed to see that we are witnessing for 
first time the constitutional power of impeachment being 
misused. Not for the removal of a President for high crimes or 
misdemeanors, not for treason, bribery, extortion, not even for 
campaign finance violations. No, the majority is misusing the 
constitutional power of impeachment to remove a President from 
office because they don't like his policies.
    And I agree with my colleagues; they are right, this is no 
small event. The leaders of one-half of one branch of 
government have decided that they, not the American people, 
should determine who their President should be, that the 
provisions of Article II, Section 1 of the Constitution that 
determine how the people elect the President shall be 
superseded by the impeachment powers under Article I, Section 2 
of the Constitution.
    And while the Constitution gives broad latitude to the 
House to set its own rules for impeachment, past Congresses 
have understood that, if it is to be viewed as legitimate by 
the American people, the proceeding must be as devoid of 
politics as possible. In fact, Speaker Pelosi said, herself, 
that impeachment must be compelling, overwhelming, and 
bipartisan.
    Sadly, this process possesses none of these 
characteristics. Throughout this partisan process, the 
Judiciary Committee, sadly, has been sidelined as nothing more 
than a rubber stamp. And when you sideline the Judiciary 
Committee, you sideline justice.
    While transcripts of most of the testimony in the 
Intelligence Committee were eventually made public, Judiciary 
Committee members were not able to watch the private 
proceedings, question witnesses, or ensure the accuracy of the 
transcripts.
    We learned that Chairman Schiff at times ordered witnesses 
not to answer Republicans questions, lied about his contact 
with the whistleblower, and obtained phone records of Members 
of Congress and of the press. Then he refused to appear before 
this committee to defend his egregious actions.
    But putting aside the severely flawed process by which the 
Democratic majority has proceeded, they have simply failed to 
establish a viable case for impeachment against the President. 
I have reviewed the evidence, I have read the transcripts, and 
the proof of a high crime or misdemeanor is just not there.
    And, Mr. Chairman, you said yourself in 1998 that the 
President's accusers must go beyond hearsay and innuendo. So 
let's review the intelligence evidence.
    Ambassador to the EU Gordon Sondland, it depends on which 
of his three testimonies you are reading. The one consistency 
is that in all three direct messages from the White House was 
no quid pro quo.
    In addition to Ambassador Sondland, 16 other officials 
opted to testify in this investigation, all testifying to 
hearsay, opinion, and speculation. Marie Yovanovitch, Alexander 
Vindman, Kurt Volker, Bill Taylor, Jennifer Williams, Fiona 
Hill, and the list goes on, all testifying to hearsay, opinion, 
or speculation.
    But there are facts. No matter how the Democrats try to 
spin it, there are four facts that will never change: There was 
no pressure on the call, there was no conditionality of aid in 
the transcript, the Ukrainians were not aware that the aid was 
withheld, and Ukraine didn't open an investigation but still 
received the aid and a meeting with President Trump.
    Regrettably, my Democratic colleagues have proven time and 
time again that they aren't concerned about the facts.
    Tonight, the majority takes a step down a path that 
achieves a goal they have long sought: the removal of President 
Trump from office. But at what cost? At what price? Certainly 
the rejection and destruction of bipartisanship on this 
committee, the abandonment of the rules that have served this 
committee for two prior impeachments.
    But it has come at a greater cost. The very fabric of this 
country depends on the respect for the verdict of the voters. 
Thomas Jefferson said, ``I know no safe depository of the 
ultimate powers of society but the people themselves. And if we 
think them not enlightened enough to exercise their control 
with a wholesome direction, the remedy is not to take it from 
them but to inform their discretion by education.''
    This is a sad day for the institution of Congress, a 
blatantly political process, and, yes, an abuse of power by the 
majority designed to achieve what they simply could not achieve 
at the ballot box. As I said, it is a sad day for America.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Scanlon.
    Ms. Scanlon. Thank you, Mr. Chairman.
    Two years ago, I never dreamed that I would be sitting here 
as a Member of Congress. The only office I had been elected to 
was school board in the small town where I lived just outside 
of Philadelphia.
    I loved my job as a public interest lawyer, and I loved 
volunteering with kids, helping them to get a good start and 
helping them to understand why our government and our laws are 
what make our country that shining city on a hill, a beacon of 
freedom and opportunity to the entire world.
    One of the schools where I volunteered is Constitution High 
School. It is located just a few blocks from Independence Hall, 
where our Constitution was written. Students at Constitution 
High learn the importance of active citizenship, to be informed 
participants in our government and to put public service before 
self. I believe in those lessons with my entire heart. Those 
lessons brought me to Congress.
    When I took the oath of office just over a year ago, many 
of my students came with me. They looked down from the House 
Gallery as I chose to be sworn in on our Constitution, this one 
right here. I took an oath to support and defend the 
Constitution and to put our country before myself.
    The question we must answer today, not only as Members of 
Congress but as Americans, is: Will we accept a President who 
refuses to do the same?
    We wouldn't be here today but for the bravery and the 
active citizenship of ordinary men and women who also took 
oaths to support and defend our Constitution and chose to put 
service to country before self--American citizens like 
Ambassadors Bill Taylor and Marie Yovanovitch, Lieutenant 
Colonel Alexander Vindman, David Holmes, and Fiona Hill.
    They demonstrated a love of country and an unclouded 
understanding of right and wrong. They testified to Congress 
despite opposition from the President and at great personal 
risk. We expect these qualities in our public servants; we must 
demand them from our President.
    This President has failed that test of honor, of unselfish 
service to our country, of understanding the difference between 
right and wrong, and, above all, of the need to put aside his 
personal interests when our Nation's security and our values 
are at stake.
    This moment is about more than disagreements with the 
President's personality or policies. Those disagreements belong 
in the voting booth. Our task today is not to judge the 
President himself. Instead, we must judge the President's 
actions and whether they have undermined our government. 
Because it is the Office of the President to which we owe our 
loyalty, not the man who occupies it.
    We must not turn a blind eye to the undisputed facts. The 
President used the highest office in our government and 
precious taxpayer dollars to pressure a foreign country so that 
he could cheat on our elections, and then, when he got caught, 
he tried to cover it up by obstructing our investigation and 
our courts.
    In doing so, I believe that he betrayed the American 
people. There is no higher crime under our Constitution than 
that.
    This is exactly the type of behavior that our Founders 
feared most. They knew that with the awesome power of the 
Presidency came the risk of a President abusing that power for 
personal gain. They trusted us, the people, with our Republic, 
to safeguard the values they enshrined in our Constitution.
    This is not the first time we have faced this trial. At 
another time when the future of our country was in jeopardy, 
President Lincoln charged the American people with the same 
responsibility: that we must dedicate ourselves to the great 
task of ensuring the government of the people, by the people, 
for the people shall not perish from the Earth.
    A government where the President abuses his power is not of 
the people. A government where the President pressures a 
foreign country to undermine our elections is not by the 
people. And a government where the President puts his own 
interests before those of the country is not for the people.
    This is not complicated. You know it. I know it. My 
Constitution High students know it. And, in their hearts, I 
believe that our colleagues across the aisle know it. We have 
no principled alternative but to support these Articles of 
Impeachment. Our Constitution, our country, and our children 
depend upon it.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Armstrong.
    Mr. Armstrong. Thank you, Mr. Chairman.
    My Democratic colleagues have tried to cloak this 
proceeding as a somber, serious process that they regret having 
to advance, but that is not the case. This is a nakedly 
partisan exercise.
    This has always been about the fact that these Democrats 
hate this President. They have been focused on removing him 
since the day he was elected. And, long ago, they decided that 
impeachment was the remedy. They constantly and consistently 
marched ahead, undeterred by facts.
    And make no mistake, this started long before a July 25 
phone call. But the Russian conspiracy theory bombed, and 
obstruction of justice was abandoned after the Mueller hearings 
fell flat. Campaign finance charges never got off the ground. 
They poll-tested bribery, but that doesn't work because the 
alleged victim says there was no crime.
    But none of that matters, because this was never about the 
truth; this was about politics. So here we are tonight on an 
ambiguous abuse-of-power charge.
    Prior to the election, a member of this committee launched 
a change.org petition regarding mental diagnosis of the 
President. And shortly after the election, our chairman stated, 
``He was legally elected, but Russian interference makes his 
election illegitimate.'' A press release from another member 
read, ``This President-semi-elect does not deserve to be 
President.''
    And once President Trump was sworn in, the Democrats 
introduced Articles of Impeachment almost immediately. In 3 
years, they have introduced 10 resolutions related to 
impeachment. And 17 members of this committee have voted to 
consider impeachment, and every one of those votes occurred 
before the July 25 phone call.
    Here are some statements made by members of this committee.
    ``Cloud of treason means we must have a total shutdown of 
any POTUS agenda item,'' March 2017.
    A tweet accompanying a picture of President Obama read, 
``Great to see our last real President enjoying life,'' April 
2018.
    Another member: ``I don't think this President was fit to 
serve even before he took office,'' April 2018.
    Finally, an exasperated committee member wrapped it all up 
by revealing, ``I just think we need to impeach the guy.''
    There it is. That is what this hearing has always been 
about, and that is why we are all here tonight. The Democrats 
just want to impeach a duly elected President. They want him 
gone. This began the day President Trump was elected, and it 
has culminated here.
    But this never-ending march towards impeachment and in 
overturning the results of the 2016 election has consequences, 
because you are telling 63 million voters that you don't 
respect or honor their vote.
    These are voters in over 2,600 counties, representing 84 
percent of the geographic area of America; voters in States 
like mine that not long ago sent Democrats to Congress but in 
recent years have found no home in today's Democratic Party, 
who feel that their Midwestern sensibilities have been replaced 
by liberal, elitist ideology, who feel that partisan points are 
more important than practical solutions; voters who know that, 
rather than working to win back their trust and their support, 
you would rather invalidate the results of the last election 
and abolish the electoral college to silence their voices in 
the future.
    Your never-ending quest towards impeachment is a constant 
reminder to these Americans that you don't trust their 
judgment, that you mock their way of life, and that you 
couldn't care less about the issues that matter most to them.
    And as Chairman Nadler so ominously stated in November of 
2018, ``If you are serious about removing a President from 
office, what you are really doing is overturning the results of 
the last election.'' Well, they were serious. They have spent 
the last 3 years talking about interference in the 2016 
election, unwilling to accept the results.
    I wonder if my colleagues recognize the irony that their 
impeachment vendetta is the greatest interference of all, and 
it is homegrown, right here the halls of Congress.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman.
    The American people and all of us in this committee will 
have to live with the decisions we make today. We are moving 
forward with Articles of Impeachment against the President of 
the United States for his abuse of power and obstruction of 
Congress. This should weigh heavily on each one of us, because 
the future of our democracy depends on it.
    I have raised my right hand and put my left hand on the 
Bible more than once. I have sworn an oath of office to the 
American people and to the Constitution of the United States. 
We have all taken this oath and are bound by it to support and 
defend the Constitution of the United States against all 
enemies, foreign and domestic.
    This very action of taking an oath and giving your word is 
a powerful one. Many of us take different oaths throughout our 
lives. From a young age, we develop our sense of right and 
wrong. We learn the golden rule and, for many of us, the Ten 
Commandments. We are taught that our word matters and what 
happens when we go back on it.
    This is true for millions of young girls and boys across 
the country that have taken the Girl Scout or the Boy Scout 
pledge. As a country girl, I took the 4-H pledge. I still 
remember the parts that remain with me today. I pledge my heart 
to greater loyalty; my hands to larger service for my club, my 
community, and my country. This pledge is meant to teach the 
value of fulfilling your promise to others of loyalty and 
service.
    Today's proceedings are about our pledge to the 
Constitution and the future of the Republic. This commitment 
was shattered by Donald J. Trump when he violated his oath of 
office, his promise of loyalty and service to the American 
people.
    The Framers of the Constitution included impeachment as the 
safeguard against a corrupt President whose ego and self-
dealing could destroy the very foundations of our Constitution. 
It is as though they had a crystal ball when they were writing 
the Constitution, and when they looked at it, who did they see? 
Donald J. Trump, A, abusing his power; B, betraying the Nation; 
and, C, corrupting our elections.
    These are the ABCs of impeachable behavior the Framers 
feared the most. Donald J. Trump abused his power when he 
obstructed Congress and ordered government officials not to 
appear before us. Donald J. Trump betrayed our Nation when he 
declared, ``I have the right to do whatever I want as 
President,'' wrongfully using the Constitution to argue that he 
is above the law. Donald J. Trump corrupted our elections when 
he asked a foreign government to interfere for his personal and 
political gain.
    I take no pleasure in the work of this committee today. I 
grew up poor in rural south Texas, 1 of 10 children. I know the 
taste of commodity cheese and butter. I know what it is like to 
stand in line at a welfare clinic to get a shot. And I know 
what it is like to pick cotton in the hot, blistering Texas 
sun.
    I never imagined that I would be a Member of Congress. Even 
less, I never imagined I would be in a position where I would 
need to consider impeaching a President. Yet, last year, I 
became one of the first two Latinas, alongside Ms. Escobar, to 
be elected to Congress from Texas.
    I didn't come here to impeach a President. I came here to 
make a difference in the lives of my constituents and the 
American people and to make things better for our next 
generation of children.
    And here we are, in the middle of a constitutional crisis. 
We must defend our democracy for every little boy and girl in 
this country and show them that pledges they take matter and 
the promises they make do matter.
    Democracy is a gift that each generation gives the next. We 
must act, and we must impeach.
    Thank you, Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Steube.
    Mr. Steube. Since this President has been elected, 
Democrats have clamored for impeachment. On the first day of my 
swearing in as a Member of this Congress, Democrats in my class 
were calling for impeachment on the day that we swore in, long 
before President Trump made a phone call to the newly elected 
President of the Ukraine.
    For almost a year, this Democrat-led Congress and this 
committee has focused its efforts and its energy on impeaching 
President Trump.
    First, the Democrats' theory of impeachment was Russia 
collusion. After 22 months of investigations and millions in 
tax dollars spent on Democratic lawyers investigating the 
President, they found nothing, no collusion. Bob Mueller sat 
before this committee and testified that there was no evidence 
that the Trump campaign colluded or conspired with Russia.
    Next, it was obstruction of justice. But after searching 
diligently and trying to find any evidence that the President 
obstructed justice, Democrats abandoned that theory.
    By comparison, Clinton's impeachment in Article II had 
seven different incidents of obstruction of justice supported 
by the evidence collected by an independent counsel--seven 
different incidents of a crime being committed.
    Mr. Steube. Seven different incidents of a crime being 
committed.
    Then, out of the blue, after coordinating with Democratic 
staff in the Intel Committee, a whistleblower filed a carefully 
scripted complaint based solely and completely on hearsay.
    Democrats' theory now turned to a quid pro quo, which I am 
assuming, because one of their own candidates for President 
clearly admitted to a quid pro quo on national television and 
there is no evidence of a quid pro quo in the phone transcript 
President Trump released, that they abandoned that theory as 
well.
    The process that ensued was anything but open, transparent, 
bipartisan, or equitable, abandoning all past historic due 
process afforded the minority and the President.
    The Democrats ran a partisan investigation, refusing the 
rights of the minority, refusing the ability of the President's 
counsel to call witnesses--Bill Clinton alone called 14 
witnesses on his behalf during his impeachment proceedings--
refusing to allow the President's counsel to cross-examine fact 
witnesses, and refusing a minority hearing day, just to name a 
few.
    Now before us are Articles of Impeachment for abuse of 
power and obstruction of Congress. Unlike Presidents Nixon and 
Clinton, who were impeached for actual crimes, President Trump 
is being impeached based on theories concocted by the 
Democrats.
    I imagine just about any law professor can make an argument 
that every President in the history of our country abused his 
power at some point in time in their Presidency, because that 
would be an opinion, not a crime.
    When they needed backup for their approach, they paraded 
out liberal professors with animus against the President who 
gave them license to impeach the President for any reason that 
they wish. Those professors, astoundingly, and in direct 
contradiction to even the most simplistic concept of due 
process, stated that an impeachment does not have to be rooted 
in any recognized criminal standard because the impeachment 
portion of the Constitution was written before criminal 
statutes.
    Their second Article of Impeachment, obstruction of 
Congress, serves only to highlight the absurdity of the 
situation that they have put us in. Congressional oversight is 
a serious constitutional responsibility. It is a bedrock of the 
checks and balances that the Founders envisioned. However, 
Democrats have now created a standard that if you don't give 
them what they want, when they want it, they will impeach you 
for obstruction of Congress. This is not the solemn duty 
envisioned by the Founders.
    When this Democratic Congress issued a flurry of subpoenas 
in accordance with their rights, the President did what is 
taught to every first year law student in civil procedure: seek 
judicial review of a subpoena that would lead to the disclosure 
of privileged information. This is one of the core principles 
of our Nation's judicial system.
    By not allowing for a judicial review of the subpoenas, the 
stance the Democrats are taking is that the legislative branch 
has an unlimited and indisputable right to any and all 
information they so choose, regardless of the rights and 
privileges of the President or the executive, a coequal branch 
of our government.
    House Democrats are making themselves kings in a manner far 
worse and more obvious than what they are accusing the 
President of doing. To quote Mr. Turley, who testified before 
this committee: ``Basing impeachment on this obstruction theory 
would itself be an abuse of power. . .by Congress. It would be 
an extremely dangerous precedent set for future Presidents and 
Congresses in making an appeal to the judiciary into high 
crimes and misdemeanors.''
    The Constitution states in Article II, section 4 that a 
President or Vice President shall be removed from office on 
impeachment for and conviction of treason, bribery, or other 
high crimes and misdemeanors. Nowhere in the Constitution does 
it state we can impeach a President for abuse of power or 
obstruction of Congress. In fact, the term of art doesn't exist 
in the Constitution and to imply that high crimes and 
misdemeanors would include abuse of power or obstruction of 
Congress is a fiction.
    So let me recap. No collusion, no obstruction, no quid pro 
quo, no treason, no bribery, and no high crimes and 
misdemeanors. The only abuse of power that I see is that which 
Mr. Turley highlighted--that abuse of power of this Congress 
and how this Democratic majority has run this Chamber, this 
committee, and this investigation.
    The chairman and members of this committee keep saying that 
history will judge our decisions. Well, I would offer that your 
decisions and that of your colleagues in the majority will be 
judged much sooner than in history. They will be judged by the 
voters in November of 2020. Then, I guess, we will see who was 
on the right side of history.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chair.
    I would like to begin tonight by speaking directly to the 
Americans listening and watching who may disagree with the 
steps this committee is taking. I hope that you will understand 
that we are proceeding on this path truly out of love for our 
country.
    We are your neighbors, we are your colleagues, your fellow 
worshippers, and we are all citizens of the greatest Nation on 
Earth. We are blessed to live in a country where our 
similarities far outweigh our differences.
    My parents immigrated to this country, and every day I am 
grateful to them for their decision and to the United States of 
America for giving us the opportunity to live the American 
Dream.
    My parents came to this country because they wanted their 
children to grow up in a place that is free, a country where 
leaders respect the rule of law, and where they don't use the 
power of government to target political opponents, a country 
with fair elections and where everyone has the right to vote.
    Thomas Paine described voting as the primary right by which 
other rights are protected. Our sacred right to a free and fair 
election is ingrained in our Constitution. It is a right 
offered to every American, no matter their background. And yet 
today that right is under attack like never before.
    In 2016, Russia interfered in our elections in sweeping and 
systematic fashion. And as we know, the Trump administration, 
the campaign, welcomed at that time that interference.
    And now the President of the United States has solicited 
the interference of a foreign government in the 2020 
Presidential election for his own advantage. President Trump 
abused his power and then engaged in a wholesale obstruction of 
Congress to cover it up.
    The fact remains that in the history of our Republic, no 
President has ever ordered such a complete defiance of an 
impeachment inquiry until now.
    If anything is clear, it is this: Every American deserves 
to know that their President will not endanger our national 
security, that he or she won't seek to use their power to 
undermine our free and fair elections, and that they won't tap 
a foreign government to help tip the scales in their favor.
    The Framers of the Constitution prescribed impeachment in 
that sacred document because they feared a moment like this 
one, and the Articles of Impeachment before us are our 
mechanism for accountability.
    So ultimately we must move forward with the solemn and 
heavy work before us. But I hope that as we do so, while some 
may agree with this process and some may oppose it, everyone 
will remember that at the end of the day, each and every one of 
us are Americans. We all treasure the same flag. We all revere 
the same Constitution that this committee is working so hard to 
uphold.
    Like many of my colleagues, when I ran for Congress I knew 
that the hardest part would be being away from my wife and my 
infant daughter. My daughter is 15 months old now and I think a 
lot about the world that she will inherit. She is not old 
enough to understand the proceedings before us today, but one 
day she will be, and one day I hope that she will know that 
this committee had an obligation to defend our democracy, to 
honor our oaths, and to uphold the rule of law.
    So I will support the Articles of Impeachment before us, 
because it is what the Constitution requires of us and it is 
what my conscience demands. And I hope and I pray that my 
colleagues will do the same.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mrs. McBath.
    Mrs. McBath. Thank you, Mr. Chairman.
    Since January, I have been privileged to serve the people 
of Georgia's Sixth Congressional District. When I was a small 
child, my family instilled in me the importance of service and 
building community. As I have grown in life, I have held many 
roles--daughter, wife, working mother--but I never imagined 
Congresswoman would be one of them.
    My goals were the same as many other Americans. I wanted to 
start a family and raise a caring, compassionate child. Like 
many women, I struggled to get pregnant, and after years of 
trying my son Jordan was a miracle for me, for our family.
    I dreamed of who Jordan would become. I dreamed of watching 
him walk across the stage at his high school graduation, full 
of love and hope for the future. I dreamed of him carrying on 
our family's legacy of public service.
    But 7 years ago, on a day much like today, Jordan was 
sitting in the back seat of a car with his friends at a gas 
station. A man pulled up next to their car and complained about 
the loud music that they were playing. He pulled out a gun and 
fired 10 shots into their car, hitting Jordan three times and 
killing my only son.
    I found myself asking God: How could this happen? How did 
he allow this to happen to me, to my family, and to Jordan?
    I prayed to God and found the strength to forgive my 
killer. I stood up for families like mine. I stood up for 
families in Marietta, Georgia, who were terrified that they 
will send their kids to school and never see them come home. I 
stood up for the teens who sent texts to their parents in 
Parkland, Florida. I stood up for their mothers reading 
messages from their children that pled: If I don't make it 
home, I love you, and thank you for everything that you have 
done for me.
    I made a promise to my community that I would act, a 
promise that I would take that sense of protection, that love a 
mother has for her son, and I would use it for my community, 
for the American people. I promised I would work with the 
President when his policies are right for Georgia and stand up 
to him when they are not.
    And I am proud of our progress. I am proud to have passed 
bills that protect our communities. I am proud to have written 
a bill that was signed into law by President Trump, a bill that 
protects our veterans. But I am not proud of the President's 
actions that bring us here tonight.
    For months, we have carefully and methodically explored the 
facts. I have listened to our witnesses, I have examined the 
evidence from our intelligence community, and I have heard from 
the brave men and the women who have dedicated their lives in 
service to our country, both at home and abroad.
    I am greatly saddened by what we have learned and I am 
forced to face a solemn conclusion: I believe the President 
abused the power of his office, putting his own interests above 
the needs of our Nation, above the needs of the people that I 
love and I serve. And for that, I must vote my conscience, and 
I do so with a heavy heart and a grieving soul.
    This is not why I came to Washington. I came to Washington 
because I love my country. I came to Washington full of hope, 
empowered by my community to serve them in Congress, and it is 
an honor to carry out this work every single day, to make sure 
that no one else goes through the same pain that I have.
    But after this vote, I will continue to champion the ideals 
this country instilled in me to stand up for the safety and 
security of our communities and to fight for an America I 
prayed that my son, Jordan, would be proud of.
    And I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back.
    Mr. Stanton.
    Mr. Stanton. Thank you, Mr. Chairman.
    I have been in public life for two decades, and it is not 
lost on me that these are the most consequential votes that I 
will ever take.
    Throughout the impeachment process, I have weighed three 
questions that are central to whether we must use the power to 
impeach and recommend removal of a President. Did the President 
grossly abuse his power? Did his actions harm our Nation? And, 
if unchecked, is the President likely to repeat his behavior?
    Clear and convincing evidence shows that the answer to all 
of these questions is yes. President Trump grossly abused his 
power. He withheld aid to our ally at war until that ally 
agreed to help him damage a top political opponent.
    The Ukraine plot put our elections and our democracy at 
risk, and it helped Vladimir Putin and Russia. When career 
diplomats got in the President's way, he fired them and he 
smeared them, and he used a political henchman outside the 
official lines of diplomacy to avoid getting caught.
    But he did get caught. A courageous public servant blew the 
whistle. And only once the President was exposed did he relent 
and release the aid that this Congress approved to help our 
ally in its war against an aggressive Russia.
    The President revealed his consciousness of guilt when he 
ordered the coverup, the most sweeping obstruction of 
congressional investigation in our Nation's history.
    When Congress lawfully subpoenaed witnesses who could help 
us learn the truth, the President ordered those witnesses not 
to appear.
    When Congress lawfully subpoenaed documents that might 
point the finger at him, the President ordered his 
administration to not turn over a single one.
    And the excuses the White House used for obstructing 
Congress are a disgrace to the Constitution and to the rule of 
law.
    The Ukraine plot and the obstruction that followed are 
gross abuses of power. Both harm our national security and the 
integrity of our democracy.
    Yet what worries me most is that every sign, every sign, 
points to the near certainty that, if we allow him, the 
President will continue to violate the law.
    Just last night, he said abuse of power is not even a 
crime. He has repeatedly said that his powers are unbounded and 
unlimited. He has claimed, quote: ``Article II allows me to do 
whatever I want,'' unquote.
    These are the words of a President who does not understand 
or respect the Constitution, one who believes there should be 
zero checks on his power.
    Make no mistake, a President who will certainly abuse his 
power again threatens the very soul of our Nation. This 
President must be impeached and he must be removed, not because 
he has been offensive or because of policy disagreements, 
impeachment is necessary because this President does not 
believe the law applies to him because he poses a clear and 
present danger to our democracy.
    I ask my colleagues and my fellow Americans: Where is the 
line? And I submit that if we do not impeach the President for 
this conduct, we will send a message there is no line. Right 
and wrong would forever blend together, and corrupt abuse of 
power from the executive branch would become acceptable and 
unchecked.
    I served as mayor of one of the largest cities in this 
country. If I had concocted a scheme to withhold public funds 
to help my own reelection, I would be charged with a crime. And 
the truth is, if this were anyone else but President Trump, 
they would be in a jailhouse, not the White House.
    We have a duty to protect our democracy. We owe it to the 
Framers of our Constitution. We owe it to the men and women who 
spilled their own blood defending it. We owe it to our children 
and generations to come.
    We have a responsibility to every single American to ensure 
that our government of the people, for the people, and by the 
people shall not perish from the Earth.
    Mr. Chairman, I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Dean.
    Ms. Dean. As Members of Congress we are entrusted with a 
generational duty, a duty to ensure that we leave our 
grandchildren with a Constitution as strong or even stronger 
than our predecessors gave us.
    I want to tell you about a conversation that took place the 
week of July 25, but it is not the one you are thinking of. 
This was a quiet moment between a leader and me, just a 
freshman on the floor.
    I sought out Elijah Cummings and sat down next to him. He 
looked up into the gallery and he said: Madeleine, 300 years 
from now, your ancestors will remember you were here. We are 
only here a short while, make sure what you do here matters.
    As First Corinthians tells us: Now we see through a glass, 
darkly. Months later, I am beginning to see face-to-face what 
our recently departed Chairman Cummings meant. What we do here 
today will matter for generations. He saw a broader horizon.
    Now this immense constitutional responsibility, vested in 
us by our Founding Fathers, requires us to decide whether 
President Donald J. Trump has purposefully and perilously 
abused the power entrusted to him by the people.
    The evidence shows the President's wrongdoings. They are as 
clear as they are dangerous. He has abused the power of his 
office as President for personal gain, including his corrupt 
scheme to win reelection. He has betrayed our Nation and his 
oath by asking foreign governments to interfere with our 
elections.
    When he was caught, he obstructed Congress, blocking our 
constitutional investigation at every turn, telling executive 
branch agencies and witnesses to defy subpoenas. And even in 
the midst of this investigation he called on a third foreign 
power to interfere in the upcoming election.
    The President's ongoing pattern of conduct threatens our 
most precious rights as Americans: the rights to choose our own 
leaders and hold them accountable.
    In George Washington's farewell address he warned against 
the insidious wiles of foreign influence, the jealousy of a 
free people are to be constantly awake, he said, since foreign 
influence is one of the most baneful foes of republican 
government.
    We cannot allow this President to reach his hands and the 
hands of foreign leaders into our ballot boxes because for us 
to maintain our faith in this country the democratic process is 
as important as the result.
    Some have suggested that our actions, this historic call 
for impeachment, are based in dislike or even hatred of a 
single man. They are not. This is not about punishment or hate. 
It is about love. It is about love of this country, it is about 
protecting this country, and our precious Constitution, for all 
Americans yet to come.
    No one wishes to be where we are today, but this is where 
we are called to be. Today is about the congressional oath I 
swore, we all swore, to well and faithfully discharge the 
duties of our office.
    My favorite Uncle Walter was a Catholic priest. Years after 
his death, I swore my oath of office on Walter's Bible. My 
first grandchild, Aubrey, aged 7, held it from below. As I 
placed my hand and bore through faith an allegiance to the 
Constitution, Walter's daily prayer washed over me. May God 
grant success to the work of our hands, he would say.
    I remember the gravity of that moment, of accepting the 
mantle from those who came before us and striving to protect 
the promise of the Constitution for generations who have yet to 
inherit it.
    It is in our hands now. Many people have walked these 
hallowed Halls. Few of us remember their names. Someday, too, 
we will be gone and forgotten, yet what we do here will not. It 
will matter for decades and centuries to come. It will matter 
to my children and grandchildren and to yours. It will matter 
to a democracy battle tested and hard won, and yet only as 
strong as those willing to stand up and defend it, to defend 
the aspirations and the constitutional promise of this country.
    These are the moments that define us, that determine 
whether the United States will become less free or more 
perfect. The grand horizon is in our hands now. May God grant 
us success. Our forefathers demand it, and our granddaughters 
deserve it.
    Chairman Nadler. Does the gentlelady yield back?
    Ms. Dean. With that, I yield.
    Chairman Nadler. The gentlelady yields back.
    Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. I did not have the privilege of being 
born into this country. When I was 14, my mother brought my 
sisters and I from Ecuador in search of freedom and 
opportunities.
    And this is not just my story, but it is the story of so 
many of the people that I represent in Florida's 26th District 
and all over the country.
    Many of us have experienced firsthand the political 
corruption in our countries of birth. We understand the 
corrosive effects of this corruption and the abuse of power by 
authoritarian leaders, both on the left and on the right, that 
destroy democratic institutions.
    Many of my constituents fled the brutal dictatorships of 
Cuba and Venezuela that have choked the economic, social, and 
political potential of those countries for the benefit of those 
who hold power.
    The United States is a beacon of freedom, a place where 
anyone can get a fair shot, but also where even the most 
powerful are held to account. It is why I feel so fortunate to 
raise my children in this great country, and it is because of 
the opportunities that I received as an immigrant and how I 
feel about this country that has led me to give back, run for 
Congress, and come here to fight to reduce the cost of 
healthcare, protect our communities from gun violence, and act 
on climate change.
    I did not come to impeach the President. But this President 
has violated the rule of law. The evidence is overwhelming that 
the President withheld military aid approved by Congress and 
leveraged a White House meeting in order to extract a personal 
and political favor from a foreign government.
    You see, what the President wanted was the announcement of 
an investigation into his political opponent to help in his 
reelection campaign. One of our most fundamental rights, the 
right to a free and fair election, was threatened.
    In an attempted coverup, he instructed his administration 
to ignore legally binding congressional subpoenas, and he has 
done all of this to benefit himself personally, not to benefit 
the country.
    It is undeniable that this President has violated his oath 
of office, abused his power, and obstructed Congress. This is a 
clear and present danger to the future of our democracy, a 
system of government that was a beacon of freedom for my family 
and for so many that have come here.
    Tonight, I ask all Americans to put their personal 
affections and their political affiliations aside and consider 
the long-term health of our democracy. It is what I have tried 
to do in reviewing all of the information and the testimony 
that is before this committee.
    I know that there are patriots and proud Americans in my 
district and all over the country--Republicans, Democrats, 
independents, some born here and others who chose to make their 
home here in America--who agree that we must put our democracy 
and Constitution first and who will come together in the most 
difficult times because we are all Americans.
    The issue we face now as a country as a result of this 
President's conduct is bigger than party and the Constitution 
has no partisan allegiance. We all agree that we cannot allow a 
President, this President or any future President, to abuse the 
power of the office.
    We cannot accept a President who says America first, but 
really puts his own interests before the country. We cannot 
accept a President who makes a show of hugging the American 
flag, but whose obstruction of Congress takes a big black 
sharpie on Article I of the Constitution.
    Therefore, understanding and having sworn an oath to the 
Constitution, I am faced on making a decision on impeachment. 
It is a determination that I must make for our children.
    It is for this reason that I must vote with my conscience, 
for my country and for my children, in support of these 
Articles of Impeachment. That is my duty as a Member of this 
body and that is my duty as a mother.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Ms. Escobar.
    Ms. Escobar. Thank you, Chairman.
    In moments of great tragedy Americans have always found a 
way to come together and to be unified, not as Republicans, not 
as Democrats, but as Americans.
    One only need look at the great tragedies that we have 
faced together to see that bearing out--natural disasters, 
terrorist attacks, our innumerable mass shootings. We have 
always found our way to come together again.
    And those of us who are elected leaders, who have the great 
fortune and responsibility to be elected leaders, we have a 
unique obligation to help Americans find their path to unity. 
We have a unique obligation to ensure that America triumphs 
over her challenges.
    My friends, today we face one of those great tragedies and 
it is a moment of truth for us. We have witnessed--and I will 
repeat--we have witnessed the President of the United States 
betraying his oath of office, inviting foreign countries to 
interfere in our election, and then covering up his wrongdoing 
to ensure that the American people don't know about it.
    This is not the first time that he has sought foreign 
interference. In fact, we only need to look at 2016, rewind the 
tape, and recall him saying: Russia, if you are listening.
    He invited a foreign adversary into our 2016 election and 
he has not stopped since. We witnessed him standing on the 
White House lawn as he called on Ukraine and then he called on 
China to also interfere in our elections, this time the 2020 
election.
    This is why this is called an ongoing threat, a crime that 
is in progress.
    This also isn't the first time that we have seen him 
obstruct Congress. I was shocked to hear the ranking member 
deny that the President of the United States has obstructed 
Congress when we have witnessed it time and again at 
unprecedented levels.
    The President of the United States has withheld documents, 
making sure that they don't see the light of day, prohibited 
witnesses from coming before Congress. He has even vowed to 
fight all the subpoenas, desperately attempting to keep 
Americans in the dark. He has even engaged in witness 
intimidation.
    But what is even worse than a President who violates his 
oath is the other tragedy: the tragedy of enablers who choose 
to look the other way, turn a blind eye and explain this 
wrongdoing away. They tell us to ignore what we have witnessed 
with our own eyes, ignore what we have heard with our own ears.
    When we should be unified in this moment, unified in 
confronting what the Framers warned us about, what our Founding 
Fathers feared, and to stand up for what brave patriots fought 
and died for, instead we have seen attacks against those 
patriots, we have seen blanket denials of the truth, and we 
have seen something absolutely terrifying. We have seen Russia 
be wildly successful, not just in the 2016 election, but in 
dividing us as Americans.
    My God, we have even seen the highest elected officials in 
this land parodying the same conspiracy theories fed by Putin, 
the same Russian talking points.
    The selling out of America's soul is all intended to 
protect one man, Donald Trump. Donald Trump is not for America. 
Donald Trump is for Donald Trump.
    As leaders we should be unified in protecting our Republic, 
a democracy that is far more fragile than we ever understood. I 
fear that the President was right when he warned us that he 
could shoot someone in the middle of 5th Avenue and not be held 
accountable by his supporters.
    If we do not proceed with impeachment, I am afraid that our 
democracy will cease to exist as we know it. Earlier, some of 
our Republican colleagues talked about how perilous, how 
politically perilous this moment is, and two of our freshman 
frontliners know that better than anyone. But that speaks to 
the courage that it takes to do the right thing.
    I pray tonight that all of our colleagues have the courage 
to do the right thing: defend our beloved America and uphold 
their oath of office.
    Mr. Chairman, I yield back.
    Chairman Nadler. The gentlelady yields back.
    Given the lateness of the hour, the committee will now 
stand in recess until 9 a.m. tomorrow morning, at which time we 
will call up the resolution for consideration.
    The committee now stands in recess.
    [Whereupon, at 10:33 p.m., the committee recessed, to 
reconvene at 9:00 a.m., Thursday, December 12, 2019.]






MARKUP OF H. RES. 755, ARTICLES OF IMPEACHMENT AGAINST PRESIDENT DONALD 
                                J. TRUMP

                      THURSDAY, DECEMBER 12, 2019

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The committee met, pursuant to call, at 9:03 a.m., in Room 
1100, Longworth House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries 
Cicilline, Swalwell, Raskin, Jayapal, Demings, Correa, Scanlon, 
Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-Powell, 
Escobar, Collins, Sensenbrenner, Chabot, Gohmert, Jordan, Buck, 
Ratcliffe, Roby, Gaetz, Johnson of Louisiana, Biggs, 
McClintock, Lesko, Reschenthaler, Cline, Armstrong, and Steube.
    Staff Present: Amy Rutkin, Chief of Staff; Perry Apelbaum, 
Staff Director and Chief Counsel; Aaron Hiller, Deputy Chief 
Counsel and Chief Oversight Counsel; Barry Berke, Counsel; Norm 
Eisen, Counsel; Arya Hariharan, Deputy Chief Oversight Counsel; 
James Park, Chief Constitution Counsel; Joshua Matz, Counsel; 
Sarah Istel, Counsel; Matthew Morgan, Counsel; Kerry Tirrell, 
Counsel; Sophia Brill, Counsel; Charles Gayle, Counsel; Maggie 
Coodlander, Counsel; Matthew N. Robinson, Counsel; Ted Kalo, 
Counsel; Priyanka Mara, Professional Staff Member; William S. 
Emmons, Legislative Aide/Professional Staff Member; Madeline 
Strasser, Chief Clerk; Rachel Calanni, Legislative Aide/
Professional Staff Member; Julian Gerson, Professional Staff 
Member; Anthony Valdez, Fellow; Thomas Kaelin, Fellow; David 
Greengrass, Senior Counsel; John Doty, Senior Advisor; Moh 
Sharma, Member Services and Outreach Advisor; John Williams, 
Parliamentarian; Jordan Dashow, Professional Staff Member; 
Shadawn Reddick-Smith, Communications Director; Daniel Schwarz, 
Director of Strategic Communications; Kayla Hamedi, Deputy 
Press Secretary; Kingsley Animley, Director of Administration; 
Tim Pearson, Publications Specialist; Janna Pickney, IT 
Director; Faisal Siddiqui, Deputy IT Manager; Nick Ashley, 
Intern; Alex Espinoza, Intern; Alex Thomson, Intern; Mariam 
Siddiqui, Intern; Catherine Larson, Intern; Kiah Lewis, Intern; 
Brendan Belair, Minority Staff Director; Bobby Parmiter, 
Minority Deputy Staff Director/Chief Counsel; Ashley Carren, 
Minority Chief Oversight Counsel; Danny Johnson, Minority 
Oversight Counsel; Jake Greenberg, Minority Oversight Counsel; 
Paul Taylor, Minority Chief Counsel, Constitution Subcommittee; 
Daniel Flores, Minority Chief Counsel, Antitrust Subcommittee; 
Ella Yates, Minority Member Services Director; Jon Ferro, 
Minority Parliamentarian; and Erica Barker, Minority Deputy 
Parliamentarian.
    Chairman Nadler. The Judiciary Committee will please come 
to order, a quorum being present.
    When the committee recessed yesterday, it had completed 
opening statements on the resolution about to be considered.
    Pursuant to notice under House Resolution 660, I now call 
up House Resolution 755, impeaching Donald John Trump, 
President of the United States, for high crimes and 
misdemeanors.
    Mr. Collins. Mr. Chairman, point of order.
    Chairman Nadler. The gentlemen will state his point of 
order.
    Mr. Collins. Mr. Chairman, I make a point of order against 
the consideration of this resolution on the grounds that the 
chairman willfully refused to schedule a properly demanded 
minority day of hearings, pursuant to clause 2(j)(1) of rule 
XI.
    Chairman Nadler. We will entertain that point of order once 
we have completed calling up the resolution.
    I now call up H. Res. 755, impeaching Donald John Trump, 
President of the United States, for high crimes and 
misdemeanors for purposes of markup and move that the committee 
report the resolution favorably to the House.
    The clerk will report the resolution.
    Ms. Strasser. H. Res. 755: Impeaching Donald John Trump, 
President of the United States, for high crimes and 
misdemeanors, in the House of Representatives, December 10, 
2019, Mr. Nadler submitted the following resolution, which was 
referred to the Committee on the Judiciary.
    Resolution Impeaching Donald John Trump, President of the 
United States, for high crimes and misdemeanors.
    Resolved, That Donald J. Trump, President of the United 
States, is impeached for high crimes and misdemeanors and that 
the following Articles of Impeachment be exhibited to the 
United States Senate:
    Articles of Impeachment exhibited by the House of 
Representatives of the United States of America in the name of 
itself and of the people of the United States of America, 
against Donald J. Trump, President of the United States of 
America, in maintenance and support of its impeachment against 
him for high crimes and misdemeanors.
    Article I: Abuse of Power.
    The Constitution provides that the House of Representatives 
``shall have the sole Power of Impeachment'' and that the 
President ``shall be removed from Office on Impeachment for, 
and Conviction of, Treason, Bribery, or other high Crimes and 
Misdemeanors.'' In his conduct of the office of President of 
the United States--and in violation of his constitutional oath 
faithfully to execute the office of the President of the United 
States and, to the best of his ability, preserve, protect, and 
defend the Constitution of the United States, and in violation 
of his constitutional duty to take care that the laws be 
faithfully executed, Donald J. Trump has abused the powers of 
the Presidency, in that:
    Using the powers of his high office, President Trump 
solicited the interference of a foreign government, Ukraine, in 
the 2020 United States Presidential election. He did so through 
a scheme or course of conduct that included soliciting the 
Government of Ukraine to publicly announce investigations that 
would benefit his reelection, harm the election prospects of a 
political opponent, and influence the 2020 United States 
Presidential election to his advantage. President Trump also 
sought to pressure the Government of Ukraine to take these 
steps by conditioning official United States Government acts of 
significant value to Ukraine on its public announcement of the 
investigations. President Trump engaged in this scheme or 
course of conduct for corrupt purposes in pursuit of personal--
--
    Mr. Chabot. Mr. Chairman, I would ask unanimous consent 
that the resolution be considered as read.
    Chairman Nadler. Given the significance----
    Ms. Lofgren. I object.
    Chairman Nadler. Objection is heard. The clerk will 
continue.
    Ms. Strasser. Personal political benefit. In doing so, 
President Trump used the powers of the Presidency in a manner 
that compromised the national security of the United States and 
undermined the integrity of the United States democratic 
process. He thus ignored and injured the interests of the 
Nation.
    President Trump engaged in the scheme or course of conduct 
through the following means:
    (1) President Trump--acting both directly and through his 
agents, within and outside the United States Government--
corruptly solicited the Government of Ukraine to publicly 
announce investigations into--
    (A) a political opponent, former Vice President Joseph R. 
Biden Jr.; and
    (B) a discredited theory promoted by Russia alleging that 
Ukraine--rather than Russia--interfered in the 2016 United 
States Presidential election.
    (2) With the same corrupt motives, President Trump--acting 
both directly and through his agents within and outside the 
United States Government--conditioned two official acts on the 
public announcements that he had requested--
    (A) the release of $391 million of United States taxpayer 
funds that Congress had appropriated on a bipartisan basis for 
the purpose of providing vital military and security assistance 
to Ukraine to oppose Russian aggression and which President 
Trump had ordered suspended; and
    (B) a head of state meeting at the White House, which the 
President of Ukraine sought to demonstrate continued United 
States support for the Government of Ukraine in the face of 
Russian aggression.
    (3) Faced with the public revelation of his actions, 
President Trump ultimately released the military and security 
assistance to the Government of Ukraine, but has persisted in 
openly and corruptly urging and soliciting Ukraine to undertake 
investigations for his personal political benefit.
    These actions were consistent with President Trump's 
previous invitations of foreign interference in United States 
elections.
    In all of this, President Trump abused the powers of the 
Presidency by ignoring and injuring national security and other 
vital national interests to obtain an improper personal 
political benefit. He has also betrayed the Nation by abusing 
his high office to enlist a foreign power in corrupting 
democratic elections.
    Wherefore President Trump, by such conduct, has 
demonstrated that he will remain a threat to national security 
and the Constitution if allowed to remain in office, and has 
acted in a manner grossly incompatible with self-governance and 
the rule of law. President Trump thus warrants impeachment and 
trial, removal from office, and disqualification to hold and 
enjoy any office of honor, trust, or profit under the United 
States.
    Article II: Obstruction of Congress.
    The Constitution provides that the House of Representatives 
``shall have the sole Power of Impeachment'' and that the 
President ``shall be removed from office on Impeachment for, 
and Conviction of, Treason, Bribery, or other high Crimes and 
Misdemeanors.'' In his conduct of the office of the President 
of the United States--and in violation of his constitutional 
oath faithfully to execute the office of the President of the 
United States and, to the best of his ability, preserve, 
protect, and defend the Constitution of the United States, and 
in violation of his constitutional duty to take care that the 
laws be faithfully executed--Donald J. Trump has directed the 
unprecedented, categorical, and indiscriminate defiance of 
subpoenas issued by the House of Representatives pursuant to 
its ``sole Power of Impeachment''. President Trump has abused 
the powers of the Presidency in a manner offensive to, and 
subversive of, the Constitution, in that:
    The House of Representatives has engaged in an impeachment 
inquiry focused on President Trump's corrupt solicitation of 
the Government of Ukraine to interfere in the 2020 United 
States Presidential election. As part of this impeachment 
inquiry, the Committees undertaking the investigation served 
subpoenas seeking documents and testimony deemed vital to the 
inquiry by various Executive Branch agencies and offices, and 
current and former officials.
    In response, without lawful cause or excuse, President 
Trump directed Executive Branch agencies, offices, and 
officials not to comply with those subpoenas. President Trump 
thus interposed the powers of the Presidency against the lawful 
subpoenas of the House of Representatives, and assumed to 
himself functions and judgments necessary to the exercise of 
the ``sole Power of Impeachment'' vested by the Constitution in 
the House of Representatives.
    President Trump abused the powers of his high office 
through the following means:
    (1) Directing the White House to defy a lawful subpoena by 
withholding the production of documents sought therein by the 
Committees.
    (2) Directing other Executive Branch agencies and offices 
to defy lawful subpoenas and withhold the production of 
documents and records from the Committees--in response to which 
the Department of State, Office of Management and Budget, 
Department of Energy, and Department of Defense refused to 
produce a single document or record.
    (3) Directing current and former Executive Branch officials 
not to cooperate with the Committees--in response to which nine 
Administration officials defied subpoenas for testimony, namely 
John Michael ``Mick'' Mulvaney, Robert B. Blair, John A. 
Eisenberg, Michael Ellis, Preston Wells Griffith, Russell T. 
Vought, Michael Duffey, Brian McCormack, and T. Ulrich 
Brechbuhl.
    These actions were consistent with President Trump's 
previous efforts to undermine United States Government 
investigations into foreign interference in the United States 
elections.
    Through these actions, President Trump sought to arrogate 
to himself the right to determine the propriety, scope, and 
nature of an impeachment inquiry into his own conduct, as well 
as the unilateral prerogative to deny any and all information 
to the House of Representatives in the exercise of its ``sole 
Power of Impeachment''. In the history of the Republic, no 
President has ever ordered the complete defiance of an 
impeachment inquiry or sought to obstruct and impede so 
comprehensively the ability of the House of Representatives to 
investigate ``high Crimes and Misdemeanors''. This abuse of 
office served to cover up the President's own repeated 
misconduct and to seize and control the power of impeachment--
and thus to nullify a vital constitutional safeguard vested 
solely in the House of Representatives.
    In all of this, President Trump has acted in a manner 
contrary to his trust as President and subversive of 
constitutional government, to the great prejudice of the cause 
of law and justice, and to the manifest injury of the people of 
the United States.
    Wherefore, President Trump, by such conduct, has 
demonstrated that he will remain a threat to the Constitution 
if allowed to remain in office, and has acted in a manner 
grossly incompatible with self-governance and the rule of law. 
President Trump thus warrants impeachment, trial, removal from 
office, and disqualification to hold and enjoy any office of 
honor, trust, or profit under the United States.
    [The resolution follows:]
    
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. Thank you. The gentleman will now state 
his point of order.
    Mr. Collins. Thank you, Mr. Chairman.
    Again, as I have made the point of order on this minority 
hearing day. The chairman was furnished with the demand signed 
by all Republican members of the committee during the 
impeachment hearing held on December the 4th. The chairman has 
refused to respond to multiple additional requests that that 
hearing be scheduled, and at one point actually telling me--if 
I actually responded to this--that we will rule with it today.
    Well, we are here today. And it is a farce that we are 
having to rule on this today, because there is no other time. 
We are actually taking up the articles today. So the rule is 
not super--and by the way, this rule is not superseded by any 
portion of H. Res. 660. That could have been done by the 
majority, but they were too busy in a hurry to get H. 660 to 
the floor, that after discussing this they chose not to exempt 
the minority hearing day. This could have been done. They chose 
not to. Now we are not having it. So I continue my point of 
order.
    Chairman Nadler. If I understand the gentleman's point of 
order, he asserts we are violating clause 2(j)(1) of House Rule 
XI by conducting this markup before we have held the hearing 
that the minority members requested on December 4th.
    In my view, the gentleman is claiming a broader privilege 
than clause 2(j)(1) actually provides the minority. The 
minority has asked for a day of hearings on the matter of the 
December 4th hearing, which was the constitutional grounds for 
impeachment.
    I am willing to work with the minority to schedule such a 
hearing, but not before today's markup of the Articles of 
Impeachment. The House Rule does not require me to schedule a 
hearing on a particular day nor does it require me to schedule 
the hearing as a condition precedent to taking any specific 
legislative action. Otherwise, the minority would have the 
ability to delay or block majority legislative action, which is 
clearly not the purpose of the rule.
    I have reached this conclusion after reviewing the plain 
text and legislative history of the House rule, after 
considering prior precedent and committee practice, and after 
consulting with parliamentary authorities and the Congressional 
Research Service.
    I believe my scheduling decision in this case is reasonable 
for several reasons: First, the minority's views have not been 
shut out. The legislative history of the minority day rule 
shows that it was written to prevent the committee majority 
from preventing the minority position from being represented in 
a hearing.
    As the report from the Joint Committee on the Organization 
of Congress in 1966 explains: It is normal procedure for 
witnesses representing both sides of the issue to give 
testimony at committee hearings. In those infrequent instances 
when witnesses representing the minority position are not 
allotted time, a minimum safeguard should exist to protect 
minority rights, unquote. Of course, that did not happen at the 
December 4th hearing. The minority had a witness at the 
hearing, Professor Turley, who ably represented their position 
and was afforded ample time to discuss that position. Rather 
than being shut out, the minority simply did not get as many 
witnesses as they would have preferred, but that is not the 
purpose of the House rule.
    Second, the minority and the President have special 
protections under House Resolution 660. The procedures provided 
under House Resolution 660 give the President and the minority 
a variety of special privileges to present evidence and 
subpoena witnesses. Thus, there are alternative procedures 
under H. Res. 660 by which witnesses can be requested and even 
subpoenaed, but they have not been exercised.
    Third, there is no precedent for the use of minority days 
to delay committee legislative or impeachment proceedings. It 
is clear from the legislative history that the minority day 
rule is not intended to delay legislative activity. Again, as 
the Committee on the Organization of the Congress explicitly 
explained: We do not look upon this rule as an authorization 
for delaying tactics, unquote.
    The minority day rule was made part of the House rules in 
1971, but it was not invoked in either the Nixon or Clinton 
impeachments. As a matter of fact, the only precedent I am 
aware of in the context of impeachment took place several weeks 
ago in the Intelligence Committee. There, the minority also 
requested a day of hearings, even though they also had 
witnesses participate in their proceedings. The minority 
ultimately did not raise a point of order. While they did offer 
an amendment claiming that the minority day rule had been 
violated, that amendment was rejected by the committee. Thus, 
there is no precedent, no precedent supporting the gentleman's 
point of order, and the one precedent we have indicates that a 
point of order does not lie to delay consideration of Articles 
of Impeachment.
    Finally, past Judiciary Committee practice and precedent do 
not support the gentleman's point of order. Last year, a number 
of other members and I sent then-Chairman Goodlatte a minority 
day request. The chairman never responded to our request and 
never scheduled a hearing. I don't believe a single member of 
the then majority argued in favor of us being granted a hearing 
under the rules.
    Back in 2005, then-Chairman Sensenbrenner scheduled the 
minority day hearing, but cut off witnesses, shut off the 
microphones, shut off the lights and abruptly ended the hearing 
while members were seeking recognition to speak. Again, no one 
in the then majority argued in favor of protecting our rights. 
As a result, there is no committee practice or precedent 
supporting the gentleman's point of order.
    For all the foregoing reasons, I do not sustain the point 
of order.
    Mr. Collins. Mr. Chairman.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Collins. I think it is very obvious by, one, the length 
of the chairman's answer to my question that this has struck a 
nerve, seeing how the chairman himself says it in his own words 
from previous times. The chairman: It is not the chairman's 
right to decide whether prior hearings are sufficient or the 
chairman's right to decide whether he thinks they are 
acceptable or the chairman's right to violate the rules in 
order to interfere.
    It is interesting to me that this time has become the 
issue. And a point of order.
    Chairman Nadler. I have made my ruling on the point of 
order, and would the gentleman wish to appeal the ruling of the 
chair?
    Mr. Collins. I would like for the sake of history----
    Chairman Nadler. Does the gentlemen wish to appeal----
    Mr. Collins. I would like for the sake of history the 
chairman take one more minute.
    Chairman Nadler. Does the gentleman wish to appeal the 
ruling of the chair, yes or no?
    Mr. Collins. Yes. Obviously, we're on a clock and calendar 
with impeachment again, because the chairman is doing this 
again.
    Chairman Nadler. The appeal of the ruling of the Chair is 
not sustained.
    Ms. Lofgren. I would move to table.
    Mr. Collins. Did you actually call for a vote? How is it 
not sustained? You didn't call for a vote.
    Chairman Nadler. I sustain the point of order.
    Mr. Collins. I call for an appeal of the ruling of the 
chair. Now call for a vote.
    Ms. Lofgren. I move to table.
    Chairman Nadler. I ruled that the point of order is not 
well-taken.
    Mr. Collins. Well, that is painfully obvious. I have 
appealed the ruling of the chair.
    Ms. Lofgren. And I move to table.
    Chairman Nadler. The gentleman has appealed the ruling of 
the chair. The gentlelady has moved to table the appeal of the 
ruling of the chair. The motion to table is not debatable.
    All in favor of the motion to table, say aye.
    Opposed, no. The appeal of the ruling of the chair is 
tabled.
    We will now proceed to amendments.
    Mr. Collins. Roll call.
    Chairman Nadler. The gentleman asked for roll call on the 
motion to table the appeal of the ruling of the chair.
    The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Yes.
    Ms. Strasser. Ms. Lofgren votes yes.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Yes.
    Ms. Strasser. Ms. Jackson Lee votes yes.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Yes.
    Ms. Strasser. Mr. Richmond votes yes.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has everyone voted who wishes to vote? The 
clerk will report.
    Ms. Strasser. Mr. Chairman, there are 23 ayes and 17 noes.
    Chairman Nadler. The appeal of the ruling of the chair is 
tabled.
    We will now proceed to amendments. The clerk will read the 
first section of the resolution.
    Ms. Strasser. H. Res. 755, Impeaching Donald John Trump, 
President of the United States, for high crimes and 
misdemeanors. In the House of Representatives December 10, 
2019, Mr. Nadler submitted the following resolution; which was 
referred to the Committee on the Judiciary.
    Resolution. Impeaching Donald John Trump, President of the 
United States, for high crimes and misdemeanors.
    Resolved, That Donald J. Trump, President of the United 
States, is impeached for high crimes and misdemeanors and that 
the following Articles of Impeachment be exhibited to the 
United States Senate:
    Articles of Impeachment exhibited by the House of 
Representatives of the United States of America in the name of 
itself and of the people of the United States of America 
against Donald J. Trump, President of the United States of 
America, in maintenance and support of its impeachment against 
him for high crimes and misdemeanors.
    Chairman Nadler. I now recognize myself for purposes of 
offering an amendment in the nature of a substitute.
    The clerk will report the amendment.
    Ms. Strasser. Amendment in the nature of a substitute to H. 
Res. 755, offered by Mr. Nadler of New York. Strike all that 
follows after the resolving clause and insert the following----
    Chairman Nadler. Without objection, the amendment shall be 
considered as read.
    [The amendment of Chairman Nadler follows:]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. Without objection, the amendment shall be 
considered as base text for further amendment.
    I will now recognize myself to explain the amendment in the 
nature of a substitute.
    This amendment makes a minor change. In certain places, 
where the underlying resolution refers to Donald J. Trump, the 
amendment refers to Donald John Trump. Otherwise, it makes no 
changes to the resolution. I urge all of my colleagues to 
support it.
    I now recognize the Ranking Member, the gentleman from 
Georgia, Mr. Collins, for any comments he may have on the 
amendment.
    Mr. Collins. Thank you, Mr. Chairman.
    The amendment in the nature of a substitute is absolutely 
irrelevant. Taking Donald J. Trump and making it Donald John 
Trump just simply shows the, frankly, absurdity of where we are 
at. And today we are going to spend plenty of time, for you 
listening here. We are going to talk about this amendment in 
the nature of a substitute. We are going to talk about the 
factual basis that have absolutely no factual underpinning to 
impeach this President.
    But I am going to go back for just a minute, since I didn't 
have time and had to sit through a well-rehearsed, many-days-
put-together explanation on why what will be known in 2019, 
outside of the fact that this committee finally accomplished 
its goal after the chairman stated he wanted to since November 
last year, impeach this President, what will be known by this 
committee from here on out is that this committee has now 
sounded the death of minority rights in this committee. This 
committee has become nothing but a rubber stamp. This committee 
is amazingly now on such a clock and calendar process that they 
don't care. Facts be damned. They don't care. They don't care 
that we had one witness out of three. When I asked for a second 
witness, I was told I couldn't. Even though there had been 
staff conversations well before, I was told I was asking too 
late. One witness out of two panels, that is all we had of fact 
witnesses.
    This is a just travesty and a sham from day one. I could 
talk till I am blue in the face, but nobody on the majority 
cares. But the spot that is left by what has just happened will 
resonate over the years. It will resonate over the years in the 
sense that there is no fact that we can come to. They had no 
desire to hear any fact witnesses outside of their own train-
driven clock/calendar impeachment.
    For the chairman himself, who vehemently fought for a 
minority hearing day, to sit there and read that is an amazing 
statement and a crushing blow to this committee. There is no 
way to recover from that. In fact, there may be. I wonder if 
the chairman would join me in making sure that the Rules 
Committee next week, they don't waive the point of order 
against this, but I know they will.
    That is why they are going to take it, because I guarantee 
you, when you look into it further, this point of order would 
be sustained against these impeachment articles, so they are 
going to have to waive them next week. Watch and see. They will 
waive this point of order and waive any other point of order on 
these articles by the time it comes to the floor.
    Some of you may say, the ranking member talks about 
process. The ranking member talks about process. The ranking 
member talks about process, never the foundation. Believe me, 
we will inundate you with the facts, and I have already. Some 
of you just don't choose to report them.
    What is important and for many who report on this body and 
for many who have sat in this body and for those who have 
served in this body, the members who have gone before and the 
people who have set this committee up and the people who have 
set our Congress up are the ones right now that should be 
hanging their head in shame.
    We had two hearings, none of which featured fact witnesses. 
There is not a Democrat in this room that should be happy about 
this. The solemnity, the solemnity should be on the death of 
this committee's process and procedures. Don't give me the 
solemnity about impeaching a President. You have been wanting 
to do that for a long time. You ought to take it and just 
rejoice. Go at it, because this is what you wanted.
    But when it comes to the hearing, when it comes to the 
minority rights, when it comes to one that in which we have 
seen time after time after time in which I have had to write 
this chairman multipage letters on the abuse of procedural 
issues in this committee, this is a travesty.
    Write about it if you want, talk about it if you want, but 
the American people see it, because the American people 
understand inherently fairness. They understand due process. 
Why? Because it is what America was based on. It is what 
America takes pride in. And when we don't have it, nobody can 
have it. When we don't have fairness in this committee, how can 
they stand up and say, on the two weakest Articles of 
Impeachment in the history of this country, honestly with a 
straight face look at the American people and say, we did good. 
No, you didn't. You stained this body. You have taken this 
committee and made it a rubber stamp.
    Did any of the majority run to be a rubber stamp to get the 
majority? I know the minority on this side did not. You know 
why we have become a rubber stamp? Because my chairman said so 
20 years ago. He said so 20 years ago when he said: If the 
committee only accepts what other people give them and do not 
on their own verify it and thoroughly vet it, then we are 
nothing but a rubber stamp.
    Mr. Chairman, you should have run for chairmanship I 
believe more than to be a rubber stamp for Mr. Schiff and Ms. 
Pelosi. We already knew this committee was overrun and 
overtaken, because Mr. Schiff and Ms. Pelosi took it from us 
earlier this year. There is the first embarrassment. And the 
rest of it has been an embarrassment since.
    So as we look at this and as we go forward, we will have 
plenty of time to show the complete farce of substance, but, 
Mr. Chairman, what will live from this day is your ruling and 
the majority's ruling of minority rights are dead in this 
Congress and especially this committee.
    I yield back.
    Chairman Nadler. The gentleman yields back. Are there any 
amendments to amendment in the nature of a substitute?
    Mr. Deutch. Mr. Chairman, move to strike the last word.
    Chairman Nadler. For what purpose does Mr. Deutch seek 
recognition?
    Mr. Deutch. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. Mr. Chairman, I cannot allow the ranking member 
to mischaracterize your description of the history of this 
committee. It may be inconvenient for the ranking member to be 
forced to listen to the history of this committee and why 
everything that you just laid out is so important to the 
continuing of this committee representing and recognizing, 
respecting minority rights, but he chooses not to, so I am 
going to restate it again.
    I appreciate the ranking member for acknowledging that they 
had the opportunity to call witnesses, and that is consistent 
with the rules. But to then turn around and suggest that the 
rules are being trampled, the rules are dead, ignores 
everything that you just laid out. Fifty, more than 50 years 
ago, more than 50 years ago, the Joint Committee on the 
Organization of Congress made clear in their report to the 
House and Senate that it is normal procedure for witnesses 
representing both sides of the issue to give testimony at 
committee hearings. And that is where the rule comes from.
    And that is what has happened. The ranking member 
acknowledged it. He would have liked more witnesses, but there 
is no right to a separate day. The rule makes clear they have 
the right to call witnesses, and there were witnesses called. 
There were witnesses called, minority witnesses on December 
4th. On December 9th, the minority's witness Mr. Castor 
presented evidence and gave opening statements.
    And it is worth pointing out to my colleagues on the other 
side that we invited the President of the United States to the 
December 4th hearing to advocate for his views, to submit 
requested witnesses, but he chose not to attend and he chose 
not to suggest any witnesses. So, before telling us the sky is 
falling and there is great disrespect for the rules, it is 
important to actually look at the rules.
    Mr. Collins. Did the gentleman just say I didn't request 
witnesses? That is wrong.
    Chairman Nadler. The gentleman has the time.
    Mr. Deutch. I thank the chairman.
    What I said is that the President was given the opportunity 
on December 4th to present himself. He was also given the 
opportunity to present witnesses, and he did not. So let's be 
careful in the way we suggest that rules are being violated 
when everything that is being done here is consistent with more 
than 50 years of interpretation of the rules and the very 
essence of why the rule was put together in the first place. So 
it is important. Facts really do matter. And I am not--we are 
not going to allow the minority to misinterpret the rules for 
their own benefit or to suggest that the history is irrelevant. 
It matters a lot. That is what has made this committee and this 
institution great.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Are there any amendments to the amendment in the nature of 
a substitute?
    Mr. Jordan. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Jordan seek 
recognition?
    Mr. Jordan. I have an amendment at the desk.
    Chairman Nadler. The clerk will report the amendment.
    Ms. Lofgren. I reserve a point of order.
    Chairman Nadler. The gentlelady reserves a point of order.
    Ms. Strasser. Amendment to the amendment in the nature of a 
substitute to H. Res. 755, offered by Mr. Jordan of Ohio. Page 
1, beginning on line 12, strike article I (and redesignate the 
succeeded article accordingly.)
    [The amendment of Mr. Jordan follows:]
    
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The gentleman is recognized for the 
purpose of explaining his amendment.
    Mr. Jordan. Thank you, Mr. Chairman.
    This amendment strikes Article I.
    Ms. Lofgren. I withdraw my point of order.
    Mr. Jordan. This amendment strikes Article I because 
Article I ignores the truth. Four facts, five meetings. We have 
talked about it now for 3 months. We have known that there have 
been four facts that have not changed, will not change, will 
never change, and we have known it since September 25th, when 
the call transcript was released.
    The call transcript shows no quid pro quo. What is 
interesting is the day the transcript came out, even Chairman 
Nadler said there was no quid pro quo in the call transcript. 
We know, second, that the two individuals on the call, 
President Zelensky, President Trump, have both said no 
pressure, no pushing, no linkage whatsoever between security 
assistance money and any type of announcement of an 
investigation. We know that the Ukrainians knew at the time of 
the call--didn't know at the time of the call that the aid had 
been held up. And, most importantly, most importantly, we know 
the Ukrainians took no action, no start of an investigation, no 
promise to start an investigation, no announcement on CNN, via 
tweet, no announcement whatsoever that there was going to be 
any type of investigation into Burisma or the Bidens to get the 
aid released. Those four facts, those four facts have never 
changed.
    Second, five key meetings that took place between July 
18th, when the aid was paused, September 11th, when the aid was 
released, five key meetings. We have the phone call July 25th, 
which you just described. Second, the very next day, the very 
next day we have Ambassadors Volker, Sondland, Taylor meeting 
with President Zelensky. Third, Ambassador Bolton met with 
President Zelensky on August 29th. Fourth, Vice President Pence 
met with President Zelensky on September 2nd and 5th. On 
September 5th, we have bipartisan Senator, Senator Johnson, 
Senator Murphy meeting with President Zelensky.
    In none of those five meetings, none, did linking dollars, 
security assistance dollars to an investigation come up, never 
came up. And you would think in the last two, you would think 
in those last two, after they knew on August 29th via the 
Politico article that they knew the aid was held, you would 
think it would have come up in those last two meetings, but it 
didn't come up. Four facts, five meetings, have never changed.
    Article I in this resolution ignores the truth. It ignores 
the facts. It ignores what happened and what has been laid out 
for the American people over the last 3 weeks. So I hope that 
this committee will come to its senses, that it will adopt the 
amendment and strike Article I from the resolution.
    With that, Mr. Chairman, I yield back.
    Mr. Cicilline. Mr. Chairman.
    Ms. Lofgren. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentleman yields back.
    I now recognize Mr. Cicilline in opposition to the 
amendment.
    Mr. Cicilline. Thank you, Mr. Chairman. I move to move to 
strike the last word.
    Mr. Chairman, this amendment attempts to strike Article I 
in its entirety, so I am going to go through the evidence that 
was actually developed during the course of this investigation, 
and particularly first begin with the focus on the President's 
own conduct.
    The President of the United States hired Rudy Giuliani, his 
personal lawyer, to go to Ukraine and lead this scheme to smear 
Vice President Biden. He then began a campaign personally to 
smear Ambassador Yovanovitch and then ultimately directed that 
she be fired to clear the way of this anticorruption champion 
so that his scheme could be fully implemented. He directed a 
hold on the military aid to Ukraine, and no one could provide 
any other explanation unrelated to his scheme to pressure them 
to interfere in the 2020 election.
    Then the President, in his own words, on July 25th gets on 
the telephone and asks President Zelensky for a favor, to begin 
an investigation of his chief political rival, former Vice 
President Joe Biden. There is a readout of the call in 
evidence, which is the detail of this conversation. There is 
direct evidence from Alexander Vindman, Ms. Williams, Mr. 
Morrison, who listened in on and heard the President utter 
those words right out of his own mouth, pressuring a foreign 
leader to corrupt our elections.
    The President then made admissions in public on October 
2nd, October 3rd, and October 4th, then invited another foreign 
power, China, to interfere in the American Presidential 
election. His chief of staff acknowledged that the President 
directed him to put this unexplained hold on aid to Ukraine.
    The President directed the Vice President not to attend the 
inauguration of President Zelensky, because he hadn't yet got 
what he was demanding, a public announcement intended to damage 
his political opponent.
    Ambassador Sondland testified that the Ukrainians were 
told, and I quote, ``the resumption of U.S. aid would likely 
not occur until Ukraine provided the public anticorruption 
statement that we have been discussing for many weeks.'' And 
then he testified he spoke with President Trump, and while the 
President claimed there was no quid pro quo, he made it clear 
that President Zelensky must publicly announce the two 
investigations that President Trump discussed on July 25th in 
the call in order for the security assistance to be lifted. 
That is direct evidence.
    But in addition to that, and those are just some of the 
highlights, there are over 260 text messages. There are call 
transcripts, as I mentioned, of the President's own words. 
There are emails between high-ranking officials of the Trump 
administration, hundreds of press statements, interviews, and 
tweets by the President and his personal attorney, Rudy 
Giuliani, corroborating their desire to pursue investigations 
of Vice President Biden prior to the 2020 elections.
    I am going to give the committee a couple of just examples. 
President Trump himself on October 2nd said, and I quote: And 
just so you know, we have been investigating, on a personal 
basis through Rudy and other lawyers, corruption in the 2016 
election.
    On July 19th, Ambassador Sondland emails multiple high-
ranking officials that he, quote, talked to Zelensky, and he, 
quote, is prepared to receive POTUS' call and will state that 
he will turn over every stone of the investigations.
    On July 19, 2019, in addition to the email, Ambassador 
Sondland texts Ambassador Volker and makes the same thing 
clear. Sondland: Looks like POTUS call tomorrow. I spoke 
directly to Z and gave him full briefing. He has got it.
    Volker: Had breakfast with Rudy this morning. Teeing up a 
call with Yermak Monday. Must have helped. Most important is 
for Zelensky to say that he will help investigate and address 
any specific personnel issues if there are any.
    On August 8th, Ambassador Sondland and Ambassador Volker 
text about POTUS wanting the deliverable, meaning that for 
Ukraine to get the White House meeting, Zelensky needs to 
announce the investigation.
    Sondland says, and I quote: Morrison is ready to get dates 
as soon as Yermak confirms.
    Volker responds: Excellent, how did you sway him?
    Sondland responds: Not sure I did. I think POTUS really 
wants the deliverable.
    Volker asks: But does he know that?
    Sondland says: Yep, clearly lots of conversations going on.
    August 16th, Ambassador Taylor and Volker discuss Ukraine's 
concern that President Trump was not using official channels, 
like the Department of Justice, to request investigations.
    Taylor texts Ambassador Volker: The person who asked for an 
official request was Yermak?
    Volker replies: Yes, but don't cite him.
    Taylor: I won't. You are right. This is not good. We need 
to stay clear.
    And on August 22nd, Ambassador Sondland emailed Secretary 
of State Mike Pompeo and others to make clear that to break the 
logjam, meaning releasing the military aid, President Zelensky 
would have to, quote, move forward on the issues of importance 
to Trump, again meaning the investigations. And the list goes 
on and on.
    So this claim that this is the thinnest of evidence is 
simply not true. There is overwhelming evidence of the 
existence of a scheme led by the President, led by his personal 
lawyer, Rudy Giuliani, to corrupt the American elections, to 
continue to withhold military aid until such time as a public 
announcement was made that would smear the President's chief 
political rival.
    And, with that, Mr. Chairman, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mrs. Lesko seek recognition?
    Mrs. Lesko. Thank you, Mr. Chair. Move to strike the last 
word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Lesko. You know, Mr. Chair, it really quite disturbed 
me when you again rejected the rule of the House that said that 
we, as the minority, were--it says in the rules that you 
require--require--that you set a date for a minority hearing.
    And the reason that this is important is because the rules 
have been thrown out the window here on this process. In fact, 
I just can't believe it. I mean, first of all, you have an 
unprecedented way of doing impeachment. You don't go through 
the Judiciary Committee, like has been done in previous 
impeachments.
    Instead, Speaker Pelosi hands it over to Adam Schiff, Adam 
Schiff, the Intelligence Committee chair, where he has these 
closed-door hearings in the basement. I was denied several 
times--several times--the right to go in and hear what these 
fact witnesses said. Yet I am supposed to vote on this today. 
And we have not had one single fact witness here in this 
committee at all.
    And then I hear from my Republican colleagues that were on 
the Intelligence Committee that Republicans were refused to 
have any of their witnesses in that committee. And then, on top 
of that, Republicans were told--interrupted, silenced by 
Chairman Schiff when they tried to ask witnesses questions. 
They said to the witness: Don't answer that.
    I mean, and so now, here in Judiciary Committee, we are 
supposed to vote on something when we haven't even heard 
directly from any fact witnesses. All we heard from was a bunch 
of liberal law professors that you called here that have a 
known record of disliking President Trump, and then you had 
staff talk to us.
    And then, again, here in this committee, our Republican 
members asked for witnesses so that we can ask questions to get 
out the truth, at least let us say our side of the story. But 
no. And so then we turn to, okay, under the House rules it says 
you are required to set a minority hearing so that we can at 
least call witnesses, so we can get some truth out to the 
American public instead of this one-sided sham.
    But no, here again, I think you said right here, no, we are 
not going to do that. I will consider a date in the future that 
you can have a minority hearing. For goodness' sakes, we are 
voting on this today. It is no good to have a date in the 
future. Then it is done. You have already put through this.
    I mean, it just continues to amaze me how corrupt, how 
unfair this process has been from the start. I mean, for 
goodness' sakes, you had 17 out of 24 of my Democratic 
colleagues that have already voted on the House floor to 
continue with Articles of Impeachment.
    It was Mr. Green who put a resolution on the floor, 
Articles of Impeachment. It was July 17th. And then there was a 
vote to table it. And they voted against the tabling, meaning 
they wanted to go ahead with Articles of Impeachment. That was 
even before the July 25th call.
    I mean, come on. This is a predetermined--you guys have 
been wanting to impeach this President since he got elected. 
Fact after fact after fact. I know that some of you really 
think the President did something wrong, but the fact is none 
of your witnesses, none of your fact witnesses were able to 
establish any evidence of bribery, treason, high crimes or 
misdemeanors, not one single one, and that is what it says has 
to be done in the Constitution.
    So, again, I believe the President of the United States is 
right. This is a sham impeachment, and it sure is a shame.
    And I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Neguse seek recognition?
    Mr. Neguse. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Neguse. Thank you, Mr. Chairman.
    And with much respect to my colleagues on the other side of 
the aisle, it is difficult to follow some of these arguments. I 
have heard very little in the way of any substantive defenses 
of the President's conduct, but instead focus again on some 
very farcical process arguments, in my view.
    And I am compelled to respond to at least one of those, 
which is this notion about the closed-door depositions, 
because, as I understand it from reading these transcripts, 
many minority members were present and granted equal time to 
question witnesses brought before the Intelligence Committee, 
the Foreign Affairs Committee, and the Government Oversight 
Committee. Some of those members are actually on this 
committee. So I struggle to understand the objections in that 
regard.
    The idea that the Intelligence Committee's investigation 
was not sufficiently transparent, in my view, also rings 
hollow, because, as we know, the transcripts from those 
interviews and those depositions have been released. I know I 
have reviewed them. I suspect many of my colleagues have as 
well. And if you did not review those transcripts, you surely 
watched the live testimony of Ambassador Sondland, Lieutenant 
Colonel Vindman, and so many other public servants over the 
course of many weeks as millions of Americans watched along 
with us.
    So, again, I understand that we are going to have a robust 
debate about the legal standards that govern the inquiry that 
is before us and the decision we make on these articles, but 
let us stay true to the facts, and let's dispense with these 
process arguments and get to the substance of why we are here 
today.
    I will also just say historical context matters. I was not 
on the Judiciary Committee in 1999 and 1998, but my 
understanding is, at that time, the Judiciary Committee did not 
examine any fact witnesses during the Clinton impeachment 
inquiry. I know there are members of this committee that were 
here at that time, and they are well aware that they did 
question Ken Starr and then afterwards had hearings with legal 
experts to expound upon the legal standards that would define 
the decision before the committee.
    I would also say that, during the Nixon impeachment 
inquiry, the examination of witnesses, fact witnesses rather, 
was conducted exclusively behind closed doors in July of 1974.
    So, unlike both the Nixon inquiry as well as the Clinton 
inquiry, the House Intelligence Committee's hearings featured 
testimony from a dozen witnesses in open hearings, subject to 
public examination by Republican members and counsel.
    Facts matter, and I hope that each and every one of us 
would agree at least on that simple point.
    And, with that, I would----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Neguse. I would yield to the distinguished member from 
California, Ms. Lofgren.
    Ms. Lofgren. I would just like to note, going back to the 
analogy to the Nixon impeachment, the gentleman is correct that 
there was really no public presentation in the Judiciary 
Committee. There were some, quite a few depositions that were 
private. But there was a lot of public testimony. It wasn't 
before the Judiciary Committee; it was before the Senate 
Watergate Committee. As you will recall, the President's 
counsel, John Dean, appeared and testified that there was a 
cancer on the Presidency and a number of other--the revelation 
that there was a recording system in the White House. All of 
that happened in the Senate. And the fact that it happened in 
the Senate didn't mean that the Judiciary Committee didn't know 
about it. I mean, the whole country knew about it and took 
notice of it.
    There are only a few members of us, of this committee that 
were on the Judiciary Committee during the Clinton impeachment. 
I was one of them. Ms. Jackson Lee and Mr. Nadler were, as well 
as Mr. Sensenbrenner and the gentleman from Ohio.
    We had a report from Mr. Starr. I remember it very well. 
But we didn't have extensive fact witnesses. We had the report. 
We had evidence over in the Ford Building that we could go over 
and look at privately. I did. A number of Members did. But the 
gentleman has correctly summarized the situation.
    I would yield back to the gentleman.
    Mr. Neguse. I would yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Sensenbrenner seek recognition?
    Mr. Sensenbrenner. Mr. Chairman, I move to move to strike 
the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. Mr. Chairman, I think it is obvious, you 
know, to all the American public that this is a railroad job. 
Things have been going quickly, but I think the real key is, is 
that with all of the denials of minority requests, both here 
and in the Intelligence Committee, the Republicans and the 
President have not been able to put on live witnesses to be 
able to basically put together a defense.
    And if you are going to have a trial, you have to have both 
a prosecution and a defense. Here we don't have a defense, 
because of the rulings that have been made, one of which was 
made just a few minutes ago by the chairman of this committee.
    Now, let me say, first of all, the hearings that were in 
the basement of the Capitol were secret hearings. They were 
classified hearings. None of the members who were in that 
hearing room could ethically go out and tell the public and the 
news media exactly what was said there. And they probably could 
have been held before the Ethics Committee or worse if they 
attempted to do that. There were leaks that came out of there, 
I grant you that, but none of the members could.
    The other point is, is that the vast majority of members of 
the Judiciary Committee, which has ultimate jurisdiction over 
all proposed impeachments, were not members of the three other 
committees and were not allowed to go into the basement of the 
Capitol hearing room to listen to what was going on and to see 
those live witnesses.
    There were a number of my colleagues on the other side of 
the aisle, including Mrs. Lesko and Mr. Gaetz, that attempted 
to do that, and Chairman Schiff kicked them out or wouldn't 
allow them to go in there.
    Now, when you have a trial, you really cannot make a 
determination on exactly whether the witnesses are telling the 
truth or exaggerating or mixing it up or spinning it some way 
or the other without looking at them in person. We don't have 
that opportunity. There were a few select witnesses that were 
in the public hearings over in the Intelligence Committee a 
couple of weeks ago, but the Intelligence Committee does not 
have the jurisdiction on whether to recommend the impeachment 
of anybody, let alone the President of the United States.
    Now, you know, we have heard complaints about the fact 
that, in the Clinton impeachment, there were no fact witnesses. 
Mr. Chabot and I were there, as were Ms. Lofgren, Ms. Jackson 
Lee, and the chairman. And what happened there is that both 
sides were allowed to present whatever witnesses they wanted 
to. Kenneth Starr did all of the grunt work in putting together 
the facts. He sent over 36 boxes of evidence, which were put 
over into the Ford Building. That has not happened here.
    The independent counsel that was appointed to look into 
what President Trump has done, Mr. Mueller, came and testified, 
and that ended up being a big fizzle, you know, for what the 
Democrats wanted to do. So much of the Mueller stuff, after his 
testimony and the cross-examination by members on both sides of 
the aisle, ended up disappearing into outer space. So they had 
to find something else.
    Now, let me say that everybody on both ends of the 
telephone call between President Trump and President Zelensky 
has said very clearly there was no quid pro quo offered. There 
was no pressure that was put on the Ukrainians. I don't know 
how many times President Zelensky has had to say that. 
Apparently, it is not enough, because minds on the other side 
of the aisle are closed, but that is what the facts are.
    And the facts, again, speak for themselves. There was no 
impeachable offense here. And that is why Article I of the 
impeachments ended up falling flat on its face and that it 
should be stricken, and I support the amendment to strike it 
from the gentleman of Ohio and yield back.
    Chairman Nadler. The gentleman yields back.
    The gentlelady, for what purpose does the----
    Mr. Sensenbrenner. I yield to the gentleman from Georgia
    Chairman Nadler. The gentleman is recognized----
    Mr. Collins. Real quickly. Also, Ken Starr sent those over 
before the hearings began too, correct?
    Mr. Sensenbrenner. Yes.
    Mr. Collins. We didn't get a letter in the middle of 
hearings saying, ``Oh, by the way, we just got a document dump 
on the weekend,'' and where the chairman told me, ``Well, we 
are not going to be able to read them anyway.''
    Chairman Nadler. The gentleman's time has expired.
    For what purpose does Ms. Jackson Lee seek recognition?
    Ms. Jackson Lee. Move to strike the last word, Mr. 
Chairman.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jackson Lee. I think before I begin to comment on the 
discussion here that it is important to remind all of us that 
the President abused his power and is a continuing threat not 
only to democracy but to our national security. We do not take 
it lightly. We take it very seriously.
    And I beg to differ with my dear friend. As one who was 
here for the impeachment proceedings in 1998, along with my 
colleagues, both Mr. Sensenbrenner and Mr. Chabot, Mr. Nadler, 
Ms. Lofgren, let me be very clear of the distinct difference 
that we had then at that time.
    For the American people, the special prosecutor was an 
independent statute that allowed both Mr. Jaworski during the 
Nixon impeachment proceedings and then Mr. Starr to have an 
independent process of investigation. The Congress was not 
privy to any of that investigation at all. They proceeded. They 
were not interfered with, as Mr. Mueller was, by the DOJ, 
because he was an employee of the Department of Justice, and 
his employer, his boss came out and characterized his report 
before he could even discuss it.
    In the instance of the proceedings of 1998, the Congress 
received a report, just as both our friends on the other side 
of the aisle and we in the majority receive reports from the 
impeachment inquiry committees, who were investigatory 
committees. They did their work, yes, in a classified setting, 
as I imagine both Mr. Starr and Mr. Jaworski had to do in 
certain instances. They were like prosecutors. They had 
witnesses that were not in the public. And then, of course, 
there were full public hearings, 17 witnesses, firsthand 
witnesses who heard the call and testified not on any 
secondhand knowledge but firsthand knowledge.
    It is clear that we are dealing with a question of a 
continuing threat, which is why we have to respond. And let me 
be very clear. I hold in my hands that unclassified transcript. 
I beg to differ with my friends. Allow me just for a moment to 
tell you that in the call President Zelensky said these 
sentences: I would also like to thank you for your great 
support in the area of defense. We are trying to continue to 
cooperate for the next steps. Specifically, we also want to be 
ready to buy Javelins--that is equipment, military equipment--
from the United States for defense purposes.
    Ukraine is in the midst of a war against a nation that shot 
down, at least some of those alleged to be separatists, using 
Russian weapons, a commercial airliner. This is a serious war 
where our men and women in the military are on the ground 
trying to assist. And here is the very next sentence. The very 
next sentence is not, ``Yes, let's get with the Department of 
Defense; let's review your request.'' The very next sentence: I 
would like you to do a favor though.
    This is a discussion about defense. The next sentence 
should have been: I think we are well aware of your difficult 
predicament. I am going to have you talk to the Secretary of 
Defense.
    But it said a couple of sentences later: I would like to 
have the Attorney General call you or your people, and I would 
like you to get to the bottom of it, investigations.
    So I would just offer to say that it is not frivolous and 
without facts that we proceed. We proceed with facts, and we 
take this in a very somber manner.
    Ms. Lofgren. Would the gentlelady yield?
    Ms. Jackson Lee. I would be happy to yield to the 
gentlelady from California.
    Ms. Lofgren. I would just like to note that while this aid 
was being withheld, people died. I would like to ask unanimous 
consent to put into the record an article from the Los Angeles 
Times entitled ``Trump froze military aid--as Ukrainian 
soldiers perished in battle.''
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MS. LOFGREN FOR THE OFFICIAL RECORD

=======================================================================

      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Ms. Lofgren. And note also that the highest death toll on 
any day in the Ukraine-Russian war was August 7th of this year, 
while aid was being withheld. So this had life-and-death 
consequences.
    And I yield back to the gentlelady.
    Ms. Jackson Lee. Very quickly let me say my predecessor 
Barbara Jordan said that impeachment is designed for the 
President and his high ministers somehow to be called into 
account. That is all we are doing on behalf of the American 
people, and protecting the national security of this Nation.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Chabot seek recognition?
    Mr. Chabot. Move to strike the last word.
    Chairman Nadler. The gentleman strikes the last word. The 
gentleman is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    I yield to the Ranking Member.
    Mr. Collins. Just real quickly, the gentlelady from 
California just misstated something that I addressed head on 
last night. And Under Secretary Hale stated this was 
prospective money; it was not interfering, and it was not 
dealing with the issues that are going on now. You are in a 
war. For those of us who have actually been in a war zone, 
people do die in a war zone. This money did not stop that. That 
is something that cannot continue to be perpetrated upon this 
world.
    I yield back to Mr. Chabot.
    Mr. Chabot. Thank you.
    Reclaiming my time, Mr. Chairman, the biggest difference in 
the Clinton impeachment and this one is that President Clinton 
committed a crime: perjury. This President isn't even accused 
of committing a crime.
    The Constitution is pretty clear on what constitutes an 
impeachable offense: treason, bribery, and other high crimes 
and misdemeanors. It is not treason, bribery, and other high 
crimes and misdemeanors or whatever else Nancy Pelosi and Adam 
Schiff deem impeachable.
    I think we can all agree that no President should abuse the 
powers of his or her office, just like the chairman of a House 
committee shouldn't abuse the powers of his office to obtain 
and publish the phone records of the President's personal 
attorney, a member of the media, and the ranking member of that 
same committee. But that doesn't make alleged abuse of power a 
high crime or misdemeanor.
    In their newly authored memo on constitutional grounds for 
impeachment, the majority on this committee goes to great 
lengths to explain why abuse of power is an impeachable 
offense, specifically mentioning it was one of the charges 
against both Richard Nixon and Bill Clinton. What they don't 
mention is that the House of Representatives has never adopted 
alleged abuse of power as a charge in a Presidential 
impeachment. Why? Because there is no criminal statute 
describing what alleged abuse of power actually is.
    Abuse of power is, therefore, a vague, ambiguous term, open 
to the interpretation of every individual. Because abuse of 
power lacks a concise legal definition, there is a higher 
burden of proof on those pursuing such a charge to show the 
actions of the President rise to the level of impeachment.
    I believed that Bill Clinton had abused the power of his 
office, but we failed to convince our colleagues in the House, 
and that particular charge was rejected by the full House. In 
this case, the evidence provided is less convincing. In fact, I 
would argue it is nonexistent.
    First, there was no quid pro quo. Second, it is a widely 
known fact that Ukraine is one of the most corrupt countries on 
the planet. It is why Congress required the administration to 
certify that the Ukrainian Government had taken steps to clean 
up corruption before military aid could be provided to the 
country. President Trump was well aware of that fact and quite 
skeptical of giving Ukraine foreign aid long before the now 
famous July 25th phone call. Third, Ukraine actually received 
the aid after the President was satisfied that Ukraine had 
taken meaningful steps to address corruption, which, again, is 
an obligation required by law.
    Based on the actual facts of this case as opposed to the 
hearsay and innuendo compiled by the Intelligence Committee, it 
is clear that no abuse of power ever took place, and there 
certainly isn't enough evidence to support an article of 
impeachment.
    Mr. Chairman, as you well know, there is another 
significant difference between the abuse of power charges 
against Nixon and Clinton and those presented here. In the 
Nixon and Clinton impeachments, abuse of power was a tacked-on 
charge, far less important in those cases than the actual high 
crimes charged against both of them.
    Mr. Chabot. Here it is the main thrust of the House 
Democrats' entire case. Let me put it another way. The entire 
argument for impeachment in this case is based on a charge that 
is not a crime, much less a high crime, and that has never been 
approved by the House of Representatives in a presidential 
impeachment before, ever in history. If that is the best you 
have got, you wasted a whole lot of time and taxpayer dollars, 
all because so many of you, Mr. Chairman, hate this President.
    And one last thing: I guess we now know why Nancy Pelosi 
was focus grouping bribery as a potential charge, because she 
was desperately searching for a crime, any crime, to justify 
this sham impeachment. But that effort was abandoned because 
she knows, most Members of Congress know, and now the American 
people know, there simply wasn't a crime committed here, and 
there shouldn't be an impeachment here either. I yield back.
    Mr. Gohmert. Will the gentleman yield?
    Chairman Nadler. The gentleman yields back.
    Mr. Gohmert. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Swalwell seek 
recognition?
    Mr. Swalwell. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Swalwell. There are no crimes here? That is the defense 
my colleagues across the aisle are putting forward? How about 
the highest crime that one who holds public office could 
commit, a crime against our Constitution? After all, the 
Constitution is the highest, most supreme law of the land. 
Every other law, statutory laws included, derive from the 
Constitution, not the other way around.
    The President committed the highest crime against the 
Constitution by abusing his office, cheating in an election, 
inviting foreign interference for a purely personal gain, while 
jeopardizing our national security and the integrity of our 
elections.
    Now, the Constitution does not require President Trump have 
committed statutory crimes. After all, we in Congress are not 
criminal prosecutors. We do not prosecute crimes. We protect 
the Constitution. But since my colleagues keep bringing up what 
potential crimes a criminal prosecutor could charge a President 
with, let's go through some of them, because President Trump's 
conduct overlaps with criminal acts.
    Let's start with criminal bribery, 18 U.S. Code 
201(b)(2)(a). Relevant here, criminal bribery occurs when a 
public official demands or seeks anything of value personally, 
in return for being influenced in the performance of an 
official act. Additionally, the public official must carry out 
these acts corruptly.
    Demands or seeks: President Trump demanded and sought the 
announcement and conduct of politically motivated 
investigations by President Zelensky. Anything of value 
personally: For the purposes of antibribery law, the phrase 
``anything of value'' has been interpreted by the courts 
broadly to carry out the congressional purpose of punishing the 
abuse of public office.
    In return for being influenced, the third requirement: As 
the Intel Committee report demonstrated, President Trump sought 
an announcement of these investigations in return for 
performing two official acts. First, the conditioned release of 
vital military assistance on President Zelensky's 
investigations; and second, he conditioned a head of state 
meeting on these investigations.
    Fourth, performance of an official act: The courts have 
defined an official act as any decision or action, matter, 
cause, suit, proceeding, or controversy, that may be pending or 
brought before a public official. Both of the acts in question, 
the military aid and the White House meeting, meet this 
requirement.
    Finally, corruptly: President Trump behaved corruptly 
throughout this course of conduct because he used his official 
office in exchange to seek a private benefit.
    A second crime, honest services fraud. 18 U.S. Code, 
Section 1346. President Trump knowingly and willfully 
orchestrated a scheme to defraud the American people of his 
honest services as President of the United States. This has 
been aligned often in the courts with bribery, except that also 
includes using a wire communication. Clearly, the July 25----
    Mr. Sensenbrenner. Will the gentleman yield for a question?
    Mr. Swalwell. I will not yield.
    Clearly, the July 25 phone call constitutes a wire 
communication. So there you have it. At least two criminal 
statutory crimes. However, all of these conversations about 
statutory crimes are moot, because the President of the United 
States refuses to allow his own Department of Justice to indict 
him. So the President may be charged with crimes statutorily 
one day, but that is not what we are doing here on this day. 
And we are not restricted, like the Department of Justice is. 
So we will uphold our duty to charge the President with the 
crimes against the Constitution that he has committed using 
your taxpayer dollars, jeopardizing the integrity of your vote 
for a purely political purpose, and a purely personal gain. And 
Mr. Chairman, with that, I yield back.
    Ms. Lofgren. Mr. Chairman, will the gentleman yield?
    Mr. Swalwell. And I will yield to the gentlelady from 
California.
    Ms. Lofgren. I appreciate the gentleman's recitation of 
that fact. As a former prosecutor, you speak with tremendous 
authority. I would just like to note that the argument that 
somehow lying about a sexual affair is an abuse of presidential 
power, but the misuse of presidential power to get a benefit 
somehow doesn't matter. If it is--lying about sex, we could put 
Stormy Daniels' case ahead of us. We don't believe that is a 
high crime.
    Mr. Sensenbrenner. Will the gentlewoman yield?
    Ms. Lofgren. No. And it is not before us, and it should not 
be before us, because it is not an abuse of presidential power. 
I yield back.
    Chairman Nadler. The gentleman's time has expired.
    For what purpose does Mr. Gohmert seek recognition?
    Mr. Gohmert. I rise in support of the amendment.
    Mr. Sensenbrenner. Will the gentleman yield briefly?
    Chairman Nadler. The gentleman has the time. Does the 
gentleman wish to yield to Mr. Sensenbrenner?
    Mr. Sensenbrenner. Will the gentlemen yield briefly?
    Mr. Gohmert. Yes.
    Mr. Sensenbrenner. The important thing is that Bill Clinton 
lied to a grand jury. That is a crime. The Article of 
Impeachment that passed the House accused Bill Clinton of lying 
to a grand jury, a crime, and something that obstructs the 
ability of the courts to get to the truth. This is not what is 
happening here. Big difference.
    Mr. Gohmert. Thank you. Reclaiming my time.
    Chairman Nadler. The gentleman reclaims his time.
    Mr. Gohmert. It is interesting, though, we are here because 
of fraud, not by the President, but from within the Department 
of Justice. And I realize people on the other side of the aisle 
have been so busy trying to find some kind of charge, criminal 
charge to bring against the President, none of which worked, 
that they may not have been aware of the most recent Horowitz 
report. But it is clear now, it is clear now that the whole 
investigation that has brought us here with crime after crime 
being alleged and then having to be dropped was a fraudulent 
effort before the FISA court to have a surveillance warrant 
done against Carter Page. They lied initially, said that he was 
a Russian agent, when actually, he had been used by the CIA as 
a spy against Russia.
    And so they lied, it was fraudulent, and there, hopefully, 
will be people that will answer for their crimes and their 
fraud in the Department of Justice in the days to come, and it 
sounds like that should be the case. And there was fraud all 
the way through.
    But for 3 years, we have been hearing about the crimes of 
the candidate Trump, and then the crimes of President Trump, 
and we come now today based on the initial fraud that got this 
whole impeachment stuff started. And no one on the other side 
is willing to acknowledge the fraud that brought us here, nor 
the fact that so many people here have been screaming about the 
President's crimes.
    And we are even hearing today like we just did, oh, yes, 
there were crimes. Well, then, why aren't they in this 
impeachment document? Because they don't exist. They have been 
disproven over and over and over again, and that is why the 
gentleman's amendment is so well-taken.
    There--you don't want to go down this ground. I think it is 
a bad idea when it was proposed before. High crimes and 
misdemeanors, if it is not treason, even misdemeanors are 
crimes. And, so, we have had to drop the fraud of all the 
crimes being alleged, people saying in here and in the public, 
Gee, we are going to get the President because he colluded with 
Russia. How terrible was that? Well, that has all been 
disapproved and dropped.
    So now we were left with bribery and extortion, and now we 
are even--those had to be dropped because there were no crimes. 
And I appreciate the gentleman bringing up crimes, but those 
are not alleged here.
    And so, let me just say, this is a day that will live in 
infamy for the Judiciary Committee. The days of exemplary 
chairs, like Daniel Webster, when he stood for principle, those 
are going to be gone, because this became a tool of the 
majority to try to defeat, use taxpayer funds to defeat a 
President.
    And by the way, the Ken Starr report, 36 boxes, he came in 
and testified. We were kept out of hearing the witnesses. They 
were--in the Watergate, these witnesses testified on 
television. It was public. It was not a Starr chamber like the 
Schiff chamber became. And I would like to yield back the 
remainder of my time to my friend, Mr. Jordan.
    Mr. Jordan. Well, I would just say, when did it happen? 
Everything Mr. Swalwell just said, well, if it all happened, 
why isn't it in the resolution? Democrats say there is some 
scheme to have an announcement made by President Zelensky to 
get a phone call with the President, to get a meeting with the 
President, to get the aid released. When--when did the 
announcements happen? They got the call on July 25. They got 
the meeting on September 25. They got the money on September 
11. There was never an announcement from the Ukrainians to do 
an investigation.
    So you can keep saying all this stuff, and all the points 
of this happened, this happened. It didn't happen. Not the 
facts. Those are not the facts. And we know why the aid 
ultimately got released, because we learned this guy, this new 
President, was actually--was actually the--the transformer, the 
real deal, was actually going to deal with the corruption issue 
in his country. That is what happened. You can make up all the 
things you want, but those are not the facts.
    Chairman Nadler. The gentleman's time has expired.
    For what purpose does Mr. Jeffries seek recognition?
    Mr. Jeffries. Move to strike the last word.
    Chairman Nadler. The gentlemen is recognized.
    Mr. Jeffries. Let's actually go through the facts. We are 
here today because the President abused his power. We are here 
today because he solicited foreign interference in the 2020 
election. He had welcomed foreign interference as it relates to 
Russia. He solicited foreign interference on the White House 
lawn with China. And he did it with Ukraine. He is a serial 
solicitor.
    Let's go through the facts. Congress allocated $391 million 
in military aid on a bipartisan basis to Ukraine, currently at 
war with Russian-backed separatists in the east. Ukraine is a 
friend; Russia is a foe. Ukraine is a democracy; Russia is a 
dictatorship.
    The United States is probably the only thing standing 
between Vladimir Putin and Ukraine being completely overrun as 
part of Putin's fantasy to reconstruct the Soviet Union, which 
would be adverse to the national security interests of the 
United States, and every single fact witness before this 
Congress said so. You can't even dispute that.
    So we allocated aid on a bipartisan basis, but then the aid 
was withheld. So the American people deserve to figure out why. 
In February, there was a letter sent by the Trump 
administration saying, Okay, the aid is on the way, but it 
never arrived. In April, he had a phone call, the President, 
with Zelensky. The word ``corruption'' was not mentioned once. 
And then in May, the Department of Defense wrote to this 
Congress, and said, ``All necessary preconditions for the 
receipt of the aid have been met by the new Ukraine government, 
including the implementation of anticorruption protocols.'' We 
have that letter. It was sent to you, and it was sent to us.
    Then in July, on the 18th, at an Office of Management and 
Budget meeting, the aid was officially frozen at the direction 
of the President. Twice during the summer, Mitch McConnell, the 
Senate Republican majority leader, publicly stated he called 
the Trump administration. What happened to the aid? Mitch 
McConnell couldn't get a good answer because there was no good 
answer.
    Then on July 25, there is another call between President 
Trump and President Zelensky. The word ``corruption'' is not 
mentioned once, but here is what was said. Zelensky talks about 
defense, and the immediate response is ``Do us a favor, 
though.''
    And President Trump says, I need you to look into some 
things, not related to procurement of defense arms but related 
to a wild conspiracy theory connected to the 2016 campaign, and 
also says I want you to look into Joe Biden. And then what is 
interesting, since you think it was such a perfect call, he 
mentions Rudolph Giuliani, I am looking at the transcript right 
now, not once, not twice, but three times. Why on an official 
call would the President mention Rudolph Giuliani? He is not an 
ambassador. He is not the Secretary of State. He is not a 
member of the diplomatic corps. He is President Trump's 
political enforcer.
    And then what happens? You said you want to talk about the 
facts. In August, Giuliani travels to Madrid and meets with the 
Ukrainian government, as a follow-up to Trump saying to 
Ukraine, go meet with Giuliani. And then a statement is drafted 
about this phony investigation and sent to the Ukrainians.
    But what happens? In August, the whistleblower complaint is 
filed. Then on September 9, the whistleblower complaint is made 
public to Congress. Two days later, on September 11, all of a 
sudden, the aid is released. Why was the aid released? Because 
the President was caught red-handed trying to pressure a 
foreign government to target an American citizen. I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Gaetz seek recognition?
    Mr. Gaetz. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. There were five meetings that we have detailed 
that show why the aid was released. There was a belief on the 
administration previously that Ukraine was one of the most 
corrupt countries in the world, that they had not engaged in 
sufficient reforms. And after a number of events with the Vice 
President, with a bipartisan Senate delegation, there was a 
resolution of that aid.
    But this debate just lacks a certain sincerity. I heard 
earlier my friend from California, Mr. Swalwell, say, like, 
list out all these crimes. And so, if I am watching at home, I 
am thinking, Well, where are they in the impeachment? That is 
just a Democrat drive-by to go and list crimes that you don't 
allege, and that you don't have evidence for.
    If there is ever a microcosm of how to consume this day and 
the importance of it with the American people, it is that they 
are naming crimes in debate that they don't even have in their 
impeachment resolution, because they can't prove them because 
there are no underlying facts.
    And then I hear my friend from New York, Mr. Jeffries, 
bring up Russia. Russia, the residue of impeachment theories, 
past and failed. How is debated about--how are we even here 
debating about military aid, Javelins, that President Trump 
delivered that President Obama withheld?
    I hear them, you know, crying these alligator tears, 
clutching their pearls over this notion that Oh, well, Trump 
didn't give this aid. We have got to go impeach him for it. 
Where was all this concern about how to make the Ukraine great 
again when Obama was President?
    You want to know our substantive defense? It is four 
things. They have never changed. I think Mr. Jordan dreams of 
them in his sleep. Both President Trump and President Zelensky 
said there was no pressure. We saw the call transcript, and 
there was no conditionality. There was never awareness on the 
part of the Ukraine that there was a delay in aid, and Ukraine 
got the aid without opening the investigation that seems to be 
so troubling to Democrats.
    Everything you are going to hear them say today can be 
pretty much categorized into three areas: First, it is either 
stuff people presumed and had no direct evidence of, kind of 
their water cooler theory of the case. Second, it is hearsay. 
Somebody told somebody told somebody else that created some 
concern about the President's conduct; or it is reflective of a 
sincere policy disagreement about how to make the Ukraine great 
again.
    I mean, I heard all these folks come by that are part of 
the diplomatic corps, and they sure seem to believe that we 
ought to be everything for the Ukraine, but if the President 
disagrees with that, it is not impeachable conduct.
    Essentially they are alleging a shakedown, but I think most 
Americans know that you cannot have a shakedown if the person 
allegedly being shook down doesn't even know about the 
shakedown. You have President Zelensky himself saying I felt no 
pressure.
    And then talk about bad timing. We got this Time article 
that comes out on the 10th of December, just a few days ago, 
because their theory of the case is, well, even if Zelensky 
didn't know there was pressure, there is this other guy, 
Yermak, and Yermak knew from Gordon Sondland that there was 
pressure.
    But the same day that they introduced their Articles of 
Impeachment, Yermak gives an interview with Time Magazine, he 
says, and I quote, Gordon and I were never alone together. We 
bumped into each other in the hallway next to the escalator as 
I was walking out, and I remember everything. It is fine with 
my memory. We talked about how well the meeting went. That is 
all we talked about. So here they are with no crime, with no 
victim, with no witnesses, with no knowledge of any shakedown, 
and yet they proceed.
    To accept the Democrats' theory of the case, you have got 
to believe that the Ukrainians are lying to us. You have got to 
believe when they say there is no conditionality, no pressure, 
nothing wrong, that they are so weak and they are so dependent 
on the United States, that we can't believe a word they say. 
Well, again, where were you during the Obama administration 
when this weak ally didn't get Javelins that were then 
withheld?
    I support the Jordan amendment because this Article I, this 
abuse of power that they allege in the impeachment theory, is a 
total joke. They have to say abuse of power because they don't 
have evidence for obstruction. They have to say abuse of power 
because they have no evidence for bribery or treason. They have 
to say abuse of power because all those specific crimes that 
the gentleman from California named cannot be supported by the 
evidence. This is sort of the Rorschach inkblot test theory of 
impeachment so the country can stare at the inkblot, and 
everybody can see what, I guess, they want to see.
    This notion comity of abuse of power is the lowest of low 
energy impeachment theories. Heck, I don't know any political 
party that doesn't think when the other side's in the White 
House that they abuse power. They do too much. I got a lot of 
constituents that think Barack Obama abused his power, but you 
know what? We didn't do this to the country. We didn't put him 
through this nonsense in this impeachment. You all set the 
standard. We didn't set it. You said this would have to be 
bipartisan, compelling, and overwhelming. It ain't that, and it 
looks pretty bad. I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Jayapal seek recognition?
    Ms. Jayapal. Thank you, Mr. Chairman. Just in response----
    Chairman Nadler. Move to strike the last word?
    Ms. Jayapal. Yes. Move to strike the last word. Thank you.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jayapal. In response to my colleague from Florida, you 
cannot argue things both ways. You cannot say that the 
President was so concerned about Ukraine that he released aid, 
which is true. He released aid in 2017, he released aid in 
2018, and then suddenly he became concerned in 2019, right 
after Vice President Biden announced that he was going to run.
    So if your argument is that he was so concerned about 
Ukraine that he released aid in 2017 and 2018, then why in 
2019, after the Department of Defense cleared Ukraine on 
charges of corruption, why then did he decide he was so 
concerned about corruption that he was not going to release 
aid?
    Mr. Jordan. Because that is when----
    Ms. Jayapal. I am sorry. I am not yielding. I am not 
yielding. I am not yielding.
    Chairman Nadler. The gentlelady has the time.
    Mr. Jordan. They got a new president, that is why.
    Chairman Nadler. The gentlelady has the time, the committee 
will be in order, and people will not interrupt.
    Ms. Jayapal. They got a new president.
    Chairman Nadler. This is not proper.
    Ms. Jayapal. Thank you, Mr. Chairman.
    Chairman Nadler. The gentlelady will continue.
    Ms. Jayapal. They got a new president who was known to be 
an anticorruption fighter, so that argument has no weight 
whatsoever.
    Now if you want to argue that the President was so 
concerned about corruption at that particular moment, you have 
to look at the whole record of U.S. policy and our agreement 
that the Department of Defense would look under certain 
conditions before they released military aid to determine 
whether or not a country had satisfied those requirements 
around corruption, and the Department of Defense released that 
report. Nowhere between the time that Donald Trump withheld aid 
and the time that he released that aid was there an additional 
assessment required or done. In fact, the Department of Defense 
decided they didn't need to do another assessment because they 
had already done the assessment.
    So at the end of the day, I have only two questions for my 
colleagues on the other side, and these are the two questions: 
Forget about President Trump. Forget about President Trump. 
Will any one of my colleagues on the other side say that it is 
an abuse of power to condition aid, to condition aid, on 
official acts? Forget about President Donald Trump.
    Mr. Gohmert. We do it every day.
    Ms. Jayapal. Forget about President Trump. Forget about 
President Trump. Is any one of my colleagues willing to say 
that it is ever okay for a President of the United States of 
America to invite foreign interference in our elections? Not a 
single one of you has said that so far.
    Mr. Gohmert. I will say it.
    Ms. Jayapal. I will yield to my colleague from Texas.
    Mr. Gohmert. Will the gentlelady yield?
    Mr. Gaetz. Will the gentlelady yield so we can answer the 
question?
    Ms. Garcia. Thank you, Ms. Jayapal.
    I want to break this down----
    Mr. Gohmert. She asked a question. We would like to answer 
it.
    Chairman Nadler. The gentlelady has the time, and the 
members----
    Mr. Gohmert. And she asked us a question.
    Chairman Nadler. The members here know perfectly well it is 
out of order to interrupt members who have the time. The 
gentlelady----
    Mr. Gohmert. Unless they ask you a question.
    Chairman Nadler. The gentlelady has yielded to whom?
    Mr. Gohmert. She asked us a question.
    Chairman Nadler. The gentlelady yielded to whom? Ms. 
Escobar now has the time----
    Ms. Escobar. Thank you, Chairman.
    Chairman Nadler [continuing]. Yielded by Ms. Jayapal.
    Ms. Escobar. Thank you, Chairman. Thank you, Representative 
Jayapal.
    I want to break this down in simple terms for the American 
public because our Republicans colleagues are working overtime 
to try to convince us that we didn't see what we saw with our 
own eyes, and we didn't hear what we heard with our own ears.
    Let's bring it down to an example that was used during the 
hearing. If a governor--if a community suffers a natural 
disaster, and the governor of the State has aid that will help 
that community, but calls the mayor of your community and says, 
I want you to do me a favor, though, and conditions giving the 
aid to the community on the police chief smearing his political 
opponent, has there been a crime? The answer is yes, and that 
governor would go to jail. If that governor later releases the 
aid after he got caught, it doesn't matter. He still committed 
the crime.
    Furthermore, if that governor says during the 
investigation, I am going to defy the subpoenas. We are going 
to fight the subpoenas. Guess what would happen to that 
governor? He has committed a crime. He would go to jail. If the 
governor then tried to cover up his wrongdoing, cover it up so 
that his people, his constituents couldn't see his wrongdoing, 
what would happen to that governor? Did he commit a crime? Yes. 
He would go to jail.
    So as wildly as they are trying to convince you that there 
was no wrongdoing, I want the American public to understand 
what is going on here. It is clear as day. We have seen it with 
our own eyes. We have heard it with our own ears. Facts matter. 
I yield back.
    Ms. Jayapal. Thank you, Ms. Escobar. And I would just, 
again, close with this single question. Is it ever okay for a 
President to condition official action on personal gain? I 
yield back.
    Mr. Cline. Mr. Chairman. Mr. Chairman.
    Chairman Nadler. Who seeks recognition? For what purpose 
does the gentleman seek recognition?
    Mr. Cline. A unanimous consent request. I would like to ask 
unanimous consent to introduce into the record----
    Chairman Nadler. I cannot hear you, sir.
    Mr. Cline. I am sorry?
    Chairman Nadler. I can't hear you.
    Mr. Cline. I would like to introduce--ask unanimous consent 
to introduce into the record the transcript of the call where 
the President says, I would like you to do us a favor.
    Chairman Nadler. Without objection, the transcript will be 
introduced. The full record will be introduced.
    [The information follows:]

      


                   MR. CLINE FOR THE OFFICIAL RECORD

=======================================================================

      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Nadler. For what purpose does Mr. Buck seek 
recognition?
    Mr. Buck. Strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Buck. Thank you, Mr. Chairman. I want to address Mr. 
Swalwell's--thank you for coming back--Mr. Swalwell's comments 
that there are definitely crimes in this situation. First of 
all, I believe Mr. Swalwell, during the Mueller investigation, 
went on national TV and said something to the effect of an 
indictment is coming. He knew it. An indictment is coming.
    So I know Mr. Swalwell knows crimes. He was a prosecutor. 
And he also knows the obligation that a prosecutor has not to 
bring a crime, not to bring a charge unless there is a 
reasonable probability of conviction.
    I would direct Mr. Swalwell to the elements of bribery. 
Whoever being a public official corruptly demands or seeks 
personally anything of value in return for being influenced in 
the performance of an official act. The Department of Justice's 
Criminal Division Public Integrity Section opined in September 
that something as nebulous as an investigation is not of 
sufficient concrete value to constitute something of value 
under this statute.
    They also--the other element that is at question here, and 
one of the reasons I think that we need more than 1 week as the 
committee of jurisdiction to look into this matter, is because 
if there are crimes, we should be bringing experts. We should 
be bringing in testimony. And if there is a crime, I think it 
is far more fair to charge Articles of Impeachment where the 
President can defend against specific elements of a crime as 
opposed to something as vague as abuse of power.
    Mr. Swalwell, the official act that you talk about under 
the McConnell--Supreme Court's McConnell decision, that 
decision says setting up a meeting, talking to another 
official, or organizing event without more does not fit the 
definition of official act. There are two elements missing in 
your analysis, but that doesn't surprise me because there were 
no elements that were--that the special counsel found in this 
situation.
    I think that it is unfortunate when the gentleman from 
Rhode Island talks about the President sending Mr. Giuliani to 
the Ukraine to smear, to smear Vice President Biden. Let's talk 
about what Vice President Biden did. His son sat on a board and 
made an outrageous amount of money for someone that had no 
background in energy, no background in the Ukraine while his 
father was the Vice President. If that is not a fair topic for 
discussion in the world of politics, I don't know what is. 
Smearing is trying to conjure up false information or making a 
vague argument based on false information. This isn't smearing. 
This is seeking the truth about corruption. Not a single member 
on the other side of the aisle has been willing to condemn the 
conduct of the former Vice President.
    How frustrating it must be to be President Trump and have 
the son spend over $1 million on attorneys' fees when the 
special counsel is investigating something that never happened. 
There was no collusion. There was no conspiracy between Russia 
and the Trump campaign. But there was clear--there is clear 
evidence of wrongdoing between Hunter Biden, the former Vice 
President, Joe Biden----
    Ms. Jackson Lee. Will the gentleman yield?
    Mr. Buck. No, I will not. And the Ukraine and the 
corporation, Burisma. So the idea that there was a smear going 
on, let's look at the facts. And I will yield to my friend from 
Arizona, Mr. Biggs.
    Mr. Biggs. Thank you very much. Let's talk about what was 
going on in 2017, 2018, aid was given. In 2019, there was a 
pause put on it. You have a new administration in the Ukraine, 
and the benchmarks, the anticorruption benchmarks were done 
under the previous administration, Poroshenko. That was 
testified to in this committee.
    But what we know is several of the previous corrupt 
administrators and cabinet-level officials, including some 
oligarchs, had close relationships to Zelensky. There was a 
concern whether Mr. Zelensky was the real deal. The aid was 
prospective, and the pause was unknown.
    U.S. officials continued to meet with Ukrainian officials, 
and they determined that Zelensky was the real deal, and so 
they made every effort to convince President Trump that that 
was the case. Once two new anticorruption measures were 
released within 2 days, so was the funding. That is what 
changed. I yield back.
    Mr. Swalwell. Mr. Chairman, a unanimous consent request.
    Chairman Nadler. For what purpose does the gentleman from 
California seek recognition?
    Mr. Swalwell. Just in response to Mr. Buck, a unanimous 
consent request for a VOX November 15, 2019, article, all of 
Robert Mueller's indictments, including the 34 people and three 
companies that he indicted in his lengthy investigation.
    Chairman Nadler. Without objection.
    Mr. Collins. I object. I want to see it.
    Chairman Nadler. The gentleman reserves an objection. He 
wants to see it. That is fair.
    For what purpose does Mr. Reschenthaler seek recognition?
    Mr. Reschenthaler. Thank you, Mr. Chairman. I move to 
strike the last word.
    Chairman Nadler. Without objection.
    Mr. Reschenthaler. I yield to my friend and colleague from 
Florida.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. I thank the gentleman for yielding.
    And I just have got to come back to this interview with 
Yermak, because it is like the tree that fell in the forest 
that nobody heard that completely demolished the entire 
Democrat case. They have no evidence that the Ukrainians ever 
knew that this aid was withheld. So they are literally trying 
to prosecute an impeachment against the President for a 
shakedown when the alleged people being shook down, one, said 
they felt no pressure, and two, did not even know it was 
happening.
    And so, then, time and again, you heard them in debate, in 
press conferences, in the whole circus show that is going on 
here say, Well, we have got this testimony from Gordon 
Sondland. We all remember Gordon. Gordon Sondland, wandering 
his way to an escalator with this guy who speaks English as a 
second language. And Gordon says, Well, maybe I said something 
to him about this. Well, I mean, that was the whole deal for 
them.
    And then, I mean, you talk about embarrassing. The same day 
that they introduced their Articles of Impeachment that we knew 
they were going to introduce one way or another the moment they 
took the majority, it comes out that Yermak denies the whole 
thing. So show me the Ukrainian that was pressured. Show me the 
Ukrainian that knew that any of this was tied to any 
conditionality. There is no conditionality in the call.
    So it is quite easy to answer Ms. Jayapal, the gentlelady 
from Washington's, question. Very easy. In this case, there is 
no conditionality. You can't prove it, you have no evidence of 
it, and frankly, even the Ukrainians, even your purported 
victims, are coming out in the press and saying their theory of 
the case is wrong. Their fundamental premise has been rejected. 
I yield to the gentleman from Ohio.
    Mr. Jordan. You have got to yield back to him.
    Mr. Gaetz. I yield back to the gentleman from Pennsylvania.
    Mr. Reschenthaler. Yes. I yield to my friend from Ohio.
    Mr. Jordan. I thank the gentlemen for yielding.
    Exactly what changed is we got a brand new president who 
ran--Zelensky ran on anticorruption. Let's see if he is the 
real deal, and that is exactly what happened in the 55 days the 
aid was paused.
    We talked about five critical meetings that took place. 
Five meetings. The last one, I think, is the most important 
because you had a Democrat Senator and a Republican Senator 
meet with President Zelensky in Kyiv. They knew the aid had 
been paused at that time. The Ukrainians knew, they learned a 
few days before that, and the issue never came up.
    But what did come up is both of these Senators came back 
and said this guy is the real deal, worth the risk, worth 
sending the hard-earned tax dollars of the American people to 
Ukraine. That is what happened, and the facts are very clear. 
You can make up all the stuff you want, but the facts are on 
the President's side. They have always been on the President's 
side.
    Democrats keep saying to get the call, to get the meeting, 
to get the money, there had to be an announcement. It is 
December 12th. There has yet to be an announcement from Ukraine 
about any type of investigation into Burisma or the Bidens, 
yet, because it is not going to happen, because it never needed 
to happen. That wasn't the point. But they got the call July 
25, they got the meeting September 25, and they got the money 
September 11.
    The other thing I want to point out. I don't know be how 
many times I have heard this. The Democrats talk about this one 
sentence the President said in the now famous call transcript 
with President Zelensky. ``I would like you to do us a favor, 
though.'' The Democrats don't read the plain language. In fact, 
the star professor witness who was here last week, she talked 
about this being the Royal we. She read the sentence the way 
you guys always try to portray the sentence. She said, it was I 
would like you to do me a favor, though. That is not what it 
says. It says I would like you to do us a favor, though, 
because, and guess what the next two words are? Guess what the 
next two words are? Because our country, not because I. The 
President doesn't say, I would like you to do me a favor, 
though, because I have been through a lot. He doesn't say that. 
Very clear. I would like you to do us a favor, though, because 
our country has been through a lot, and that is the 
understatement of the year.
    Heck, yeah, our country has been through a lot. This is the 
day after Bob Mueller sat in front of this committee, and we 
learned that there was nothing there, but 2 years he put our 
country through all kinds of turmoil because of you guys. That 
is what the President's pointing out because in this paragraph, 
he references Bob Mueller. That is what he is talking about. 
Heck, yeah, our country had been through a lot, and the 
President was pretty ticked about it. He wanted to find out 
what was going on. That is very legitimate. That is working on 
behalf of the American people. But again, as I said last night, 
you guys don't respect the 63 million people who voted for this 
guy. That is why--that is why the Speaker of the House called 
the President an imposter. That is what is wrong. I would like 
you to do us a favor, though, because our country has been 
through a lot. I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Johnson seek recognition?
    Mr. Johnson of Louisiana. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Louisiana. I want to slow this down and be 
very methodical about it, because most of us here are 
attorneys, and in this case, we are supposed to also be finders 
of fact. And we are supposed to carefully and objectively 
analyze the claims against the record, so let's do that.
    There are two articles to this impeachment resolution, of 
course, abuse of power and obstruction of justice. On the 
first, Democrats know there is zero direct evidence in the 
record of these proceedings that show that President Trump 
engaged in any scheme of any kind as is alleged in the 
resolution or that he intended in his dealings with Ukraine to 
influence the 2020 election. No impeachment should ever proceed 
on the basis of hearsay and conjecture and speculation that 
wouldn't even be admissible in a local traffic court, and we 
say that over and over.
    To my friend, Ms. Jayapal, there is simply no evidence of 
any condition, and I guess I need to repeat the four 
indisputable facts again that are in this record because 
repetition, apparently, is really necessary here.
    First, both President Trump and Zelensky said there was no 
pressure exerted. Number two, the July 25 call transcript shows 
no conditionality between aid funding and an investigation. 
Number three, Ukraine was not aware of the aid has been said 
over and over here, that it was being delayed. And number four, 
they never opened an investigation, they still received the 
aid, and they got the meeting.
    Our colleagues keep misrepresenting the facts. Not only do 
they misrepresent the ``do me a favor'' versus ``do us a 
favor,'' but only three of the 17 witnesses called by Chairman 
Schiff listened in on the call, okay. Only three of them. And 
contrary to the assertions that we have heard this morning, 
they didn't provide key uncontrovertible firsthand testimony of 
what happened on the call. All three of the testimonies 
contradicted each other. So the three people that listened in 
directly didn't even know.
    The evidence shows that President Donald Trump holds a deep 
seated, genuine, and reasonable skepticism of Ukraine due to 
its history of pervasive corruption, and his administration 
sought proof that the newly elected President was a true 
reformer. Of course, as has been pointed out, the President 
soon found out that he is a swamp drainer, and that is why the 
funds were released.
    President Trump wanted to ensure that the American 
taxpayer-funded security assistance would not be squandered by 
what has been reported as the third most corrupt nation in the 
world before Zelensky. And the discussions they had were never 
about what happened in 20--what will happen in 2020, but 
rather, what about what happened in 2016.
    So the second claim of this resolution is that the 
President obstructed Congress, but he simply did what virtually 
every other President in the modern era has also done. What is 
his--what is his big infraction here? He asserted a legitimate 
executive privilege and legal immunity to question subpoenas 
issued by various White House--to various White House 
officials. There is no evidence of any impeachable conduct with 
that. It is very commonplace. On every previous occasion of 
this assertion in the past, the natural impasse that exists 
between the executive and legislative branches and our 
constitutional system has been easily and calmly resolved, 
either by a good faith negotiation, or a simple filing with the 
third branch of our government, the judicial branch. They let 
the courts decide it.
    In spite of their allegations here, Democrats know 
President Trump has lawful cause to challenge those subpoenas 
in this matter. In this case, House Democrats are trying to 
impeach President Trump simply for seeking judicial review over 
whether the direct communications between high-ranking advisors 
and a President under these circumstances are privileged or 
should be disclosed. That case would be expedited in the 
courts. It wouldn't take that long, but Democrats said they 
don't have time for that. Why? Because they promised their base 
an impeachment by Christmas. This whole thing is so absurd.
    It should be noted, by the way, that President Trump has 
consistently cooperated with Congress in fulfilling its 
oversight and investigation responsibilities here. Over 25 
administration officials have testified before Oversight 
Committee this year, 20 before this committee. At the start of 
the impeachment inquiry, the White House produced more than 
100,000 pages of documents to the Oversight Committee. And, of 
course, they also quickly declassified and produced to everyone 
the call transcript.
    Democrats know this is an absurd charge about obstruction, 
and the truth is, in the history of the republic, there has 
never been a single party fraudulent impeachment process 
deployed against a President like the one that is being used 
against Donald Trump. They are the ones seeking to nullify our 
vital constitutional safeguards with this sham. Their ultimate 
objective is to nullify the votes of the 63 million Americans 
who voted to elect Donald Trump their President. They violated 
due process and all the rest.
    My colleague, Sheila Jackson Lee, a little while ago, 
invoked and quoted Barbara Jordan, but she is the one that said 
during the Watergate inquiry, impeachment not only mandates due 
process, but due process quadrupled. They have violated that 
here. They have violated the rules, and everybody in the 
country can see it.
    This impeachment's going to fail. The Democrats will pay a 
heavy political price for it, but the Pandora's box they have 
opened today will do irreparable injury to our country in the 
years ahead, that is why we are concerned. That is why the 
facts matter, and that is why we need to move on. I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Garcia. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Garcia seek 
recognition?
    Ms. Garcia. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Garcia. Mr. Chairman, I am opposed to this amendment. 
It is incredible to me that the other side of the aisle has not 
seen the facts and has apparently not read some of the evidence 
before us. It is obvious to me that this President has put his 
personal interest above this country, and with that, I will 
yield back to the gentleman from Maryland, Mr. Cicilline.
    Chairman Nadler. Rhode Island.
    Ms. Garcia. I am sorry. Oh. Rhode Island.
    Mr. Cicilline. I thank the gentlelady for yielding.
    We have just heard our Republican colleagues claim that 
there was no demand, no conditionality for the release of this 
aid, and in fact, it was motivated by this President's deep 
desire to ferret out corruption. That is laughable.
    The President of the United States had two phone calls with 
President Zelensky. He never once even uttered the word 
``corruption,'' because it wasn't about corruption, and the 
reason we know that is the Department of Defense had already 
certified that steps had been taken to combat corruption back 
on May 23rd. And despite that certification, that hold remained 
in place. In fact, the professionals testified about them 
trying to figure out how is it possible it is legal to hold 
this aid, because the certifications happened. There is no 
basis to hold it other than the President ordered it.
    So it is not about corruption. It was about extracting a 
commitment to announce publicly that they were launching an 
investigation of President Trump's chief political rival, a 
smear against Vice President Biden. So this notion that really 
what happened is the President just satisfied himself that Mr. 
Zelensky was for real is nonsense, and betrayed by all of the 
evidence collected.
    Let me give you some of it or remind you of it because you 
apparently don't remember it. Ambassador Sondland testified, 
under oath, Mr. Giuliani's requests were a quid quo pro for 
arranging a White House visit for President Zelensky. Mr. 
Giuliani demanded that Ukraine--Mr. Giuliani, by the away, the 
President's counsel. Mr. Giuliani demanded that Ukraine make a 
public statement announcing the investigation of the 2016 
election, the DNC server, and Burisma. Mr. Giuliani was 
expressing the desire to the President of the United States, 
and we knew these investigations were important to the 
President.
    On the July 25 call, President Zelensky himself recognized 
the connection between the meeting and the investigations. And 
he said, I also want to thank you for the invitation to visit 
the United States, specifically Washington, D.C. On the other 
hand, I also want to assure you that we will try to be very 
serious about the case, and we will work on the investigation, 
and the President spoke in that call about the Bidens and 
Burisma.
    And the OMB ultimately announces that the aid was withheld 
because no explanation, and everyone in the intelligence 
community, all the national security team, all recommended the 
release of the aid. This was an important ally of the United 
States facing an active war with the Russians that took part of 
their country and was continuing to kill people in eastern 
Ukraine. American military aid was a lifeline for this emerging 
democracy.
    You know the only people who benefited from this scheme? 
President Trump, because he thought he was going to get an 
announcement to smear his political opponent, and Vladimir 
Putin, Russia. They were trying to weaken the Ukrainians. And 
there was a recent article Congresswoman Bass held up, 
captioned this where it said, President Zelensky facing 
President Putin all alone. So this benefited Russia, weakening 
Ukrainian.
    But this notion that the reason that the aid was released 
because the President was satisfied is defied by all of the 
evidence collected in the 300-page report by the Intelligence 
Committee. It was released because the President got caught. 
The whistleblower filed a report, a complaint, alleging an 
elaborate scheme by the President that betrayed the national 
interests of our country, that undermined our national 
security, that advanced the personal political interests of the 
President, not the national interests of our country, that 
attempted to corrupt our elections by dragging in foreign 
interference. It is the highest of high crimes and 
misdemeanors.
    Our Framers spoke about this abuse of power, of using the 
office of the Presidency to advance their own personal 
interests and to undermine the public interest. And I will 
yield to Mr. Raskin, my remaining 3 minutes.
    Mr. Raskin. Thank you very much. You know----
    Chairman Nadler. It is Ms. Garcia's time to yield. Does she 
wish to yield to Mr. Raskin?
    Ms. Garcia. I yield to Mr. Raskin.
    Mr. Raskin. Ms. Garcia, thank you very much.
    Just to flesh out the detail of what the gentleman from 
Rhode Island was saying, one of the depositions is from David 
Holmes, who was a State Department official at the U.S. embassy 
in Kyiv who was with Gordon Sondland, who testified that there 
was a quid quo pro. But he saw him on the phone with President 
Trump, and he reported right at that time to him, he said, the 
President doesn't give a blank about Ukraine. He is interested 
in the big stuff, and what is the big stuff? Whatever can 
benefit him.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Biggs seek recognition?
    Mr. Biggs. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Biggs. Thank you, Mr. Chairman. You know, last night 
and today, we have heard many times my colleagues on the other 
side saying the facts of this are not contested, but you know, 
they are. They really are.
    An example is one just pointed out highlighted by my 
colleague from Louisiana just a moment ago. On the telephone 
call, listen. Of the 17 witnesses that came in, only three 
actually listened in on the phone call, but each one of them 
have contradictory testimony. And so, even the three witnesses 
that heard the call conflicted.
    And why is that important? Why do I bring that up? I bring 
it up because of this: Many of my colleagues, in fact, most of 
my colleagues on the other side of the aisle take every 
inference in the light most negative to the President of the 
United States. That is because there is animus there that has 
been manifest since November 9th, 2016, the day after he was 
elected.
    And so having watched this procedure closely on the heels 
of the other procedures and attempts to impeach this President 
and investigate, I am left wondering. You want every inference 
to go against the President. Why should the American public 
give you any inference of credibility?
    The reality is when my colleague from California said--was 
talking about the Russian issue, not a single American was 
indicted for conspiring with Russia to influence the elections. 
Not one. He still believes that there was some kind of 
collusion with the Trump campaign.
    But what do the facts actually get to? So when my colleague 
just talked about the money was released, the aid was released, 
again, he takes this inference based on a timeline, and he is 
citing rank hearsay. A guy comes in and says, Hey, you know 
what? I overheard this conversation. I am in a restaurant, 
actually, they were sitting on a patio at a restaurant, lots of 
people around, but boy, I could hear everything. I knew who it 
was, I knew what was said, and so I was so concerned about it, 
I didn't tell anybody. I came in once this really got going and 
revved up. You want to take every inference against the 
President. Why should we give you any inference of credibility?
    The only direct evidence in this case remains the same 
after all this time. No pressure. No pressure in the phone 
call. Mr. Zelensky has said that repeatedly. He has said that. 
He spent 8 hours in one press conference, all day long talking 
about no pressure, there is no pressure. Yermak said there was 
no pressure. Are they lying? No, but we know the whistleblower 
was lying. We know that Mr. Schiff was lying. Mr. Schiff came 
out the day before and said eight times, the President put 
direct pressure on the Ukrainians. Oops. The transcript is 
released. Not true.
    That would be--that would be the facts being contested, 
absolutely. We know that there was no conditionality. Everybody 
said there was no conditionality, everybody that participated, 
everybody that listened. Ukraine was unaware of a hold, so how 
could you leverage them? They were unaware of the hold, and 
there was never any investigation.
    But what happened? What triggered it? You have high-ranking 
U.S. officials going to the Ukraine, meeting with them, 
convinced the President. You have the President of the Ukraine 
signing two pieces of legislation reinstituting the 
anticorruption tribunal, and also removing immunity from 
prosecution of the legislative branch in the Ukraine. 
Significant anticorruption measures worthy, worthy of 
convincing this President that yes, they are worth a chance. 
And so with that, you have nothing. The credibility is in 
tatters, quite frankly. With that, I yield to my friend from 
Colorado.
    Mr. Buck. I thank my friend for yielding. And I just want 
to ask my friends on the other side. Mr. Sondland, Ambassador 
Sondland is your star witness? Really? You are basing an 
impeachment on Ambassador Sondland's testimony? His first 
statement, his first deposition, he said 325 times I don't 
remember, I don't know, I am not sure. 325 times. You don't 
think when this gets over to the Senate that he is going to be 
impeached on all the things he didn't remember? Then, then--his 
testimony impeached, not his--not his office. I see the smirk.
    Then, what does he do? He reads and he listens to what 
Ambassador Taylor says that he knows, and what Ambassador 
Yovanovitch says that he knows and what all these people say 
that he knows, and then his memory is refreshed. I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Ratcliffe seek recognition?
    Mr. Ratcliffe. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Ratcliffe. I thank the chairman. I want to respond to 
my good friend, Congressman Cicilline's comments, when he said 
that President Trump's demand can't be explained by corruption, 
because the word ``corruption'' was never uttered anywhere in 
the transcript. The problem with that is that the Democrats 
have built this entire fake impeachment scheme around an 
alleged demand. Guess what word is not anywhere in the 
transcript? Demand. Nowhere in that transcript does the 
President make a demand.
    Do you know where the word ``demand'' came from? It came 
from the whistleblower. That is the first time we heard the 
word demand, when he notified the Inspector General for the 
intelligence community. He said President Trump made a demand. 
He thought he could do that because he thought no one would 
ever be able to prove because what President would take the 
unprecedented step of releasing a transcript with a foreign 
leader? This President did, something that the whistleblower 
never expected.
    President Trump, we keep hearing, got caught. President 
Trump, we keep hearing, is obstructing justice. The President 
that took the unprecedented step of releasing a transcript so 
that everyone could see the truth is not obstructing Congress. 
The President didn't get caught. The whistleblower got caught. 
The whistleblower made false statements. The whistleblower got 
caught with Chairman Schiff.
    Remember Chairman Schiff, the person that the Democrats, 
instead of the House Judiciary Committee, which has spent a 
full week on this, that is not who is been in charge. The 
person they put in charge was the person that got caught with 
the whistleblower. Have you spoken directly with the 
whistleblower? No, we have not. We would like to. That wasn't 
true. The person that said he had evidence of the first fake 
impeachment scam, collusion with Russia, had evidence of that 
collusion and didn't have it, the person who, in the course of 
that, read into the record the Steele dossier because the 
people needed to know the truth about what happened. Well, we 
heard about the truth about the Steele dossier this week when 
the Inspector General told us it was all garbage, rubbish, all 
made up. Yeah, that Chairman Schiff. And now he got caught not 
being truthful about a whistleblower who, as I told you the 
other day, didn't tell the truth verbally and in writing, and 
that is in a transcript.
    You know what we didn't get in this one-week impeachment 
summary in the House Judiciary Committee? We didn't get that 
transcript. Chairman Schiff didn't send that one over. Only if 
you were on the Intelligence Committee have you seen that 
transcript. I have seen it. I would like to everyone to see it. 
With that, I yield to my good friend, Congressman Jordan.
    Mr. Jordan. I thank the gentleman for yielding. I want to 
go back to where Mr. Buck was referencing the gentleman from 
Rhode Island when he mentioned Mr. Sondland as, again, the that 
mentioned 611 times in their report, Mr. Sondland, the guy who 
presumed there was a quid quo pro. The guy who had to file an 
addendum to his deposition testimony, and in that addendum, 
again, he has this great sentence where he says Ambassador 
Taylor recalls that Mr. Morrison told Ambassador Taylor that I 
told Mr. Morrison that I conveyed this message to Mr. Yermak on 
September 1, 2019 in with Vice President Pence's visit to 
Warsaw, and a meeting with President Zelensky.
    Six people, again, have the four conversations in one 
sentence. Here is the interesting thing: Yermak talks with 
Sondland, Sondland talks with Morrison, Morrison talks with 
Taylor, and somehow through all that, we get the Democrats 
believing that there was this quid quo pro and that they need 
to impeach the President. What they forget is what Mr. Gaetz 
brought up just a few minutes ago. Yermak talks with Sondland, 
Sondland talks with Morrison, Morrison talks with Taylor, and 
this is part of their scheme. Guess what? 2 days ago, the guy 
who started it, Yermak, said it didn't happen. But that is 
their guy, Mr. Sondland. Had to file the addendum to his 
testimony, had to write this sentence to clarify. I think this 
is amazing. This is the clarification. Ambassador Taylor 
recalls that Mr. Morrison told Ambassador Taylor that I told 
Mr. Morrison, I mentioned to Mr. Yermak on September 1, 2019, 
in connection with Vice President Pence visit to Warsaw in a 
meeting with President Zelensky. Yermak is the key here, and it 
didn't happen. He just told us that, Time Magazine just 
reported it. The very same day as Mr. Gaetz pointed out that 
you all filed your Articles of Impeachment.
    Holy cow. This is what it comes down to. I yield back. Mr. 
Chairman.
    Chairman Nadler. The gentleman yields back. What purpose 
does the gentleman----
    Mr. Deutch. Mr. Chairman, I ask unanimous consent to strike 
the last word.
    Chairman Nadler. For what purpose does Ms. Demings seek 
recognition?
    Mrs. Demings. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Demings. You know, let me just say, I have been pretty 
shocked and disappointed with my colleagues on the other side. 
There have been so many things that have been said, like, the 
President never used the word ``demand.'' Well, I can tell you 
this: When a robber points a gun at you to take your money, 
they usually don't walk up and say, ``I am robbing you right 
now.''
    The other argument that we have heard this morning is that, 
``Well, the aid was released. It was eventually released. There 
was no investigation. There was no announcement of an 
investigation.'' But, you know, the aid was released because 
the President got caught. It was released after the 
whistleblower's complaint. It was released after public reports 
that the aid was being held because Ukraine was being coerced 
into doing an investigation and Congress had initiated 
congressional investigations into why the aid was being 
released.
    You know, we can talk about alternative facts all day long, 
but the facts are really pretty clear: that the President 
abused his power, the precious power of his office, to coerce a 
country that was dependent on us, a country who is fighting 
Russian aggression--because when Ukraine fights Russian 
aggression, they are helping us fight Russian aggression--and 
he did it for personal gain. And he should be held accountable.
    Mr. Chair, I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Biggs. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Nadler. Who seeks recognition for a unanimous 
consent request?
    Mr. Biggs. Biggs from Arizona.
    Chairman Nadler. The gentleman is recognized for a 
unanimous consent request.
    Mr. Biggs. Thank you, Mr. Chairman.
    My first unanimous consent request is the record of the 
correspondence and subpoena served on executive branch 
officials by Chairman Schiff. And we have concerns because 
three of those were served prior to the passage of H. Res. 660.
    Chairman Nadler. We will reserve the right to object. We 
will take a look at that.
    Mr. Biggs. Thank you.
    And I have another one, Mr. Chairman.
    Chairman Nadler. The gentleman will state it.
    Mr. Biggs. Thank you. It is two letters sent by the Office 
of the Vice President, dated October 15 and December 11.
    The first explains the overbroad scope of the document 
request from Chairman Schiff but offers to work with Congress 
to advance legitimate oversight authorities.
    The second letter points out an inaccuracy in Chairman 
Schiff's report. Contrary to an assertion contained in Chairman 
Schiff's report at the time of the release of these reports----
    Chairman Nadler. Are these public correspondence?
    Mr. Biggs. They are correspondence between the Vice 
President and----
    Chairman Nadler. Then without objection.
    [The information follows:]

      


                   MR. BIGGS FOR THE OFFICIAL RECORD

=======================================================================

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Biggs. Thank you, Mr. Chairman.
    Mr. Collins. Mrs. Roby.
    Chairman Nadler. For what purpose does Mrs. Roby seek 
recognition?
    Mrs. Roby. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Roby. I yield to my friend, Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you.
    I think that we have to remember that the abuse of power is 
coming from the quid pro quo charge, which then morphed into 
bribery.
    The problem is that my colleagues across the aisle can't 
make out what, again, what we call a prima facie case, meaning 
the elements are not supported by the facts. So let's just go 
back and look at the Federal statute for bribery. The elements 
are as follows: whoever, being a public official, corruptly 
demands or seeks personally anything of value in return for 
being influenced in the performance of an official act.
    Now, we could tear apart each one of these elements, but 
let me just focus on ``corruptly.'' The President didn't have 
corrupt intent, and that is why the Democrats cannot make out a 
prima facie case.
    Contrary to Schiff's parody version of the July 25 call, 
the President wasn't asking Ukraine to, quote/unquote, ``make 
up dirt about my opponent.'' That quote came from a parody from 
Chairman Schiff. The President didn't say it in the phone call. 
For whatever reason, that is being missed.
    There was also significant reason to believe that the 
Bidens were involved in corruption, and there is also evidence 
Ukrainian officials colluded with Democrats in the 2016 
campaign. Now, there has been a lot of talk about this being a 
conspiracy theory. It is not a conspiracy theory. The Hill, 
Politico, Financial Times all reported on this, and, for 
whatever reason, now it is being labeled a conspiracy theory.
    Also, the President was not seeking to help with his 2020 
campaign. Rather, he was seeking accountability regarding 
Ukraine Democrat collusion in 2016 and also potential 
corruption in the Obama administration's dealing with Ukraine 
as well.
    And we have to remember, too, what Professor Turley said. 
And, remember, Professor Turley voted for Hillary Clinton. He 
is not a Trump supporter. He was very impartial. And he said, 
and I quote the professor, ``Trump does not state a quid pro 
quo in the call. He is using his influence to prompt the 
Ukrainians to investigate and to cooperate with the Justice 
Department. If President Trump honestly believed there was a 
corrupt agreement with Hunter Biden that was not fully 
investigated by the Obama administration, the request for an 
investigation is not corrupt.'' And, again, I was quoting 
Professor Turley.
    I would also like to quote the Mueller report. And just an 
aside: We have to remember, months ago, Robert Mueller came in 
here and he said there was no evidence of collusion, no 
evidence of obstruction. But, again, we are back here.
    Okay, let me just go back to the Mueller report. There was 
discussion of ``corruptly'' in that report. As it pertains to 
obstruction of justice, it was stated, quote, `` `Corruptly' 
means acting with an improper motive or with intent to obtain 
an improper advantage for himself or someone else, inconsistent 
with the official duty and the rights of others.''
    By that standard, by Mueller's own standard, the 
President's behavior is entirely inconsistent with the 
definition of the underlying statute.
    With that, I yield back to my friend and colleague from 
Alabama.
    Mrs. Roby. I yield the remainder of my time to the 
gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. I thank my friend, Mrs. Roby, so much.
    First of all, I was astounded, having been a prosecutor--I 
have defended some cases. I have been a judge. I have sent a 
lot of people to prison. But I have never sent someone to 
prison where the victim didn't know or figure out that they 
were a victim.
    That is extraordinary to hear, that you can commit a crime 
like bribery or theft or robbery and the victim never knows, 
never figures out they are the victim. I have never sent 
anybody to prison when the victim----
    Mr. Collins. Would the gentleman----
    Mr. Gohmert [continuing]. Didn't know they were a victim.
    Mr. Collins. Mr. Gohmert.
    Mr. Gohmert. Yes. I will yield.
    Mr. Collins. I want to make a--Mrs. Roby----
    Chairman Nadler. It is Mrs. Roby's time.
    Mr. Collins. I will let it go.
    Mrs. Roby. I yield to Mr. Collins.
    Mr. Collins. Nope. I yield back to Mr. Gohmert.
    Mr. Gohmert. And, also, there is probably nobody on this 
committee that has followed what has happened over time in 
Ukraine more than I have. And there is no question, Putin wants 
the old Soviet empire back.
    And what happened when President Bush was in office, Putin 
had Russia invade Georgia. And President Bush reacted strongly, 
and he put sanctions in place. And so what happened when 
President Obama took office and Secretary Clinton was in 
office? They went over there with a red plastic ``reset'' 
button, and the message was clear to Putin: ``Look, Bush 
overreacted when you invaded Georgia, so you can invade 
Ukraine, and we are okay.'' That may not have been what they 
intended, but that is exactly what Putin heard, and that is why 
he invaded Ukraine, Crimea.
    And you are upset at Trump? For heaven's sake.
    Chairman Nadler. The gentleman's time has--the gentlelady's 
time has expired.
    For what purpose does Mr. Raskin seek recognition?
    Mr. Raskin. I move to strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Raskin. Thank you very much.
    Our colleagues reproved Mr. Cicilline for raising 
Ambassador David Sondland, who is President Trump's Ambassador 
to the EU, which has fascinated me, of course, because that is 
President Trump's pick. He contributed a million dollars to the 
Trump campaign; he became the Ambassador to the EU. They don't 
like him now because he clarified his testimony to say, yes, 
there was definitely a quid pro quo at the heart of this whole 
thing. So, now, of course, they turn on the President's own 
Ambassador.
    But we don't have to rely on his word--I started to mention 
this before--because he had a lunch with David Holmes, who was 
the senior State Department official at the U.S. Embassy in 
Kyiv. And they went out to a restaurant, and Ambassador 
Sondland got President Trump on the phone. And Holmes could 
hear the conversation. And this is all uncontradicted by other 
witnesses who were there. And, essentially, Ambassador Sondland 
said to him that, you know, ``Zelensky loves your ass, and you 
are going to get exactly what you want from him.''
    And, afterwards, Holmes says, ``Well, you know, what is it 
we can get from him?'' ``Well, it is the big stuff.'' And 
Holmes said, ``The big stuff? Well, you mean like the war? 
Dealing with Russia?'' ``No. The big stuff. What President 
Trump cares about.''
    Okay. Now, I am not quoting verbatim because I don't have 
it in front of me, but the substance of this is very clear. 
What does he care about? What can benefit him? Like the Bidens.
    And it is very clear from multiple witnesses exactly what 
President Trump wanted to get from President Zelensky. He 
wanted a statement on television that Ukraine was investigating 
and was going to investigate Vice President Joe Biden. And he 
wanted a statement contradicting the 2016 understanding by our 
Intelligence Committee and by Special Counsel Mueller that 
there had been a sweeping and systematic campaign by Russia to 
interfere in our campaign and saying it was Ukraine that 
interfered in our campaign.
    That is what he wanted. That was the big stuff. He didn't 
care about the Russian war on the people of Ukraine. He didn't 
care about corruption.
    They invite us to believe that Donald Trump is an 
anticorruption crusader who was shaking down President Zelensky 
about corruption, when he doesn't raise any corruption on that 
call, except for what he believed was going on with the Bidens; 
except that he reduced the anticorruption funding for Ukraine; 
except he doesn't raise it anywhere else that we can find.
    And what do you know? You pick up The New York Times 
yesterday. President Trump had to pay $2 million to charities 
because he ripped off his own charity for millions of dollars. 
This is the anticorruption crusader they want us to believe in, 
the guy who had to pay $25 million to students at the phony 
Trump University, which the attorney general of New York called 
a classic bait-and-switch operation. This is the guy that they 
want us to believe was shaking down the President of Ukraine 
because he had some secret anticorruption agenda that actually 
wasn't related to the Bidens, that wasn't related to 
rehabilitating the totally discredited Russian conspiracy 
theory that it was Ukraine and not Russia that interfered in 
our campaign in 2016.
    Come on. Get real. Be serious. We know exactly what 
happened here. Seventeen witnesses. It is uncontradicted. There 
is no rival story. No rival story at all.
    And our colleagues will not even tell us whether in theory 
they think it would be wrong for the President of the United 
States to shake down foreign governments to come and get 
involved in our Presidential campaigns in order to harm the 
President's political opponents. They won't even tell us in 
principle whether they think that is wrong, because they think 
it is too dangerous at that point.
    We know that they don't accept the facts. We know they 
don't accept the evidence. They don't like the fact that the 
depositions took place in the basement? Where should they have 
been? On the first floor? The second floor? Would they accept 
the facts if we found some other room? Would that be all right?
    Because their people were there. I was in that room. There 
were Democrats; there were Republicans. The Democratic counsel 
got an hour; the Republican counsel got an hour. It was even on 
both sides.
    Enough of these phony process objections. Let's get back to 
the facts of what happened. The President of the United States 
shook down a foreign power to come get involved in our 
election. That is wrong.
    I yield back.
    Mr. Deutch. Mr. Chairman?
    Chairman Nadler. The gentleman yields back.
    Mr. Deutch. Mr. Chairman? Down here.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Deutch. I move to strike the last word.
    Chairman Nadler. No, no, no. Their side.
    Mr. Deutch. Sorry.
    Chairman Nadler. The gentleman, Mr. Armstrong, is 
recognized. For what purpose does Mr. Armstrong seek 
recognition?
    Mr. Armstrong. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Armstrong. Thank you, Mr. Chairman.
    First, I think it bears mentioning that there is a lot 
about David Holmes I would say, but what I would say first is 
that, for a guy who heard part of one-half of a 3-minute phone 
call, he had a 40-minute opening statement. And Sondland 
testified that Biden was never linked in his mind until the 
transcript was released at the end of August.
    And the Democratic report does not--not the Republican 
report--the Democratic report does not establish any language 
between the announcement or understanding of investigations for 
his personal political benefit. The only testimony Democrats 
rely on to prove that allegation is Ambassador Sondland's 
testimony.
    However, they conveniently leave out the most crucial 
aspect of the Ambassador's testimony, and that is, after being 
questioned, he only presumed the linkage. In fact, he admitted 
in his public testimony that no one in the world told him there 
was any linkage. But this is the basis for the Democrats' 
Article I.
    I want to go to a little broader reason of why we should 
accept Mr. Jordan's amendment. A Democratic Senator was quoted 
saying, ``Never, in my view, had America been led by such a 
dangerous head of state.'' He bemoaned that America was misled 
by a ``reckless and arrogant President.'' That was Senator 
Robert Byrd from West Virginia describing George W. Bush.
    Ronald Reagan was accused of abuse of power for pushing a 
growth-based economic agenda, for committing troops to Lebanon, 
or for turning back the Sandinistas in Nicaragua.
    Clinton, excluding the impeachment, was accused of abuse 
of--accusations for an Asia fund-raising scandal; four dozen 
donors were arrested; aides getting sweetheart appointments; 
use of the FBI to dig up dirt on political employees; Waco; and 
a Swedish slush fund.
    George W. Bush was accused of abuse of power for domestic 
spying, an Energy Task Force controversy, Presidential Records 
Act, steel tariffs, the Iran-Iraq war, and NSA overreach.
    Obama's IRS engaged in politically motivated targeting of 
charitable groups; Fast and Furious gun-running scandal; 
collected telephone records on AP journalists without a 
warrant; the seizure of private property under the guise of 
environmental protection.
    The problem we are running into, which is going to last far 
longer than today and far longer than this Congress, is this 
will become the new normal. Every one of those things I 
mentioned had reports written about them. They probably had 
election consequences. There were hearings held. You know what 
they didn't have? A nebulous, ambiguous charge of abuse of 
power.
    If you cannot prove an underlying crime, you do not get to 
use all of the evidence you are presenting forward. This will 
continue. This will move forward. In the history of our 
country, the party who is not in the White House has accused 
the White House of abuse of power. It started 200 years ago. It 
will continue into the future. Except, now, congratulations, it 
will be impeachment every single time one party controls the 
House of Representatives and the other party is in the White 
House.
    And, with that, I would yield to my friend from Louisiana.
    Mr. Johnson of Louisiana. I thank my friend.
    I just want to point out, we are talking about--and we have 
been for the last 2 hours--this amendment that Mr. Jordan 
brought. He wants to strike Article I of the resolution, 
because the resolution isn't worth the paper it's written on.
    Why do we need to do that? Article II, Section 4 of the 
Constitution is what gives us the standard for impeaching a 
President. You have to have treason; you have to have bribery 
or a high crime and misdemeanor. You guys have defaulted to 
this amorphous abuse-of-power allegation. It is not a criminal 
act. It is not a crime. It is certainly not a high crime.
    There is one problem that everybody can--to summarize all 
this--if you are getting lost in the arguments at home, here is 
what it comes down to. In the 243-year history of this country, 
there are only two previous Presidents that have been impeached 
by a vote of the House. It was, of course, Andrew Johnson and 
Bill Clinton.
    In both of those and in the lengthy Nixon impeachment 
investigation, evidence clearly established that specific 
criminal acts were committed. Evidence clearly established that 
specific criminal acts were committed.
    These guys don't have that here. They know it. You know it. 
It is not on paper in the resolution in Article I or Article 
II. It is in nothing that has been said here in the last 2 
hours.
    These facts don't change. This is a completely 
unprecedented, single-party impeachment charade, and everybody 
at home can see that clearly. These things don't change, and 
they won't.
    I will yield back to my friend.
    Chairman Nadler. It is Mr. Armstrong's time.
    Mr. Collins. Mr. Armstrong. Mr. Armstrong.
    Mr. Armstrong. I yield to my friend from Florida.
    Mr. Gaetz. I thank the gentleman for yielding.
    No evidence.
    Quote, ``When Time asked Yermak if he ever felt there was a 
connection between U.S. military aid and the request for 
investigations, Yermak was adamant. `We never had that feeling. 
We did not have the feeling this aid was connected to any one 
specific issue.' ''
    Mr. Chairman, I seek unanimous consent to enter this Time 
magazine article of 12/10/2019 into the record.
    Chairman Nadler. Without objection, the article will be 
entered.
    [The information follows:]

      


                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. For what purpose does Mr. Cohen seek 
recognition?
    Mr. Cohen. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cohen. Thank you, sir.
    I took theater and drama when I was in college one course, 
and I was told the first thing you have to do is have the 
willing suspension of disbelief. The Republicans, obviously, 
took that course over and over and over again.
    And they don't--I mean, they are the Fifth Avenue crowd. 
They have talked about Sondland. That is the man the President 
appointed as his Ambassador to the EU. That is the man he said 
was a great guy. That is the man who is still employed. And 
Sondland said they were all in the loop. Pompeo, Giuliani, 
Mulvaney, Bolton--they were all in the loop. And it was about 
the quid pro quo. It was about having an investigation 
announced on CNN, and then you will get the military aid. And 
Sondland told, in Warsaw, one of the aides to President 
Zelensky, ``You have to announce the investigation.'' It was a 
strong-arm. They did it.
    And where do we get these people in the loop to testify? 
They have been asked to testify; the President says no. He 
won't let them testify. Because he knows that if they tell the 
truth, it will hurt his case, because they know that they held 
up the military aid.
    President Zelensky has no choice. He needs America to 
protect himself from the big bear, Russia. They say he hasn't 
said that he felt pressured. Well, A, he is an actor, and, B, 
he is a politician. And he depends on us. He has no choice. And 
so he can't say that. But you knew it, and he told people, and 
he knew the aid was being withheld. They knew it on July the 
25th. There were communications from the Embassy that have been 
released that they knew the aid was being held up. They knew it 
was being held up.
    There was no reason for President Trump to tell Sondland, 
``No quid pro quo, I don't want anything,'' except for saying, 
I want you to testify that I told you this. Because he knew 
that the whistleblower had come out and blown their cover, and 
he knew that the jig was up. So he needed to find a way to say 
something that would be in the record. And Sondland remembered 
it.
    Their best witness--they talk about the three professors, 
three of the most respected professors in America, all of who 
came in here and said this is the most impeachable President. 
This abuse of power is one of the most serious offenses you can 
imagine. It is the Constitution, it is the law of the land. And 
if you abuse your power, that is the most impeachable crime you 
can be charged with.
    And they forget their witness, Mr. Turley, said what the 
President did was wrong. He didn't come in and give a clean 
bill of health to the President. He said, you need some more 
information, you need some more proof. But you can't get the 
proof because the President won't allow his men to testify. One 
of them is writing a book. One of them is still in the interim 
job. The other one is running for Senator. They can't do it.
    The proof is there. This is the most abusive act we can 
imagine, trying to influence our elections with foreign 
interference. That takes power away from the American people, 
and that would end our country as we know it--a democracy, a 
shining city on the hill, a beacon of hope to people around the 
world who followed our revolution by changing their governments 
to giving people the power and not kings. And this is a way to 
revert back to a king, a man who thinks he can do whatever he 
wants. If it is Article II, says, ``I can do whatever I want; I 
am President.'' That is not right.
    When he said, ``I need a favor though,'' he was talking 
about getting dirt on the Bidens. He feared Joe Biden as his 
primary political rival. Michael Cohen told us, the President 
doesn't come out and say exactly what he wants; he speaks in 
code. That is the President's code. Michael Cohen knows it, and 
Michael Cohen is in prison now.
    Individual 1 is not in prison because Individual 1 could 
not be indicted because of the Justice Department's policies 
that say you can't indict a sitting President. But Michael 
Cohen is in prison because he facilitated the payments to Ms. 
Daniels and the payments to Ms. McDougal.
    You talk about abuse of power. Abuse of power is having a 
charitable foundation and taking advantage of the charities and 
using the money for your own purposes and having to pay a $2 
million fine and not being allowed to be on a board ever again 
because you don't have the character to be over a charitable 
foundation. Abuse of power is ripping off people with Trump 
University and paying $25 million.
    I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Cline seek recognition?
    Mr. Cline. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cline. Thank you, Mr. Chairman.
    I am not going to go into why I don't see any of the 
remarks from the gentleman from Tennessee in these Articles of 
Impeachment, but I do want to say, I am a little incredulous. 
As a prosecutor, I am just so amazed at what the majority are 
calling facts. They keep talking about the facts and the 
evidence. Well, their evidence is in dispute because it is 
based on hearsay, opinion, and speculation. These are not 
facts; this is testimony about what somebody thought or what 
somebody concluded from acts taken by members of the 
administration.
    The charge is abuse of power, but what the majority is 
really upset about is the fact that the President and the 
administration is exercising its power under the Constitution, 
its authorized powers.
    For example, the President's authority to set foreign 
policy and fire, for example, an ambassador is not a smear on 
an official. It is the use of Article II, Section 2 of the 
Constitution. The President is authorized by statute to put a 
stop on the distribution of funds. The President is instructed 
in the NDAA to ask for and monitor investigations into 
corruption in the Ukraine.
    When you talk about direct testimony from individuals like 
Lieutenant Colonel Vindman and Mr. Morrison, you have the fact 
that they were on the call, and the transcript speaks for 
itself, but you have opinions and conclusions after that.
    And when it comes to actual testimony that hasn't been 
heard, it just shows that the majority really doesn't have any 
interest in getting to the bottom of this question, because if 
they did care about actually finding out facts, they would be 
calling Mr. Yermak back into this committee. They would be 
delaying this process. Because what we have read from this 
article in Time magazine is incredible and exculpatory and, 
quite frankly, a bombshell.
    When you have specific rejection of claims made by 
Ambassador Sondland that he was told the aid to Ukraine would 
not be released unless investigations were launched, why is he 
not in here?
    ``When asked if he thought there was a connection between 
the aid and the investigations, Yermak stated, `We never had 
that feeling.' He added that `we had a clear understanding that 
the aid has been frozen. We honestly said, ``Okay, that's bad, 
what's going on here?'' We were told that they would figure it 
out. And after a certain amount of time, the aid was unfrozen. 
We did not have the feeling that this aid was connected to any 
one specific issue.' ''
    If you ignored this evidence and you were in a court case, 
you would lose your law license for allowing a case to go 
forward without this exculpatory evidence being provided to the 
defense. It is just so ridiculous to me that we are not taking 
time to look further into this.
    And, with that, I want to yield to Mr. Collins, the ranking 
member.
    Mr. Collins. Thank you, Mr. Cline.
    Well, I appreciate so much the gentleman from Tennessee. He 
just answered a ton of questions for me about his understanding 
of props and theatrics by his study of drama in his higher 
education, because now we understand a lot of things.
    But, also, we have another thing. Folks who have studied 
drama also understand you read the lines. They can read the 
transcript. Quit saying, ``I want you to do me a favor.'' It is 
not in the transcript. It must be hard to read. I guess ``me'' 
and ``us'' gets confused when you are trying to make up facts. 
That is what is happening here.
    But he also just proved my point. While Mr. Jordan's 
article is actually--the amendment is actually good, because it 
is what I have said all along. The moment I saw that they 
decided to use abuse of power, what they did is they gave their 
whole conference carte blanche to make up anything they want 
and call it abuse of power, because they don't have anything 
else to give. They don't have actual crime that they can add 
up. If they did, as was portrayed from the gentleman from 
Maryland and so many others--if you had the crime, if you had 
it, you would have put it in the articles. You didn't do it.
    But then the last thing that is amazing to me, and the 
gentleman from Tennessee said it, he called Mr. Zelensky a 
politician and an actor in a derisive way, basically implying 
politicians lie--well, we have seen that this morning, even in 
just what they are talking about, how they can't even read a 
transcript--and that he is an actor.
    It is amazing to me how we on this committee are 
denigrating Mr. Zelensky in the eyes of his country and in the 
world because we can't make a case against this President. This 
is the tragedy of this impeachment right now, is they are 
trying to denigrate--because they can't make the fact that he 
felt pressured. That is a critical element of their case.
    I yield back to Mr. Cline.
    Mr. Cohen. Unanimous consent request.
    Chairman Nadler. Who yields back?
    Who is seeking recognition?
    Mr. Cohen. Unanimous consent request.
    Chairman Nadler. Who is seeking recognition for a unanimous 
consent request?
    The gentleman will state his unanimous consent.
    Mr. Cohen. I would like a unanimous request to introduce 
the editorial from the USA Today today that called for the 
impeachment of the President----
    Chairman Nadler. Without objection.
    Mr. Cohen [continuing]. From the Los Angeles Times, from 
The Philadelphia Inquirer, and from The Boston Globe.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                   MR. COHEN FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Collins. I object. I want to read it.
    Chairman Nadler. The objection is heard.
    Mr. Cohen. I would love for him to read them.
    Chairman Nadler. Who else seeks----
    Mr. Collins. It proves that I can read. The transcripts 
undoubtedly I would not be able to read.
    Chairman Nadler. Who seeks recognition? Does anyone else 
seek recognition on this amendment?
    For what purpose does Mr. Steube seek recognition?
    Mr. Steube. I move to strike the last word, Mr. Chair.
    Chairman Nadler. The gentleman is recognized.
    Mr. Steube. The fact that members of this committee would 
insinuate that Ukrainians died at the hands of Russians because 
they didn't get aid is absolutely ridiculous. Having actually 
served in a combat theater and knowing what that is like, to 
blame that aid was delayed a few weeks would have saved lives 
is, frankly, insulting to me and to all that served.
    Now Democrats want you to believe that Ukrainians died and 
it is Trump's fault. Why don't we impeach him on that?
    Members on the other side of the aisle in this committee 
now are talking about bribery and laying out a case for bribery 
and laying out elements for bribery. Yet, if their case was so 
compelling and overwhelming and they had all the elements, then 
why isn't it in the Articles of Impeachment? It is not in 
either one.
    They didn't include it because there is no evidence for 
that charge. The aid was released before the deadline set out 
by Congress. They released the aid. The Ukrainians didn't start 
any investigations. They also got a meeting with President 
Trump. And President Trump doesn't have to meet with foreign 
leaders, and he still agreed to meet with them.
    Article II, Section 4 of the United States Constitution 
says, ``The President, Vice President, and all civil Officers . 
. . shall be removed from Office on Impeachment for, and 
Conviction of, Treason, Bribery, or other high Crimes and 
Misdemeanors.'' We do not have that here.
    In every impeachment, Congress has interpreted this section 
to mean that the President has committed an actual criminal 
act, one that is outlined in a criminal statute. For example, 
Nixon, he was accused of a criminal act; Bill Clinton, three. 
These were crimes that, if not tried in the House of 
Representatives, could have been tried in the criminal court.
    This standard of criminality provides clarity. And as one 
witness who testified before this committee, Mr. Turley, 
explained, ``Although criminality is not required, clarity is 
necessary. That comes from a complete and comprehensive record 
that eliminates exculpatory motivations or explanations.''
    But throughout this investigation, the Democrats couldn't 
seem to find any criminal act on the part of the President. So 
instead of relying on historical precedent of criminality, they 
decided to impeach him for abuse of power, a vague phrase that 
appears nowhere in the Constitution when discussing impeachment 
and has no basis in fact or in evidence but, rather, is deeply 
rooted in personal opinion and perception.
    Mr. Turley also explained the implications of this 
occurrence. Quote, ``We have never impeached a President solely 
or even largely on the basis of a noncriminal abuse-of-power 
allegation. There is good reason for that unbroken record. 
Abuses of power tend to be even less defined and more debatable 
as a basis for impeachment than some of the crimes already 
mentioned.''
    He went on to say that ``the principal problem with proving 
an abuse-of-power theory is the lack of direct evidence due to 
the failure to compel key witnesses to testify or production of 
key documents.''
    Now let's talk about the direct evidence that they have. 
There is none. The only person who would have firsthand 
knowledge of the quid pro quo, bribery, extortion, or whatever 
buzzword the Democrats want to trot out next is President 
Zelensky, who has categorically denied any such agreement or 
pressure.
    Herein lies the issue with hinging your entire impeachment 
on a noncriminal abuse-of-power allegation: The facts don't 
support your claims.
    So let's review. Never in the history of the United States 
has a President been impeached solely or largely on the basis 
of abuse of power. Every President who has been impeached has 
been impeached for criminal acts. Democrats found no evidence 
of criminal misconduct on the part of the President. The 
Democrats have even failed to even prove a noncriminal standard 
for abuse of power and have relied on hearsay and conjecture.
    What the Democrats are trying to do here is pull the wool 
over the eyes of the American people and make them think that 
wrongdoing has occurred, where there is none. By using fancy 
rhetoric and flowery language, they think that they can 
convince a Nation of their ill-conceived ideas. Don't fall for 
it, America.
    I yield the remainder of my time to Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    If the Democrats are going to take some of Sondland, you 
have to take all of Sondland. If you are going to mention him 
611 times in your report, if you are going to build your case 
around the guy who presumed--presumed--there was a quid pro 
quo, the guy who had to file an addendum to his deposition, if 
you are going to do all that, you can't ignore the direct 
conversation he had with the President of the United States, 
where he asked him, ``Mr. President, what do you want from 
Ukraine?''
    What did the President say? Interesting. Mr. Sondland left 
this out of his opening statement, his 20-some-page opening 
statement. ``What do you want from Ukraine?'' What did the 
President say? ``I want nothing. I want no quid pro quo. I want 
him to do what he said. I want him to do what he ran on.''
    You can't ignore that. The one piece of direct evidence--
you want all this presumption. You want all this addendum. If 
you are going to take some of Sondland, you have to take all of 
him.
    I yield back--I will yield to Mr. Steube.
    Mr. Steube. I yield to Mr. Gaetz.
    Mr. Collins. Yield back.
    Mr. Steube. I have 30 seconds.
    Mr. Collins. Thirty seconds.
    Mr. Steube. I had 30 seconds left before they cut the 
clock.
    Chairman Nadler. The gentleman will proceed.
    Mr. Steube. I yield to Mr. Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding.
    I just think the gentleman from Tennessee, Mr. Cohen's 
debate on the last subject really shows what we are dealing 
with. This is not a rifle-shot impeachment with facts and 
evidence. This is birdshot.
    I mean, he talked about everything from, you know, the 
campaign finance concerns, to Trump University, concerns about 
charities. This is like pin the tail on your favorite 
impeachment theory, because they don't have evidence for any 
one single thing to impeach the President for.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. McClintock seek recognition?
    Mr. McClintock. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. McClintock. Thank you.
    Mr. Chairman, the Constitution introduces the President 
with 15 words: ``The executive Power shall be vested in a 
President of the United States of America.'' It does not vest 
any authority in lieutenant colonels at the NSC, ambassadors, 
State Department officials, or Cabinet Secretaries. The only 
authority that these officials exercise is delegated to them by 
the President. So all the criticisms and resentments and 
personal and political disagreements that we have heard from 
those officials are completely irrelevant.
    It is dangerous that so many officials in the executive 
branch believe that they have independent authority to override 
Presidential policy, leak classified documents, and actively 
work to undermine the lawful discharge of the President's 
duties under Article II. If their judgment can replace that of 
the President, it means that the people of the United States 
have simply been removed from the equation.
    Now, someone said during the discussion today that the 
President has actually committed real crimes. But the article 
does not charge such crimes. Why not? Because there is no 
evidence to support them. If there was evidence, you know that 
in a heartbeat they would have included these charges. So it is 
obvious they don't even believe their own rhetoric.
    One member said, ``We are not restricted as the Department 
of Justice is.'' Think about what that statement means. The 
Department of Justice is restricted by the Bill of Rights. The 
Bill of Rights sets forth basic principles of due process: the 
right to confront your accuser; the right to call witnesses in 
your defense; charges have to be supported by evidence, not 
gossip; and you have the right to appeal to the courts to 
protect these rights.
    Yes, the Department of Justice is restricted by the Bill of 
Rights, but our Bill of Rights, with its due-process 
restrictions, restricts all of us who take the oath of office. 
And that includes Congress. We are restricted to respect these 
rights also. Only, the majority is now placing themselves above 
the supreme law of the land.
    The lawful exercise of executive power is simply not an 
impeachable offense. The President is responsible for 
faithfully executing the laws. The Foreign Corrupt Practices 
Act makes it a crime to offer something of value to secure 
business in a foreign country. Well, the facts of Mr. Biden's 
actions in the Ukraine certainly look like they cross that 
line. Does the President have the authority to request 
cooperation of a foreign government to investigate potentially 
corrupt interactions between U.S. officials and their own 
officials? Of course he does.
    The Democrats impute the most sinister motives to this 
request. Well, nothing in the conversation suggests that. ``Do 
us a favor because our country has been through a lot and 
Ukraine knows a lot about it.'' That is the exact quote.
    Now, the National Defense Authorization Act specifically 
requires the administration to determine that Ukraine is taking 
steps to combat corruption before aid can be released. Now, the 
Democrats have made much of the fact that the Secretary of 
Defense certified this in May. Well, they ignore two facts. 
Number one, the Secretary of Defense exercises no authority 
independent of the President. The buck still stops at the 
President's desk. And, two, the President retains 
responsibility to determine that the findings of his 
administration remain valid, particularly as he assesses the 
intention of a newly elected President and newly elected 
parliament.
    And lest we forget, last year, three Democratic Senators 
wrote to the Ukrainian Government, demanding that it cooperate 
in investigating President Trump. The Democrats found 
absolutely nothing objectionable about this. The only 
difference I see is that the President actually has the 
authority and the responsibility to make such a request.
    So what is at stake here? The worst possible 
interpretations of the President's motives in discharging his 
constitutional powers are being imputed to him by his most 
vitriolic opponents. Now, there is nothing extraordinary about 
that. It is called politics.
    But if this can become the new standard of impeachment, 
that Congress can impeach any President whose motives his 
opponents question, if this is allowed to replace treason, 
bribery, and other high crimes and misdemeanors as the standard 
for nullifying a national election and substituting the 
judgment of Congress instead of the judgment of the American 
people, well, then no President can make any decision without 
subjecting the Nation to the travesty going on today. The 
executive branch will be subordinated to the legislative, 
serving at the pleasure of Congress, and the separation of 
powers at the heart of our Constitution will have been utterly 
destroyed.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does the ranking member, Mr. Collins, seek 
recognition?
    Mr. Collins. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. Thank you, Mr. Chairman.
    As we went through this amendment, which I think is 
probably one of the most telling amendments and when put to a 
vote is going to tell a lot--because this is the most amorphous 
amendment that you could have. This is the one that even when I 
was waiting for the announcement from the chairman and others 
at the podium, I was actually there and was being interviewed, 
and when I heard this one come up and confirmed that abuse of 
power was one of their Articles of Impeachment, it was simply 
stunning.
    And my first reaction has been made and rung true 
completely here today by many of the members on the majority, 
including the gentleman from Tennessee just recently, who just 
confirmed it. Abuse of power for Articles of Impeachment means 
anything they want it to mean. It is the carte blanche 
coverage. It is saying, we don't really have a case to our 
caucus, but go out and make it up. Just go out and say what you 
don't like. If he didn't say something nice to this, if he 
didn't do a policy you don't like, do this, and that is going 
to cover you, you will be okay. Because, remember, this is 
always about an election.
    You know how we continue to know this? We keep misquoting 
the transcript. They don't have the facts, so we keep 
misquoting the transcript, saying, ``Do me a favor.'' Again, it 
is simple. Read it. It is us, our country. I mean, if you have 
a case, make it, but don't make it up because you don't have 
it.
    What we have here also is this continual, just repeated 
attacks on the Ukrainian President, Mr. Zelensky, the repeated 
attacks. Because we are either claiming he is a liar or a 
puppet or, as was just called, he is a politician and an actor 
so disregard him. Wow, that is a lot of concern for the 
Ukrainian people, taking on their very President they have just 
elected.
    When we understand and we look at this, this is how it gets 
to the problem. When you get to a certain point and you can't 
make your case, when you can't factually add it up, when you 
have law school professors tell you, ``Well, if you think this, 
think this, then the inference is okay,'' then we have lowered 
the standard to where anything can be brought in.
    The factual case that has just been made over the past 
almost 3 hours now by the minority side has laid bare the case 
on abuse of power. There is none. You can make it up, you can 
call it whatever you want, and you can go try and sell that to 
the American people, but, you know, they are not buying it. 
They are not.
    And it is going to get harder and harder for members to 
actually go to that well next week or go to that ballot where 
they actually stick their card in and vote yes on abuse of 
power and then actually have to go back and explain that. It is 
easy in this room; you have help from your colleagues. But when 
you are back home trying to explain why you are going to take 
down a President, duly elected, over abuse of power because of 
some of the arguments we have heard this morning, that is just 
amazing.
    There is true skepticism about what went on in the Ukraine, 
and it is deeply rooted with this President. And, by the way, 
there was another time, in the late 2017 and early 2018, 
Ukraine aid was held. It is not the first time. Skeptical of 
foreign aid--he ran on this. I have said this before. Most 
people are amazed that he actually does what he said he was 
going to do. He runs on a campaign that our foreign aid needs 
to be looked at. He actually does those kinds of things. That 
is what a President who shows true leadership does.
    The pause was for 55 days. Also, other countries' aid was 
also held. Lebanon was actually held. Others were actually 
held. This is not a new thing. Do not let the majority try to 
convince the American people that withholding aid or not 
looking into corruption is a new thing. Don't let them do it.
    In the words, like I said, others, maybe that is what--you 
know, when you are having to play a part, you have to do that. 
You have to make it up. It is called ad lib. And that is what 
they are doing.
    Mr. Hale testified, one of the more egregious ones. And I 
have a friend of mine who texted me just a few minutes ago. Mr. 
Steube has brought this up, I have brought this up, but, again, 
it needs to be hit, that one of the things perpetrated this 
morning out to the American people is that people lost their 
lives in the Ukraine over this held aid. This friend of mine 
who texted me just a few minutes ago lost limbs on his own body 
in defense of our country in a war zone. And he says, don't let 
them get away with this because this is a future act.
    Mr. Hale testified to this fact. In fact, he repudiated it 
in his deposition. We want to talk about facts? Go to the 
deposition. Go to the transcript that he had. He said this was 
future aid, had nothing to do with running the Army right then.
    In war zones, people get hurt and people die. And Russia 
has invaded Ukraine. They are fighting that. It is a hot war. 
People will.
    But to blame this conversation because you have such a weak 
case that you are going to try and it throw that in just to 
scare the American people, that is not right.
    Make a case, have your facts, put it in the articles. But 
when you can't do that, you go in the back room, you start 
writing Articles of Impeachment and you say, ``Uh-oh, we have a 
problem. Let's put something in there that all of our 
conference can get behind because they don't like the 
President.''
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Dean seek recognition?
    Ms. Dean. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Dean. Thank you, Mr. Chairman.
    I rise to speak in opposition to this amendment and, to my 
colleagues on the other side of the aisle, to remind you of the 
facts that have been uncovered and to review them and put them 
on the record again for the American public. Because facts do 
matter.
    Notice the contrast between the conversation on this side 
of the aisle and that. They run away from the facts. They are 
afraid to admit to themselves or to the American public of what 
the President's behavior really adds up to. So let me just 
recite the facts.
    When Ukrainian President Zelensky raised the issue of U.S. 
military assistance to Ukraine during the July 25 call, 
President Trump replied, quote, ``I would like you to do us a 
favor though because our country has been through a lot and 
Ukraine knows a lot about that,'' end quote.
    Congress appropriated and authorized $391 million in 
security assistance to Ukraine. On May 23, the Department of 
Defense certified to Congress that Ukraine had completed the 
requisite anticorruption reform actions to qualify for the 
security assistance appropriated by Congress. The President 
himself directed the aid to be put on hold.
    In July, Ukrainian officials asked Pentagon staff about the 
hold on military assistance. No legitimate public policy or 
national security rationale exists--and the President has not 
brought one forward--for President Trump's decision to withhold 
the security assistance from Ukraine.
    Providing aid to Ukraine is in the national security 
interest of the United States. Withholding it is in the 
personal political interest of the President and of Putin.
    President Trump failed to say the word ``corruption'' 
during his April 21 call with President Zelensky. President 
Trump failed to say the word ``corruption'' during his July 25 
call to President Zelensky.
    The aid to Ukraine was released only after House committees 
announced an investigation into the administration's decision 
to halt the aid.
    The President instructed all witnesses from the 
administration not to testify and withheld all relevant 
documents from House investigators.
    On October 3, when asked by a reporter what he hoped 
President Zelensky would do following their July 25 call, 
President Trump told the American public and the world, ``Well, 
I would think that, if they were honest about it, they'd start 
a major investigation into the Bidens. It's a very simple 
answer.''
    On October 17, at a press briefing in the White House, 
Acting Chief of Staff Mick Mulvaney said President Trump 
absolutely mentioned corruption related to the DNC server in 
connection with the security assistance during his July 25 call 
and that that server was part of, quote, ``why we held the 
money up,'' end quote. Upon taking a question from a reporter 
attempting to clarify the acknowledgement of a quid pro quo, 
Mulvaney relied, quote, ``We do that all the time with foreign 
policy. Get over it.''
    Let me remind you of a statement that Dr. Fiona Hill made 
in her opening statement and her extraordinary, powerful 
opening statement, incredible testimony before this Congress. 
She said, and I quote, ``If the President or anyone else 
impedes or subverts the national security of the United States 
in order to further a domestic, political, or personal 
interest, that is more than worthy of your attention.''
    I ask my colleagues respectfully on the other side of this 
dais, is it not worthy of our attention to uphold the 
Constitution and ask the President to do the same? Or do they 
think it is proper, do they think it is okay for any President, 
not just this one, but for any President to invite foreign 
interference into our elections?
    And, with that, Mr. Chairman, I yield to the gentleman from 
Rhode Island.
    Mr. Cicilline. I thank the gentlelady for yielding.
    Mr. Chairman, there is a letter that was signed by more 
than 500 legal scholars across the ideological spectrum that I 
would like to just read from very briefly.
    Speaking of the President's conduct, they say, ``The 
President's conduct is precisely the type of threat to our 
democracy that the Founders feared when they included the 
remedy of impeachment in the Constitution. We take no position 
on whether the President committed a crime, but conduct need 
not be criminal to be impeachable. The standard here is 
constitutional. It does not depend on what Congress has chosen 
to criminalize.''
    They go on to say, ``Impeachment is an especially essential 
remedy for conduct that corrupts elections.''
    I know that my time is about to expire, so I will come back 
to this before I introduce it, because I would like to read 
some additional parts of it.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    I recognize myself on the amendment, and I yield to Mr. 
Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I would like to just continue to read, because this, again, 
is a letter signed by more than 500 constitutional scholars. 
And I think some of the confusion my colleagues have been 
struggling with is the difference between impeachable offenses 
and violations of the criminal statute, so I hope this will 
help clarify that.
    They write, ``Impeachment is a remedy for grave abuses of 
the public trust. Impeachment is an especially essential remedy 
for conduct that corrupts elections. The primary check on a 
President is political. If a President behaves poorly, voters 
can punish him or her at the polls. A President who corrupts 
the system of elections seeks to place himself beyond the reach 
of this political check.
    ``At the Constitutional Convention, George Mason described 
impeachable offenses as `attempts to subvert the Constitution.' 
Corrupting elections subverts the process by which the 
Constitution makes the President democratically accountable. 
Put simply, if a President cheats in his effort at reelection, 
trusting the democratic process to serve as a check to that 
election is no remedy at all. This is what an impeachment is 
for.''
    They go on to say in this letter, ``Whether President 
Trump's conduct is classified as bribery, as a high crime or 
misdemeanor, or both, it is clearly impeachable under our 
Constitution.''
    So, in asking unanimous consent that this letter and the 
more than 500 legal scholars who signed it be made part of the 
record, I hope my colleagues on the other side of the aisle 
will understand the basis of this Article of Impeachment: that 
the President of the United States violated the public trust, 
undermined the national security of the United States, betrayed 
our national interests by using the enormous power of his 
office not to advance the public good, not to advance the 
policies of the United States and the interests of the United 
States, but to advance his own personal political benefit.
    That is exactly what the Framers spoke about. That is not 
my conclusion alone. It was the conclusion of the scholars we 
heard from in our hearing and more than 500 legal scholars that 
have joined them.
    And so I hope we will put to rest this notion that you have 
to violate a criminal statute. You know, a President could 
deface a post office, a mailbox. That is a Federal crime. No 
one would suggest the President could be impeached for that. So 
the Framers are talking about the abuses of the public trust, a 
violation of the most sacred oath to honor the interests of the 
American people and not to advance your own personal political 
interests.
    These constitutional scholars say it much better than I can 
and as well as Professor Raskin has said, so I ask unanimous 
consent it be made part of the record.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. Reclaiming my time, I would simply point 
out a few things.
    Number one, that the impeachment of President Nixon, 
although he had committed many crimes, the committee voted 
impeachment for abuse of power and obstruction of justice. It 
did not specify a specific crime.
    I would also point out that the majority staff report of 
the Judiciary Committee back in 1974, not just now, and I 
believe in 1998, but certainly 1974, pointed out that crimes 
and impeachable offenses are different things. There are crimes 
which may not be impeachable. There are impeachable offenses 
which may not be crimes. An impeachable offense, a high crime 
and misdemeanor, is a grave and serious offense against the 
Constitution, against the structure and function of the 
government. I would refer you to the Federalist Papers.
    I would also say one other thing. We have repeatedly heard 
that the Democrats are accusing President Zelensky and Mr. 
Yermak of lying because President Zelensky said he wasn't 
pressured. Well, of course he said he wasn't pressured. The 
United States is a powerful Nation on which his nation is 
dependent. He has a gun to his head. The gun is the fact that 
the President of the United States, upon whom he depends for 
military aid, for help in many different ways, has shown 
himself willing to withhold that aid and to do other things 
based on what he says and based on whether he is willing to 
play along with the President for his personal political goals.
    So of course he denies he was pressured, because he knows 
that if he didn't deny that, there might be heavy consequences 
to pay.--and you cannot credit that denial without any 
aspersions on his character but simply on the fact that the 
President of the United States holds a gun to his head.
    I yield back.
    And the question is on the amendment.
    Those in favor, say aye.
    Opposed, no.
    In the opinion of the chair, the noes have it.
    Mr. Collins. Roll call.
    Chairman Nadler. Roll call is requested. The clerk will 
call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen.
    Mr. Cohen. No.
    Ms. Strasser. Mr. Cohen votes no.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond.
    [No response.]
    Ms. Strasser. Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell.
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Mr. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Sensenbrenner votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Strasser. Mr. Buck votes aye.
    Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline?
    Mr. Cline. Aye.
    Ms. Strasser. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Chairman Nadler. Are there any members who wish to vote who 
haven't voted?
    The clerk will report.
    Ms. Strasser. Mr. Richmond, you are not recorded.
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Chairman Nadler. Are there any other members who haven't 
voted who wish to vote?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 17 ayes and 23 noes.
    Chairman Nadler. The amendment is not agreed to.
    Are there any further amendments to the amendment in the 
nature of a substitute?
    Mr. Gaetz. Mr. Chairman.
    Chairman Nadler. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Nadler. The gentleman has an amendment at the 
desk. The clerk will report the amendment.
    Ms. Lofgren. I reserve a point of order.
    Chairman Nadler. The gentlelady reserves a point of order.
    Ms. Strasser. Amendment to the Amendment in the Nature of a 
Substitute to H. Res. 755 Offered by Mr. Gaetz of Florida. Page 
3, strike lines 10 through 11, and insert the following: (A) a 
well-known corrupt company, Burisma, and its corrupt hiring of 
Hunter Biden; and--
    [The amendment of Mr. Gaetz follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The gentleman is recognized to explain his 
amendment.
    Mr. Gaetz. Thank you, Mr. Chairman.
    This amendment strikes the reference to Joe Biden as the 
center of the proposed investigation and replaces it with the 
true topic of the investigation, Burisma and Hunter Biden.
    An essential element of the Democrats' case on abuse of 
power is that the Bidens did nothing wrong. It can only be an 
abuse of power and not a correct use of power if the President 
was pursuing something under which there was no reasonable 
basis to ask a question about Hunter Biden and Burisma.
    Hunter Biden and Burisma--well, that is an interesting 
story. And I think just about every American knows there is 
something up with that. $86,000 a month? No experience? Working 
for some foreign government while your dad is the Vice 
President of the United States? Is there anyone who believes 
this is okay?
    I know we have a few of my Democrat colleagues who maybe 
run for President--or might run for President one day. Would 
you let your Vice President have their son or daughter or 
family member out moonlighting for some foreign company?
    Mr. Gaetz. Maybe I will use language familiar to the former 
Vice President. Come on, man. This looks dirty as it is. Hunter 
Biden was making more than five times more than a board member 
for ExxonMobil. I have heard of that company.
    And so I wanted to read up on Hunter Biden, learn a little 
more about him. I found this very extensive profile in the New 
Yorker, and here is what it says: Hunter said that at that 
point, he had not slept for several days. Driving east on 
Interstate 10, just beyond Palm Springs, he lost control of his 
car, which jumped the median and skidded to a stop on the 
shoulder of the westbound side. He called Hertz, which came to 
collect the damaged car and gave him a second rental. The Hertz 
rental officer told me he found a crack pipe in the car and on 
one of consoles a line of white powder residue. Beau Biden's 
attorney general badge was on the dashboard.
    Hertz called the Prescott Police Department, and officers 
filed a narcotics offense report, listing items seized in the 
car, including a plastic bag containing white powdery 
substance, a Secret Service business card, credit cards, and 
Hunter Biden's driver's license. That is what we would call 
evidence.
    And I don't want to make light of anybody's substance abuse 
issues. I know the President is working real hard to solve 
those throughout the country. But it is a little hard to 
believe that Burisma hired Hunter Biden to resolve their 
international disputes when he could not resolve his own 
dispute with Hertz rental car over leaving cocaine and a crack 
pipe in the car.
    It continues. Hunter stayed in Los Angeles for about a 
week. He said that he needed to get away and forget soon after 
his arrival in L.A. He said he asked a homeless man in Pershing 
Square where he could buy crack. Hunter said that the man took 
him to a nearby homeless encampment, where a narrow passageway 
between tents someone put a gun to his head before realizing 
that he was the buyer. He returned to buy more crack a few 
times that week.
    Again, you know, not casting any judgment on any challenges 
someone goes through in their personal life, but it is just 
hard to believe that this was the guy wandering through 
homeless encampments buying crack that was worth $86,000 a 
month to Burisma Holdings. And that might be one of the reasons 
why when ABC asked Hunter Biden, Hey, do you think you would 
have gotten this job in the absence of your dad being the Vice 
President. Well, he said, probably not.
    And then I looked to the record evidence, and I looked to 
the testimony of Mr. Kent. Mr. Kent was one of the witnesses 
they called on the first day. He said Burisma was so dirty that 
our own Embassy had to pull out of a joint sponsorship with 
them. When Ambassador Yovanovitch was being prepped for her 
Senate confirmation, the Obama administration was so worried 
about the corruption around Burisma and Hunter Biden that they 
held special prep moments to try to get ready for the 
inevitable questions about this obvious corruption that the 
President asked about.
    Mr. Kent, again, one of the witnesses from the first day, 
also gave testimony that the head of Burisma had stolen $23 
million in the U.S. and the U.K., and that he paid a bribe to 
get off the hook.
    So, again, it is not as if Burisma is pulling out new 
plays. Their playbook is to do dirty stuff and then go and pay 
bribes and hire the people necessary to make those problems go 
away.
    This is why the minority hearing issue is so important, by 
the way. You wonder why Republicans are so angry that we didn't 
have a hearing to put on our own witnesses and our own 
evidence. And you may wonder why, well, if they feel so good 
about their case, why did they block our ability to put in 
evidence? It is because we have the ability to show that 
Burisma is corrupt. We have the ability to show that Hunter 
Biden is corrupt. And that totally exculpates the President, 
because there is no way in the United States of America that 
honestly pursuing actual corruption is an impeachable offense. 
That is why I offer the amendment, and I encourage my 
colleagues to vote for it.
    Ms. Lofgren. Mr. Chairman, I withdraw my point of order.
    Mr. Johnson of Georgia. Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Johnson seek recognition?
    Mr. Johnson of Georgia. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Georgia. Mr. Chairman, I rise in opposition 
to this amendment. And I would say that the pot calling the 
kettle black is not something that we should do. I don't know--
I don't know what members, if any, have had any problems with 
substance abuse, been busted in DUI. I don't know. But if I 
did, I wouldn't raise it against anyone on this committee. I 
don't think it is proper.
    And, you know, I think we got to get back down to what is 
most important here. This is something--this is a question that 
stands out like a big throbbing sore toe inside of a shoe that 
is too small, and that is this question: Is it ever okay for a 
President of the United States of America to invite foreign 
interference in an upcoming Presidential election campaign? 
Silence. Silence.
    Mr. Collins. Is the gentleman seeking an answer? I'll be 
glad to answer.
    Chairman Nadler. The gentleman has the time.
    Mr. Johnson of Georgia. The silence was and is deafening. 
And there will be plenty of time for you to respond to that 
question, and I would invite you to do so. I gave you an 
opportunity of about 10 or 15 seconds while you could get your 
story together, and nobody came up with a story. So I am going 
to let you move to strike the last word and explain that to the 
American people.
    It is never proper for a United States President to hold a 
foreign country over a barrel to make them do that President's 
personal bidding, and holding needed security assistance, 
dangling it, and dangling the fact that I will give it to you 
if you do this.
    I mean, that is exactly what happened. The American people 
understand what happened. Those are the facts. The President 
said it when he released the transcript of the summary of that 
phone call on July 25. The summary of the President's own words 
shows that the President tried to get President Zelensky to 
interfere in the upcoming Presidential election. That is 
established by the facts.
    So this is not about Hunter Biden, and they have said that 
on the other side repeatedly, up until they start talking about 
Hunter Biden having some substance abuse problems. You can't 
have it both ways. Let's be honest. This is about our 
conscience, the conscience of the Nation, the conscience of my 
friends on the other side of the aisle. Do you believe that we 
should allow this to go unaddressed, what the President did? 
Because we are a country of precedent. We are a country of rule 
of law. We are a country of norms and traditions. Are we going 
to allow the violation of our norms, our traditions, our legal 
precedent, because, after all, bribery was not a crime, there 
was no criminal code when the Framers passed the Constitution, 
but they said bribery in there. And what bribery meant was I am 
offering you something if you do something for me. I will give 
you this. In other words, you give me this, I will give you 
that. That is what we had in this case. That is what bribery 
means. It doesn't depend on a statute; it depends on what we 
know was done.
    And so, let's not get bogged down in technicalities and in 
character assassination. Let's keep our eye on what really 
happened in this case, and whether or not our consciences 
dictate that we do something about it. We can't let it go 
unaddressed. And the way that we deal with this grave abuse of 
the public trust is with the drastic action that it requires, 
because this is a drastic circumstance. The drastic action is 
impeachment, and that is why we are here today, and I ask my 
colleagues to let your conscience be your guide.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Sensenbrenner seek recognition?
    Mr. Sensenbrenner. Mr. Chairman, I move to strike the last 
word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. Mr. Chairman, my mind is boggled by the 
gentleman from Georgia saying that, oh, bribery was okay until 
1787, when the Constitution was adopted, and 2 years later, 
when Congress passed the first criminal code. First of all, 
there is a common law definition of bribery. I think people, 
long before 1787, realized that bribery was no good. But we 
also had criminal codes in each of the 13 independent States, 
colonies, before the Declaration of Independence.
    Mr. Johnson of Georgia. Will the gentleman answer my 
question?
    Mr. Sensenbrenner. No, I didn't interrupt you.
    Chairman Nadler. The gentleman will suspend. The gentleman 
has the time. The gentleman will resume.
    Mr. Sensenbrenner. Okay. The second thing is that if you, 
on the other side of the aisle, believe that Joe Biden is a man 
who tells the truth, you ought to support this amendment, 
because Joe Biden ever since Hunter's involvement with Burisma 
has been repeatedly asked whether he made any arrangements to 
get Hunter this really cushy job. And he said, no, or my son's 
business involvements are my son's. I am not involved in that.
    So you put Joe Biden's name in your Articles of Impeachment 
when the real malefactor is Hunter Biden. Hunter is not running 
for anything. And if the real malefactor really is Hunter 
Biden, I guess your claim that the President was trying to 
influence the 2020 election would go out the window. But if you 
think that Joe Biden is a man who tells the truth--and I will 
give him the benefit of the doubt, because I think he deserves 
it--then let's get rid of Joe Biden in this Article of 
Impeachment, substitute his son's name in there and proceed.
    I challenge you, because every one of you that will vote no 
on this amendment is going to be saying, I think that Joe Biden 
is a liar. If you don't think that Joe Biden is a liar, vote 
yes.
    I yield back the balance of my time to Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    And, again, it is important to analyze the burden of proof 
here. It is the Democrats who are saying any question about the 
Biden situation, Burisma, it can only be an abuse of power. And 
I think this amendment really reflects how the President was 
using his power perfectly, entirely appropriately, and it also 
shows how scared they are of the facts.
    If we had the opportunity to call in those who were engaged 
in, worked with the Ukrainian Embassy, folks like Alexandra 
Chalupa, if we were able to bring forward Hunter Biden, if we 
were able to demonstrate the bias of the whistleblower, the 
American people would see we are not in this debate and in this 
discussion because the President did anything wrong or 
impeachable or criminal. We are here fundamentally because they 
cannot accept the fact that he won the 2016 election.
    And I think all Americans know the President has a 
different approach. But to accept their standard would mean 
that if someone announces that they are running for office, it 
is kind of like an instant immunity deal for anything that they 
would ever do.
    I mean, are they really saying that if Joe Biden, Hunter 
Biden, Burisma were engaged in some corrupt act that just 
because Joe Biden announced for the Presidency that that 
somehow ought to absolve him of that criminal activity? It is a 
ludicrous position. Maybe it is informed by the fact that you 
all got a little lucky on the Hillary Clinton stuff, you know. 
She thought that because she was in a Presidential election 
that her crimes didn't have to be held to account, and in a way 
that turned out to be the case.
    But you know what, it shouldn't be the standard in the 
United States of America. And I am glad that we have a 
President who is, at times, skeptical of foreign aid, who does 
put America first, who understands that in corrupt places, the 
resources we provide don't always make it to an area of need.
    Let me conclude with this: Once the meetings happened that 
demonstrated that President Zelensky was a true reformer, that 
he wasn't corrupt, that he was honest, honest from the point of 
his campaign all the way up until the point when he said there 
was no pressure put on him or his government for this aid, if 
you accept that proposition, it is very clear that the 
President was entirely appropriate in those questions. And I 
got to say in debate on the last amendment, now we have reached 
the point in time where President Trump isn't the only 
President being attacked in this hearing. I heard the gentleman 
from Tennessee go after Zelensky, as well, an actor, a 
politician. And they presume he is a liar when he says there 
was nothing wrong. You know what, they can't----
    Mr. Cohen. Mr. Chairman, can I respond? My name was called.
    Mr. Gaetz. They are attacking Zelensky, and it just shows 
the absurdity of the endeavor.
    Chairman Nadler. The gentleman's time is expired.
    For what purpose does Ms. Jackson Lee seek recognition?
    Mr. Cohen. I was asking if I could respond, as my name 
was--as I was called.
    Chairman Nadler. For what purpose does Ms. Jackson Lee seek 
recognition?
    Ms. Jackson Lee. I move to strike the last word.
    Chairman Nadler. The gentlewoman is recognized.
    Ms. Jackson Lee. I thank the chairman.
    This is about distraction, distraction, distraction. Our 
good friends spent 3 hours saying the President did not target 
the Bidens. Now they are saying that he did. So which is it?
    Now, I am holding the classified/unclassified conversation, 
and let me just clarify a certain point. And that point is that 
I did read the transcript, and it did say ``us,'' but there is 
nothing in the President's notes that even suggested that the 
question that he asked was for the American people.
    In testimony by Mr. Goldman, who obviously went through 
every aspect of this, I asked a question about whether or not 
the President said anything from the notes that are given, the 
briefing that is given by those representatives of the United 
States Government, the staff of the National Security Council, 
the State Department, the Defense Department, on corruption.
    He didn't speak anything about corruption that he was 
briefed on. And if you go through the call, he continues to 
mention the Bidens. And so, this, again, is about Ukraine. The 
President did ask Ukraine, the President of Ukraine, a 
vulnerable leader of a country that is fledgling and trying to 
survive.
    Now, let me say that I intend to introduce into the record 
an article that indicated very clearly that people did die. 
Trump froze military aid as Ukrainian soldiers perished in 
battle, L.A. Times. I ask unanimous consent to submit that into 
the record.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                MS. JACKSON LEE FOR THE OFFICIAL RECORD

=======================================================================  
_______________________________________________________________________

      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Ms. Jackson Lee. But the facts are, President Trump 
provided $510 million in aid in 2017, and $359 million in 2018, 
but he wanted to stop in 2019, the year or months before the 
2020 election.
    In addition, President Trump's advisers confirmed that 
President Trump's investigations of 2016 election interference 
and the Bidens were not U.S. policy. And as well, they have 
debunked any association that there was anything to the 
impropriety of the former Vice President and his service as it 
related to Ukraine.
    I think it is also important that the Department of Defense 
and State Department have confirmed that Ukraine had met all 
anticorruption benchmarks and the aid should be released. That 
is the policy of the United States of America. There was no 
need for this President to, in essence, try to make up his own 
policy. And his own statement of administrative policies--and I 
ask unanimous consent to have those in the record--this is from 
the White House. Nothing in this said to discuss corruption. 
Why? Because Ukraine had already met the standards of 
independent executive agencies, that they had met that standard 
of corruption. Their money should have been released.
    And we well know, as the process of the whistleblower and 
the timing, that President Zelensky, desperate for money, 
people dying in the field, was asked to do a CNN announcement. 
And he was going to be on one of CNN's well-known shows dealing 
with international politics, but it was stopped in its tracks, 
as testified by witnesses under oath, because of the 
whistleblower statement.
    Let me be very clear. There is some representation of 
crime, crime, crime. First of all, our scholars indicated that 
these are impeachable offenses. The conduct of the President is 
impeachable, and there is enough evidence to show. But, as I 
indicated yesterday, this, my friends, is a legal document, the 
Constitution. It is a legal document. You can breach and 
violate the law of the Constitution. There are constitutional 
crimes. And the vastness of the impeachment process does 
include the excess of power by the President of the United 
States.
    Now, I knew Barbara Jordan, and my friends wanted to quote 
her. She also said: The Framers confided in the Congress the 
power, if need be, to remove a President in order to strike a 
delicate balance between a President swollen with power, and 
grown tyrannical, and preservation of the independence of the 
executive.
    You can violate the crimes of the Constitution, abuse of 
power includes that. This amendment should be defeated.
    Chairman Nadler. The gentlelady's time is expired.
    For what purpose does Mr. Ratcliffe seek recognition?
    Mr. Ratcliffe. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Ratcliffe. I thank the chair.
    I want to answer my colleague from Georgia, Mr. Johnson's 
question that he asked before. Is it ever okay to invite a 
foreign government to become involved in an election involving 
a political opponent? The answer is yes. It better be. We do it 
all the time. Have you that quickly forgotten how the Trump-
Russia investigation proceeded?
    The Obama administration asked Great Britain and Italy and 
Australia and other countries to assist in its investigation of 
a person who was a political opponent from the opposite party. 
I keep hearing over and over again, you can't investigate 
political opponents. We have a member of this committee who 
was, as a member of this committee and the Intelligence 
Committee, investigating his political opponent Donald Trump at 
the very moment he was running to replace him as President. My 
colleague on the Intel Committee, Mr. Castro, was investigating 
President Trump at the very same moment his brother was running 
to replace President Trump.
    President Trump is the only one with the really legitimate 
reason to be doing it. He is the chief executive, chief 
executive. We are in the Judiciary Committee, right? We do 
understand the Constitution. We do understand that the 
President, as the unitary executive, is the executive branch. 
And all power in the executive branch derives from the 
President. And the President can and should ask for assistance 
from foreign governments in ongoing criminal investigations.
    There was an ongoing criminal investigation into what 
happened in 2016. The Attorney General Barr, at the time of the 
July 25 call, had long before that appointed U.S. Attorney John 
Durham to investigate exactly that issue. It wasn't just 
appropriate, it was absolutely the President's constitutional 
duty.
    And Hunter Biden, the President has, as the chief 
executive, the ability to ask about matters where there is a 
prima facie case of corruption. What do we have with respect to 
Hunter Biden? Tons of money for a position where he has no 
Ukrainian experience, where he has no experience with Ukraine 
or with energy. And at the very same time that the Ukrainians 
were deciding that Hunter Biden was the perfect person to get 
that sweetheart deal, the Chinese were deciding that Hunter 
Biden was the perfect person to get a sweetheart deal to manage 
$1.5 billion in financial assets.
    And when the Ukrainian Government wanted to investigate 
corruption, like we all keep talking about they need to, well, 
they start investigating Burisma and what happens? Joe Biden 
says, you better fire that prosecutor investigating corruption 
into Burisma, or you are not going to get $1 billion, and 6 
hours later, that is what happened. That is called influence 
pedaling. That is a crime. And there is a prima facie case of 
that, and it is absolutely appropriate for a President to ask 
about that.
    I yield to my friend, Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    I just want to respond to the comments from the gentlelady 
from Texas. She said the President made up his own policy. 
Well, that is how it works in our country. You get your name on 
a ballot. You run for office. You go talk to the American 
people. They evaluate it all, on Election Day, they decide who 
they want making the policy. That is how it works in our 
country. It is not the unelected people telling the elected 
individual how we do things, because the unelected people 
aren't directly accountable to we the people.
    It is what makes our system the best, the greatest. And 
when you turn that on its head, that is when you get problems. 
And we saw it happen, because we heard Chuck Schumer say on 
January 3, 2017, when you mess with the Intelligence Community, 
they have six ways from Sunday of getting back at you. Now, 
that is a scary statement, because that is saying the unelected 
people can get back at the person who put their name on a 
ballot and got elected to high office, the highest office in 
this situation.
    So for someone in the United States Congress to say the 
President made up his own policy, and somehow that is wrong, 
that should be a frightening position to take, but I guess that 
is where the Democrats are today in their quest to go after 
this President, making statements like that, statements by our 
colleague, and statements by Senator Schumer.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Lofgren. Mr. Chairman.
    Chairman Nadler. For what purpose does Ms. Lofgren seek 
recognition?
    Ms. Lofgren. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Lofgren. You know, there are issues for the election 
and then there are issues for this committee. The behavior of 
Vice President Biden's son and, frankly, the behavior of 
President Trump's two sons and daughter may be discussed in the 
election, but here we are talking about the abuse of 
Presidential authority.
    The President must take care that the laws be faithfully 
executed. We know from the emails from the State Department to 
the Department of Defense that the Ukrainians knew that the aid 
was being withheld. That is documentary evidence. We also know 
that whatever was going on that people might not like with the 
Vice President's son and the Vice President, that was known in 
2015, 2016, 2017, 2018.
    It wasn't until Vice President Biden was beating President 
Trump in the polls that this issue was raised to try and force 
a foreign country to invent an investigation to be used 
politically. That is not seeing that the laws are faithfully 
executed. That is an abuse of Presidential authority.
    And I would yield now to the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. And I thank my friend from California.
    It has been about 3 hours since I made this point. I guess 
it needs to be made from time to time. We just can't simply 
allow the mischaracterization and the misstatement of the 
rules, the history of the rules, and House Resolutions to 
advance political arguments here. We can't stand for it.
    And so, I want to address, again, these statements that 
there is some right to have witnesses come in. It is absolutely 
true that that is the case, over 50 years, ago when the rule 
was written, when Rule VI was written, it said it is normal 
procedure for witnesses representing both sides of the issue to 
give testimony at committee hearings. And that is what happened 
at the December 4 meeting, and that is what happened at the 
December 9 meeting. Let's be honest about the rules.
    And House Resolution 660, I would point out again, provides 
an opportunity for the President of the United States to come. 
He could have come on December 4. He could have sent any of his 
witnesses, and he didn't. But no one should be surprised, 
because that has been the President's approach throughout, is 
to refuse to allow anyone, anyone, with the kind of information 
that my colleagues claim they are interested in from coming to 
testify, from coming to answer questions directly.
    And with that, I yield to my friend from New York, Mr. 
Jeffries.
    Mr. Jeffries. I thank the distinguished gentleman from 
Florida. There were 12 fact----
    Ms. Lofgren. It is my time. I would be happy to yield to 
the gentleman from New York.
    Mr. Jeffries. I thank the distinguished gentlelady from 
California.
    There were 12 fact witnesses who testified during the Intel 
hearing, 12. And we don't hear a thing about those witnesses 
from my colleagues on the other side of the aisle, a thing. 
Those witnesses were not political operatives. They were 
patriots. In fact, they were Trump appointees: Ambassador 
Taylor, Trump appointee. Ambassador Sondland, Trump appointee. 
Dr. Fiona Hill, Trump appointee. Jennifer Williams, Trump 
appointee. Lieutenant Colonel Vindman, Trump appointee. 
Ambassador Volker, Trump appointee.
    They all confirmed that Donald Trump pressured a foreign 
government to target an American citizen for political gain, 
and at the same time, withheld, without justification, $391 
million in military aid, undermining America's national 
security.
    Let's just look at Ambassador Volker's testimony. He 
testified about the issue of raising the 2016 elections of Vice 
President Biden, all these things that I consider to be 
conspiracy theories. What was his response? It was pretty 
simple. Quote, ``I think the allegations against Vice President 
Biden are self-serving and not credible.'' That is what this is 
all about.
    I yield back.
    Ms. Lofgren. Mr. Chairman, I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Gohmert seek recognition?
    Mr. Gohmert. In support of the amendment.
    Chairman Nadler. Does the gentleman desire to strike the 
last word?
    Mr. Gohmert. Thank you, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gohmert. It is amazing. We are hearing from the same 
people accusing us of covering up, not willing to face the 
truth. They are the same arguments that we have been hearing 
for 3 years now. First, it was accusing us of not being willing 
to face the facts about Russian collusion and the President 
scheming with Russia, and that turned out all to be lies. We 
were right, and those accusing us of not facing the truth were 
the ones who were not facing the truth.
    We heard about all kinds of other allegations, and we said, 
Well, that doesn't appear to be supported. Well, we weren't 
facing the truth. And there was a lot of media support for 
those positions. But we still persisted that we were the ones 
that were right. And this week, these things are all being 
borne out. We were right; they were wrong.
    And now, we are not hearing anybody come in and say, Hey, 
we are really sorry when we accused you all of being crazy and 
not facing the truth. You were right, there was no Russia 
collusion. You were right, there was no extortion.
    And my friends across the aisle keep changing the subject. 
What the call made clear is we are interested in finding out 
about if there was Ukrainian collusion or interference in our 
election.
    Now, it is amazing how the majority can take two positions 
that counter-indicate each other. First of all, they say there 
was no effort by Republicans, including President Trump, to 
stop interference from foreign countries. We hear that over and 
over, including yesterday and today.
    And yet, the only way to step up and do what President 
Obama refused to do--if you remember, President Obama belittled 
President Trump, candidate Trump for saying he was concerned 
about outside interference. And, in fact, President Obama made 
a mockery of anybody that was so stupid that they thought 
somebody like Russia or others might interfere and affect our 
election. He made fun of them.
    He wouldn't do anything about outside interference, because 
apparently, he must have thought the outside interference was 
going to help Hillary Clinton. As we have heard, there 
apparently are some people that certainly are accused in 
Ukraine of doing all they could to help Hillary Clinton. In 
fact, it was unheard of to have a foreign Ambassador in our 
country step up and come out with support for Hillary Clinton.
    So what we continue to see is projecting. Somebody on their 
side engages in illegal or improper conduct, and that is what 
they accuse President Trump or us of doing. And all of this 
self-righteousness about, you know, for political purposes, I 
mean, this is from a transcript from December 1, 1943, when 
President Roosevelt was talking to Marshal Stalin. He is 
talking with Stalin. This is apparently in Tehran they are 
meeting, but he wanted to talk to him about internal American 
politics.
    And from the stenographers, they say that President 
Roosevelt said there were, in the United States, 6 to 7 million 
Americans of Polish extraction. As a political man, he didn't 
want to lose their votes. And he was explaining he couldn't go 
public. He didn't care when basically the Soviet Union took 
over Poland. He didn't care if they cut down Poland's borders 
from the east and from the west. And he goes on to say, they 
say jokingly, that when the Soviet armies invade and occupy 
these areas of Lithuania, Latvia, Estonia, he did not intend to 
go to war with the Soviet Union on this point, but he continues 
to emphasize, you know, some of these things he can't go public 
with.
    These kind of things have gone on by Democrats for many 
decades. And here they come after the one guy. He wants to get 
to the bottom of 2016 foreign interference, and what do they 
accuse him of? Of getting foreign interference. No, you can't 
root out foreign interference until you know what it was.
    So you can't have it both ways. Well, I guess the 
Democratic Party can have it both ways, but this has got to 
stop before it goes too much further.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Chabot seek recognition?
    Mr. Chabot. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    I said at a previous hearing before this committee that you 
were investigating the wrong guy, that it should have been 
Biden or Bidens, that Ukraine was the third most corrupt nation 
on earth, and that Hunter Biden had just put himself right 
smack dab in the middle of that corruption. And that even 
though Democrats and many of their friends in the media would 
have you believe that Burisma-Biden corruption, that this was 
all just a vast right wing conspiracy allegation when, in 
actuality, it was the Obama administration that raised this 
issue first.
    Back in 2015, George Kent reported his concerns about 
Hunter Biden to the Vice President's office. And the former 
Ambassador to Ukraine, Marie Yovanovitch--sorry about that--
said she was coached by the Obama administration on how to 
answer pesky questions related to Hunter Biden and Burisma that 
might arise during her Senate confirmation process. And nearly 
every single witness who testified at the Intelligence 
Committee impeachment inquiry agreed that Hunter Biden's 
Burisma deal created, at the very least, the appearance of a 
conflict of interest.
    Yet, the Democrats on the Intelligence Committee, under 
Chairman Schiff, and now Democrats on this committee, are 
determined to sweep all this under the rug, ignore it, not let 
us call witnesses on it; instead, rush to impeach this 
President.
    You have got the Vice President, Joe Biden, in charge of 
overseeing our Ukrainian policy, and his son, Hunter Biden, 
receiving $50,000 a month, even though he had no identifiable 
expertise in energy, or in Ukraine. Yet, the Democrats wouldn't 
let us call witnesses or delve into this. And it was 
interesting that Joe Biden got in an argument with a man at one 
of his events in Iowa recently, called the man a liar and 
challenged him to a pushup contest, and spouted off a bunch of 
other malarkey.
    And now the committee, this committee is conducting an 
impeachment investigation against President Trump, based on, as 
Professor Turley put it recently, wafer-thin evidence, and they 
are ignoring evidence of something that truly doesn't smell 
right. Wafer-thin evidence. And this was a professor who 
acknowledged that he had not voted for President Trump. In 
fact, all four witnesses who testified, none of them had voted 
for him. But he said wafer-thin evidence, that is what we are 
being called to impeach a President on.
    And while we are doing that, there are so many things that 
are getting ignored. Now, it looks like one thing, the USMCA 
trade deal, which is very important to replace NAFTA, it looks 
like we might actually get that across the finish line. I 
certainly hope so, because it will be good for the country. It 
is bipartisan.
    But I think if there is anything good to come out of this 
impeachment, it is probably that that actually will get passed, 
because the Democrats want to show we did something, we did 
something, because they haven't done much of anything else. 
Very little has passed into law. We had 68,000 Americans who 
died from opioid overdoses last year alone. I think it was 
70,000 the year before that.
    And even though the number has gone down a bit, it is not 
necessarily because we are doing a whole lot better. It is 
because of Narcan, not quite as many people are dying, but 
there are just as many people that are involved with this 
scourge, these opioids and other drugs.
    Our southern border is still a sieve. We have far too many 
people coming across our southern border. That is something we 
ought to be able to work on in a bipartisan manner in this 
committee, to do something about that, and our asylum laws, 
which need to be reformed. We got a $22 trillion debt hanging 
over our head.
    The reason I am mentioning these issues, this committee has 
jurisdiction over all these things. It isn't doing a thing, 
because we have been spending all our time for the last year on 
impeachment in one form or another. But I have a bill, a 
balanced budget amendment, which would actually move in the 
right direction of doing something about that. We should have 
done it years ago.
    Those are all in our jurisdiction. Other things like 
infrastructure, not in our jurisdiction, but the United States 
Congress ought to act on it. Our highways and our bridges are 
crumbling in this country. It is actually something we 
generally agree on. But the Democrats probably don't want the 
President to take any credit for that, so that is not likely to 
happen. It is unfortunate, taking up all this time on 
impeachment when there are so many other things that we ought 
to be working on for the benefit of the American people.
    Chairman Nadler. For what purpose does Mr. Jordan seek 
recognition?
    Mr. Jordan. I yield to the ranking member.
    Mr. Collins. I want to just take a quick second. It is 
amazing, though, to hear now they have gotten really sensitive 
about process on the majority side when we actually pointed out 
the tragedy and the travesty of being a rubber stamp on this 
committee, and the gentleman from Florida has brought out a 
couple things. But let me just remind, as he said just a few 
minutes ago, the White House could have sent anything. No. It 
is just like everything else. It all goes to the whim and the 
whimber of the chairman and the majority. They can't send 
anybody they want. It all goes to their majority opinion.
    I yield back to the gentleman.
    Mr. Jordan. I yield to the gentleman from Florida.
    Mr. Gaetz. I thank the gentleman for yielding.
    If Democrats can't prove that the Bidens are clean, then 
President Trump can't be guilty of abusing power if he is 
asking a reasonable question. They cannot prove that the 
questions into the Bidens are unreasonable.
    Now, the gentleman from New York said, Well, you just 
aren't listening to the witnesses. I listened very closely to 
the witnesses. What I heard was Mr. Kent say that they were so 
concerned about Burisma, we had to pull out of a partnership 
with the Embassy. So if it is okay for our Embassy to ask the 
questions, why isn't okay for the President?
    I listened to Ambassador Yovanovitch when she gave 
testimony. She said that she was having to do special 
preparation to have to answer these sticky questions about why 
the Vice President's son was off moonlighting for some foreign 
energy company.
    So if it is okay for Yovanovitch to ask those questions, if 
it is okay for the Obama administration to ask those questions, 
why isn't okay for President Trump to ask those questions? Here 
is one thing I know: Corrupt people, they don't just steal 
once. They kind of get into this like cycle and culture of 
corruption. And it is disappointing.
    I go back to this New Yorker article. I am reading directly 
from it. One of Kathleen's motions--this is regarding Hunter 
Biden's divorce--contains a reference to a large diamond that 
had come into Hunter's possession. When I asked him about, he 
told me he had been given the diamond by Chinese energy tycoon, 
Ye Jianming. Hunter told me that two associates accompanied him 
to his first meeting with Ye in Miami, and they surprised him 
by giving him a rare vintage of scotch worth thousands of 
dollars.
    So this guy wasn't just taking these weird jobs from the 
Ukrainians. He was taking diamonds and scotch from the Chinese. 
And I think it is entirely appropriate for the President of the 
United States to figure out why that is the case. The American 
people watching today know that this is an impeachment movement 
that is losing steam.
    I was watching CNN on the way into the hearing this 
morning, maybe one of the only folks. But I was watching, and I 
heard Gloria Borger say the polling on impeachment is bad for 
Democrats. I heard Jim Sciutto say that Chairman Nadler had 
gone on CNN's air and said, Well, once we have these public 
hearings, we will animate all this public support for 
impeachment. Well, now you have had the hearings, you have 
called the witnesses. And you know what? You are losing ground. 
You are losing ground with the media, you are losing ground 
with the voters, and you are even losing ground among your own 
Democrat colleagues.
    I believe the public reporting I have seen that some of 
your more moderate members in districts that President Trump 
won are begging you to pursue something other than impeachment. 
This blood lust for impeachment is not going to be visited on 
us or President Trump. It is going to be visited on your own 
Members, and they are asking you not to do this.
    The only standard that Speaker Pelosi, Chairman Nadler, and 
Chairman Schiff set was a bipartisan standard. They said this 
has to be bipartisan. They said it all throughout the 2018 
calendar year. But now, the only thing that has changed is not 
a strengthening of the evidence, it is that we are going into 
an election. And they have taken a look at the candidates that 
they have in the Democratic field, and they have realized that 
they have to create this impeachment platform because their 
candidates aren't capable of defeating President Trump in a 
fair fight. We know that. The American people know that.
    And so, the only bipartisan vote that has occurred on 
impeachment was a bipartisan vote against opening the inquiry. 
And the only possibility for movement from that vote to now, 
despite wasting all our time, despite having all these 
hearings, despite all the damage to our institutions through 
this very weird and aberrational investigation you have run, 
the only risk is that you will lose more votes than you started 
with. You lost two of your Members the first time. You are not 
going to lose less than two of your Members. You only have a 
risk of losing more than two of your Members.
    And you know what, Republicans are united. We see this for 
what it is. And we know, just as my colleague from Ohio, Mr. 
Jordan, said, this is not just an attack on President Trump 
politically, though it is the election that motivates them for 
this bizarre behavior. It is not just an attack on the 
Presidency. It is an attack on us. It is an attack on those of 
us who believe in this President, who understand very well who 
we voted for. And he has got some nontraditional ways of doing 
business, but we also see the great success of this country, 
more jobs, more opportunity. They have no answer for that in 
the upcoming election, and it is why we are here.
    Chairman Nadler. The gentleman's time is expired.
    For what purpose does Mr. Biggs seek recognition?
    Mr. Biggs. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Biggs. Thank you, Mr. Chairman.
    I mentioned before that looking at the evidence, I am 
stunned that my colleagues on the other side of the aisle 
perpetually read every inference you can make in the light most 
negative to the President, and yet, this whole proceeding and 
the way this has been shaped up indicates that there is an 
incredible inference against their credibility, because of the 
way they have stacked the cards against the President.
    So I want to read--you know, I support the gentleman's 
amendment, and I want to read this from a Ukrainian source who 
was named and cited in a recent publication. It says, quote: 
``By inviting influential foreigners, Ukrainian business wants 
to get additional protection, PR and lobby mechanisms to grasp 
additional spheres of interest. Having Hunter Biden on board, 
the owner of Burisma wanted to correct the image and to get 
cover, because authorities are scared by the U.S. Embassy in 
Ukraine. Hunter Biden, using the political capabilities of his 
family, acted as a rescue buffer between Burisma and Ukraine 
law enforcement agencies. His work in the company of a corrupt 
official smells.''
    Now, so let's take a look at the actual document, the 
transcript that they keep, our colleagues keep referring to. 
Page 4: The other thing President Trump says, there is a lot of 
talk about Biden's son, that Biden stopped the prosecution, and 
a lot of people want to find out about that. So whatever you 
can do with the Attorney General would be great. Biden went 
around bragging that he stopped the prosecution, so if you can 
look into it, it sounds horrible to me.
    That is the essence of what they want to impeach President 
Trump for. So it begs the question. It simply begs the 
question, really: Do you get immunity? Is it an immunity 
granting event to have a relative run for public office? Do you 
get immunity for that?
    Let's flip it on its end. The question is, does the 
President have the authority to request an investigation? Most 
assuredly. He mentions the Attorney General here. It is clear 
that he would like an investigation into the corruption 
surrounding Ukraine. Because what does President Zelensky go on 
to say? He goes on to talk about trying to restore the honesty 
in his country. That is what he is talking about. You got the 
Attorney General. You got the President of both countries 
acknowledging that there is corruption, and let's get it fixed 
up.
    And it leads you back to this whole question of the 
Democrats wanting to impeach President Trump for these 
amorphous abuse of power issues, these amorphous abuse of 
Congress issues, obstruction of Congress. It is just bizarre. 
So Hunter Biden is placed on the board of Burisma in 2014. Joe 
Biden calls for the removal of the chief prosecutor, Viktor 
Shokin, in 2016.
    In the meantime, evidence is clear that Burisma's company 
paid about $3.4 million to a company called Rosemont Seneca 
Bohai, the company of Hunter and his partner, Archer. That is 
really intriguing. The investigation surrounding Burisma 
stopped. And Burisma's reputation in Ukraine is low, and it was 
dubious, even before this impeachment inquiry raised it to new 
attention.
    Now, let's face it. According to Ukrainian sources, Burisma 
is not on everybody's front burner in the Ukraine, but it is 
here, because we were providing hundreds of millions of dollars 
to the Ukraine in foreign aid. And this President said, we need 
to stop corruption. He mentions specifically the corruption 
that he had heard about. Is that impeachable? No. Is asking for 
an investigation to get to the bottom of it--because you do not 
get immunity just because your father is running for public 
office, just because anyone related to you is running for 
public office.
    And I will tell you, this President has done a remarkable 
job in spite of 3 years of constant harassment by the Democrats 
of this body and the media on the left of this country. We have 
a great economy. He is trying to bring order to the border. We 
have more people working than ever before. This President has 
restored the military and actually prestige around the world. 
There are no more apology tours on the foreign policy side that 
we saw in the previous administration. He has really worked to 
make America's esteem and greatness reprise.
    Chairman Nadler. The gentleman's time is expired.
    For what purpose does Mr. Cicilline seek recognition?
    Mr. Cicilline. Move to strike the last word, Mr. Chairman.
    Chairman Nadler. You are recognized.
    Mr. Cicilline. I want to just begin very quickly and 
respond to the gentleman from Ohio's lamenting about the 
productivity of this Congress, and remind my friends on the 
other side of the aisle and the American people that we have 
passed nearly 400 pieces of legislation since Democrats took 
the majority. 275 of those bills are bipartisan. They range in 
legislation to drive down the cost of prescription drugs, to 
protect coverage for preexisting conditions, to provide equal 
pay for equal work, to raise the minimum wage for 33 million 
Americans, the biggest anticorruption bill since Watergate, 
H.R. 1, legislation to restore net neutrality, to respond to 
the climate crisis, universal background check, and we recently 
completed negotiations on the new trade deal.
    So the list is exhaustive. Sadly, 80 percent of those bills 
are lying on Mitch McConnell's desk awaiting action. So I urge 
my colleagues, maybe instead of trying to mischaracterize what 
is one of the most productive Congresses in modern history, we 
ought to assert some energy in persuading Mitch McConnell to do 
his job and bring those bills to the floor.
    Now let's get back to the facts of this impeachment 
hearing. First and foremost, there has been this effort to 
really confuse what this is about, and what this impeachment is 
about. It is about the President of the United States using the 
power of his office to smear a political opponent, to drag a 
foreign power into our elections, to corrupt the elections and 
leverage hundreds of millions of dollars of taxpayer money to 
accomplish that objective.
    So this amendment would like to wish away the motive of the 
President to engage in this corrupt scheme, but you can't wish 
it away. You can't amend it away. The facts are the facts. The 
allegations that we are talking about here originated in 2015. 
That is according to the minority report as well. And in 2017 
and 2018, foreign assistance was provided by Ukraine. What 
happened in 2019? What changed? The President is losing in a 
national poll by double digits to Joe Biden. Those are the 
facts.
    Third, multiple witnesses, Trump administration officials, 
testified that Vice President Biden did nothing wrong, 
including Mr. Kent, Ambassador Yovanovitch, Mr. Holmes, 
Ambassador Volker. Vice President Biden's firing of the prior 
prosecutor was done in accordance with official U.S. policy. It 
was approved by the Justice Department. It was the policy of 
the United States. It was supported by the European Union and 
many countries throughout Europe, and a bipartisan coalition in 
Congress. This was a corrupt prosecutor. It was official U.S. 
policy that the Vice President was executing.
    By contrast, what we have in this case, the basis of this 
impeachment proceeding is exactly the opposite. What President 
Trump was doing was not official U.S. policy, and all the 
witnesses confirmed that. It was not done through the Justice 
Department, and it was done against the advice of all of his 
advisers.
    And so, that is what is very different about what we are 
confronting today. And this was work which was not done by the 
apparatus of the State Department. This is an effort that was 
led by the President's personal attorney, Rudolph Giuliani. 
This scheme was led by this whole apparatus outside the State 
Department.
    So let's not confuse these two things. Facts matter. The 
truth matters. You cannot continue just to make assertions when 
the record is completely the opposite.
    Mr. Swalwell. Would the gentleman yield?
    Mr. Cicilline. And I would like to yield to the gentleman 
from California, Mr. Swalwell.
    Mr. Swalwell. I thank the gentleman.
    If President Trump and my Republican colleagues were so 
interested in rooting out corruption in Ukraine, there was so 
much they could do that they never did. My Republican 
colleagues, for many years, were in the majority. For many 
years, the Vice President's son was on this board. They never 
investigated this. Their concern only came about once Vice 
President Biden became President Trump's chief political 
opponent.
    On April 21 of this year, President Trump called President 
Zelensky to congratulate him. In his talking points, President 
Trump was told to bring up rooting out corruption in Ukraine. 
President Trump never did it. But the White House, in their 
talking points, lied to the American people and said the 
President had.
    July 25, again, National Security Council members worked 
really hard to tell the President, impress upon the Ukrainian 
President he needs to root out corruption in his country. The 
President never brings up corruption. If the President wanted 
to investigate any individual U.S. citizen, there is a formal 
process we go through. The President never asked the Attorney 
General to do this.
    The President was never interested in fighting corruption 
in Ukraine. He was only interested in weaponizing corruption in 
Ukraine for his own personal benefit, and that is why we must 
hold him accountable for an abuse of power.
    And I yield back.
    Mr. Cicilline. I have a unanimous consent request.
    Chairman Nadler. The gentleman yields back.
    I recognize the gentleman for a unanimous consent request.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I would ask that this article dated February 12, 2019, just 
2 weeks before the call to President Zelensky entitled ``Trump 
asked top political advisers whether he should worry about 
running against Joe Biden'' be made a part of the record.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                 MR. CICILLINE FOR THE OFFICIAL RECORD

=======================================================================  
_______________________________________________________________________

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. There are a number of votes on the floor. 
The committee will stand in recess until after the votes. 
Please reconvene immediately after the votes.
    The committee stands in recess.
    [Recess.]
    Chairman Nadler. The committee will come to order.
    When we recessed, we were considering the amendment offered 
by Mr. Gaetz. We will continue that consideration now. For what 
purpose does Mr. Buck seek recognition?
    Mr. Buck. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Buck. Thank you, Mr. Chairman.
    Mr. Chairman, I have heard continually from the other side 
this argument about obstruction of justice, obstruction of 
Congress, rather, I apologize, and I am baffled. And the more I 
think about it, the more I am baffled. In Colorado, we have a 
different term for that. We call it a campaign promise. You 
see, when Congress has a 14-percent approval rating, it is 
somewhere between being as popular as shingles and an all-
expense-paid trip to North Korea.
    We have a national deficit, a national debt, of over $22 
trillion. We have a deficit of over $1 trillion this year. We 
were sent here to obstruct this Congress. We were sent here to 
make sure that this power of the purse is actually exercised 
around this place. We were sent here to make sure that we 
didn't nationalize and ruin healthcare. We were sent here to 
secure the border and to do our very best to prohibit sanctuary 
cities in this country. We were sent here to stop this body 
from ignoring States' rights.
    Yesterday, we passed the NDAA bill. Somehow, someone 
slipped in a provision that every Federal employee, every 
Federal, not just Defense Department employees, but every 
Federal employee will be given 3 months of paid family leave. 
Every Federal employee. All those Americans sitting out there 
don't get that. It's exactly why we're here, to make sure that 
we hold Congress to a higher standard.
    And if you issue an Article of Impeachment for obstructing 
Congress, you're going to make this President more popular, not 
less popular. Congress is an embarrassment, and this President 
is holding his campaign promises, moving the Embassy to 
Jerusalem, cutting taxes, cutting regulations, sustaining an 
amazing economy with low unemployment, job creation, bringing 
manufacturing jobs back, negotiating trade deals.
    I think that we should be talking about how we support this 
President and how we support this agenda and not how we 
undermine the positive direction that we are going in this 
country.
    And, with that, I yield back.
    Mr. Deutch. Will the gentleman yield for a question?
    Mr. Buck. No.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Mrs. Lesko seek recognition?
    Mrs. Lesko. Thank you, Mr. Chair, to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Lesko. Thank you, Mr. Chair. The Democrats' Articles 
of Impeachment claim that the President had corrupt purposes in 
pursuit of personal political benefit used to influence the 
2020 United States Presidential election. Well, they have 
absolutely no proof of that.
    Let's read the actual transcript of the phone call in 
question, and I want to remind you for the people that read it, 
there is only one section in this entire transcript, and it is 
not until page 4 out of 5 that President Trump brings up Biden, 
which was well into the July 25th call.
    President Trump said to the Ukrainian President, and I 
quote: The other thing. There's a lot of talk about Biden's 
son, that Biden stopped the prosecution, and a lot of people 
want to find out about that, so whatever you can do with the 
Attorney General would be great. Biden went around bragging 
that he stopped the prosecution, so if you can look into it, it 
sounds horrible to me.
    To anyone who hasn't seen the video of Joe Biden bragging 
that he got a prosecutor fired, I recommend you watch it. It is 
very telling. Biden brags about how he got the Ukrainian 
prosecutor fired who had been investigating Burisma. Burisma, 
to remind you, is the corrupt Ukrainian company that hired 
Hunter Biden, Joe Biden's son, to serve on their board at the 
very same time that Vice President Biden was the point man to 
Ukraine. Joe Biden said he told Ukraine he wouldn't give them 
$1 billion if they didn't fire the prosecutor. He said, and I 
quote, if the prosecutor is not fired, you're not getting the 
money.
    Put yourself in President Trump's shoes. He has seen or 
heard about the video of Joe Biden bragging about how he got 
the prosecutor fired, the same prosecutor that had been 
investigating the same corrupt company where Biden's son got a 
cushy spot on the board, getting paid at least $50,000 a month 
at the same time that Joe Biden, while serving as Vice 
President, was the point man to Ukraine.
    My Democratic colleagues seem convinced that the President 
was targeting Biden to influence the 2020 election. That is 
their main premise of these Articles of Impeachment. But it is 
just as likely, and I would say more likely, that President 
Trump wanted to get to the bottom of possible corruption with 
the Bidens, Burisma, and Ukraine.
    And, with that, I yield back.
    Chairman Nadler. The gentlelady yields back.
    I now recognize myself for 5 minutes to strike the last 
word.
    And I just want to say the central issue of this 
impeachment is the corruption of our institutions that 
safeguard democracy by this President. There are two basic 
protections we have for our democracy: free and fair elections. 
And the President in Article I is charged with trying to 
subvert the free and fair elections by extorting a foreign 
power into interfering in that election to give him help in his 
campaign. We cannot tolerate a President subverting the 
fairness and integrity of our elections.
    The second major safeguard of our liberties designed by the 
Framers of the Constitution is the separation of powers. The 
power is not united in one dictator but is spread out through 
the executive represented by the President, the Congress, and 
the judiciary. The second Article of Impeachment charges that 
the President sought and seeks to destroy the power of 
Congress.
    Congress may be unpopular, and maybe we should be reelected 
or maybe we shouldn't be reelected. That is a question for the 
voters. But the institutional power of Congress to safeguard 
our liberties by providing a check and a balance on the 
executive is absolutely crucial to the constitutional scheme to 
protect our liberties. Central to that is the ability to 
investigate the actions of the executive branch, to see what is 
going on, and to hold the executive, the President, or people 
working for him accountable. The second Article of Impeachment 
says that the President sought to destroy that by categorically 
withholding all information from an impeachment inquiry.
    Now, that is different from contesting some subpoenas on 
the basis of privilege. Some may be contestable; some may not 
be. But a categorical withholding of information--``We will 
prohibit anybody in the executive branch from complying with 
any congressional subpoena, no matter how justified; we will 
make sure that nobody in the executive branch gives any 
document to Congress with respect to this inquiry''--is a 
subversion of the congressional power to keep the executive in 
check. So whether you think Congress is behaving well or badly, 
whether it is popular or unpopular, if you want a dictator, 
then you subvert the ability of Congress to hold the executive 
in check. What is central here is, whether we want a dictator? 
No matter how popular he may be, no matter how good or bad the 
results of his policies may be, no President is supposed to be 
a dictator in the United States.
    When I hear colleagues of mine arguing that Congress is 
unpopular, and, therefore, obstruction of Congress is a good 
thing, this shows terrible ignorance or lack of care for our 
institutions, for our democracy, for our form of government, 
for our liberties. I, for one, will protect our liberty, do 
everything I can to protect our liberties, our democracy, our 
free and fair elections, and the separation of powers that says 
Congress and the President and the judiciary check each other. 
Nobody can be a dictator. I yield back.
    Mr. Johnson of Louisiana. Mr. Chairman.
    Chairman Nadler. I now recognize Mr. Johnson. For what 
purpose does Mr. Johnson seek recognition?
    Mr. Johnson of Louisiana. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Louisiana. Mr. Chairman, I will speak to the 
Gaetz amendment, which is why we are here right now, but I 
wanted to address what you just said. I think it is a really 
beautiful argument. I think you should make it in court because 
that is what you are supposed to do under our system. If you 
want to make that argument, you are supposed to go to a Federal 
court, the third branch of government, to resolve a dispute 
between the executive and the legislature. That is what has 
always happened before, but you guys won't do it. You could go 
make that argument, but you are not going to do it. You know 
why? Because you guaranteed your base you would get an 
impeachment by December, by Christmas. This is ridiculous. It 
is a travesty of justice and all due process, and that is why 
we are so concerned.
    Now, I do love the Gaetz amendment, and to reset the table 
because we just had a break, it is a really good one. I think 
the people back home aren't able to follow because they don't 
have all the handouts, but this is all he wants to do. So, on 
page 3 at lines 10 through 11, it currently reads that 
President Trump suggested an investigation of, quote, a 
political opponent, former Vice President Joseph R. Biden, Jr., 
unquote. So Mr. Gaetz' amendment is real simple. It is just 
three lines. He wants to replace that with, quote, a well-known 
corrupt company, Burisma, and its corrupt hiring of Hunter 
Biden, unquote.
    Now, that is such a logical amendment because it comports 
with the facts and everything we have been saying here that a 
lot of people back home are probably scratching their heads 
right now and saying: Well, I wonder why the Democrats would 
oppose that.
    Well, here is why. A constituent sent me a note during our 
break for the vote series, and he said this, quote: Let me get 
this straight. President Trump's phone call amounts to an abuse 
of power, but Vice President Biden's actions do not?
    Let's review what we know. I pulled those facts. Let me go 
through them here real quick. First, in Biden's case, he 
personally withheld U.S. aid until the prosecutor he wanted 
fired was actually fired. Biden received a personal benefit for 
his official act, namely, the ability of his son to continue to 
collect money from a corrupt Ukrainian company. Hunter and Joe 
Biden had a direct financial stake in avoiding an investigation 
of Burisma that might lead to the company's demise, then his 
gravy train would stop. Of course, this is just obvious. 
Everybody can see it.
    There was an article in The New York Times that was 
published in May, May 1, 2019, stating the following about the 
Ukrainian's prosecutor ouster, quote: Among those who had a 
stake in the outcome was Hunter Biden, Mr. Biden's younger son, 
who at the time was on the board of an energy company owned by 
a Ukrainian oligarch who had been in the sights of the fired 
prosecutor general, unquote. And of course, Joe Biden had a 
personal interest in avoiding a political scandal involving his 
son.
    Clearly, a requested informational investigation into 
Biden's dealings was justified as an informational 
investigation into an abuse of power by the previous 
administration. But, of course, if President Trump's requested 
informational investigation was justified, then no impeachment 
charge against him is justified. It can't be an abuse of power 
by President Trump to inquire about an abuse of power that is 
so painfully obvious by Vice President Biden. In other words, 
any theory of impeachment on these facts has to collapse on 
itself, and it ends up exonerating President Donald J. Trump. 
That is the reason they won't accept the amendment, but it is 
why every single one of us who is looking at these facts 
objectively really has an obligation to do it.
    Now, I have a minute and a half left. Let me correct 
something else that was in the record. We have a lot of facts 
to correct, and we may be here a while doing that. My good 
friend and trusted friend, Ms. Lofgren, said before the break 
at some point that the Ukrainians knew about the hold on the 
aid. But the fact is that senior Ukrainian Government officials 
did not know about the delay in funding until August 28th. 
Ukrainian Embassy officials who contacted the State Department 
and DOD officials were reportedly acting rogue with the then 
Ukraine Ambassador to the U.S. and working to withhold 
information from Kyiv to undermine the new Zelensky 
administration, the swamp drainer, the guy who was going to 
clean up the corruption that President Trump affirmed later. 
Andriy Yermak has publicly confirmed that the President's close 
advisors, President Zelensky's close advisors, had no knowledge 
of the hold until it was made public by the Politico article on 
August 28th.
    Look. That is a fact. Like everything else they are trying 
to obscure here, you can't take your eye off the ball. I know 
this is hard to follow back home from conscientious 
constituents of ours and citizens who trying to do their duty, 
tying to be informed and engaged as an electorate. It is hard 
to follow. But what you have to know is that both the process 
and the substance of these arguments is completely empty. It is 
vapid. That is why we are wasting our time here. I am out of 
time, and I will yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Stanton seek recognition.
    Mr. Stanton. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Stanton. There has been some discussion today as to 
what is the reason why we are here. It has been suggested by 
some that we are here because we disagree with the President 
and his policies. A few moments ago, we heard a list of some 
policies where there actually might be some disagreement with 
the President of the United States.
    You know, we do have some policy disagreements with the 
President of the United States. We do disagree strongly about 
separating children from their parents at the southern border. 
We do disagree strongly with this President in his attempt to 
eliminate preexisting condition protections under the 
Affordable Care Act. We disagree strongly with this President 
about his decision to remove us from the international climate 
change accord.
    But none of those are the reasons we are here today, voting 
today on Articles of Impeachment. We are only here today voting 
on these two Articles of Impeachment because this President has 
chosen to put his personal interest ahead of the national 
interest. We are only here today because this President chose 
to attempt to withhold public resources in order to gain an 
unfair advantage in an election.
    That is the reason why we are here. That is the only reason 
why we are here. We are here voting on these two articles, but 
we are also here for the very important principle. Is any 
person above the law? That is what each member has to think 
about as they make this important decision, not trying to 
divert attention from the core facts or try to make this 
important vote today about something other than it is. That is 
what we need to focus on, and I hope we will for the rest of 
this hearing. And at this point, I will yield to the gentlelady 
from Texas, Congresswoman Escobar.
    Ms. Escobar. Thank you, Mr. Stanton.
    There is much reference, there has been much reference made 
to the transcript, and I use air quotes because it is not an 
official transcript. I want to remind everyone that this was a 
document provided to us by the White House with ellipses in the 
documents, and we don't know exactly what was stated because it 
is not an official document.
    Much has been made also about this idea of the use of ``do 
us a favor,'' as though the United States of America and 
foreign policy experts and State Department experts were 
clamoring to get information on Burisma or information on 
Hunter Biden or Joe Biden.
    We heard from Mr. Goldman last week, and I asked him 
specifically if his committees had investigated that claim, 
that there was some legitimate concern by the government about 
corruption regarding Burisma, and he said they thoroughly 
investigated it and found absolutely no evidence.
    Mr. Trump is welcome to be here. He was welcome to be here. 
He was welcome to participate. His lawyers, so that he--if he 
has any information that would exonerate him about this, he 
could present it at any time. He has not.
    Now, let's compare that to the fact that he has prohibited 
witnesses from coming before our committee and other 
committees. He has prevented documents from seeing the light of 
day. He has intimidated witnesses, so let's remember that he is 
doing absolutely everything possible to hide his wrongdoing. If 
he could prove otherwise, he would.
    Now, compare that with the information that was created 
through the investigations: over 300 pages in a report, over 
17--or 17 witnesses, over 200 text messages. That is just what 
was able to make light of day. That is just what we were able 
to discover because of patriots willing to come forward.
    So, again, I would say if there is any evidence that the 
American Government or foreign policy advisors or experts or 
the diplomats that dealt Ukraine believed that this was about 
us, then the President can show the evidence. Thank you, Mr. 
Stanton. I yield back.
    Mr. Stanton. Thank you very much.
    And, Mr. Chair, I yield back to you.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Mr. Deutch seek recognition?
    Mr. Deutch. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, the 
colleague from Louisiana is exactly right. It gets confusing. 
It does. There is a lot that we have been talking about, which 
is why it is so important to always return to facts, and I just 
wanted to set a couple of facts straight.
    We heard that we were somehow sent here, Members of 
Congress are somehow sent here to defend the President or to 
defend the President's policies or to defend an overturning of 
the status quo. I didn't really understand the suggestion 
because the fact is, and I think everyone on the dais, everyone 
on our committee, everyone in America knows and needs to be 
reminded we are sent here to defend the Constitution, and the 
Constitution provides three coequal branches of government.
    And when the President of the United States chooses to 
refuse to engage with the coequal branch of government that is 
this body, when the President, through his lawyer, makes clear 
that he will not respect the Constitution, will silence anyone 
who might have information to provide to Congress, will 
instruct them to not turn over a single document, that is the 
obstruction of Congress we are talking about.
    And the suggestion that it is somehow standard operating 
procedure in the United States of America for a President to 
defy Congress completely and then for our friends on the other 
side to throw up their hands and say: Every President does it. 
The way that we resolve these issues is to go to court. We have 
three coequal branches of government. If one branch says 
they're going to completely obstruct the business of the 
second, then we just go to court. That is the way it works in 
our country.
    Again, it is important to remind people of the facts in the 
Constitution. That is not how it works. It doesn't work that 
way. It has never worked that way. Never in the entire history 
of our country have we had a President of the United States 
simply defy a coequal branch altogether. There is no example. 
My friends on the other side of the aisle cannot point to a 
single example where a President has said: I will not cooperate 
with you in any part of your work, period. This is not a 
legitimate effort. You are not a coequal branch of government, 
and then simply says: But you can go to court because that is 
how things always work.
    Again, it is just important to remember the facts are 
clear: No President has ever, ever, ever obstructed Congress in 
the manner that we have seen from President Trump.
    Mr. Johnson of Louisiana. Will the gentleman yield?
    Mr. Deutch. In a moment.
    And so, as we go forward--and I don't know how much longer 
we will be here--it is always important to make sure that the 
facts are clear and that we don't muddy the waters by 
suggesting that something that is so unprecedented, that we 
have never seen before in the history of our country is somehow 
just part and parcel of the way that things work around here. 
They don't. We know it. My friends on the other side of the 
aisle know it. The American people know it, but Mr. Johnson is 
right. Sometimes it is important to remind them of it. I 
yield----
    Mr. Raskin. Will the gentleman yield? Thank you, Mr. 
Deutch. I just want to add a little constitutional postscript 
to underscore the point that Mr. Deutch is making here. Article 
I of the Constitution gives the House of Representatives the 
sole power of impeachment. It gives the Senate the sole power 
of trial.
    In a Supreme Court decision called United States v. Nixon, 
the Supreme Court emphasized that the rules and the procedures 
developed, including the evidentiary rules, are completely 
within the power of the House and the Senate and cannot be 
second guessed by the courts.
    And in terms of general congressional oversight, the 
gentleman is perfectly correct. The Supreme Court has 
emphasized that the fact-finding investigative power of 
Congress is essential to, integral to, and built into our 
legislative power. James Madison said that those who mean to be 
their own governors must arm themselves with the power that 
knowledge gives. And where does Congress get the knowledge to 
legislate for the people? We get it through subpoenas, through 
the discovery process, and so on. No administration in history 
has ever attempted to do what this administration has done, 
which is to pull the curtain down over the executive branch and 
to deny us all of the investigative requests that we have. I 
yield back.
    Chairman Nadler. The gentleman yields back. For what 
purpose does the gentleman seek recognition?
    Mr. Collins. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. Thank you. Look. We are going to be here a 
long time tonight, and don't let anybody worry. There is plenty 
of malls we can go to. So, if anybody thinks that might be in 
our midst, don't worry about it. Keeping asking because if we 
have to fact check you all night, we will because this is all 
that has been happening right now.
    Let's go back to the transcript. The transcript. Every 
witness testified that the transcript was fine, and the 
transcript was accurate. The transcript reflected the call. 
Everyone testified to that. They was able to make it additions. 
They were able to make--a process.
    Talk about ellipses. You want to talk about ellipses? Look 
at, you know, they should have put the ellipses in the Articles 
of Impeachment. The wide gaps here of fact and logic are 
amazing in this.
    So, I mean, this is--let's go back to the facts. Let's get 
back to what we are saying. I do appreciate the fact that my 
friend from Florida, Mr. Deutch, said that we are muddying the 
waters. The way that we have tried to get these facts out today 
and what I have heard from my majority colleagues over the last 
6 hours, if this is muddying the waters, y'all are an EPA 
hazardous waste site at this point. This is muddying the waters 
because you don't have the facts to get to where you need to 
get to, and you just want to continue to say, well, it was, it 
was, it was. We just don't like him.
    Even the chairman. This is about an issue of when we go 
back that we are trying to get a dictator. I love how we throw 
these words in. ``We are trying to stop a dictator. We are 
trying to stop a dictator.'' That is not what you are trying to 
do. You are using inflammatory language because you want to 
make a better point because, right now, your facts are failing. 
And you put two Articles of Impeachment that you really don't 
want to defend because either you defend them passionately, and 
you look sort of silly doing it, or you don't defend it, and 
you look even worse for bringing them.
    So, again, we can fact check this all night. We are here to 
do this. It is just amazing, though, that after 3 and a half 
hours earlier, laying out everything that happened, looking at 
what went forward, these actually going forward are not what is 
happening here.
    So, again, let's get at one thing clearly for those who may 
have tuned back in after lunch, maybe after nap. The 
transcripts were accurate. You know how I know that? Because 
everybody testified that they were. Even Fiona Hill said the 
ellipses didn't mean--that was not even an issue for them. The 
transcript was accurate, so let's quit perpetrating that 
discussion point out there. That talking point, let's mark off 
our list. Let's discuss the fact of us is accuracy. It is 
actually called reading. You read the transcript as it is put 
in. It says ``us,'' not ``me.'' These are the kind of things 
that are simple as we go forward. With that, I yield to Mr. 
Jordan.
    Mr. Jordan. I thank the ranking member for yielding. I just 
want to go back to something that the gentlelady from Texas 
mentioned a few minutes ago. She questioned whether the 
transcript was complete. Remember what Colonel Vindman 
testified to. He said it was complete and accurate. Lieutenant 
Colonel Vindman said that in his deposition, in his--in the 
testimony in the hearing, complete and accurate transcript. So 
to say--to suggest that it is not is just not consistent with 
the testimony we received from your witnesses. Remember, 
Lieutenant Colonel Vindman is the same guy who wouldn't tell us 
all the folks he talked to about the call. Wouldn't tell us. He 
said he shared the call with five people but would only tell us 
four of those individuals, but that is the guy who told us that 
the transcript was complete and accurate. I yield back to the 
ranking member.
    Mr. Collins. I yield to the gentleman from Louisiana, Mr. 
Johnson.
    Mr. Johnson of Louisiana. Thank you very much. I just want 
to respond to my colleague over here, Mr. Raskin. He was a 
constitutional law professor. I was a constitutional law 
litigator for 20 years. We could debate this all day long, but 
you just misstated U.S. v. Nixon, okay. And I don't want to get 
too deep in the weeds for the folks back home, but this is 
really important.
    In that case, in 1974, the Supreme Court recognized the 
existence of executive privilege, which is a protection that 
requires a balance of interest between the legislative and 
executive branches by the judicial branch. But here is the 
important thing: They said in that case there is not an 
absolute, unqualified Presidential privilege of immunity from 
judicial process under all circumstances. That is a quote from 
the court. But the corollary, the other side of that is true as 
well. Congress doesn't have an absolute, unqualified authority 
to demand evidence from the President, either. That is the 
whole reason that you have to go to the third branch of the 
judiciary.
    This is a legitimate claim of privilege. It is a legitimate 
issue that the courts could decide. It is a case of first 
impression, as my colleague knows, because this specific set of 
facts has not been addressed yet, and it should be resolved by 
the courts.
    Professor Turley addressed this in his testimony to this 
committee, and he said, quote, he wrote in his submission: The 
answer is obvious. A President cannot substitute his judgment 
for Congress on what they are entitled to see, and likewise, 
Congress cannot substitute its judgement as to what the 
President can withhold. The balance of those interests is 
performed by the third branch that is constitutionally invested 
with the authority to review and resolve such disputes.
    Mr. Raskin. Would my friend yield?
    Mr. Johnson of Louisiana. Wait a minute.
    That's the answer. So, if we are going to cite Supreme 
Court cases, let's put it in the appropriate context, and let's 
acknowledge----
    Mr. Raskin. My friend----
    Mr. Johnson of Louisiana [continuing]. That this is an 
issue. I yield 20 seconds.
    Mr. Raskin. Thank you. We are citing different cases. I am 
talking about the 1993 Judge Walter Nixon case which was----
    Mr. Collins. I will remind the gentlemen from the 
constitutional scholars on both sides of this argument, it is 
my time, not y'all's.
    Mr. Johnson of Louisiana. I am sorry. I yield back. Fair 
enough.
    Mr. Collins. No, Mr. Raskin. We are done with this.
    I yield back my time.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Ms. Dean seek recognition?
    Ms. Dean. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Dean. You know, let's go back. As has been stated 
today, the Constitution devotes only a few sentences to 
impeachment, so I am going to read one. It is Article I, 
Section 2, the very last sentence. The House of Representatives 
shall choose their Speaker and other officers and shall have 
the sole power of impeachment. As Professor Raskin just told 
us, properly, the Constitution uses the word ``sole'' only 
twice. Sole, not shared. Not shared with the judiciary. Not 
shared with the executive. This means that we have the sole 
opportunity and obligation, frankly, to determine what evidence 
is necessary for impeachment. Sole, not shared with the 
executive.
    Think back. Judiciary Chairman Peter Rodino warned 
President Nixon about his failure to comply with subpoenas 
issued in the Watergate impeachment inquiry. Under the 
Constitution, it is not within the power of the President to 
conduct an inquiry into his own impeachment to determine which 
evidence and what version or portion of that evidence is 
relevant and necessary to such an inquiry. These are matters 
which, under the Constitution, Rodino wrote, the House has the 
sole power to determine. Sole, not shared with the executive. 
Sole, not shared with the courts.
    It's a civics lesson. Don't let the other side who have 
such talented constitutional attorneys over there distract you. 
This is not an ordinary dispute, folks. This is a very rare, 
thankfully, very rare dispute. It is not an ordinary dispute 
where you go to the court. We don't need permission to go--to 
use our constitutional rules. If President Trump is allowed to 
refuse to comply with requests for information, it would gut 
the House impeachment power and undermine our bedrock principle 
of separation of powers.
    Last night, as we left here, I wanted to just tell you 
this. I went outside, and there was a team of about 12 high 
school students from Ohio with their teacher, and they said, 
would you mind stopping for a minute? Could we just talk to you 
for a minute? It was so interesting to watch and to listen and 
to hear what was going on at this important, historic time. We 
loved learning about our Constitution and how much you prize 
this Constitution. Thank you for protecting it for us.
    And you know what they said to me? We didn't understand 
this before, but I do now: It is your job. It is the House's 
job to determine what evidence comes in.
    We do not need permission from the President. We do not 
need permission from the courts. In fact, we have an obligation 
to do our job under this simple smart document.
    Today, December the 12th, marks the anniversary of 
Pennsylvania coming into the Union. I think about those Framers 
in my city of Philadelphia, so wisely thinking through these 
words. Today marks 232 years since those wise men fought 
thought through how would we conceive of our government and how 
would we maintain self-government.
    Do not be confused by the lawyers on the other side who 
would teach the wrong civics lesson and distract you with the 
notion we need to go to court. We need permission of a 
President. We need permission of a court. We do not.
    With that, I yield.
    Ms. Jackson Lee. Will the gentlelady yield?
    Ms. Dean. I would like to yield to the gentlelady from 
Texas.
    Ms. Jackson Lee. I thank the gentlelady and for her very 
forceful response. And might I just say to the obstruction of 
Congress, neither Mr. Nixon nor Mr. Clinton obstructed Congress 
in the manner that this President is doing.
    The underlying amendment had to do with corruption, and I 
raised the point of the document that speaks about the July 
25th call. Let me just quickly say that the language is ``I 
would like you to do us a favor, though.'' And as the White 
House has distorted the interpretation, the ``us'' does not 
have any reference to the Department of Justice, the Department 
of Defense, the Department of State. And clearly, in this same 
document, he mentions the Vice President. He mentions 
CrowdStrike. All of those have been debunked. It is clear that 
the Vice President was operating as the Vice President of the 
United States at the time, and he was operating, he was 
operating on an official policy to deal with Ukraine. This is 
about the President seeking to have Ukraine investigate this 
political opponent for personal and private reasons. No one 
misinterpreted what was said. And Lieutenant Colonel Vindman 
immediately went to the legal counsel in the White House that 
immediately went dark and never responded because he was so 
offended by this campaign effort.
    With that, I yield back, and I thank the gentlelady for 
yielding.
    Chairman Nadler. The gentlelady leads back.
    For what purpose does Mr. Reschenthaler seek recognition?
    Mr. Reschenthaler. Permission, Mr. Chairman, to strike the 
last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman. I yield to my 
colleague and good friend from Texas.
    Mr. Gohmert. I thank my dear friend from Pennsylvania. You 
don't have to be a constitutional scholar if you just had Coach 
Barker for civics in high school as I did. This is unique, so 
we don't need to hear from the courts. This, we are told, is 
uncharted territory because no President has just completely 
refused.
    Let me just touch on a little bit here on both of those 
issues. This is uncharted territory. Never in the history of 
this country have we had an impeachment proceeding begun by 
lies that got a warrant from a secret court that turned out and 
had been documented to be lies and then kept getting warrants, 
three after that, based on lies. And not one person on the 
other side of the aisle is the least bit embarrassed that they 
went to a secret court and got warrants based on lies, first, 
to investigate or spy on a campaign or surveil, electronically 
surveil, as Horowitz said, but this is uncharted territory. 
Nobody wants to apologize on the other side. Okay. I get that. 
It might be politically embarrassing. But to say we don't need 
to go to court? I mean, the Obama administration was just 
incredible at getting subpoenas, doing document dumps of stuff 
that didn't--we really weren't looking for, asking for, 
especially from Judiciary, but the other stuff that we 
demanded, we couldn't get it.
    And we tried to get Boehner to go to court. Let's get a 
court order requiring it so that we can hold them in contempt. 
That's the only way we'll ever get this done, and he wouldn't 
do it. And so those of us that understand the Constitution and 
understand they're not just two articles, we understood we 
needed to get that court order to back us up so it wasn't us 
abusing the offices of Congress. We had, as Turley and 
Dershowitz and others pointed out, you head to court. You go.
    And another thing that is uncharted territory, we started 
this impeachment proceeding about the Russia hoax and the 
Russia collusion and demanding all these documents about the 
Russia collusion, and it kept changing. And then it went to 
bribery and extortion and emoluments and all these other 
things. Never in history has a President been accused of crimes 
with a target constantly changing.
    Now, when you subpoena documents, there has to be a 
reasonable basis for requesting information or subpoenaing 
witnesses. You have got to have a reasonable basis. And when 
you keep changing the allegations against the party from whom 
you are demanding information, then they have the reasonable 
expectation to advise them of what the new charge is today, 
what the new evidence is today. But they couldn't give any of 
those, and I would have been very surprised if you had--now, 
you will find some Obama appointees that might have upheld 
subpoenas, but not the Supreme Court because this is so 
unreasonable.
    And to the earlier allegation that, gee, even though nobody 
in the Ukrainian Government has said they were a victim, well, 
it is because the President had a gun to their head. Well, that 
is not the case. The reason that they are not saying that is 
because they knew this is the most helpful President they have 
had since the steel curtain fell. Because this is a President, 
unlike the Obama administration when they were under attack and 
Ukrainians really were dying, we offered up blankets and Meals 
Ready to Eat and military stuff, but this is a President that 
has really helped them defend themselves. This is a President 
that really made a difference for Ukraine. So it wasn't a gun 
to their head. They see this as a helpful President.
    And another thing. If a victim does not admit to being a 
victim, anybody who has been a prosecutor surely knows this. 
You can go to court, force it to court, and the victim says ``I 
wasn't a victim,'' you don't get a conviction. And if you do, 
that is not sustained because that is what courts and Congress 
call a no-evidence point.
    You have a no-evidence point. That is why you had to drop 
bribery, although it does apply to Vice President Biden. You 
smartly dropped the bribery, and now you have this elusive 
abuse of power. This is outrageous, and it needs to come to an 
end.
    Chairman Nadler. The gentleman's time has expired. For what 
purpose does Mr. Jeffries seek recognition?
    Mr. Jeffries. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Jeffries. The gentleman from Texas talked about 
reasonable basis. The reasonable basis here is that there is 
uncontroverted evidence that the President pressured a foreign 
government, Ukraine, to target an American citizen, Joe Biden, 
for political gain, and at the same time withheld, without 
explanation, $391 million in military aid that had been 
allocated on a bipartisan basis.
    Ambassador Taylor, West Point graduate, Vietnam War 
veteran, appointed by Reagan, Bush, Trump to the diplomatic 
corps said the following about the withholding of that military 
aid: No legitimate public policy basis, no legitimate national 
security basis, no legitimate substantive basis. That is why 
Congress proceeded. We had more than 200 national security 
professionals, Democrats and Republicans, who expressed concern 
with the President's wrongdoing and said this undermines 
American national security. That is the basis for the 
impeachment inquiry. But what the President has done has said, 
unlike the Madisonian vision of democracy where there are 
checks and balances, separate and coequal branches of 
government, I, alone, can determine what the Representatives of 
the people see in connection with a legitimate investigation.
    And at the same time, this is a President that attacks 
everybody to distract. He attacks everybody who won't bend the 
knee to Donald J. Trump. He has attacked John McCain, a war 
hero. He has attacked Mitt Romney, 2012 Republican nominee. He 
has attacked Bob Mueller, a Marine, a distinguished 
professional in law enforcement. He has attacked your former 
Speaker, Paul Ryan. He attacks Gold Star families. He even 
attacked today a 16-year-old teenage activist, Greta Thunberg. 
Are you here to defend that as well? And so what has happened 
is that, instead of addressing the substance of the allegation, 
you want to attack Joe Biden and his family.
    Elijah Cummings is no longer with us. He is in heaven just 
like the prophet Elijah, but his spirit is with us, and we are 
better than this. We are proceeding in a serious, solemn, and 
sober fashion because the allegations are deadly serious. Is it 
okay for the President to solicit foreign interference in the 
2020 election or not? Who should decide the outcome of our 
elections? Is it the Russians, the Chinese, the Ukrainians, or 
the American people? It should be the American people. And that 
is why we are here at this moment, and so let's have a serious 
discussion about it and stop attacking Americans who refuse to 
bend the knee to this President.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Jeffries. I yield to the gentleman from Tennessee.
    Mr. Cohen. Thank you, sir. One of the issues, big issues 
here, is Trump conditioning military aid on an investigation of 
the Bidens. Joe Biden, period, his primary political opponent 
in his mind. The Republicans have said: No, it was about 
corruption. It wasn't about them.
    But listen to what they have talked about today. All they 
have talked about is the Bidens; Hunter Biden's automobile 
audible accident, Hunter Biden's this, Hunter Biden's that, 
Hunter Biden's salary. They haven't brought up the corruption 
of the past Ukrainian leaders or any Ukrainian business. It is 
all the Bidens. Their defense speaks to the truth of the 
allegations in this article, that it was all about the Bidens. 
They are all about the Bidens, and that is what it is about.
    Mr. Gohmert. Will the gentleman yield?
    Mr. Cohen. I yield.
    Mr. Gohmert. I did bring up----
    Mr. Cohen. I yield back to Mr. Jeffries.
    Mr. Gohmert. Okay. I shouldn't have tried to correct you 
again, I guess.
    Mr. Jeffries. Foreign interference in an American election 
solicited by the President is not okay. That is an abuse of 
power. It undermined our national security. The President 
should be held accountable because no one is above the law.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Mr. Neguse seek recognition?
    Mr. Neguse. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Neguse. Thank you, Mr. Chairman. I think the gentleman 
from New York laid out in such an articulate way the basis and 
the justification for both Article I and Article II before us. 
But I just want to touch on the debate around obstruction of 
Congress and explain to my colleagues and the American people 
why this instance is so unprecedented.
    I will first just say with much respect to my colleague 
from Colorado, I want to assure the American people that 
obstruction of Congress to Coloradans means the same thing that 
it does to everyone else in this country. It means the defiance 
of lawfully issued subpoenas by the United States House of 
Representatives. It means impeding the ability of the House of 
Representatives to perform its constitutional duty. And unlike 
the obstruction of Congress that has taken place in the past, 
this President's obstruction of Congress has been total, has 
been absolute, and has been categorical.
    In 1999 and 1998 when President Clinton was the subject of 
an impeachment inquiry, this committee propounded 81 
interrogatories to his administration, and he responded. In 
1974, during the Watergate investigation, Nixon's chief of 
staff testified. Nixon's counsel testified.
    In this instance, the President has taken steps to ensure 
that this committee does not receive, and the intelligence 
committee as well, key testimony from any host of officials in 
our government.
    And just to give you a historical context, I will read to 
you a quote: All members of the White House staff will appear 
voluntarily when requested by the committee. They will testify 
under oath, and they will answer fully all proper questions.
    That is from Richard Nixon's administration.
    So I hope again as we consider the gravity of the articles 
before us that we can stay true to the facts and recognize that 
when we say that no President in the history of this Republic 
has ever completely defied an impeachment inquiry as this one 
has, we mean it. And with that----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Neguse. I will yield to the distinguished gentlewoman 
from California.
    Ms. Lofgren. I enjoyed listening to you. You are absolutely 
correct in your reporting of what occurred during both the 
Nixon and Clinton impeachment, but I want to address the issue 
from a slightly different point of view. Not only has President 
Trump refused to provide information that he should have 
provided, he didn't assert a privilege. He just said no.
    I actually have just reread the letter from Mr. Cipollini, 
the President's lawyer, dated October 8, 2019. It is page after 
page after page of complaining about how the House is 
proceeding, but the Constitution says Congress shall have the 
sole authority to impeach. We decide how to proceed, not the 
White House. And in the end, without asserting any privilege 
whatsoever, he just announces they are not going to cooperate, 
provide any information. This isn't something that needs to be 
adjudicated by the third branch, the judicial branch, because 
there is no--there is no privilege being asserted here. It is 
simply no. That has never happened before, never happened 
before in the history of the United States.
    And I will tell you. In addition to being improper, a valid 
article, Article II that we are considering today, if this 
behavior persists, the balanced, carefully balanced sharing of 
power between the three branches of government is gone forever. 
It means that only one branch, the executive branch, will have 
the right to decide what happens in the United States of 
America, and that is a very different type of country than we 
have enjoyed for over 200 years, and it is not a piece of good 
news for freedom in the United States. And I yield back to Mr. 
Neguse with thanks for recognizing me.
    Mr. Neguse. I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. McClintock seek recognition?
    Mr. McClintock. Strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. McClintock. Mr. Chairman, I have to offer a different 
perspective on this. The doctrine of executive privilege 
actually began with a subpoena that the House issued to 
President George Washington in 1796 demanding all the papers 
relating to the Jay Treaty. President Washington refused that 
subpoena because he said that the powers of the House did not 
extend to treaties. He ultimately only provided that 
information to the Senate as a function of its treaty approval 
process.
    So, in the doctrine, that dates back to those days is 
derived from the separation of powers between the executive and 
legislative branches. Congress can no more intrude into the 
policy discussions of the President than the President can 
intrude into our own policy discussions. That is essential to 
the separation of powers.
    Now, there is a natural tension between the branches. That 
is a byproduct of that separation of powers. And when that 
tension cannot be resolved, then we turn to the judiciary. That 
is the appropriate way to resolve this, different 
interpretations of the boundaries between the Congress and the 
President, the appropriate response is judicial review, not 
impeachment.
    The President has every right to assert his constitutional 
rights, and he has every responsibility to defend the 
prerogatives of his office. His very oath of office compels him 
to do so.
    In matters like this, the courts have acted quickly to 
resolve such disputes. The Democrats aren't willing to go to 
the courts. What Article II says is we are not willing to go to 
court. We will take the law into our own hands. These are the 
same people who tell us that no one is above the law, of 
course, except for themselves. What they are saying is Congress 
alone will decide the limits of our own power. This is the 
essence of despotism. The reason why we separate powers of 
government is that so one branch alone cannot unilaterally 
define its own power, and yet this is the power that the 
Democrats are now abrogating to themselves.
    It is true. We have the sole power of impeachment under the 
Constitution. But that power does not exceed the bounds that 
are established by that very Constitution. Those bounds include 
the grounds for impeachment which this committee has ignored, 
and they include the separation of powers that protect one 
branch from intrusion of the other.
    I want you to think about the essence of the Democrats' 
claim and what it means to American jurisprudence. You face an 
abusive prosecutor who is making false accusations. Well, you 
have constitutional rights that you are guaranteed to use to 
protect yourself. You have got the right to confront your 
accuser. You have got the right to call witnesses in your 
defense. You have the right to be protected from unreasonable 
searches and seizures.
    But this article says, if you go to court to defend your 
rights, that is automatically an obstruction of justice or, in 
this case, an obstruction of Congress, and the very fact that 
you tried to defend your constitutional rights is evidence of 
guilt. These are the tools of tyrants, and we have already seen 
these tools used against college students in Title IX 
prosecutions, and they produced a frightening litany of 
injustices. Now these tools are being brought into this attempt 
to nullify the 2016 national election that the left has refused 
to accept, and that should scare the hell out of every person 
in this country. I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Correa seek recognition?
    Mr. Correa. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Correa. Thank you, Mr. Chairman. I just wanted to do a 
little fact checking, if I can, for my folks back in California 
in Orange County. I know some of my colleagues compared Vice 
President's Biden withholding of aid to President Trump's 
withholding of aid, and I just want to make sure that I have 
the facts correct here.
    It is my understanding that Vice President Biden held up 
the aid in order to have the firing Mr. Shokin. This was in 
accordance with U.S. policy, express U.S. policy that was 
supported by Europe and a bipartisan Congress. Yet you have 
President Trump who held up almost $400 million of again 
bipartisan-approved aid. And I know my colleagues are saying 
that he did this to rout out corruption, and I think there are 
channels of pursuing help in investigations.
    On September 25th, there was a public press release put out 
by the DOJ saying that President Trump never asked them to 
investigate this matter, so I am left to conclude that this 
must have been for the President's personal gain.
    The President interjected his personal lawyer, Rudy 
Giuliani, who told us, and I quote, this is not about foreign 
policy, closed quote. Rudy Giuliani went on to say this 
information--open quote, this information will be very, very 
helpful to my client, closed quote. And, again, he said open, 
quote, I guarantee you, Joe Biden will not get to election day 
without being investigated.
    Again, comparing and contrasting holding up foreign aid to 
support U.S. public policy versus holding up foreign aid 
against U.S. stated policies.
    Mr. Chair, I yield.
    Mr. Cicilline. Would the gentleman yield back--yield?
    Mr. Correa. Yes.
    Mr. Cicilline. Thank you. I thank the gentleman for 
yielding.
    I know that there has been an effort to try to suggest that 
the Trump administration or the President was interested in 
corruption and that is why he held up the aid. The evidence is 
absolutely to the contrary--all of the evidence. And in fact, 
sometimes you have to go back to the source. If you look at the 
report completed by the intelligence committee, a 300-page 
report, 17 witnesses, over 100 hours of testimony. They make 
findings of fact. There is fact, and there is make-believe. The 
findings of fact, and I am going to read right from the report: 
The President solicited the interference of a foreign 
government, Ukraine, in the 2020 U.S. Presidential election. In 
furtherance of this scheme, President Trump directly and acting 
through his agents within and outside the U.S. Government 
sought to pressure and induce Ukraine's newly elected President 
Zelensky to publicly announce unfounded allegations that would 
benefit President Trump's personal political interest and 
reelection effort. As part of the scheme, President Trump--this 
is, again, findings of fact--personally and directly requested 
for the President of Ukraine that the government of Ukraine 
publicly announce the investigation into the President--the 
Vice President and his son. President Trump ordered the 
suspension of $391 million in vital military assistance 
urgently needed by Ukraine to resist Russia aggression.
    And here is the important part. In directing and 
orchestrating the scheme to advance his personal political 
interests, President Trump did not implement, promote, or 
advance U.S. anticorruption policies. In fact, the President 
sought to pressure and induce the government of Ukraine to 
announce politically motivated investigations, lacking 
legitimate prediction that the United States Government 
otherwise discourages and opposes as a matter of policy in that 
country and around the world. In so doing, the President 
undermined U.S. policy supporting anticorruption reform and 
rule of law in Ukraine and undermined U.S. national security.
    So the findings of fact that are detailed in the report 
completely refute that claim. And, again, I would turn to the 
most important fact. The President of the United States abused 
the power of his office, the enormous power of the Presidency, 
not to advance the public good, but to advance the political 
interests of Donald Trump. He used taxpayer funds, nearly $400 
million, to leverage that, and in doing so, undermined the 
national security of the United States. He must be held 
accountable because no one in this country, no one, including 
the President of the United States, is above the law. And the 
one body that is charged with making certain that we vindicate 
the power of the people to hold the President accountable is 
the Congress of the United States.
    Mr. Cicilline. If you are not up to the job, you don't 
belong in Congress.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    The question now occurs on the Gaetz amendment.
    Those in favor, say aye.
    Opposed, no.
    In the opinion of the Chair, the nays have it, and the 
amendment is not agreed to.
    Mr. Collins. Roll call.
    Chairman Nadler. Roll call is requested. The clerk will 
call the roll.
    Ms. Strasser. Mr. Nadler.
    Chairman Nadler? No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen?
    Mr. Cohen. No.
    Ms. Strasser. Mr. Cohen votes no.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Mr. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Sensenbrenner votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Strasser. Mr. Buck votes aye.
    Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline?
    Mr. Cline. Aye.
    Ms. Strasser. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Chairman Nadler. Did everyone vote who wished to vote?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 17 ayes and 23 noes.
    Chairman Nadler. The amendment is not agreed to.
    Are there any further amendments to the amendment in the 
nature of a substitute?
    Mr. Biggs. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Biggs seek 
recognition?
    Mr. Biggs. I have an amendment at the desk.
    Chairman Nadler. The gentleman has an amendment at the 
desk. The clerk will report the amendment.
    Ms. Strasser. Amendment to the Amendment in the Nature of a 
Substitute to H. Res. 755 Offered by Mr. Biggs of Arizona.
    [The amendment of Mr. Biggs follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. I reserve a point of order.
    Chairman Nadler. The gentlelady reserves the point of 
order.
    The gentleman is recognized to explain his amendment.
    Mr. Biggs. Is she going to read the amendment, sir?
    Chairman Nadler. The clerk will read the amendment.
    Ms. Strasser. Page 4, strike line 8 and all that follows 
through line 13, and insert the following: (3) The aid was 
released within days of Ukrainian President Zelensky signing 
two major anti-corruption measures into law, convincing 
President Trump that the new Ukrainian administration was 
serious about reform measures, and consistent with 
Administration policy to ensure foreign aid is not used for 
corrupt purposes.
    Chairman Nadler. The gentleman will explain his amendment.
    Ms. Lofgren. I withdraw my point of order.
    Mr. Biggs. Thank you, Mr. Chairman.
    I draw my colleagues' attention to a letter sent yesterday 
from the Office of Management and Budget regarding the 
temporary pause on aid to Ukraine. The letter is addressed to 
Mr. Tom Armstrong, the general counsel of the GAO, and I ask 
unanimous consent that it be included in the record.
    Chairman Nadler. Object.
    Mr. Biggs. The entire reason we are here today is because 
Democrats have accused the President of conditioning aid to 
Ukraine on investigations into his political opponent. Today, 
Democrats have continued to claim President Trump withheld or 
froze foreign aid to Ukraine, but the OMB letter walks through 
the entire process behind this temporary delay.
    First, the money was paused, but DOD was permitted to 
engage in all of the activities short of obligation necessary 
to ensure that DOD would not be precluded from obligating the 
funds prior to the expiration.
    The money was paused, according to the letter, pending a 
policy decision, and what was the policy decision? Your two 
witnesses, Fiona Hill and David Hale, testified that there was 
an ongoing global review of foreign assistance generally to 
ensure any programs receiving funds were actually worthy 
beneficiaries of our assistance, that the programs made sense, 
et cetera. Mr. Hale further testified that the President's 
skeptical views on foreign assistance guided the foreign 
affairs review.
    In fact, the only direct evidence for the reasons for the 
pause come from OMB official Mark Sandy, who testified that he 
learned in September that the pause was related to, quote, 
``the President's concern about other countries contributing 
more to Ukraine,'' close quote. He explained how OMB received 
requests for information on what other countries were 
contributing to Ukraine, which OMB provided in the first week 
of September. The aid was released, of course, on September 11.
    So Democrats want to impeach the President for trying to 
ensure that taxpayer funds are spent efficiently and 
responsibly.
    Democrats have accused this President of a myriad of 
things, including violation of the Impoundment Control Act, 
which prohibits the Executive from essentially pocket-vetoing 
funds appropriated by Congress. This letter that I am trying to 
introduce shows instead that the administration never intended 
or actually violated the law. In fact, it shows that he always 
intended to disburse the funds. That is why DOD was permitted 
to engage in all activities in preparation for the delivery of 
the aid.
    You have not made your case, again.
    The OMB letter walks through a great lengthy history behind 
programmatic delays. I am sure this would be boring to my 
friends on the other side, since it technocratically destroys 
their central theory for impeachment.
    In the letter, the OMB general counsel said, ``Even with 
the temporary withholding, the Department of Defense was able 
to obligate about 84 percent of the $250 million before the end 
of the fiscal year on September 30.'' In the last year of the 
Obama administration, it was only 79 percent. More recently, in 
2018, it was 83 percent; in 2017, 91 percent.
    Let's get back to it. The specific language of the 
appropriations authority says, ``For the Ukraine Security 
Assistance Initiative, $250 million is hereby appropriated to 
remain available until September 30, 2019.'' That is point one, 
``to remain available until September 30, 2019.''
    When we authorize funds, we give the administration a 
deadline. The administration complied with that deadline. The 
administration acted completely and totally within the bounds 
of the law.
    Secondly, the OMB's letter now definitively destroys the 
insinuation that the President chose to delay for malicious or 
corrupt purposes. The bottom line is the aid was lawfully 
delayed and lawfully delivered. And that means that this entire 
process has been a sham.
    And, with that, I am going to address a couple of issues 
that I heard.
    I heard one of my colleagues on the other side say not too 
long ago that the President should come in and prove his own 
innocence. Think about what that does. ``Come in and prove your 
own innocence.'' First of all, that is antithetical to the 
Anglo-American judicial process. It is antithetical to the 
Constitution, particularly the Bill of Rights. It is 
antithetical to what we do here.
    Someone said that Vindman was complaining about the 
transcript, but, as has been gone over today, the transcript 
was complete and accurate according to Mr. Vindman.
    Someone said--and I would ask this of my colleagues. Under 
the standard that was given earlier by one of my colleagues, if 
the President exercised executive privilege and requested a 
declaratory judgment from a court, if the privilege was upheld, 
would you undertake, then, to impeach the judge? I mean, think 
about that. Your standard, giving absolute process authority to 
the House, would impel you to impeach a judge who sustained a 
lawful exercise of the privilege of the Executive.
    So I think, Mr. Chairman, you have overgone your bounds, 
and when we get back to my amendment, it basically covers and 
sets forth clearly what the withholding or the pause of the 
Ukrainian aid was about. And they got their money, and they got 
it on time.
    Chairman Nadler. The gentleman yields back.
    Without objection, the material previously submitted by Mr. 
Cohen, Mr. Swalwell, and Mr. Biggs will be admitted into the 
record.
    Chairman Nadler. For what purpose does Ms. Bass seek 
recognition?
    Ms. Bass. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Bass. Thank you, Mr. Chair.
    I find it interesting that the story certainly seems to be 
changing. You mentioned the information from OMB, but when the 
Acting Chief of Staff gave his press conference, he said very 
clearly that the aid was being withheld because of the need to 
investigate the 2016 election. Now you are talking about 
corruption.
    I think that the notion that President Zelensky did not 
feel pressure and was just fine with military assistance being 
withheld--first of all, they did know that the military 
assistance was being withheld. And there was no reason for the 
administration to hold back because of corruption, considering 
that the Department of Defense had already said that there was 
no problem and that the aid could be released.
    The aid was released after the administration was busted, 
after there was pressure from Congress for the aid to be 
released. After word leaked out and the whistleblower came 
forward, then the aid was released. I think it is very 
important to remember that.
    President Zelensky not feeling pressure and he was just 
fine? He was essentially being held hostage. He was a newly 
elected President. His nation was at war, and part of his 
country was seized by the Russians. So what on Earth was he 
supposed to say? Was he supposed to publicly complain and 
criticize President Trump, when the whole world knows how the 
President doesn't respond to anything except for praise? What 
hostage would come forward and complain publicly against their 
captors, especially if they knew that the aid could be withheld 
or they could be compromised at any point in time?
    Last week, President Zelensky had his first meeting with 
President Putin, and, unfortunately, we were not there. He had 
that meeting alone.
    We absolutely compromised his ability to defend his nation. 
Several times it has been said that no lives were lost, but I 
would like to ask unanimous consent to enter into the record an 
article from Newsweek talking about the fact that 13 Ukrainian 
soldiers were killed.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                    MS. BASS FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Bass. President Zelensky agreed to publicly announce 
the investigations in an interview on CNN, but the Ukraine 
canceled that interview days after the President's scheme was 
exposed and the military aid was released, which further 
underscores the pressure that the Ukrainians felt when the aid 
was withheld.
    The President knew this when President Zelensky asked for 
a, quote, ``favor.'' As Lieutenant Colonel Vindman testified, 
this was not a friendly request; it was a demand. For weeks, 
the Ukrainian officials pushed back on the demand of the 
President and his agents, advising U.S. officials that they did 
not want to be an instrument in Washington's domestic 
reelection politics.
    This was not just business as usual. This was not the 
President just being concerned about corruption.
    But as the President's pressure campaign increased and the 
President began withholding critical assistance from Ukraine, 
something that the Ukrainians learned about no later than July 
25, the Ukrainians became desperate--so desperate, in fact, 
that, as Ambassador Sondland told the President, President 
Zelensky was willing to do anything.
    And although the aid has been released, the power 
disparities between the two countries has not changed. Ukraine 
continues to depend on the United States for military aid, and 
President Zelensky needs the support of America and its leader 
as he strives to bring an end to the war with Russia. It is no 
surprise, therefore, that President Zelensky expressed that he 
didn't feel pressure, but the evidence reveals a different 
picture.
    The evidence is clear that President Trump took advantage 
of Ukraine's vulnerability and abused the powers of his office 
to pressure Ukraine to help his reelection complain. This is 
the highest of high crimes, and President Trump must be held 
accountable.
    You know, in addition to compromising Ukraine, this 
compromised our standing in the world. Because what does it say 
to our allies, what does it say to vulnerable new democracies, 
when they need the assistance of the United States, they better 
be prepared to help the President's reelection? It compromises 
our standing in the world, and why would allies trust us 
anymore if this is the way that they are treated?
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Chabot seek recognition?
    Mr. Chabot. To strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    I just have three points that I would like to make here.
    First of all, as well as being on this committee, the 
Judiciary Committee, I am also a member of the Foreign Affairs 
Committee, have been for the last 23 years. And one thing that 
has really been concerning to me is about this phone call that 
the gentleman mentions in the amendment--and I appreciate him 
offering this amendment--but relative to that phone call that 
our President, President Trump, had with the President of 
Ukraine, the number of people that were listening in on this 
phone call. And is that in the national interest of our 
country?
    It is incredible how many people--you think our President 
is talking to their President. You have all these people 
listening in. And if they are listening in, shut up about it. 
You know, the President is talking frankly with another 
President. You know, he is going to make comments. In that 
call, he made some disparaging comments relative to another 
important ally of ours, Germany and Angela Merkel.
    It is not particularly helpful to have them say--hear our 
President saying something like, ``Well, they will give you lip 
service about coming to your defense and giving you aid, but 
they really won't be there for you. We will be here,'' you 
know, talking about how important the United States is as an 
ally. Our Presidents do that, but, you know, you think you are 
doing that in confidence with the other country, not having 
everybody else listening in.
    So our State Department, the executive branch, and many 
others need to tighten up these phone calls for our national 
security interests. And that goes whether we have a Republican 
administration, as we do right now, or a Democratic 
administration, as we have maybe decades down the road.
    Secondly, relative to obstruction of Congress, which is one 
of the two charges, there weren't any--no crimes alleged, 
essentially, but obstruction of Congress. We have three 
branches of government. And, of course, it is alleged that, you 
know, Congress, the legislative branch, said, ``We want you to 
bring witnesses and evidence,'' et cetera, from the other 
branch, executive branch, and since they didn't do it, rather 
than go to court--which they could have done. The legislative 
branch, this branch, basically the Democrats because they are 
in control here in the House, they could have filed a lawsuit, 
they could have had the courts decide.
    That is what happened some years ago back in the Nixon 
impeachment. He wouldn't turn over the tapes, so they went to 
the court. The Supreme Court ultimately said--it may have taken 
some months, but they said, ``You have to turn those tapes 
over,'' and he did. And he resigned because there was bad stuff 
in those tapes, the smoking gun, so to speak. And that is what 
they could have done here.
    But instead of going to the court, which is what you are 
supposed to do--they are kind of the referee between the 
legislative branch and the executive branch--they said, ``No, 
we are not going to go to court; we are just going to impeach 
this guy,'' which they have wanted to do since he got 
inaugurated. And we had one Member of Congress on their side 
who said they had to impeach him or, otherwise, he was going to 
get reelected.
    So there is so much politics in there, and there really 
shouldn't be.
    And the third point I wanted to make is that I think the 
Democrats, unfortunately, are really lowering the bar on 
impeachment in our country. You know, I happen to be a history 
major from the second-oldest college in the country, the 
College of William and Mary. Two hundred years, our Nation's 
history, we had one impeachment, Andrew Johnson, for 200 years. 
And, now, in less than 50 years, we are on our third, which is 
really unfortunate, I believe.
    I think they are lowering the bar. They are making this too 
routine. And I think that is very dangerous, because when you 
have--I think in the near future, when you have a President and 
you have a House of different parties, we are going to see this 
more and more often.
    And this is very divisive for our country. We are not 
together enough on so many things, and I think this is going to 
further divide us, and I think that is really unfortunate.
    We saw, for example, you know, years and years ago--it 
reminds me a little bit of when Bork was nominated to the 
Supreme Court. Some of the press here are probably old enough 
to remember that, and maybe some Members of the institution in 
general. But when the Democrats went after Bork, then we saw a 
tit-for-tat down the road. And I am afraid you are going to see 
that here relative to impeachment of our Presidents too.
    So I think both sides ought to step back and consider what 
we are doing here, because impeachment can be very divisive. 
And I have been through one of these before. I was one of the 
House managers in Bill Clinton's about 20 years ago, and they 
are ugly. So I have a lot of sympathy for the House managers 
that are going to be picked, probably some from this committee, 
in the near future.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Richmond seek recognition?
    Mr. Richmond. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Richmond. Mr. Chairman, we have had a lot of 
conversation today, and I would just like to break it down into 
a simple term that everyone at home can understand, especially 
my home district, where we speak a lot of Spanish, we speak a 
lot of French. We don't go around speaking a lot of Latin.
    And so here is why we are here today. Some people say 
``quid pro quo.'' Some people translate into the American 
definition of ``a this for a that.'' And the question is, what 
was the ``this''? The ``this'' was an Oval Office visit and 
much-needed military aid for the ``that.'' And the ``that'' was 
an investigation into Joe Biden, the primary political 
opponent.
    And, look, when you describe a crime, you want to make sure 
that you tell the jury and the people listening about motive. 
The motive was that he was afraid, President Trump was afraid 
that Joe Biden was beating him in the polls and would defeat 
him for his reelection. How do we know that, very quickly? 
Because we have introduced articles where he said it. He gave 
out the aid in 2016, he gave--in 2017. He gave out the aid in 
2018. 2019, the polls come out, he withholds the aid and he 
asks for an investigation.
    But that is just motive. But let's go to sworn witness 
testimony, because that is the part I want us to focus on.
    And the other side talked about the credibility of 
Lieutenant Colonel Vindman, and they accepted some of the 
things that he said as fact. Well, if you are going to accept 
some of the things he said as fact, let's accept them all as 
fact. It was Lieutenant Colonel Vindman that said under oath, 
Ambassador Sondland ``began to review what the deliverable 
would be in order to get the meeting.'' ``The deliverable.'' 
That was the ``that'' for the meeting. And he said specifically 
it was an investigation into the Bidens.
    Let's go to John Bolton, who said--he described this this-
for-that deal as a ``drug deal.''
    So if we look at all of the testimony of people under oath, 
they clearly say that this was a swap of an Oval Office visit 
or military aid for an investigation into the Bidens.
    Now, the whistleblower comes forward, the Trump 
administration panics, and then they develop everything that we 
have now, and that is called the excuse or the defense.
    First excuse: ``Well, they didn't know the money was being 
held.'' Not true. There is an email--two emails where they 
expressed concerns about it. Then you have Ms. Croft, who 
testified that two individuals from the Ukrainian Embassy asked 
about an OMB hold on the security assistance roughly a week 
apart. And she recalled that that occurred before it was 
publicly announced. So that is one.
    Second, their defense or excuse is that President Trump 
wanted to investigate corruption. Now, that is just laughable 
on its face. If President Trump wanted to investigate 
corruption, he could start at 1600 Pennsylvania Avenue, look in 
the mirror. Or he could look around the cast of criminals that 
have been indicted from his circle. You have his lawyer, you 
have his National Security Advisor, you have Michael Flynn, 
Rick Gates, Paul Manafort. The circle goes on. He is surrounded 
by criminals.
    Then we hear, ``Well, can't be obstruction of Congress. You 
all could have just went to court.'' Well, we are in December. 
We have an ongoing crime; we have a crime in progress. That is 
what the 911 call would say from a police officer. ``We have a 
crime in progress.'' And they are saying, with a crime in 
progress, why didn't you just schedule an appointment to call 
the police?
    We have an emergency to our national election going on 
right now. Our oath to the Constitution requires us to take 
this drastic, solemn, and regrettable step, but it is 
necessary, because if we don't protect Americans' precious 
right to vote, it is clear that the other side won't.
    And so I talked about the courage of Esther yesterday. 
Today, I am reminded of Judas. Because Judas, for 30 pieces of 
silver, betrayed Jesus. For 30 positive tweets, for an easy 
reelection, the other side is willing to betray the American 
people their precious right to vote and the future of our great 
country.
    And, with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Gohmert seek recognition?
    Mr. Gohmert. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gohmert. I am really intrigued. First we are told that 
the offense is withholding aid, even though it was provided, 
and, in fact, provided tremendously more helpful in both 
substance and in amount than the prior administration that just 
let people die over there. But I thought the acknowledgement 
had been, the aid was provided. But now we are told, this is an 
ongoing crime. So those two statements don't seem to work 
together well. But, you know, the double standards, they serve 
one party well.
    When it comes to the obstruction of Congress, the position 
of the majority is a tyrannical position: When we ask for 
something, you either give it or we are throwing you out of 
office. Never mind we don't know what we are going to charge 
you with. We figure if we keep requesting enough documents--
kind of like Chairman Schiff getting phone records and release 
them. Maybe we can intimidate people by getting their records 
and releasing them enough that they will do what we say. That 
is tyrannical.
    And, in fact, when we look at obstruction of Congress, 
violation of the rules, the majority could have gone ahead and 
passed a tyrannical rule and said, ``We are not going to allow 
the minority to have a minority witness day, even though it is 
in the rules, because we are tyrants and we don't care.'' But 
they didn't pass that rule. It is still part of the rules.
    So, once this thing is rushed through, probably tonight, 
whenever, through the Rules Committee, they will probably come 
out with a rule, as the ranking member mentioned earlier, and 
say, gee, all such points of order are waived. You know, all of 
the times that the majority violated the rules, we are going to 
waive those, and nobody can raise them to stop this 
impeachment. That really is abuse of power. It certainly is.
    And I had a document prepared to offer as an amendment in 
the nature of a substitute which would just change the 
President's name to that of Chairman Schiff and Chairman Nadler 
regarding abuse of power and obstruction of Congress, because 
there are plenty of bases for that. But it would not have been 
ruled germane, so I wasn't going to waste time.
    But obstruction of Congress, when there is no referee, 
there is no adjudication, there is nothing but a majority that 
says, ``You give us what we want until we find a crime, or we 
are going to throw you out of office,'' that is so 
unreasonable, especially given the history of the last 3 years, 
when the charges came and the charges went.
    The President was--I think it was a huge mistake for him 
ever to allow Don McGahn to testify for 30 hours when it was a 
bogus charge to begin with. They are setting perjury traps. 
Thank God Don McGahn didn't fall into one.
    But this is even more outrageous. ``Give us what we demand, 
or we are going to throw you out of office.''
    You know, there is another thing that could have been done 
besides going to court. Could have passed a bill requiring the 
President to do certain things, turn over certain things, and 
gotten the Senate to agree. The President vetoes it. You 
override the veto. Then you--which is kind of what happened to 
Andrew Johnson. Then you could really have a legitimate 
obstruction of Congress; it is not just obstruction of a 
majority in one-half of the Congress. But that wasn't done 
either.
    And even if that had been done, either the President or the 
Congress would end up having to go to the Supreme Court to get 
the courts to say this was a lawful act. But in the case of 
Congress and Andrew Johnson, it was an unconstitutional act to 
say he couldn't fire the Secretary of State.
    So, either way, you have to end up in court at some point 
before it can be an obstruction of Congress. But the majority 
was in a hurry, and when the majority--this majority is in a 
hurry, then justice is undone, and so is our future.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Scanlon seek recognition?
    Ms. Scanlon. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Scanlon. As I understand it, the amendment before us is 
based on a letter that has just been issued by the White House, 
months after the whole issue of the propriety of this July call 
was raised.
    So, you know, I think it takes us back to basics again, and 
the basics being, if it looks like a duck and it swims like a 
duck and it quacks like a duck, it is probably a duck. And I am 
afraid that the July 25 call is a duck.
    You know, we have the President's own words: ``I want you 
to do us a favor, though.'' And then he goes on to talk about 
the favors that he wants involving election assistance for 
him--to clarify what happened in the 2016 election and then 
start attacking his opponent in the 2020 election.
    Immediately upon hearing this, national security 
professionals around the world say, ``Whoa, this is wrong.'' 
Okay? This quacks likes a duck. Okay? The President is going 
against all of our carefully thought-out national security 
policy to ask for what one witness called a domestic political 
favor. Okay? So, right off the bat, it makes no sense to the 
professionals here.
    Then we start hearing this thing that, ``Oh, well, he is 
really talking about corruption.'' Well, no. The Department of 
Defense had said it was okay to release the aid here because 
they had already certified that corruption wasn't an issue. The 
people on the ground, the ambassadors, the national security 
professionals who had been appointed by this President said, 
``No, that is not an excuse.''
    We then hear that OMB officials, Office of Management and 
Budget officials, are saying, ``Whoa, who is holding up the 
aid? We don't have a problem with the aid.'' Oh, it is the 
President. The President is holding up the aid.
    Then we hear from the Department of Justice, ``Well, we 
didn't have anything to do with any inquiries into our American 
citizens. That is not the DOJ's interest.''
    So the only person who had an interest in this was the 
President, and it was his personal interest. The unanimous 
opinion of all of our agencies in the U.S. Government was this 
was against our national security and our national interests.
    So it is now, only now, after the President has refused to 
allow us to inquire from anyone else who was in the room and 
was on the call, and after denying all of this evidence, only 
now, after Articles of Impeachment have been filed, only now 
does the White House come up with an explanation? It is way too 
little, it is way too late, and it smells like a duck.
    So, with that, I would yield back to the chair.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Gaetz seek recognition?
    Mr. Gaetz. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. Thank you.
    Before I make my point, during the break, a Reuters 
photographer, Josh Roberts, approached the dais and took 
pictures of the notes on the desks of several of my Democratic 
colleagues. We noticed that, announced it to staff, and that 
reporter--that photographer has been removed.
    And I would just say, no member, Republican or Democrat, 
should be subject to that. We ought to have the opportunity to 
take our notes, participate in debate, and have a fair 
discussion.
    Substantively, though, President Trump did nothing wrong. 
As we have sat here today, each and every action of the 
President has been explained. We have offered the basis, the 
understanding, we have gained an appreciation for why a 
President would have reasonable concern about Ukraine, why a 
President would have specific concern about this Biden-Burisma 
nexus.
    Here is what you haven't heard today. You haven't heard any 
defense of Burisma from them. You haven't heard them say, ``Oh, 
well, this was all bogus; the President should not have been 
asking this question,'' because we have put into the record--we 
have cited in the record the testimony of people like George 
Kent, who said that there were deep, legitimate concerns; even 
the testimony of Ambassador Yovanovitch about having to 
expressly prepare for that.
    Then they say, ``Well, this aid has been withheld. The 
withholding of this aid is this bad Presidential conduct.'' But 
the Biggs amendment that I encourage my colleagues to support 
ripens the fact that there was a very understandable reason for 
why the aid was released when it was. And it had nothing to do 
with the election or anything like that. It had to do with the 
fact that the Ukraine took substantive steps to ensure that our 
aid would be appropriately used for the cause that is now, 
apparently, the cause celebre of the left, and that is 
defending the Ukraine against Russia.
    Then they say, ``Oh, well, the President's next bad act is 
this great obstruction of Congress.'' They have subjected 
President Trump to more Presidential harassment than at any 
other time in American history--attacking his family, not 
allowing his administration to continue to do its work on 
behalf of the people. And, amazingly, despite all this 
distraction, despite all of the obstruction of the President 
that the Democrats have engaged in, jobs are rising, wages are 
rising, our economy is restored and renewed.
    There are a few things my colleagues said--the colleague 
from Rhode Island read, ``Well, these are the findings of fact. 
Let me tell you what the factual findings are.'' I just want 
America to know, he was reading from the Adam Schiff report, 
the same Adam Schiff report that Adam Schiff himself would not 
sit there and explain. They lacked so much confidence in that 
report that, when it was presented to the Judiciary Committee, 
they had some of their donors asking questions of other of 
their donors and then doing this weird switcheroo that was very 
unexplainable.
    I don't know how my very smart colleagues, like the 
gentleman from New York, can say there is uncontradicted 
evidence of pressure--uncontradicted evidence of pressure. What 
do they think Zelensky's statements are? When Zelensky says 
there is no pressure, that is, at a bare minimum, evidence. 
When Mr. Yermak says there is no pressure, that is evidence. 
There is no evidence of a quid pro quo. There is no evidence of 
conditionality.
    And the reason you know they lack that evidentiary basis is 
because they have to keep changing their language. When their 
pollsters and pundits told them to call it bribery, oh, that 
was the message of the week. Bribery was on every one of their 
lips. But then when we asked the witnesses, did you see any 
bribery, were you a part of any bribery, the answer was no, and 
so they have to keep evolving the claims because there is no 
factual predicate.
    I also heard my colleague from New Orleans say that this 
hearing would be informed by our understanding of regret, there 
would be this deep sense of regret. Well, my friend is from a 
deep blue district, so he probably won't be the one regretting 
it the most. The folks that will be regretting what they are 
doing are the Democrats in swing districts, who probably aren't 
coming back. I would tell them, for the upcoming year: Rent, 
don't buy, here in Washington, D.C.
    And so, today, the only question that we are left with when 
we conclude this hearing is whether or not, as we move 
impeachment to the floor of the House of Representatives, which 
will occur more rapidly: Will they lose votes, or will they 
lose the majority?
    Because if these folks who promised to come here and work 
with us on healthcare and infrastructure vote for this 
impeachment, they won't be back. We will be holding the gavels. 
And we will remember not just how you treated us, not just how 
you treated the President; we will remember how you treated the 
American people. And we are going to come and restore a sense 
of honor and integrity in the next election.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Cicilline seek recognition?
    Mr. Cicilline. I move to strike the last word, Mr. 
Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cicilline. I first want to respond to the gentleman 
from Ohio's reference that people who are listening on the call 
should just shut up. I couldn't disagree more passionately.
    These extraordinary, courageous patriots who love our 
country spoke up when they saw something that was wrong, that 
violated the law, violated the Constitution, and undermined the 
national security interests of the United States. And thank God 
they did. Otherwise, the President of the United States would 
have gotten away with this scheme of dragging foreign 
interference into our elections to help him cheat in 2020.
    So I salute the extraordinary men and women in the Foreign 
Service and our intelligence community for the courage they 
have shown in coming forward and reporting what they have seen. 
I wish we could find more of it on this committee.
    But I want to say, you know, facts are a stubborn thing. 
This amendment, unfortunately, is just not true. Because what 
we know is, this scheme, called a ``drug deal'' by the 
President's own Mr. Bolton, called a ``domestic political 
errand'' by another Trump appointee for which there was ``no 
explanation''--my Republican colleagues are trying to find an 
answer, and so they say, ``Oh, it was because he was fighting 
corruption.''
    The idea that Donald Trump was leading an anticorruption 
effort is like Kim Jung-un leading a human rights effort. It is 
just not credible. It is just not credible. And we have facts 
that will demonstrate that.
    So, for example, at the very time you claim he is 
interested in ferreting out corruption in Ukraine, you know 
what he proposed? Cutting by more than 50 percent 
anticorruption efforts in Ukraine. And here is an article: 
``Trump administration sought billions of dollars in cuts to 
programs aimed at fighting corruption in Ukraine and 
elsewhere.'' We restored the money, Congress restored the 
money. He proposed deep cuts. That is not evidence of a serious 
commitment to fighting corruption.
    In addition to that, in a letter to the chairman of the 
Foreign Affairs Committee, the Secretary of Defense says, ``On 
behalf of the Secretary of Defense''--this is dated May 23, 
2019, long before the July call--``On behalf of the Secretary 
of Defense and in coordination with the Secretary of State, I 
have certified that the Government of Ukraine has taken 
substantial actions to make defense institutional reforms for 
the purpose of decreasing corruption, increasing 
accountability, and sustaining improvements of combat 
capability enabled by U.S. assistance.'' There is a 
certification.
    And so there is only one explanation for why it was finally 
released: There was a report of a whistleblower report being 
filed. The President got caught.
    And so this notion that somehow this President was 
concerned about corruption is defied by all the evidence 
collected. I know you want to believe it. It is just not 
supported by the evidence.
    And so this amendment is silly. It is inaccurate. It 
mischaracterizes the overwhelming body of evidence that was 
collected in this investigation.
    The President of the United States attempted to drag a 
foreign power into our election, to corrupt the 2020 election, 
to cheat, undermined our national security, betrayed the 
national interests of this country, and he must be held 
accountable.
    I yield the balance of my time to Mr. Swalwell from 
California.
    Mr. Swalwell. I thank the gentleman.
    And I just want to have a reset of the facts here, because 
my colleagues claim that so many of these facts are in dispute, 
but I want to hear someone dispute the fact that Rudy Giuliani 
was Donald Trump's personal lawyer.
    I want to hear someone dispute the fact that, when Rudy was 
hired, the anticorruption ambassador, Marie Yovanovitch, was 
fired.
    I want to hear someone dispute the fact that Donald Trump 
told Vice President Pence to not go to President Zelensky's 
inauguration.
    I want to hear someone dispute the fact that President 
Trump ignored the talking points about anticorruption in his 
both April 21 and July 25 calls with President Zelensky.
    Mr. Collins. Will the gentleman yield?
    Mr. Swalwell. I want to hear someone dispute the fact that 
President Trump invoked his political rival's name four times 
on that July 25 call.
    I want to hear someone dispute the fact that the 
President's Chief of Staff said, ``We are withholding the 
military aid because the Ukrainians need to investigate 2016.'' 
Not ``I,'' ``we''--``we,'' as in Mick Mulvaney and Donald 
Trump.
    I want to hear someone dispute the fact that Ambassador 
Sondland said that a White House meeting absolutely, quid pro 
quo, conditioned on the investigations.
    I also listened to your witness, Professor Turley, and he 
said, ``President Trump's call was anything but perfect.'' That 
was your witness who said it was anything but perfect.
    I want to see a show of hands on your side: Does anyone 
agree with the one witness that you were able to bring that 
that call was anything but perfect?
    That is sad. And you will regret that you have sanctioned 
this.
    And I yield back.
    Chairman Nadler. The gentleman----
    Mr. Johnson of Louisiana. Mr. Chairman?
    Chairman Nadler. It is Mr. Cicilline's time.
    Mr. Cicilline. I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Johnson seek recognition?
    Mr. Johnson of Louisiana. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Louisiana. I want to speak in favor of the 
Biggs' amendment. I will ignore Mr. Swalwell's rhetorical 
question. It is kind of a silly one.
    I do want to refute what Mr. Cicilline has said and what 
some of the others have said here, that there is just no 
evidence in the record that the President was concerned about 
corruption. I mean, of course that is absurd. Everybody at home 
knows this. The President has been talking about foreign 
governments and foreign corruption and the misuse of American 
taxpayers' treasure since before he ran for President. He 
tweets about it all the time. I mean, everybody knows this. 
This is one of these things in the law that is just well 
understood. We would call it ``res ipsa loquitur.''
    But, look, every witness in the record, every witness, 
testified that President Trump was concerned about corruption 
with foreign governments. That includes Ukraine. And the White 
House released a transcript of the remarks between President 
Trump and President Zelensky before the bilateral meeting in 
New York, September 25. This is after the funds were released, 
of course. But he is explaining that he became convinced that 
the new Ukrainian administration was serious about reform 
measures. Let me read you a couple of excerpts from that.
    President Trump says, ``Hi. I'm here with the President of 
Ukraine. He is very, very strongly looking into all sorts of 
corruption and some of the problems they've had over the years. 
I think it's one of the primary reasons he got elected,'' the 
President says. ``His reputation is absolutely sterling. It's 
an honor to be with you.''
    You go through the transcript. President Zelensky responds 
a few moments later, ``Thank you for your support, especially 
now when, you know, we have two--really, two wars in Ukraine. 
The first one is with corruption, you know? But we'll fight. 
No, we'll be the winner in this fight, I'm sure.''
    A couple of pages later in the transcript, President Trump 
goes back: ``. . . and stop corruption in Ukraine, because that 
will really make you great. That will make you great 
personally''--he's talking to Zelensky--``and it'll also be so 
tremendous for your nation in terms of what you want to do and 
where you want to take it.''
    Later, President Trump says, ``I want him to do whatever he 
can. This was not his fault. He wasn't there''--the previous 
years. ``He's been here recently, just recently. But whatever 
he can do in terms of corruption, because the corruption is 
massive.''
    ``I know the President. I've read a lot about Ukraine. He 
wants to stop corruption.''
    The President continues, ``He was elected, I think, number 
one, on the basis of stopping corruption, which unfortunately 
has plagued Ukraine. And if he could do that, he is doing, 
really, the whole world a big favor. I know, and I think he's 
going to be successful.''
    It goes on and on through the transcript. And I will ask 
unanimous consent to enter a clean copy of this into the 
record, Mr. Chairman.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                MR. JOHNSON (LA) FOR THE OFFICIAL RECORD

=======================================================================  
_______________________________________________________________________

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Johnson of Louisiana. Thank you.
    But I just want to say that, with this, it is just one 
additional piece, as with all the other pieces of evidence. The 
very thin, paper-thin record that we have here, one thing is 
very clear that you can't even--I don't even think you can 
refute it with a straight face: Everybody knows the President 
is concerned about the misuse of American taxpayer dollars 
overseas. It is one of his primary, driving forces. It is one 
of his main talking points.
    So, for anybody that is sitting here today and pretending 
like that isn't the case, that he wasn't--oh, Ukraine, the 
third-most-corrupt nation in the world, is the only one on the 
list that he wasn't concerned about? It just doesn't even--it 
doesn't hold water. It doesn't make sense. And nobody back home 
is buying this. No one.
    So let's stop with the games. Let's acknowledge this for 
what it is. And let's move on.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Collins. The gentleman is yielding----
    Mr. Johnson of Louisiana. I yield the remainder of my 
time--I am sorry. I had some left. I yield to Mr. Jordan.
    Mr. Jordan. Well, I just wanted to answer the statement 
that the gentleman from Rhode Island made a little bit earlier. 
He said, pointing at Mr. Biggs' amendment, that his amendment 
was not true.
    His amendment is real clear. It says, the Ukrainians, under 
President Zelensky, signed two major anticorruption measures. 
That is exactly what they did. They enacted this high 
anticorruption court when the parliament was first sworn in, 
and they got rid of absolute immunity for members of their 
parliament--two pretty darn important anticorruption measures.
    In fact, Mr. Morrison, when he testified in front of this 
committee, told us--no, excuse me, when he did his deposition, 
he told us that, when they were there with Ambassador Bolton 
visiting with the Ukrainians, August 27, he said the Ukrainians 
were tired because they had been up all night preparing this 
legislation, putting it together. That is how focused they were 
on this. And then when it passed, when it was enacted, that is, 
in fact, when the aid was released.
    I yield, if I could, if the gentleman would--I will yield 
back, and you yield to the----
    Mr. Johnson of Louisiana. And I yield to the ranking 
member.
    No?
    I yield to Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    I think House Democrats would have you believe that somehow 
this impeachment effort is the outgrowth of organic activity 
from the President, when the reality is they have intended to 
impeach this President from the very beginning.
    And it was actually the chairman, when campaigning to be 
the head of the Judiciary Committee, who said that he would be 
best on the impeachment issue. This is a New York Times 
article, December 18, 2017. And it says, ``As our 
constitutional expert, and with his demonstrated leadership on 
impeachment in the '90s, Nadler is our strongest member to lead 
a potential impeachment.'' This is what Chairman Nadler wrote 
on his pocket-size campaign literature to his fellow Democrats 
when he wanted the job. He was literally campaigning on 
impeachment before the President even made the phone call to 
President Zelensky.
    It is who they are. It is what they have wanted. And it is 
all because they cannot stand the fact that the America First 
movement is the most powerful movement in American political 
history.
    And, Mr. Chairman, I seek unanimous consent to enter into 
the record this New York Times article from December 18, 2017, 
outlining----
    Chairman Nadler. Without objection.
    Mr. Gaetz [continuing]. Your ambition on impeachment.
    [The information follows:]

      


                   MR. GAETZ FOR THE OFFICIAL RECORD

=======================================================================  
_______________________________________________________________________

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Johnson of Louisiana. Back home, in my 2 seconds left, 
we call that a mike-drop moment.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Jayapal. Mr. Chairman.
    Chairman Nadler. For what purpose does Ms. Jayapal seek 
recognition?
    Ms. Jayapal. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jayapal. Thank you, Mr. Chairman.
    I want to go back to the facts, and I want to go back to 
this amendment. My colleague from Florida said that this 
amendment is putting forward a, quote, ``understandable 
reason'' for why the President withheld the aid and then 
suddenly released the aid.
    And my colleagues on the other side have also made the 
point that we don't know what the intent was of the President. 
This is the stated intent, that, because he was waiting for the 
Ukrainian Government to do some massive anticorruption 
measures, that that was the intent.
    But I just want to remind people again of what I said 
yesterday: The President is the smoking gun. After his call 
with President Zelensky, the President came out on to the lawn, 
and he was asked by a reporter, ``What did you want to get out 
of that call with President Zelensky?'' And the President said, 
``I wanted him to''--and these aren't the exact words, but he 
basically said, ``I wanted him to open an investigation into 
the Bidens. It's that simple.'' So the President himself has 
told us what his intent is.
    But let's go on to say that, if my Republican colleagues, 
as some just did, argue that the President--nobody can argue 
that the President is so interested in corruption--of course, 
he is so interested in corruption--I would go back, again, to 
the facts that are on the table, which is that in 2017 and in 
2018 the President released aid not just to any country but to 
Ukraine.
    Now, my colleagues have also said that the President knew 
that President Zelensky was an anticorruption fighter but they 
just wanted to see if maybe he was really going to follow 
through. So they are saying that the person before this 
President, before President Zelensky, the previous President of 
Ukraine, was a corrupt individual. They have said that through 
their remarks. Well, if that President was corrupt, why, if 
President Trump cared so much about corruption, why did he 
release the aid in 2017 and 2018 to Ukraine?
    Then I would like to get to the question of this particular 
amendment. I looked at that OMB letter, and I would call that 
an after-the-fact cover-up. Why do I say that? I say that 
because, if you look at the timeline--and some of my colleagues 
have laid out pieces of this, but let me lay out a few more.
    On June 18--we already know about the May letter that the 
Department of Defense sent saying that Ukraine had passed all 
of its anticorruption requirements. On June 18, the Department 
of Defense publicly announced that it would release the 
military aid to Ukraine.
    Lieutenant Colonel Vindman testified that by July 3 he was 
aware of the hold and he was aware that the Office of 
Management and Budget, OMB, was making queries that were, 
quote, ``abnormal.'' He used that word, ``abnormal.''
    Fiona Hill testified that there was no explanation given 
for the hold. Under Secretary of State David Hale testified 
that he was frustrated because he was simply told that this was 
the President's wish.
    In August--in August--several OMB divisions--several 
divisions--wrote a joint memo recommending that military aid go 
to Ukraine as soon as possible. And they said in that memo that 
it was necessary, this military aid was necessary for 
supporting a stable and peaceful Europe.
    I would also note that, just recently, just a few weeks 
ago, two OMB officials resigned, and they resigned because of 
deep concerns that they had about what they were being asked to 
do. One of those individuals worked in the legal department 
that issued this after-the-fact cover-up memo from OMB.
    Now, let me just ask the American people this. If the 
President had deep concerns about corruption and was waiting 
for Ukraine to take major steps on corruption, let me ask you 
what you think any President might do in that situation.
    Might they ask the Department of Defense to follow up on 
those major anticorruption things that they were trying to get 
done? He did not do that.
    Would that President inform top agencies about those 
concerns? No, he didn't do that either. In fact, they were all 
universally in agreement that the aid should be released.
    And might the President inform Congress that this was 
something that he was concerned about and he had to withhold 
the aid? He didn't do that either.
    After-the-fact cover-up memo, that is all this is. And we 
need to oppose this amendment.
    I yield back.
    Chairman Nadler. The gentlelady's time has expired.
    For what purpose does Mr. Collins seek recognition?
    Mr. Collins. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. It is amazing that this is an after-the-fact 
cover-up since it was asked for by a Democratic Senator. A 
Democratic Senator asked for this letter. So that is an after-
the-fact cover-up, when a Democratic Senator asks for a letter 
explaining the process on how this happens? An after-the-fact 
cover-up?
    This is exactly what I thought would happen when we would 
come back from lunch and come back from our break. All the 
things were over, their arguments were dead, everything was 
going--and they said, ``Well, let's get back in there and tell 
the same things over and over again. Maybe the ones who were 
watching in the morning wasn't watching in the afternoon.''
    That has to be one of the best ones I have heard, though, 
an after-the-fact cover-up, when it was asked for by a 
Democratic Senator just a few weeks ago. How is that an after-
--I mean, I guess Trump is to blame for a Democratic Senator 
thinking, ``Ooh, be careful what you wish for.''
    But there are other things that are coming out again. One 
of the things that really bugged me here is this lawful delay. 
This money was not due to be appropriated. It could have been 
by Congress if we would have said do it on a certain date. We 
said by September 30.
    So, really and truly, if there was no interaction between 
the U.S. and Ukraine and the money was not released until 
September 30, there was nothing wrong here, and there is still 
nothing wrong here.
    It has been evidenced to me that the evidence reveals that 
only the majority--again, this one is just mind-boggling. How 
does anybody in the press or anybody else let them get away 
with the continual belittling of Mr. Zelensky? They have called 
him a politician, derogatorily. They have called him an actor. 
They have called him weak. They have called him everything else 
in the world. ``He is cowering.'' I mean, use the adjectives.
    And I will go back to their adjective. You know, if they 
don't believe me here, if it looks like a duck, acts like a 
duck, walks like a duck, well, this is what they are doing. 
They are tearing him down in the eyes of the public. And they 
keep doing it over and over again to try and get at the 
President. This is crazy.
    You know why they do that, though? Again, I am going to 
repeat it one more time, because there seems to be a problem of 
reruns around here. The reason they keep repeating this is 
because they can't make their case.
    Mr. Collins. They keep putting this out there and, again, 
it is amazing to me.
    The next untruth that we are dealing with here today, and 
this one is very sensitive to many in the military, many who 
have been texting me who have served overseas in our military 
and others. When they say, and put in an article, we agreed to 
put it in the record, 13 Ukrainian soldiers were killed during 
President Donald Trump's administration, withholding aid from 
the country from mid-July to September. Guess what, my 
colleagues? There were Ukrainians killed when they had received 
their previous aid. There were Ukrainians who were killed in 
this battle before.
    This is the most despicable, despicable of drive-bys, to 
say that this money--Under Secretary Hale has told you over and 
over. You talk about evidence. Read the transcript. He said 
this was prospective money, not current money. But yet we keep 
putting it in the record, because if you tell the story enough 
times, somebody out there is going to believe it. That is 
despicable for these 13 who lost their lives in Ukraine, and it 
is despicable for anyone who has actually fought in a battle 
for this country. Don't keep doing it, and if they do, call 
them out on it. We are going to call facts facts here.
    There is no crime. You know why? It is interesting. My 
friend from California just said, where are they on these 
different things, where are the Democrats? My question is, 
where are your crimes? You talk about them, you want people to 
think they are there. You want people to come out and say, 
well, there is bribery, extortion, high-minded words. And you 
do it over and over and over again.
    The problem is, if you had it, you would have put articles 
on it. You don't have it, so you didn't put articles on it. 
That is the stain on your articles. That is the stain on this 
committee. This committee couldn't make their case, so they 
came up with abuse of power so they could put anything in it.
    And today, we have heard that over and over and over again. 
Why? Because at the end of the day, the aid was delivered, 
nothing was held, but yet we are going to tell, because there 
was supposedly pressure that the two on the call said didn't 
exist and the Ukrainian leader said did not exist, over and 
over and over again, but our majority would rather to besmirch 
Mr. Zelensky and take him down, because they can't make their 
case.
    My question is, who are they hurting now? They are trying 
to take down the American President and they are trying to take 
down the Ukrainian President at the same time by making him 
look small in the middle of his own country in the middle of a 
hot war. You can't have quid pro quo, you can't have pressure 
if the gentleman who is supposedly pressured says there is no 
pressure. You can't make excuses for him when he goes out over 
and over again and talks about it, because he looks at it as it 
was in the call.
    But also to me, it is just amazing, continuing this 
discussion to get people distracted. People died because money 
was held. That is not true. Quit saying it. And I don't care 
how many times you put it in a Newsweek article, it is still 
not true. When you understand what is going on here, at the end 
of the day, it is very simple. I will make it very slow for you 
to copy. They can't make a crime. They hold back to the fact 
that we can impeach him for anything, and that is what they 
have done.
    I yield back.
    Mr. Swalwell. Unanimous consent request, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    Mr. Swalwell. Unanimous consent request.
    Chairman Nadler. The gentleman is recognized.
    Mr. Swalwell. Los Angeles Times story, October 16, Trump 
froze military aid as Ukrainian soldiers perished in battle.
    I yield back.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MR. SWALWELL FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Raskin. I object.
    Mr. Collins. I am not sure how many times that this is 
being perpetrated, but it was prospective money, not current 
money.
    Chairman Nadler. The gentleman does not have the time.
    Mr. Deutch. For what purpose does Mr. Deutch seek 
recognition?
    Mr. Deutch. Unanimous consent request.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. I ask unanimous consent to submit for the 
record the May 23 letter from John Rood certifying that the 
Government of Ukraine has taken action to make institutional 
reforms to decrease corruption.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                 MR. TED DEUTCH FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Deutch. And I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, the ranking member was right; it is important 
to repeat some of what has been said because most of America 
doesn't watch all day long. But for people who do, they need to 
understand that the reason we are here, the reason that we are 
moving forward on Articles of Impeachment is because the 
President of the United States abused his power by soliciting 
foreign interference in his own reelection, thereby cheating 
American voters.
    It is true that on May 23, the date that the Under 
Secretary of Defense certified that Ukraine had taken action to 
make institutional reforms to combat corruption, it is true 
that they had done that that day. It is an important day, 
because we have talked a lot about Ukraine needing the 
assistance, the security assistance, as they were at war with 
Russia, and they did. They also needed the White House meeting.
    And also on May 23, it is just important for us to remember 
what the facts are. On May 23, a delegation returned from 
President Zelensky's inauguration. They met with the President 
and the President told them, work with Rudy. Ambassador 
Sondland said, work with Giuliani or abandon the goal of a 
White House meeting.
    Let me say a word about Ambassador Sondland. My colleagues 
have challenged Ambassador Sondland's credibility, but it is 
important to pay attention to what he and others have testified 
to under oath. And if you think that a million dollar donor to 
President Trump is not credible, then we should look at all of 
the testimony and the text messages and the emails to others 
and examine it closely.
    So they came back and they said, work with Rudy. And then 
on May 29, the President invited President Zelensky to the 
White House. So President Zelensky expected that he would be 
coming. And Sondland then said that there was a prerequisite of 
investigations. Lieutenant Colonel Vindman said that Sondland 
told the Ukrainians on July 10 to treat the investigation--that 
the investigation of the Bidens was a deliverable necessary to 
get the meeting.
    Then on July 19, Ambassador Sondland emailed Robert Blair 
and Lisa Kenna and Brian McCormack and Chief of Staff Mulvaney 
and Secretary Perry and Secretary Pompeo, all of them, and said 
that Zelensky was prepared to receive POTUS' call and offer 
assurance on the investigation.
    Then Volker had breakfast with Giuliani and texted 
Ambassador Sondland and said, most important is for Zelensky to 
say he will help with the investigation. And then Volker texted 
the morning of the call. He texted Yermak and said, heard from 
the White House. Assuming President Zelensky convinces Trump 
that he will investigate and get to the bottom of what 
happened, we will nail down a date for a visit to Washington.
    Those are the facts. That is what was provided in text 
messages and emails. There has been all this focus on the call. 
This is an effort that started the moment that this delegation 
got back from the inauguration, and it continued through the 
end of May and June and July. And then there was a call. But it 
continued on through August and through September.
    This isn't one time with eight lines. This is a concerted 
effort to make sure that Ukraine, who was at war with Russia, 
understood that they weren't going to get their security 
assistance and they weren't going to get their White House 
meeting until they announced an investigation of the 
President's principal political opponent. That is abuse of 
power.
    Multiple times my colleagues over here have asked if anyone 
objects to the President of the United States abusing his power 
for political gain like that.
    But I would finish with this: Ambassador Taylor, when he 
came and testified under oath, he said, during our call on 
September 8, Ambassador Sondland tried to explain that 
President Trump is a businessman. When a businessman is about 
to sign a check to someone who owes him something, he asks that 
person to pay up before signing. I argued, he said, that made 
no sense. Ukrainians did not owe President Trump anything. That 
is true. They owed him nothing to get the White House meeting, 
they owed him nothing to get their aid, and they owed nothing 
to him for his assistance in his campaign.
    And I yield back.
    Mr. Sensenbrenner. Mr. Chairman?
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Sensenbrenner seek recognition?
    Mr. Sensenbrenner. Mr. Chairman, I move to strike the last 
word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. I yield to the ranking member.
    Mr. Collins. Thank you, Mr. Sensenbrenner.
    It is amazing to me that, again, the things that will come 
out of this markup is not the simple fact that they are going 
to mark up this and they will send it to the floor. It is what 
they will perpetrate to try to hide the weakness of their 
argument.
    I have now given the article that the gentleman from 
California wants admitted, again, perpetrating the falsehood 
that people were killed because of money. And in the own 
article, which is biased against the President, biased against 
the whole situation, it has this line: Although there is no way 
to link Markiv's and the other dozens of deaths directly to the 
lack of aid.
    Yeah, let's keep putting stuff in here that proves your 
pathetic argument. The article itself, which is biased against 
the President, actually says there is no way to link it, but 
yet we are doing it every time in here. Keep giving them. I 
will keep accepting them. Wonderful article. Great job, because 
you are making my point. I guess I can hush and just let you 
make my point for me, but all you want to do is besmirch the 
dead and go after Mr. Zelensky as weak and powerless. That is 
what is going to come out of this.
    So I guess I will withdraw my objection on this. It makes 
my point. You all have any more you want to put in, keep going, 
but besmirching the dead is not going to get you anywhere.
    I yield back. I yield back to Mr. Sensenbrenner.
    Mr. Sensenbrenner. I yield back.
    Chairman Nadler. The gentleman yields back.
    Ms. Lofgren. Mr. Chairman?
    Chairman Nadler. The gentleman yields back.
    Without objection, the material will be inserted in the 
record.
    Ms. Lofgren. I have a unanimous consent request.
    Chairman Nadler. The gentlelady is recognized for a 
unanimous consent request.
    Ms. Lofgren. I would like to ask unanimous consent to put a 
Roll Call article into the record entitled, ``Ukrainian lives 
hung in the balance as Trump held up aid,'' quoting a National 
War College official about the adverse impact on the war.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MS. LOFGREN FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. For what purpose does Mr. Johnson seek 
recognition?
    Mr. Johnson of Georgia. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    I move in opposition to the Biggs amendment. My colleague 
from Georgia talks about how Democrats are trying to make 
President Zelensky look weak. Well, I tell you, that brings to 
mind the picture of President Trump and President Zelensky 
meeting in New York in September at the U.N., and a big chair 
for President Trump, a little chair for President Zelensky, big 
6-foot-4 President Trump, 5-foot-11 Mr. Zelensky, President 
Zelensky. And they are standing there and President Trump is 
holding court. And he says, oh, by the way, no pressure. And 
you saw President Zelensky shaking his head as if his daughter 
was downstairs in the basement duct-taped.
    I mean, there is an imbalance of power in that 
relationship. It always has been. And there is no way that the 
nation of Ukraine can stand up to the power, to the power of 
the United States of America. And President Trump used that 
unequal bargaining position. He leveraged his power in that 
relationship, not for the benefit of the United States of 
America, but for his own benefit.
    He again held President Zelensky over a barrel up there in 
New York, the same way he did on the telephone call on the 25th 
of July. And he told him, look, I know that you need those 
Javelins, but I need you to do me a favor or do us a favor. And 
who was ``us,'' by the way? Was it the American people or was 
it the Trump campaign and all of those corrupt officials that 
he aligns himself with, half of whom are in jail or facing 
charges or facing sentencing. Who was he talking about ``us''? 
It wasn't the American people. It was the Trump Organization 
and the Trump campaign. And that is wrong.
    It is wrong for the United States President to use his 
position for himself. It is wrong. And that is what President 
Trump did, and that is what we are holding him accountable for 
today. And President Trump pretty much sold out our 
Constitution for his own personal benefit.
    We are called upon today with the question of whether or 
not we are going to sell out our positions, whether or not we 
are going to be sellouts. I mean, each and every one of us had 
a career before we came to Congress. I myself was a criminal 
defense lawyer, and I enjoy my job. I am honored to represent 
the biggest client that I have ever represented, and that is 
the citizens of the Fourth Congressional District of Georgia. 
But I would gladly, to protect the Constitution, give up my job 
that I love, and I would go back to Georgia to do what I used 
to do, if I had to pay a heavy price for doing what was right 
for the Constitution.
    And that is what my friends on the other side of the aisle 
are charged with now. I know that there is a lot of fear about 
them being in Zelensky's position, about them being in that 
little small chair with the President with the bully pulpit, 
the right wing media, FOX News, everything being on his side, 
and him levying and leveraging that power against them as they 
approach their primaries.
    They don't want to get primaried. I know that that is the 
desire. But let's not sell out the country for our own desire, 
which is exactly what we are charged with protecting our 
country from President Trump doing. Let's not do that. Let's 
make ourselves look good in the eyes of history. Let's do the 
right thing.
    And, with that, I will yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does the gentlelady from Florida, Ms. 
Mucarsel-Powell, seek recognition?
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman. I move to 
strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Mucarsel-Powell. Thank you.
    I want to respond to--I have been here all day listening to 
all the comments from my Republican colleagues. And the one 
thing that has continued to be mentioned is that there has been 
no crime committed. And I have been asked by some of the people 
that live in my district, live in my community, Americans that 
say, but what is the crime?
    And I have to say that there is no higher crime than for 
the President to use the power of his office to corrupt our 
elections. We are seeing behavior from this President that we 
have not seen in the history of our country, violating three of 
the most dangerous violations of the Constitution: One, abuse 
of power through self-dealing; two, betrayal of national 
security; three, corruption of our elections.
    And I want to make something very clear. We are here today 
because the President of the United States of America has 
violated the law. The President's conduct meets all the 
elements of criminal bribery under 18 U.S.C. 201(b)(2)(A), a 
public official demands or seeks anything of value personally 
in return for being influenced in the performance of any 
official act.
    Why are we here? How did we get here? The inspector general 
of the intelligence community brought to Congress an urgent and 
credible threat to our national security, to our democracy. 
That is why we are here today. You have heard conspiracy 
theories. You have heard things that are not true to distract 
from the fact that this President abused the power of his 
office to extort a foreign government for his own private 
political gain, not for the interests of the United States of 
America.
    Now, you also hear about that we are trying to overturn our 
election. If you see, they have a poster over there saying that 
we are trying to overturn the election. That couldn't be 
anything farther from the truth. It is a ridiculous statement.
    Impeachment is a crucial part of the Constitution that 
ensures a democratic government. It was created by the Founders 
as a check to prevent a President from becoming a king. And it 
is incredible to me to see some of my colleagues bend over 
backwards to cover up for this President. My sister is a yoga 
teacher. She doesn't contort the way some of my Republican 
colleagues distort the facts, all to protect this President.
    The Founders knew that elections would come every 4 years, 
but included impeachment in the Constitution to protect the 
republic against a President who would be an imminent threat to 
our democracy. And that is why we are here today, because this 
President has shown us that he is welcoming foreign 
interference.
    He has asked Russia, he has asked Ukraine, he has asked 
China, asking them to investigate his political opponents. We 
have seen it. We have seen those videos. That is direct 
evidence. We have documentary evidence. We have a transcript of 
a call. We have text messages. We have emails from Ambassador 
Sondland. Everyone was in the loop.
    This is a scheme that began back in February and March. 
This was a complaint that was brought forth to Congress, 
because it was an urgent and credible threat. The President of 
the United States has violated the law. He has abused his 
power. He is undermining our freedoms, our democracy. We must 
act. That is why we are here today. No one, no President in 
this country is above the law.
    I yield back my time.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Armstrong seek recognition?
    Mr. Armstrong. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Armstrong. I think that argument would have a lot more 
merit on the abuse of power charge if we don't take a look back 
and look at the whole destination and how we got here. And the 
reason I say that is because for 2 years, we heard about 
Russian conspiracy, Russian collusion. How are we going to 
prove it? The chairman of the Intelligence Committee went on 
national TV and said he had direct evidence of Russian 
conspiracy.
    Well, the Mueller report came out. And actually, if you 
watch the media, about a week before the Mueller report came 
out, we started switching to obstruction and obstruction of 
justice. And so we go through that. Then the Mueller report 
comes out and shows there is absolutely no conspiracy, 
absolutely no collusion. So we are going to check that off the 
list.
    Now we go to 10 articles of obstruction of justice. And we 
walk through it and we bring Bob Mueller into the Judiciary 
hearing. And I am pretty certain there were people marking out 
statutes next to the Washington Monument of gratitude and 
gravitas of Bob Mueller. Well, that hearing fell flat, and 
obstruction of justice was abandoned.
    So then we moved into a July 25 phone call, and we went to 
quid pro quo. And quid pro quo kept going and kept going, but 
then they decided that wasn't working really well. So we poll 
tested bribery. And bribery had a little bit of a problem, 
because you cannot prove the elements of the crime. And I don't 
care how many different ways we say it, when the victim of the 
crime, alleged victim continues to go on national TV, 
international press conferences every step of the way and deny 
that he was a victim and deny that there was a crime, we move 
on. So we move from things of campaign finance, which didn't 
even work in the Mueller report, and continue to moving 
forward.
    So instead of starting an investigation in a general way 
and moving towards a specific crime, we try and pick 17 
different specific crimes. And when they never get there, 
instead of doing what any reasonable investigator would do and 
say, there is no there there, we take it all and we put it 
together and then we say, well, because we can't prove any of 
it, we are going to use all of it.
    And so if we want to know why we are here today, that is 
why we are here today. Because this started the day President 
Trump got elected. It has continued--it has continued through 
all the Mueller report. Not to be deterred, in a separate 
different thing, the day after the Mueller report hearings 
happened in the Judiciary Committee, I was in the Oversight 
Committee when they subpoenaed the personal emails of every 
member of the Trump family.
    This is never going to stop. I agree with my colleague from 
Ohio; it is never going to stop. And we will continue to move 
forward, but you cannot move through all of these specific 
crimes, use these words for weeks at a time, and the minute 
they fall apart, we just move on to the next thing. I think 
that is why you are losing the support of the American people. 
I think that is why you are losing the support of your 
colleagues on your side of the aisle in Congress, and that is 
why we are here. So let's call it like it is and explain how we 
got here, why we are here, and where we continue to go.
    And with that, I----
    Mr. Collins. Will the gentleman yield?
    Mr. Armstrong. Yeah, I will yield to the ranking member.
    Mr. Collins. Thank you.
    Mr. Armstrong, you just brought up a great point. You know 
why we know what you just said is true? You know, again, we 
have gotten a lot of nontruth here and we just say it over and 
over enough so people will believe it. But what you just said 
is completely true, that this will never end. You know why we 
know that? Adam Schiff's own words and Al Green's own words. 
Adam Schiff, even the other day giving one of his press 
conferences, which he loves dearly. He loves to testify in 
front of cameras, just not in front of members, where he has to 
actually answer questions. And he said, we are just going to 
keep--no matter what happens, we are going to keep 
investigating, investigating, investigating, investigating, 
investigating. We are going to start. I mean, Mr. Ratcliffe, 
you are on the Intel Committee and I know others on this are. 
Well, it would be nice if you all get back to oversight of the 
intelligence community. That would be nice. Shocking 
proposition for a committee that is supposed to be doing that.
    But then also, Mr. Green said, we can impeach him over and 
over and over again. This is what is happening. It is a farce. 
We can't come up with crimes, so we say crimes. We can't put 
them in the articles because we can't make it happen. But yet, 
just like you said, I just want to commend you for telling the 
truth. You told the truth. This is not going to end no matter 
what, except--and the reason we know it is because we don't 
have to infer. We don't have to find articles to put in the 
record. We just listen to their own words.
    I yield back to Mr. Armstrong.
    Mr. Armstrong. And, with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mrs. Demings seek recognition?
    Mrs. Demings. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Demings. You know, I rise today in opposition of this 
amendment. It is so obvious. It is so obvious that it is a 
last-minute, after-the-fact desperate scramble to cover up the 
President's wrongdoing. And I tell you what, we are not falling 
for it, and I really do believe the American people are not 
falling for it and probably are offended by it.
    You know, my Republican colleagues have talked about a lot 
of things today, and they are really working very hard to 
protect the President, it appears, like at any and all cost. 
But I really wish that my colleagues on the other side would 
work as hard to protect voting rights for the American people, 
believing that everybody should have the right to vote, and 
that cheating in our elections by anyone at any time or any 
place is just not right.
    It just amazes me to suggest that abuse of power is somehow 
inadequate or inappropriate or not serious enough. Abuse of 
power by the highest position in the land, the leader of the 
free world, that abuse of power is not enough to impeach this 
President or any other President.
    But the Framers were so desperately concerned about abuse 
of power by the President, they were terrified of the thought 
of an unprincipled man, a person finding their way into the 
White House. To suggest that abuse of power is not serious, is 
not enough is simply ridiculous to me.
    The President has a constitutional duty, and that really is 
the highest document in the land, to violate the Constitution. 
He has a constitutional duty to faithfully execute the law. 
Well, that is what it says, to faithfully execute the law. Is 
there anybody here--I don't care what comes out of your mouth 
today. Is there anybody here who believes that this President 
has faithfully executed the law and faithfully executed the 
duties, the sacred trust that has been put in his hands and on 
his shoulder? He is supposed to faithfully execute the law, not 
ignore it, not abuse it, and not forget it.
    The President is supposed to be motivated by public 
interest, public interest, the interests of the people. But 
rather than remembering that or caring about that--I am not 
really sure he ever really did--the President chose to try to 
coerce a foreign power, a newly elected young President that we 
all were excited about, an anticorruption President, the 
President tried to coerce him into interfering in the 2020 
elections.
    The things that I have heard today about the Vice 
President's child, the things I have heard about the Vice 
President's son, when we have millions of people in this 
country who are suffering from addiction; I just believe to 
protect this President at any cost is shameful.
    Article II in the Nixon impeachment said this: The article 
principally addressed President Nixon's use of power, including 
powers vested solely in the President, to aid his political 
allies, harm his political opponents, and gain improper 
personal political advantages. In explaining this Article of 
Impeachment, the House Judiciary Committee then stated that 
President Nixon's conduct was undertaken for his personal 
political advantage and not in the furtherance of any valid 
national policy objective. The President abused his power. And 
to me, and at least the members on this side of the dais, that 
matters.
    And, with that, I yield the remaining time to Mr. Richmond 
from Louisiana.
    Mr. Richmond. Thank you, Mr. Chairman.
    Very quickly, I just want to remind people that when--or 
the people watching--that when you look at the credibility of a 
testimony and weighing the evidence, you can look at other 
things. So I want to enter into the record, unanimous consent, 
The Guardian article, ``Roger Stone to Michael Cohen: The men 
in Trump's orbit implicated in crimes.''
    Chairman Nadler. Without objection.
    Mr. Richmond. CNN Politics, ``Six Trump associates have 
been convicted in Mueller-related investigation.''
    Chairman Nadler. Without objection.
    Mr. Richmond. In honor of my wise grandmother, who said, 
birds of a feather flock together.
    And then also, ``President Trump has made 13,435 false or 
misleading claims over 993 days.''
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MR. RICHMOND FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Nadler. And the gentleman's time has expired.
    For what purpose does Ms. Jackson Lee seek recognition?
    Ms. Jackson Lee. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    And I wanted to speak first to the underlying amendment 
that calls for the acknowledgement that the aid was released, 
in the article, the first article, I believe. And I want to 
again recount, not only the July 25 call, where previously I 
had indicated the President's language that asked ``I would 
like you to do us a favor, though,'' that that was not tied to 
the ``us''' representing the entity of a public representation, 
which would be the United States of America, established 
foreign policy by the Secretary of State, established foreign 
policy by the Secretary of Defense. And that is because, of 
course, the Secretary of Defense and State had already 
certified that Ukraine was working to graduate to--working to 
ensure the end of corruption. They had met the standards that 
were required for funding.
    The other thing is that when Lieutenant Colonel Vindman 
thought that the words that he heard were appalling and seemed, 
to him, to be inappropriate for a call to the President, as 
relates to a question tying the military aid to investigation 
of Biden and others, son and others, not official policy, he 
immediately gave it to the NSC counsel, John Eisenberg. John 
Eisenberg took the information and then ultimately put it in a 
separate coded filing and asked that the lieutenant colonel not 
say anything about it.
    That is unusual, because you would think that if it was 
normal business, if it had to do with standard U.S. foreign 
policy, it would be okay to talk about that call. But they knew 
a major mistake had been made. They knew that the President had 
offered to give military aid if he got an investigation against 
his political rival, and his political rival happened to be Joe 
Biden. And he knew that that was, in fact, conspicuously using 
public office and public money for public and private desires.
    Let me also say that our friends talk about the courts. We 
have not shied away from the courts. In fact, Judge Howell, 
regarding the 6e grand jury materials, specifically said, there 
is an impeachment inquiry, you can't stand in the way, Mr. 
President. Judge Jackson indicated in her decision that the 
President was not a king.
    And so we are here to talk about, not as a mother, 
someone's child who may have some concerns, like every 
American's child may have, which I am saddened that those 
personal matters were raised. We are here to talk about the 
abuse of this President and the obstruction of Congress, 
another amendment that we voted against, because in Rodino's 
statement during the Nixon proceedings, he made it very clear 
to President Nixon regarding his failure to comply with 
subpoenas issued pursuant to the Watergate impeachment inquiry.
    And the Constitution reinforces the fact that we have the 
sole power of impeachment, and the underlying decisions of the 
two court decisions I mentioned was that we were in an 
impeachment inquiry. And as a reminder to my colleagues, this 
committee ultimately approved an Article of Impeachment against 
Richard Nixon on the obstruction of Congress matter.
    I wanted to clean up and bring some more points on that. 
And it was clear that it was a case where the President could 
not dictate to the House impeachment inquiry what he was 
refusing to give or not. This is where my friends steer off the 
rails. They refuse to acknowledge the facts of the case. The 
President took public money with a public intent--with a 
private intent to use those moneys to deny Mr. Zelensky, who 
was going to go ahead and announce investigations on CNN but 
was stopped in his tracks when the whistleblower's letter or 
statement was released. It was out the bag that the President 
had done this on the July 25 call. Let's be clear. This is 
about facts and the Constitution.
    I yield back, Mr. Chairman.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mrs. McBath seek recognition?
    Mrs. McBath. Thank you, Mr. Chairman.
    Ladies and gentlemen, I have been sitting here all day.
    Chairman Nadler. Does the gentlelady strike the last word?
    Mrs. McBath. Yes. Excuse me. I move to strike the last 
word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. McBath. I have been anxiously sitting here all day 
long. And I just want to be able to say this to the American 
people before our day ends today. My colleagues and I have been 
explaining the evidence that we have heard. We have been 
talking about all the documents and heard from so many 
witnesses along the way.
    And as we have been--as we have been upholding our 
constitutional obligation to defend the Constitution, some 
today have argued that we have not upheld our constitutional 
obligation to legislate, to solve problems, and that all we 
want to do is impeach the President of the United States.
    And I truly want to assure the American people and to give 
you hope that this is not true. I want to make sure that we set 
the record straight so that you know that we have been working 
on your behalf. And despite what many people in this country 
think, Congress can walk and chew gum at the same time.
    This Congress has been working very, very hard on behalf of 
the American people, in spite of everything that is happening 
with this impeachment. This very day, a bill, we passed a bill 
that lowers the cost of prescription drugs for hundreds of 
millions of Americans, H.R. 3. It will save our taxpayers over 
$456 billion over the next decade and allow for the expansion 
of Medicare coverage, including hearing, dental, and vision 
benefits. Just this week, we achieved monumental changes to the 
U.S.-Mexico-Canada Trade Agreement. Yes, we have been waiting a 
very long time for that. This agreement is huge. It is a huge 
win for our families, our workers and business owners in every 
district across the United States. And we continue to work to 
make sure that we stay competitive in a global environment.
    Yesterday, we voted to support the NDAA, legislation that 
will keep our country safe and will give a raise to our 
servicemembers, and includes important reforms, like paid 
parental leave for all Federal employees and repealing the 
widow's tax.
    And even on this committee, we have worked together. This 
week, my Republican colleague, Congressman Reschenthaler, and I 
were among a bipartisan group of lawmakers who introduced 
legislation that would end online child exploitation. Since we 
have been sitting in this room today, a deal has been forged by 
our colleagues to fund our government and avoid another 
shutdown.
    Throughout this investigation, my colleagues and I have 
been fulfilling our duties as Members of Congress. Do not be 
deceived. We have been working on the American public's behalf 
every single day, in spite of the tragedy that we are in now 
with this impeachment.
    This Congress, the House of Representatives, we have passed 
over 275 bills, 275 bills. And we are defending our democracy 
and delivering on the promises that we made to each and every 
one of our constituents.
    I want the American public to know this: We are truly 
disheartened by what is happening here with impeachment, but do 
know that we are working on your behalf each and every single 
day. We will continue to do what we swore an oath to do, and 
that is to protect and serve you. Even in this moment, in this 
tragedy, be rest assured we will do just that.
    And I yield back the balance of my time.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Raskin seek recognition?
    Mr. Raskin. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Raskin. Thank you very much, Mr. Chairman.
    You know, in law school, I teach my students to try to take 
the best argument of their opponents and not the worst 
arguments. And so I am going to ignore all of the frivolous 
process objections about the rooms and the temperature and all 
that kind of stuff we have heard about, and I am going to try 
to make what I think is the best argument or reconstruct the 
best argument that has come out today.
    And I understand that our colleagues face a difficult task, 
because 70 percent of the American people believe that the 
President has done something wrong in these actions of trying 
to pressure a foreign government to get involved in our 
election. And so they have got a problem there. And they have 
got another problem, which is that there is an overwhelming and 
uncontradicted body of evidence that the President did that.
    The President withheld hundreds of millions of dollars in 
security assistance that we had voted for a besieged foreign 
ally resisting Russian aggression because he was trying to get 
the President of that country, Zelensky, to agree to conduct a 
press conference in which he would say he was investigating the 
Bidens. And he also wanted President Zelensky to validate 
Vladimir Putin's favorite disinformation conspiracy theory 
about the 2016 campaign, which is that it was Ukraine and not 
Russia that engaged in this sweeping and systematic campaign to 
interfere in our election.
    So what do you do with that? Well, we can understand why 
they have been talking about process for months. But I think 
they understand this is a serious investigation with rigorous 
methods and serious, inescapable conclusions. And the American 
people are focused on it. A majority not only support the 
investigation, a majority would like to see the President 
impeached, according to FOX News, anyway, at one point. But, in 
any event, huge numbers of Americans are very disturbed by 
this.
    So what have they come up with? Well, they have not found 
an alibi. There is no fact alibi. He can't claim somebody else 
did it. But they have come up with a defense which to me looks 
like really a mitigating factor, a plea for mercy. The 
President did all of these things, but his motive is 
misunderstood.
    All of us think that he was doing it because he wanted to 
advance his own reelection prospects, and in some sense he 
wanted to help, for whatever reason, his friend Vladimir Putin. 
And Putin has already been on TV bragging about the fact that 
everybody is focused on Ukraine in the 2016 election and not 
Russia. Note to Mr. Putin, that is not right. We understand 
exactly what is going on here.
    But, in any event, the new argument is that the President 
was not trying to advance his own political interests. What he 
was trying to do was to advance his passionately held and yet 
little-known campaign against corruption. And that is why so 
much of our discussion today has been about corruption, because 
they are trying to say he was waging this campaign about 
corruption.
    Now, we have noted a number of problems there. And I want 
to just try to catalog some of the other ones to try to put 
this into some order so people can understand the problem with 
their best argument. The first is that the President never 
raised the word ``corruption'' on the July 25 telephone call. 
Biden's name was mentioned several times. It wasn't corruption, 
corruption, corruption. It was Biden, Biden, Biden. And he 
never raised any other companies at all. It was all about 
Burisma, Hunter Biden's company. That is all that he mentioned. 
And as far as we know, he has never mentioned any other company 
in connection with corruption in Ukraine.
    In 2017 and 2018, when Congress voted money for Ukraine, 
the President passed it along. He didn't raise corruption in 
Ukraine. He didn't even raise the Bidens at that point. It only 
became an issue in 2019. In 2019, why? Because Joe Biden had 
surpassed him in the public opinion polls, and now suddenly, it 
was a big issue and so he cared about it.
    Well, what is the other evidence here? The President's 
team, Rudy Giuliani and Parnas and Fruman, engaged in a smear 
campaign against the U.S. Ambassador, who was crusading against 
corruption in Ukraine, and the President got her out of the 
way. He pulled her back. So all the evidence shows they were 
promoting corruption and a corrupt scheme; they weren't trying 
to attack it.
    I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back.
    Mrs. Lesko. Mr. Chairman.
    Chairman Nadler. For what purpose does the gentlelady seek 
recognition?
    Mrs. Lesko. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Lesko. And briefly, Mr. Chairman and members, Mr. 
Raskin, my colleague Mr. Raskin just said Bidens's name was 
used multiple times. Well, I think that is a little misleading. 
Again, the only place in this whole telephone call where Biden 
is even brought up is in one little paragraph, and that was on 
page 4 of 5 pages of the transcript.
    I mean, most of this call was about congratulating 
President Zelensky and the new Parliament, talking about how, 
you know, a lot of these European countries aren't pitching in 
with the aid that was to Ukraine as much as the United States 
has, and, you know, all kinds of things. It was a long phone 
call, and it is really disingenuous to say that the whole thing 
was about this and Biden was mentioned several times.
    Let me read again. In fact, I know that President Trump 
tweets this out, ``read the transcript,'' and I wish people 
would, because everybody watches TV and they get all these 
comments. But I did this with my husband. I said, would you 
just please read the transcript? It is only five pages long. It 
doesn't take that much time. And, you know, after he read it, 
it was like, that is it? That is all they got?
    But here, this is the mention about Biden. Again, page 5: 
``The other thing, there is a lot of talk about Biden's son, 
that Biden stopped the prosecution, and a lot of people want to 
find out about that, so whatever you can do with the Attorney 
General would be great. Biden went around bragging that he 
stopped the prosecution, so if you can look into it, it sounds 
horrible to me.'' That is it, folks. That is all there is.
    So, Mr. Chairman, I yield back.
    Chairman Nadler. The gentlelady yields back.
    The question now occurs on the amendment.
    Those in favor, say aye.
    Opposed, no.
    In the opinion of the Chair, the noes have it, and the 
amendment is not agreed to
    Mr. Collins. Roll call.
    Chairman Nadler. A roll call is requested. The clerk will 
call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen?
    Mr. Cohen. No.
    Ms. Strasser. Mr. Cohen votes no.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin.
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    [No verbal response.]
    Ms. Strasser. Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Mr. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Sensenbrenner votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Strasser. Mr. Buck votes aye.
    Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana.
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline?
    Mr. Cline. Aye.
    Ms. Strasser. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Chairman Nadler. Has everyone voted who wishes to vote?
    Ms. Strasser. Mr. Correa, you are not recorded.
    Chairman Nadler. Mr. Correa.
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Chairman Nadler. Anyone else who wishes to vote who hasn't 
voted?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 17 ayes and 23 noes.
    Chairman Nadler. The amendment is not agreed to.
    Are there any further amendments to the amendment in the 
nature of a substitute?
    Mr. Reschenthaler. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Nadler. Mr. Reschenthaler has an amendment at the 
desk. The clerk will report.
    Ms. Strasser. Amendment to the amendment in the nature of a 
substitute to H. Res. 755, offered by Mr. Reschenthaler of 
Pennsylvania.
    Ms. Lofgren. I reserve a point of order.
    Chairman Nadler. The gentlelady reserves a point of order.
    Ms. Strasser. Page 5, beginning on line 6, strike Article 
II.
    Ms. Lofgren. I withdraw my point of order.
    Chairman Nadler. The gentleman is recognized for 5 minutes 
to explain his amendment.
    [The amendment of Mr. Reschenthaler follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    My amendment would strike all of Article II, which is the 
obstruction of Congress charge. The facts simply do not align 
with the Democrats' claim of obstruction.
    Our government has three branches for a reason. When there 
is a disagreement between the executive and the legislative 
branch, it is supposed to be resolved by the third branch, the 
court. Republicans recognized this in 2011, when they 
investigated President Obama's Fast and Furious scandal. The 
Fast and Furious scandal allowed 2,000 firearms to fall into 
the hands of drug cartels and resulted in the death of an 
American Border Patrol agent. People actually died in President 
Obama's scandal.
    Throughout the Republicans' investigation of that scandal, 
they made numerous attempts to accommodate the Obama 
administration. Yet, despite their efforts, President Obama 
invoked executive privilege and barred testimony and documents. 
So what did the Republicans do? The appropriate thing. They 
went to the courts.
    Compare those efforts with what we have seen from the 
Democrats during this impeachment sham. House Democrats could 
have worked with the administration to reach accommodations for 
their requests, but they didn't. House Democrats should have 
worked through the courts, but they didn't. And why is that? It 
is simple. Because they have a political expedient deadline to 
send this mess out of Congress and to the Senate before 
Christmas.
    So despite what you hear from my colleagues, the 
administration has consistently cooperated with Democrats, even 
though they have been out to get this President since the very 
moment he was elected.
    Let's just go through the numbers. Over 25 administration 
officials have testified before the House Oversight Committee. 
Over 25. Over 20 administration officials have testified before 
this very committee. The administration has also handed over 
more than 100,000 pages of documents since the start of this 
sham impeachment inquiry.
    Now, let's contrast that with the conduct from the 
Democrats. Democrats have threatened witnesses that, quote/
unquote, any failure to appear in response to a letter 
requesting their presence would constitute evidence of 
obstruction. Let me just go through that language. It is a 
letter would constitute evidence of obstruction. That is not a 
subpoena, that is a letter.
    Democrats have also told the State Department employees 
that if they insisted on using agency counsel to protect 
executive branch confidentiality interests, they would have 
their salaries withheld. That kind of sounds like abuse of 
power, but I digress a little bit.
    Democrats have not afforded this President basic procedure 
protections, such as the right to see all the evidence, the 
right to call witnesses, or the right to have counsel at 
hearings.
    But it is not just the Trump administration that has been 
railroaded by the Democrats. Judiciary Democrats voted down my 
own subpoena, my own motion to subpoena the whistleblower, even 
though I said that he or she could testify in executive 
session, which would be private, and yet they voted it down on 
party lines. Chairman Nadler also refused requests to have 
Chairman Schiff testify before this committee. House Democrats 
also have denied every Republican request for a fact witness.
    So I ask, who is really obstructing Congress? The Democrats 
have no case when it comes to obstruction. This obstruction 
charge is completely baseless and bogus. If they really wanted 
to charge someone with obstruction, how about they start with 
Adam Schiff?
    Thank you, and I yield back the remainder of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Bass seek recognition?
    Ms. Bass. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Bass. I would like to begin by answering my colleague's 
question. He asked, who is really obstructing Congress? Who is 
obstructing Congress? President Donald Trump.
    The text of the Constitution devotes only a few sentences 
to a discussion of impeachment power, yet among those few 
sentences is the clear statement that the House possesses the 
sole power of impeachment.
    And what that means is that it is within the sole 
discretion of the House to determine what evidence is necessary 
then for it to gather in order to exercise that power. So it is 
unnecessary for the House to go to the court to enforce 
subpoenas issued pursuant to an impeachment investigation. If 
it did, the House's sole power of impeachment would be beholden 
to the dictates of the judicial rather than the executive 
branch.
    Past Presidents have disapproved of impeachments, 
criticized the House, doubted its motives, and insisted they 
did nothing wrong. But no President, however, including 
President Nixon, who was on the verge of being impeached for 
obstruction of Congress, had declared himself and the entire 
branch of government he oversees totally exempt from subpoenas 
issued by the House, pursuant to its sole power of impeachment.
    President Trump has made compliance with every demand a 
condition of even considering whether to honor subpoenas, and 
he has directed his senior officials to violate their own legal 
obligations to turn over subpoenas and provide testimony. 
Indeed, the House was only able to conduct its inquiry into the 
Ukraine matter because several witnesses, like the Ambassadors, 
the Lieutenant Colonel Vindman, had the courage to defy the 
President's unlawful command. President Trump's conduct toward 
the current House impeachment inquiry is unprecedented.
    My colleagues talk about information that we should wait to 
get from the courts. We really wouldn't have to wait to get it 
from the courts if the President would comply and provide 
documents. I remember when Ambassador Sondland was testifying 
and he said that he was testifying from memory, because he 
wasn't even allowed to have access to his own notes in the 
State Department.
    President Trump has abused his power and is a continued 
threat to our democracy and national security. He is putting 
self before the country, and no one is above the law. When I 
think of our elections and my concern for our election next 
year, our election should be decided by us. Our foreign policy 
and national security should be based on America's interests, 
not the President's personal and political interests.
    We have talked over and over again about the real reason 
for all of this was his concern about corruption, but as one of 
my colleagues said earlier today, if he was concerned about 
corruption, he would be concerned about what is going on in the 
White House and all of the people who he has been affiliated 
with who are either awaiting sentences, sent to prison, serving 
time, or are awaiting court.
    So it is noteworthy that members of the minority never 
actually defend President Trump's misconduct by disputing the 
facts of the case, but instead try to deflect and distract with 
irrelevant issues.
    So I just want to end, someone asked this earlier, but I 
don't believe my colleagues on the other side of the aisle ever 
answered. Forget President Trump. Is it ever okay for a 
President to invite foreign interference in our election?
    And, with that, I yield to my colleague from California.
    Ms. Lofgren. Thank you for yielding.
    I would like to ask unanimous consent to put into the 
record the letter from the President's counsel, Pat Cipillone, 
dated October 8, 2019.
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MS. LOFGREN FOR THE OFFICIAL RECORD

=======================================================================

      
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lofgren. Reflecting on the comments made by my 
colleague from California, certainly we had a right to receive 
information. We have a right to make a judgment on the 
information that we have been able to obtain because 
impeachment is solely in the province of the Congress.
    But just on the narrow issue of the assertion of privilege, 
I think it is important to note that the privilege--no 
privilege was asserted in this letter by the counsel. He 
doesn't say it is executive privilege. He doesn't say anything 
that you could take to court. He just says he doesn't like what 
we are doing, and they are not going to give us anything. Not a 
piece of paper, not a witness, just no. And that is an absurd 
situation. It is not acceptable, and it is really obstruction 
of Congress.
    And I thank the gentlelady for yielding and yield back to 
her.
    Ms. Bass. I think my time has expired. I yield back.
    Chairman Nadler. The gentlelady's time has expired.
    Mr. Sensenbrenner. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Sensenbrenner 
seek recognition?
    Mr. Sensenbrenner. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. Listening to my two colleagues, from 
California, this seems to be the greatest amount of circular 
reasoning that we have heard in the last couple of days. There 
has been a lot of it, but this is one that I think grabs the 
blue ribbon.
    Because what I hear is that an impeachment inquiry, if the 
White House does not give the House of Representatives and this 
committee everything we ask for, then that is obstruction of 
Congress and an impeachable offense. And that is not what the 
law said, and it is not what the law should be.
    There are certain privileges and immunities that the 
President has irrespective of whether we are doing oversight or 
whether we are using our Article II power, the sole power of 
impeachment. And he ought to be able to present those, you 
know, in a court of law. This is not a court of law.
    You know, I don't blame White House Counsel Cipillone for 
not saying that there were any privileges involved because we 
know what the answer's going to be, and that is we are going to 
blow any claim of privilege away. We are going to blow any type 
of executive immunity away. We are going to simply say we want 
it, and you have got to give it to us no matter whether it is 
private information or doing some legitimate oversight.
    Now, we know that the rejection of the argument that we 
shouldn't have to go to court for that is bogus because the 
House of Representatives has gone to court to try to get 
enforcement of subpoenas that are as a result of this 
impeachment inquiry. The enforcement against Don McGahn, you 
know, has gotten as far as the D.C. Circuit. There are others 
that are pending a little bit further backwards in the judicial 
system.
    But what I would like to ask my friends on the majority 
side is okay. Say we are done with this impeachment inquiry 
next week. The House passes both Articles of Impeachment, and 
then it goes to the Senate for trial. Does that mean that the 
whole nexus of why you were attempting to enforce those 
subpoenas is gone? Are you going to go to court and say it is 
gone? Are you going to move to dismiss those actions to support 
enforcement of the subpoenas? If you are following the argument 
that I just heard, you have got to do it, but I doubt it. I 
yield back.
    Chairman Nadler. The gentleman yields back. I recognize 
myself for 5 minutes.
    The actions of the White House and the President in this 
case are different in kind from all previous actions of 
executives, of Presidents. It is not a question of asserting 
privilege, as it is not a question of adjudicating rights even 
in court. Rather, the counsel wrote, ``given that your inquiry 
lacks any legitimate constitutional foundation, the executive 
branch cannot be expected to participate in it.'' It is not up 
to the President to decide whether an impeachment inquiry by 
the Congress is legitimate or not. That is out of function. 
That shows right there a usurpation by the President of 
Congressional power. Number one.
    Number two. If the White House had simply asserted 
privileges for a number of witnesses, that could be 
adjudicated. It may very well be that had we chosen to oppose 
that as a reason for an impeachment, and maybe that would be 
invalid. But that is not what we are talking about. We are 
talking about the President saying he does not recognize our 
impeachment, and he will not participate in it. He will not 
grant anything. That is an obstruction of Congress. It is a 
usurpation of Congress's role to decide whether to have an 
impeachment inquiry. And it is a decision to completely try to 
frustrate that inquiry by denying all participation, and by 
denying all documents and all witnesses without asserting any 
privileges.
    It has nothing to do with privileges. Privileges may be 
adjudicated in court. An assertion by the executive --that the 
impeachment power cannot be exercised by Congress is an 
obstruction of Congress, and if allowed to get away with it, it 
eliminates the power of impeachment as a check on the power of 
the presidency. That is a large step toward dictatorship.
    Because the threat of impeachment is the only threat, the 
only enforcement mechanism that Congress has on a President who 
would usurp powers and destroy the separation of powers, 
especially given the Department of Justice's policy that a 
sitting President, cannot be indicted and the administration's 
assertion that he cannot even been investigated criminally. 
That leaves only impeachment as a remedy and as a check on 
presidential power, and if you don't want a dictatorship, you 
have to allow Congress to exercise the power of impeachment.
    And the House has the sole power of impeachment which means 
we have the right to get the documents we demand, maybe subject 
to certain privileges, but that is not at issue here because no 
privileges have been asserted.
    Instead, what has been asserted is that the executive has 
the right to determine that the impeachment inquiry is invalid. 
They usurp the role of the House. This is an insertion of 
tyrannical power. That is why we must impeach the President on 
this article.
    To go along with this amendment and get rid of Article II 
and say this, in effect, is permissible for the President to 
deny the impeachment power of the House is a long step away 
from constitutional government, a long step away from any 
control of the power of the President, and a long step toward 
tyranny, and I oppose the amendment. I yield back.
    Mr. Buck. Mr. Chairman.
    Chairman Nadler. Who seeks recognition?
    Mr. Buck. I just wanted to ask if you would yield for one 
minute, one quick question on that.
    Chairman Nadler. I yielded back. I will yield.
    Mr. Buck. I just wanted to ask. You said it is the only--or 
to paraphrase, it is the only remedy. Why is court not an 
appropriate remedy in this case?
    Chairman Nadler. Court might be an appropriate remedy if a 
privilege were asserted. I am not willing to say that you 
couldn't mount an impeachment based on overbroad assertions of 
privilege, but no privileges have been asserted. There is 
nothing for a court to review. The President has directed 
everyone in the executive branch is do not provide a piece of 
paper. Do not testify. There is nothing for the court to 
review.
    He has simply asserted that he doesn't recognize the 
constitutional power of Congress to impeach. He won't recognize 
it. He think it is invalid, and that is not his function to do. 
It is our function to determine whether an impeachment inquiry 
is valid or not. It is a valid inquiry.
    Mr. Buck. Isn't the next step, then, to hold a witness in 
contempt for either not producing documents or not appearing?
    Chairman Nadler. If a privilege were asserted, yes, but it 
has gone beyond that. We could certainly do that, but it is not 
a sufficient remedy. The only remedy for a President who says 
the House does not have the power to have an impeachment 
inquiry is to say that is an obstruction of Congress.
    Mr. Buck. My time has expired. I yield back.
    Mr. Chabot. Mr. Chairman.
    Chairman Nadler. Who seeks recognition?
    Mr. Chabot. Move to strike.
    Chairman Nadler. For what purpose does Mr. Chabot seek 
recognition?
    Mr. Chabot. Move to strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Chabot. Thank you, Mr. Chairman. I appreciate the 
gentlemen offering his amendment to strike the second article 
which I think, unfortunately, is as ridiculous as the first 
article in this case. An obstruction charge requires a 
concerted effort to interfere with or impede a Congressional 
election. What the President did, asserting executive 
privilege, is not in any way, shape, or form obstruction. 
Executive privilege is a time-honored, constitutionally 
protected right of each and every administration. And it has 
been asserted time and time again by administration after 
administration, both Republican and Democratic.
    When Congress disagrees with a particular assertion of 
executive privilege, the remedy is not impeachment. The remedy 
is to go to court and let the third branch of government, as I 
mentioned a little while ago, decide who is correct. That is 
why we have checks and balances in this country. We have got 
three branches of government. There are all supposed to keep an 
eye on each other. And in this case, the remedy is to go to the 
courts and let the courts decide if the President and this 
Congress disagree.
    Except that the House Democrats have decided that they 
don't want to wait for the courts to decide, not when they can 
instead just impeach the President and maybe damage him 
politically, although apparently that is not happening. But I 
think that was their goal.
    You want to talk about abuse of power. What the House 
Democrats are doing here is a clear case, in my view, of 
abusing their office for political gain. The majority really 
should hold themselves in contempt for conducting this one-
sided, biased impeachment investigation and then attacking the 
White House for refusing to participate in such a patently 
unfair process.
    And I think if you look at the record of this President 
thus far, and he is only been in office 3 years at this point, 
the accomplishments are quite considerable. Impeaching a 
President that has published these types of things is just 
patently absurd. Look at the economy right now. And why is the 
economy doing so well? I think it is principally two things, 
the Tax Cuts and Jobs Act that this President pushed and was 
passed when the previous Congress was in control. It was 
Republicans in both the House and the Senate at that time.
    The Democrats kept screaming oh, these are tax cuts for the 
rich, tax cuts for the rich. About 85 percent of the American 
people had their taxes reduced. Yes, wealthy people got their 
taxes cut, but so did virtually everybody else in this economy. 
That is one of the principal reasons that we are seeing the 
economy continue to grow. That is one of the reasons that 
unemployment in this country is so low right now. It is at 
historic lows, about 50 years.
    And it is not just wealthy people doing well. A lot of 
people are doing well, and it is because of the tax cuts, 
about, as I mentioned, 85 percent of the people got their taxes 
cut. Unemployment in this country among African Americans, 
Hispanic Americans, Asian Americans is at all-time low. 
Unemployment, all-time low among those groups because of this 
President's policies in conjunction with Congress back when the 
Republicans were in the majority.
    I happen to be the ranking member, the lead Republican on 
the House Small Business Committee. I was the chairman of that 
committee for the last 2 years. Small businesses all across 
America are doing very well right now. Their confidence is at 
all-time highs. Why is it so important that small businesses do 
well? Well, about 70 percent of the new jobs created in the 
American economy are created by small business folks all across 
this country. They are the backbone of the American economy.
    And the other thing, the other reason I think other than 
taxes being reduced why you are seeing the economy grow so well 
is because he has reduced the red tape, the bureaucracy, the 
regulations that come out of Washington because when he was 
running as a candidate, he said his goal was to get rid of two 
existing regulations right now, red tape, two existing 
regulations for every new regulation coming out of Washington. 
That was a tough goal, but we have even exceeded that. So those 
two things together, I think, are one of the principal reasons 
this economy is growing so well.
    There is so many things that you could talk about about 
this successes, but one that is actually going to happen soon 
is improving NAFTA, USMCA. And again, hopefully the Democrats 
are going to pass this. They are in control here in the House 
now, and they face a challenge because if they pass it, then 
the President's obviously going to get some credit because he 
has been pushing this. They don't really want the President to 
necessarily get any credit, but they are also trying to get rid 
of the label of being a do nothing Congress since they have 
been in control now. So they are going to apparently impeach 
the President, and at the same time, pass the USMCA.
    It is unfortunate that it takes impeaching the President to 
pass it, but I am really happy that we are impeaching him 
because--excuse me--that we are passing the USMCA because that 
is really good for the country.
    And I yield back, Mr. Chairman.
    Chairman Nadler. The gentleman yields back before he gets 
into too much trouble. For what purpose does Ms. Scanlon seek 
recognition?
    Ms. Scanlon. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Scanlon. I am really uncomfortable with the suggestion 
that has been made several times today that the U.S. 
Constitution is for sale. You know, there is no exception in 
the Constitution that allows a President to cheat in an 
election just because the economy's going well. My oath to 
protect and defend the Constitution isn't for sale. Look. If 
President Trump's obstruction, abuse of power, and obstruction 
of Congress are not impeachable, nothing is.
    Article I charges Trump with the abuse of power for 
attempting to undermine our elections. The primary check on a 
President becoming a king is elections. This President abused 
his powers to undermine our elections. That is Article I.
    Article II which my colleague has suggested we should 
abandon charges President with obstruction of Congress for 
blocking the production of all documents and witnesses 
subpoenaed by Congress in the impeachment investigation. 
Congress' power to investigate and impeach the President is the 
backstop to elections, to protect our government from being 
overrun by a tyrannical executive.
    The President has undermined our Constitution by 
obstructing Congress' impeachment power without a legal basis. 
For a Constitution to operate properly, it depends upon people 
acting in a reasonable manner. We are not dealing with an 
executive at this point who is acting in a reasonable manner.
    You know, often people ask lawyers oh, can I sue, and it is 
an old lawyer joke that of course, you can sue. The question 
is, can you win. President Trump has made a career out of 
suing, knowing that he had no chance to win. He has clogged up 
our courts for decades, and he usually loses because he hasn't 
a legal leg to stand on. That is the situation we are in now. 
He has defied congressional subpoenas without a legal leg to 
stand on. He hasn't claimed executive privilege which is 
something that could go to the courts. He has made up something 
called absolute immunity.
    Never before in the history of our country have we had a 
President who said you can't talk to anyone in my 
administration. You can't see any documents. When we had Hope 
Hicks come before us, his communications secretary come before 
this committee several months ago, she was subject to a claim 
of absolute immunity. She wasn't allowed to testify to anything 
that had happened, that she'd seen, that had been done from the 
moment she walked into the White House until she left. She 
wasn't allowed to tell us where her office was.
    I mean, this is the kind of absolute, I am tempted to say 
iron curtain that this President has tried to place between his 
administration and the American people. There is no way in hell 
I will vote to remove obstruction of Congress from these 
articles, and I yield back.
    Chairman Nadler. The gentlelady yields back.
    Mr. Jordan. Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. For what 
purpose does Mr. Jordan seek recognition?
    Mr. Jordan. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Jordan. I support the gentleman from Pennsylvania, his 
amendment. He said--in his remarks, he said the real 
obstruction came from Chairman Schiff. So true. And you know 
who the first victim was? This committee. This committee. 
Unless you were on the Intel Committee, the Oversight 
Committee, or the Foreign Affairs Committee, you couldn't sit 
in for the 17 fact witnesses. You couldn't be a part of those 
depositions.
    Now, some people tried. My good friend from Florida tried 
to get in as a member of the committee that is now marking up 
the Articles of Impeachment, but he wasn't allowed. So the 
first victim of the real obstruction to get to all the 
information was this committee. The committee charged with 
writing up the Articles of Impeachment, marking them up as we 
speak, wasn't allowed to be in there for the 17 fact witnesses 
that we all deposed.
    But the Democrat rules were even worse. No subpoena power 
for Republicans. Depositions, as I said, done in secret in the 
bunker in the basement of the Capitol. In those depositions, 
remember, these witnesses were subpoenaed. They are supposed to 
answer our questions, but only the Democrats got all their 
questions answered. There were questions that Republicans asked 
that the chairman of the Intel Committee prevented the 
witnesses from answering.
    Democrats denied Republicans witnesses for the open 
hearings. We weren't allowed to call the witnesses we want. We 
had to submit a list. We put a couple on the list from the 17 
people that Adam Schiff subpoenaed just so we could have some 
people that we thought might help make the real case and 
present the facts, but we weren't allowed to call our 
witnesses.
    And of course, the one witness that we really wanted to 
call, even though Adam Schiff initially said that we would get 
a chance to hear from him, we weren't allowed to, and that is 
the whistleblower. Remember when this all happened in 
September? Adam Schiff told us we are going to get to hear from 
the whistleblower, the whistleblower with no firsthand 
knowledge who was biased against the President, who worked with 
Joe Biden. He said we are going to get to hear from him but 
then changed his mind.
    What changed? What changed the chairman's mind? Well, 
remember the day after, the day after the call, the 
whistleblower writes this memo and says the call was--all 
described as this crazy fighting, but he waits 18 days to file 
his complaint. But what happens in that 18-day timeframe? The 
whistleblower goes off and sees Adam Schiff, gets some marching 
orders from Adam Schiff's staff, and everything changes.
    We don't get to hear from him. We don't get to hear from 
the person--and because we don't get to hear from the 
whistleblower, remember the complaint that gets filed on August 
12th? The very first point the whistleblower makes in that 
complaint, he says this: Over the past 4 months, more than half 
a dozen U.S. officials informed me about this effort. We have 
no idea. The committee marking up Articles of Impeachment, we 
have no idea who those half a dozen U.S. officials are. We 
don't know if we talked to them. We don't know if they came and 
testified. We don't know if they are the people--my guess is 
Colonel Vindman was one of them, but who knows?
    We don't know because we never got to talk to the 
individual who started it all with the complaint that the 
chairman of the Intel Committee told us when it all started, we 
are going to get to hear from him, but then when it is 
discovered that his staff had communicated with the 
whistleblower, no, no, no, we are not going to get to.
    So the real victim of the obstruction here is this 
committee. We have not had any fact witnesses. We have had four 
Democrat witnesses in front of us, three law professor that the 
Democrats, the majority called in, and one Democrat law 
professor that the Republicans called in. That is all we have 
heard from. Those are the four witnesses and then a bunch of 
staff. None of the 17 witnesses.
    So I support the gentleman from Pennsylvania's amendment, 
and he is exactly right. The obstruction came from the chairman 
of the Intel Committee.
    With that, I yield back.
    Ms. Scanlon [presiding]. The gentleman from Rhode Island is 
recognized. I am sorry. Do you seek recognition?
    Mr. Cicilline. Move to strike the last word.
    Ms. Scanlon. Okay. You are recognized.
    Mr. Cicilline. Madam Chair, so we are charged with taking 
the facts that have been established in this investigation and 
applying them to the Constitution that we have sworn to protect 
and defend. So let's return for a minute to the facts. This 
series of events was described by Trump officials, Ambassador 
Bolton to be particular, as a drug deal. It was described by 
Dr. Fiona Hill as a domestic political errand. But there was 
direct evidence collected from 17 witnesses, over 100 hours of 
testimony, 260 text messages, the transcript of the President's 
own words, emails between high-ranking officials of the Trump 
administration.
    And what we know, what the direct evidence is is that the 
President of the United States hired Rudy Giuliani to lead this 
effort. The President engaged in a smear campaign against 
Ambassador Yovanovitch and then fired her because she was an 
anticorruption fighter. The President put a hold on military 
aid to Ukraine. The President, and others acting on his behalf, 
demanded that President Zelensky publicly announce an 
investigation of the President's chief political rival.
    The President put The Three Amigos, Ambassadors Sondland, 
Perry, and Volker, in charge of Ukraine. The President refused 
to have a meeting or release aid until the public announcement 
of the investigation of his political opponent. The President 
told the Vice President, Vice President Pence, not to attend 
the new President of Ukraine's inauguration, and the President 
spoke to Ambassador Sondland about what Ambassador Sondland 
described as a quid quo pro, just to name a few highlights of 
the evidence.
    But what we know also if you look, drill down a little 
more, and I want to speak specifically about Trump 
administration officials who were in the middle of this 
activity. On July 21st, 2019, there was a text from Ambassador 
Taylor to Ambassador Sondland, and I quote, President Zelensky 
is sensitive about Ukraine being taken seriously, not merely as 
an instrument in Washington domestic reelection politics.
    David Holmes testified, I was surprised that the 
requirement was so specific and concrete. This was a demand 
that President Zelensky personally commit to a specific 
investigation of President Trump's political rival on a cable 
news channel. Mr. Holmes also testified in response to a 
question during counsel's examination. You are acknowledging, I 
think, Mr. Holmes, are you not, that Ukraine very much felt 
pressured to undertake these investigations that the President, 
Rudy Giuliani, and Ambassador Sondland and others were 
demanding? Answer from Mr. Holmes. Yes, sir.
    Ambassador Taylor has a call on September 8 with Ambassador 
Sondland, and Ambassador Taylor says--this is a career 
diplomat, a Vietnam war hero. Ambassador Taylor says during our 
call, Sondland tried to explain to me that President Trump is a 
businessman, and when a businessman is about to sign a check to 
someone who owes him something, the businessman asks the other 
person to pay up before signing the check. Ambassador Volker 
made the same argument. I argued to both of them that that 
explanation made no sense. Ukranians did not owe President 
Trump anything, and holding up security assistance for domestic 
political gain was crazy.
    And finally, on September 9, Ambassador Taylor in a text 
exchange with Ambassador Sondland again says, as I said on the 
phone, I think it is crazy to withhold security assistance for 
help with a political campaign, end quote.
    So the record is filled with evidence that, in fact, the 
President of the United States abused the enormous power of his 
office in an effort to cheat in the 2020 election, to drag 
foreign interference into the 2020 election, and to corrupt an 
American presidential election. And he used the power of his 
office with the help of taxpayer funds to leverage his effort 
to drag foreign powers into our election.
    And when I hear my colleagues on the other side of aisle 
say who is the victim? The victim is American democracy. The 
victim is the people we represent who expect us to honor our 
oath to protect and defend the Constitution. Are my Republican 
colleagues really saying that it is okay for a President to 
invite or drag or persuade or coerce foreign powers to distort 
an American presidential election?
    We have men and women who have given their lives to defend 
our democracy. We owe it to them to be sure that you know who 
gets to decide who is going to be American President? The 
American people, not some foreign power. That is a sacred right 
of citizens of this country. And if we allow this President to 
get away with this, we will have lost our democracy, and we 
will have conveyed that right to foreign powers, and we will no 
longer have a democracy.
    So I urge my colleagues to support these Articles of 
Impeachment so we can again vindicate the right of the American 
people to determine their own future and to elect their own 
leaders. And with that, I yield back.
    Mr. Johnson of Louisiana. Madam Chair.
    Ms. Scanlon. For what purpose does the gentleman seek 
recognition?
    Mr. Johnson of Louisiana. Move to strike the last word.
    Ms. Scanlon. The gentleman is recognized.
    Mr. Johnson of Louisiana. Thank you. I just want to urge 
support for this amendment striking Article II. There has been 
a lot said today, as everybody has acknowledged, and I--I am 
just struck by the hyperbolic language that is being used on 
the other side and this breathless charge that we hear over and 
over about Article II, that this is the first time in the 
history of republic that any President has invoked this kind of 
privilege or invoked this kind of immunity over subpoenas from 
Congress, and of course, it is just simply not true.
    I mean, a cursory review of the history, even a review of 
the witness testimony that was presented in this very committee 
a week ago would show you that that is just simply a baseless 
charge. The truth is, in the history of this republic, there 
has never been a single party fraudulent impeachment process 
deployed against a President like the one that is being used 
against Donald Trump. That is what is unprecedented here.
    It is not the claim that a President doesn't want to turn 
over witnesses or documents. That, as we have said many times 
today, is actually quite common. And, by the way, let's 
remember. It needs to be noted again that President Trump has 
consistently cooperated with this Congress in fulfilling it 
oversight and investigation responsibilities. I noted the 
statistics this morning when we started. Over 25 administration 
officials have testified before the House Oversight Committee 
this year. Over 20 have testified before the House Judiciary 
Committee. At the start of the impeachment inquiry this year, 
the House also--the White House produced more than 100,000 
pages of documents to the Oversight Committee.
    In spite of their allegation, the Democrats know that 
President Trump has a lawful cause to challenge these subpoenas 
because they involve direct communications between high-ranking 
advisors and a President. That is very sensitive stuff. It is 
always recognized to be privileged. There is a special legal 
protection that applies there, and we need the courts to sort 
through the nuances of that.
    And most of these individuals, by the way, that they have 
subpoenaed are not related to the Ukraine matter at hand. Any 
objective observer would regard this as a mere fishing 
exposition--expedition. Some would even call it presidential 
harassment because the administration is being used by these 
Democrat committee chairs to advance their political agenda. 
This agenda does not allow them time to proceed to a court to 
do this the right way, to go through the process that is 
historic and comports with our custom and practice and our 
tradition and the Constitution.
    Professor Turley was our only witness, the only one we have 
been allowed in the Judiciary Committee on our side, and the 
very, I think, exceptional testimony that he submitted to us in 
writing. He said this. I want to read you this excerpt because 
it is right on point. Quote. This is page 42 of his document. 
If this committee elects to seek impeachment on the President's 
failure to yield the Congressional demands in an oversight or 
impeachment investigation, listen, it will have to distinguish 
a long line of cases where prior Presidents sought the very 
same review while withholding witnesses and documents.
    Take the Obama administration position, for instance, on 
the investigation of Fast and Furious which was mentioned 
earlier. Congress justifiably began an oversight investigation 
into that scandal. Some Members called for impeachment 
proceedings, but President Obama invoked executive privilege 
and barred essential testimony and documents. President Obama 
did that. This is not unprecedented, okay. This is custom and 
practice.
    Now, Professor Turley continues. The position of the Obama 
administration was regarded as extreme there, and some even 
said absurd, but here is the important point. President Obama 
had every right to seek judicial review in the matter, and many 
members of this very committee supported that position. Basing 
impeachment, Professor Turley continues, on this obstruction 
theory would itself be an abuse of power by Congress. It would 
be extremely dangerous precedent to set for the future 
Presidents and Congresses in making an appeal to the judicial 
branch into a high crime and misdemeanor, unquote.
    Here is the deal. Impeachment was never intended to be a 
remedy for political disagreements. It wasn't intended to be a 
remedy even for legal disagreements between the legislative 
branch and the executive branch. That is why there is a third 
branch of government. That is why we have the judiciary.
    This is a very dangerous road, indeed, as President--
Professor Turley noted. And I hope and pray that future 
Congresses can and will exercise greater restraint than has 
what--what has been shown by Chairman Schiff and Speaker Pelosi 
and Chairman Nadler and the rest. The stability of our republic 
is going to depend on that in the future. And I--I pray that we 
can put this genie back in the bottle. I yield back.
    Ms. Scanlon. For what purpose does the gentlewoman from 
Florida seek recognition?
    Ms. Mucarsel-Powell. I strike to--I move to strike the last 
word.
    Ms. Scanlon. The gentlewoman is recognized.
    Ms. Murcasel-Powell. Thank you. You know, it is truly 
disheartening to hear my colleagues on the other side argue in 
favor of crippling the very institution that they are a part 
of. The power of impeachment has built in due process 
protections. We are the American people's duly elected 
representatives, and we, Members of Congress, are empowered to 
hold to account corrupt and criminal Presidents.
    When the President obstructs an impeachment inquiry, he is 
obstructing the people who have a right to know how the 
President is running their government. After all, that is the 
basis of our government; by the people, for the people. We have 
requested hundreds of documents and have been provided with 
absolutely not one document.
    The President has actually instructed the State Department 
to not give us the information that we have asked. He has told 
witnesses, people that we have subpoenaed, to come in front of 
Congress to testify--to not come and testify.
    Talk about a dangerous precedent. I think that the people 
deserve to know how he is using the office of the Presidency to 
advance his own interests above those of the people whom was 
elected to serve. The President has abused his office and is 
now using that power of the office to hide the extent of that 
abuse from the people. That is abuse of power. That is an 
impeachable offense.
    And I just want to end by saying that it is also appalling 
that throughout this process, the President and the Republican 
party have continuously attacked Foreign Service officers, the 
men and women of the military, our intelligence community, 
those who protect us every day, undermining our national 
security. They are patriots, and they should be treated as 
such. After all, we are all Americans. I yield back.
    Chairman Nadler [presiding]. The gentlelady yields back. 
For what purpose does Mr. Gohmert seek recognition?
    Mr. Gohmert. I rise in support of the amendment.
    Chairman Nadler. Does the gentleman strike the last word?
    Mr. Gohmert. Yes, I do.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gohmert. You know, this is so surreal. You know, it 
seems that we have come to a time when right is wrong, wrong is 
right, bullies are the victims, and the victims are called 
bullies. For 3 years, this President has been harassed. He has 
been electronically surveilled, spied upon as normal people 
would call it. Allegations have never ceased. They continue, 
and they are continuing today.
    At some point, you would think that someone would look at 
the abuses by Congress, by the Justice Department, friends of 
our Democrats, by the FBI, friends of our Democrats who hated 
the President when he was nothing but a candidate. At some 
point, somebody would go this is out of control. We need to 
step back and say wait, wait. This--this train is off the 
tracks. It is time to get, and here is the word, reasonable. 
What has gone in the last 3 years is not reasonable.
    There is a doctrine those who are attorneys know. If you 
are going to try to pursue some remedy, you need to have clean 
hands. The majority has been so abusive. Sure, this 
administration has produced tons of witnesses after subpoenas, 
some without. Sometimes it is just negotiated. But normally 
what happens is a subpoena is received, and it means you are 
not going to be able to use an agency attorney even though--and 
an agency attorney will not be allowed in even though the only 
way that the witness can appear and have executive privileges 
properly claimed is to have an agency or department attorney 
with them, and that is when things get negotiated and get 
worked out.
    But some of our friends know that if they are abusive 
enough with subpoenas and with law fare, just not warfare but 
using the law as a weapon, you can run people out of office. 
They successfully did that continually suing Sarah Palin, Ryan 
Zinke. He couldn't afford to keep hiring individual lawyers 
when agency lawyers couldn't come. This is the kind of stuff 
that has been going on.
    And so this will end up--since our friends are not being 
reasonable, were not willing to negotiate with the 
administration so agency lawyers could come claim executive 
privilege, even though the target kept changing. They didn't 
know what they were going to come testify about. They were 
being accused of all kinds of different things. That kept 
changing, and it is changed even in the last 48 hours, 24 
hours. It has changed. How do you defend yours when the charge 
keeps changing? I mean, this is like a Stalinesque type court 
system. You know, you don't get to meet and cross examine your 
witnesses. And in fact, we will just have some law professor 
that is paid by our friends come in and explain what the 
witnesses probably said, did say, what it is. That is all you 
need to hear.
    If you are going to vote on guilt or innocence, impeachment 
or not. You don't need to hear the witnesses. We don't need no 
stinkin' witnesses. Just bring us the chance to vote, and we 
will vote. It is an outrage.
    There is nothing reasonable about what is going on, and 
especially--it is so ironic. This is the same week when the 
corruption of the Department of Justice has been shown, and 
there is no sorrow, no apology, no--no remorse whatsoever by 
this incredible, abusive system.
    So the obstruction of Congress is by people in Congress. 
The administration has not been unreasonable. They have seen 
what has happened when this abusive Justice Department gets 
people in a perjury trap. They have got nothing to go on, but 
if we can get you in and get you to testify, then we can 
prosecute you if you make a mistake while you are testifying. 
It was very, very reasonable not to come answer the subpoenas 
when you couldn't have an agency lawyer, and there was no 
negotiation with the other side. I yield back.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Ms. Dean seek recognition?
    Ms. Dean. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Dean. Throughout the course of this investigation, we 
have seen a stark contrast between the patriots who stood up to 
tell the truth and those who have turned a blind eye to the 
truth. And so tonight, to those patriots, I want to lift you 
up. I want to tell you thank you. I am in awe of you. I am in 
awe of your courage to uphold your oath at great personal 
sacrifice and professional cost.
    Patriots like Lieutenant Colonel Alexander Vindman, Purple 
Heart recipient and Iraq war veteran. Ambassador William 
Taylor, Bronze Star recipient and Vietnam war veteran. Marie 
Yovanovitch, extraordinary former Ambassador to Ukraine who 
joined the Foreign Service during the Reagan administration. 
Dr. Fiona Hill, former Deputy Assistant to the President and 
Senior Director of Europe and Russia on the National Security 
Council, and so many others.
    More than a dozen other witnesses in this administration 
who confirmed the details of the wrongdoing of a President. 
They described a President who reflexively and repeatedly 
abused his power for personal gain, jeopardizing our security 
and our own democracy. These patriots had the courage to live 
up to their oath. Their words mattered.
    Patriots. My family knows something about the sacrifice of 
service. Two of my brothers served in the Navy during the 
Vietnam War, my brother Bob serving two tours in Vietnam. And I 
am lucky to serve with those who have served on my own staff. 
First Lieutenant Colin Milon who was recently called to 
service, to active duty, and staffers Tim Mack and Dave 
Corrigan, proud Marines.
    Now as Members of Congress, it is our turn to stand up. Dr. 
King once said the ultimate measure of a man is not where he 
stands in moments of comfort and convenience. It is where he 
stands at times of challenge and controversy. This is a time of 
great challenge. And some of my colleagues do not want to face 
the realities of a President's wrongdoings, and so I ask my 
colleagues tonight. What are you afraid of? This country was 
built by those who were brave enough to stand up against King 
George. We are called to stand up against Donald J. Trump. What 
are you afraid of? Look to our Framers. Look to our patriots 
for courage because this is about courage, the courage to honor 
our oath, my oath, your oath.
    Mr. Chairman, I will with somberness of purpose, yet with 
confidence in our Constitution, be voting no on this amendment 
and be voting yes on these Articles of Impeachment.
    And with that, I yield back.
    Mr. Biggs. Mr. Chairman.
    Chairman Nadler. The gentlelady yields back. For what 
purpose does Mr. Biggs seek recognition?
    Mr. Biggs. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Biggs. Thank you, Mr. Chairman. I support the 
Reschenthaler amendment, and I offer this to you. Charging the 
President with obstruction of Congress is, frankly, 
unprecedented, and in itself, it threatens our system of 
government. The principles of separation of powers and checks 
and balances demand that a President be permitted to resist 
demands that the President finds overly broad, burdensome, 
harassing, or otherwise violative of his constitutional 
privileges. It is an absurdity to claim that the granting to 
Congress of the sole power of impeachment implies duties to the 
President to cooperate in any and all congressional requests, 
no matter their merit.
    Disputes between the branches are actually a feature. They 
are a feature of our--of our system. They are not a bug in the 
system. The branches are required to engage in a process of 
accommodation to reach an agreement that takes into account the 
relative equities of the side--of both sides. But both branches 
have rights and interests to protect. We do, and the executive 
does. If those disputes cannot be resolved, the courts are to 
step in. Anything less threatens the separation of powers that 
is a very foundation of this Constitution.
    This majority has taken the position, quite frankly, the 
dubious position that despite their precedent to the contrary 
that a vote of the full House is not required to open an 
impeachment proceeding. Think of the implication of that. Any 
rogue committee chairman can, on his or her own, commence an 
impeachment proceeding against a President. That Chairman can 
then submit whatever subpoenas and document requests they wish 
under the theory of these articles the President has no choice 
but to comply with a single rogue committee chairman because 
his failure to do so would be impeachable. How does that 
comport with separation of powers? The House should not be able 
to artificially create an impeachable offense through its own 
action.
    President Trump's actions are not unprecedented. Many 
Presidents have defied congressional subpoenas, including 
President Obama on many occasions, as my colleague from 
Louisiana just pointed out a moment ago. Many Presidents have 
outright refused to cooperate with Congressional investigations 
as well, and I am going to give you three historical cases that 
are not artifacts but are actual cases where, for instance, 
President Jackson said in 1837, he called a House subpoena 
illegal and unconstitutional, unconstitutional stating that he 
would repel all such attempts as an invasion of the principles 
of justice, as well as of the Constitution, and he shall esteem 
it his sacred duty to the people of the United States to resist 
them as he would the establishment of a Spanish inquisition. 
That is from Andrew Jackson.
    Later, President Coolidge said in a New York Times article 
from April 24 that he sent a message in that ope ed piece to 
the Senate saying that he would cease to participate in their 
unwarranted intrusion and questioning the legitimacy of their 
investigation.
    And in 1948, for instance, President Truman published an 
executive order in the Federal Register ordering executive 
departments to respectfully decline any subpoena pertaining to 
congressional investigation into executive branch personnel. 
And then we have the recent Obama example.
    So if you had a problem, you don't necessarily--the 
chairman said that--well, that he didn't exert privilege. Well, 
actually, he claimed executive privilege in a very broad way. 
You all were--you all were very disgusted about it when he 
initially did it.
    But typically what would happen is I would issue a 
subpoena, have it served. The person doesn't show up. Guess 
what we do? We go into court, and we prove the providence of 
our subpoena. The court then issues an additional order. Maybe 
it is a warrant for arrest, maybe it is a fine, maybe it is a 
contempt citation, but we avail ourselves of the process. You 
haven't done that.
    And you haven't done it because Mr. Schiff said so just 
last week, because he didn't want to take the time to avail 
himself of the process that you claim you are defending. And 
that is precisely why Professor Turley and all who look at this 
with objective eyes say you are the ones abusing the process. 
You are abusing Congress. And you are abusing the President and 
the executive branch.
    But I am afraid what happens is we actually denigrate our 
body, and we denigrate the very process that we claim to be 
protecting today.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Ms. Escobar seek recognition?
    Ms. Escobar. Move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Escobar. Thank you, Chairman. We have heard our 
colleagues argue that obstruction of Congress has not happened. 
One of our colleagues called the charge ridiculous. Another 
colleague said, quote, the President has consistently 
cooperated with Democrats. A stunning statement.
    You know, I have had the incredible privilege of serving on 
the House Judiciary Committee now for almost a year. We were--
the freshmen were sworn in January 3, and we have had many, 
many, many hearings. And there is a thread that runs through 
all those hearings, especially those hearings where we are 
trying to provide proper oversight over the President of the 
United States. And that thread is that my colleagues complain 
bitterly about our efforts to be a check, our efforts to 
perform our obligation under the Constitution, and our efforts 
to provide oversight.
    We hear time and time again, and this idea that the 
President has cooperated, that is the claim that is actually 
absurd. In fact, during some of our oversight hearings, we 
heard the President say that he was covered under absolute 
immunity. Without listing the documents or the reasons why, he 
deserved absolute immunity.
    And no President, not even Richard Nixon, no President, has 
refused to honor subpoenas during impeachment. So if you can 
imagine, this President has achieved a new low and lowered the 
bar significantly.
    If it were not for the patriots, and I associate myself 
with the statement by Representative Dean who thanked them. 
They are heroes. They put their reputations, their names, their 
safety, and their security at risk so that they could defend 
this country and defend the Constitution and uphold the oath of 
office, the oath that they took as public servants.
    But let's find out just how cooperative this President has 
been during this investigation and I would like to ask 
Representative Swalwell, my colleague who serves on 
Intelligence.
    Representative Swalwell, how many documents did you all 
request during this investigation?
    Mr. Swalwell. 71,000.
    Chairman Nadler. The gentlelady yields to Mr. Swalwell.
    Mr. Swalwell. On pages 30 and 31 of the Intelligence 
Committee findings, it was 71 documents to the White House.
    Ms. Escobar. And how many witnesses?
    Mr. Swalwell. Twelve witnesses we asked to show up who the 
President directed to not show up.
    Ms. Escobar. How many--so just so that the American public 
understands, you requested 72 documents, 12 witnesses. How many 
times documents and how many witnesses did the President 
provide?
    Mr. Swalwell. Twelve were asked to show up, and he directed 
them not to show up. Zero of the 71 witness--71 documents were 
provided.
    Ms. Escobar. Thank you so much, Representative Swalwell.
    I want to ask the American people what is the President 
trying to hide from you? Why is he trying to keep you in the 
dark? If he has nothing to hide, then let him come forward with 
those documents and those witnesses.
    I want to conclude by just touching a little bit on 
something I mentioned last night. Unfortunately, we have come 
to expect this kind of behavior from the President. And this 
really is a very, very tragic moment in American history, a 
very dark moment in American history. But it is made even more 
tragic by enablers who seek to make sure that they protect one 
man at any cost, one man who is not for America, one man who is 
for himself.
    This is a reckoning for us, and this is a moment when we 
should be standing with the patriots. I am very proud--as dark 
as this moment is, I am very proud to stand with the patriots 
here on this committee, and I will continue to stand with the 
patriots who defend this country.
    Mr. Chairman. I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Cline seek recognition?
    Mr. Cline. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cline. Thank you, Mr. Chairman. We have already talked 
today about the lack of evidence and support of the first 
Article of Impeachment, the abuse of power article. They can't 
prove bribery. They can't prove extortion. They can't even 
prove a campaign finance violation. Since they don't have the 
elements to prove any crime, they created one, and said that 
there was, quote, no higher crime. There are higher crimes. 
There are actual crimes, but since the President didn't commit 
one, here we are. It is laughable if it weren't so sad.
    We do know a few things, though, the same four facts that 
have been repeated throughout. Both President Trump and 
President Zelensky have said there were no pressure on the 
call, there was no conditionality of aid in the call 
transcript, the Ukranians were not aware that the aid was 
withheld when the President spoke, and we have the Time 
Magazine article involving Andriy Yermak which hasn't been 
pursued by this committee, and fourth, Ukraine didn't open the 
investigation but still received the aid and a meeting with 
President Trump. You know, my colleague said earlier we can't 
prove any of it, so we are going to accuse him of all of it and 
call it abuse of power. That is it to a point.
    So now we have an article, a second article charging 
obstruction of Congress. The Democrats have alleged that the 
President directed the unprecedented, categorical, and 
indiscriminate defiance of subpoenas issued by the House of 
Representatives. The facts don't match up with these claims. 
The President has legitimate Constitutional privileges, and the 
courts can and should determine the boundaries of these 
privileges.
    The White House released two call transcripts to the public 
for review during this process. Ambassador Sondland said the 
President told him, go tell the truth when the Ambassador told 
the President he was asked to testify before Congress.
    In addition, these claims of obstruction ignore the 
appropriate role of the third branch of government, to review 
conflicts between the executive and Congress. The majority, by 
seeking to impeach the President for failing to yield to their 
demands in an oversight or impeachment investigation, fails to 
distinguish instances where prior Presidents sought the very 
same review while withholding testimony and documents.
    They also ignore instances where the two branches 
negotiated in good faith over the return of documents. But 
after the failure of the majority to negotiate in good faith 
over the rules for this very impeachment proceeding, why would 
we think that there would be an effort by the President to 
acknowledge and work in good faith to resolve said dispute? 
Better that, in their minds, to wait for the courts to resolve 
it which is their right.
    President Obama, during the Fast and Furious investigation, 
invoked executive privilege and barred essential testimony and 
documents. During its litigation, the Obama administration 
argued the courts had no authority over its denial of such 
witnesses and evidence to Congress, but the Federal Court and 
the Committee on Oversight and Government Reform versus Holder 
disagreed.
    Professor Turley in his testimony to this committee 
testified that he thinks the Democrats' impeachment process is 
an abuse of power. He said, quote, what I am saying is that if 
you want a well-based, a legitimate impeachment case to set 
this abbreviated schedule, demand documents, and then impeach 
because they haven't been turned over when they go to a court, 
when the President goes to a court, I think that is an abuse of 
power. If you make a high crime and misdemeanor out of going to 
the courts, it is an abuse of power. It is your abuse of power. 
I urge my colleagues to support this amendment.
    And I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Ms. Jayapal seek recognition?
    Ms. Jayapal. Move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jayapal. Thank you, Mr. Chairman. My Republican 
colleagues have been putting forward a lot of excuses today, 
and so I want to go through the ones that we have heard the 
most.
    Ms. Jayapal. First, they have said that the President's 
behavior was all about his supposedly legitimate concern about 
corruption, but what we know is that all of President Trump's 
agencies, all of his advisers, everyone unanimously told him 
that Ukraine had passed all the anticorruption benchmarks. What 
we know is that the Department of Defense said no further 
review on Ukraine corruption was necessary, what we know is 
that President Trump's budget cuts aid for Ukraine, designed to 
fight Ukraine corruption, and what we know is that President 
Trump before both the calls with President Zelensky in April 
and July was given official talking points, official talking 
points, on corruption in Ukraine and yet, he never used those 
talking points.
    In fact, he never mentioned the word ``corruption'' on 
either call. The only two names that President Trump mentioned 
were Joe and Hunter Biden on July 25. Second excuse the 
Republicans put forward, they suggest that this was all about 
the President's desire to get the European Union to share more 
of the burden of foreign assistance. Well, let's look at that.
    Mr. Holmes told us that Europe provides four times as much 
assistance, more aid to Ukraine than we do. And actually, the 
United States' aid largely gets paid back. On top of that, 
Ambassador Sondland, President Trump's ambassador to the 
European Union, testified clearly that nobody ever told him to 
go to the European Union, and actually asked for more military 
aid to be provided. That simply wasn't the case. The only thing 
that President Trump told Ambassador Sondland to communicate to 
Ukraine, what was that? He told us that resumption of aid would 
likely not occur unless President Zelensky announced the 
investigations, and Ambassador Sondland made clear, and this is 
a quote, ``Unless Zelensky went to the mic and announced these 
investigations, there would be a stalemate over the aid.''
    So what were these investigations? 2016 election 
interference and Burisma, meaning the Bidens. So, finally, left 
with no other defenses, my Republican colleagues say that 
President Trump had a legitimate reason to investigate Vice 
President Biden. But, once again, let's look at the facts. That 
makes no sense whatsoever. The minority's own report states 
that the allegations against the Bidens were from 2015. 2015. 
But President Trump readily gave military aid to Ukraine in 
2017, and then, again, in 2018. President Trump's own aids told 
him that there was no merit to these investigations.
    So what changed? What led to the sudden push to hold up 
congressionally approved, desperately needed military aid 
without telling anybody the reason? Vice President Biden began 
beating President Trump in the polls. The evidence is clear. 
When President Trump said, Do us a favor, though, who was the 
``us''? We know. We know who the us was because he said it. 
President Trump told President Zelensky that his personal 
attorney, his personal lawyer, Rudy Giuliani, quote, ``very 
much knows what is going on.'' President Trump could have gone 
through official channels if he wanted, he could have asked for 
the Attorney General to conduct an investigation, he could have 
conducted all sorts of legitimate investigations, but he 
didn't, and we know that, too, because the Department of 
Justice said that President Trump never asked them to do any 
investigations, or even talk to Ukraine.
    Instead, President Trump asked his personal attorney 
because ``us'' was not about America. The President was not 
putting America first. This wasn't official policy. This wasn't 
what was right for our country. Every witness told us that, 
too.
    This was personal. It was all for President Trump's 
personal political gain to benefit his own campaign and his re-
election, and that is why he used his personal attorney to do 
that. He abused his power, he abused the power entrusted to him 
by we, the people, and he placed our safety, millions of 
dollars of taxpayer money on the table. That is an abuse of 
power. We must impeach Donald J. Trump.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    What purpose does Mr. Armstrong seek recognition?
    Mr. Armstrong. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Armstrong. Talk about obstruction of Congress and 
subpoenas, and I would like to talk about subpoenas for a 
little bit, and the Democratic majority's abuse of subpoenas 
and how it started. And it started in this committee with a 
subpoena to the Attorney General, Bill Barr. That compliance 
with that subpoena would have required him to violate the law.
    So like a reasonable, rational, deliberative body we are, 
what did we do? We held him in contempt. We held the Attorney 
General of the United States in contempt of Congress for not 
violating the law. But it gets better, because after that, we 
held a hearing in Judiciary about whether or not we should have 
held him in contempt. Oversight Democrats subpoenaed documents 
from commerce, legal documents, relating directly to a case 
that was pending in front of the Supreme Court.
    And as I stated earlier, those same Democrats on oversight 
subpoenaed the personal emails of President Trump's children. 
Democrats on Ways and Means have subpoenaed President Trump's 
tax returns for purely political purposes. Speaking of 
politics, Adam Schiff used the subpoena power of the 
Intelligence Committee to obtain phone records. He then 
released the phone records of a member of the press and the 
ranking member and his political opponent. But when you are 
going--you cannot weaponize the subpoena power of Congress in 
order to harass the executive branch, and then not expect the 
executive branch to use every legal remedy at their disposal to 
oppose those subpoenas. You can continue with an impeachment 
proceeding. It is a political proceeding, but what you cannot 
do is charge obstruction because you are going to continue 
faster than allowing the courts to decide it.
    And before I finish, I would just like to point out a 
couple things. You know who we haven't subpoenaed? Ambassador 
Bolton. You basically begged to have one issued to him. We 
haven't subpoenaed the whistleblower. We haven't subpoenaed 
Adam Schiff. We haven't subpoenaed Adam Schiff's staff member 
who talked with the whistleblower. We haven't subpoenaed all 
the people that the whistleblower mentioned he talked to in 
relation to this phone call.
    So if we want to talk about abuse and obstruction and why 
these things are going on, I think--as another comment 
Professor Turley said in a different hearing, we have met the 
enemy, and he is us.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Deutch seek recognition?
    Mr. Deutch. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, there are two Articles of Impeachment, each 
is vitally important. Obstruction of Congress matters to all of 
us who value the separation of powers here in the House, and it 
will matter to all of those who value the separation of powers 
in the United States Senate. Article I vests in the House the 
sole power of impeachment. That is set forth in the 
Constitution, so what has the President done? President Trump 
is the first and only President in American history to openly 
and indiscriminately defy all aspects of the constitutional 
impeachment process.
    October 26, the President argued that Congress should not 
even be allowed to impeach him under the Constitution, and then 
on October 8, the White House counsel acting on behalf of the 
President, wrote a letter to the House and said that President 
Trump cannot permit his administration to participate.
    Well, this is not a fishing expedition. This is a matter of 
grave importance, and we have talked about, at length, the 
abuse of power that the President has exhibited, but why did 
the President refuse to produce--we have heard about the dozen 
of officials that he has blocked, but what about all of the 
documents that we have asked for? What about the witnesses who 
did come forward who told us about the briefing materials for 
President Trump's call with President Zelensky that were 
prepared by Lieutenant Colonel Vindman, and the National 
Security Council staff summaries of conclusions from meetings 
relating to Ukraine, including military assistance? What about 
the memorandum of conversation from President Trump's meeting 
in New York with President Zelensky on September 25?
    And what of the--all of the additional documents from the 
Vice President, the notes taken by Jennifer Williams during the 
call between President Trump and President Zelensky, the 
briefing materials prepared for the vice president's meeting 
with President Zelensky. On November 24, a news report revealed 
the White House conducted an internal records review and turned 
up hundreds of documents that reveal extensive efforts to 
generate after-the-fact justification for the decision.
    That is what we are talking about. Obstruction of Congress 
matters because we know what we are looking for, we know how 
important it is. The President has stood in the way of this 
House of Representatives doing its important work. The 
President should allow, should have allowed these officials to 
speak, should have allowed these documents to speak. My 
colleagues on the other side understand this is not a fishing 
expedition. They know that these documents are there, and if 
they were to help the President, they would be urging the 
President to work with us, rather than obstruct us. We have to 
proceed with this obstruction of Congress in Articles of 
Impeachment, and I oppose this amendment.
    I yield the balance of my time to Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Deutch. Tonight we 
are called upon to protect the Nation's core values, and I tell 
you, money and the economy are not our core values. Cutting 
regulations are not our core values. Tax cuts for the top 1 
percent, not our core values. Withholding desperately needed 
security assistance from an ally, desperately in need, is not a 
core value. Coercing a foreign power to interfere in a 
presidential election is not our core value. Giving Congress 
the finger as it seeks to exercise its authority as a coequal 
branch of government is not a core value.
    I will tell you what a core value is: fair and free 
elections and respect for the Constitution, and to take care 
that your duties are faithfully executed as President. That is 
our core value. The faithful execution of the office of the 
President, the upholding of the oath of office are our core 
values. To the best of your ability, preserving, protecting, 
and defending our Constitution. That is the Nation's core 
values.
    When a President commits a grave abuse of the public trust 
by running roughshod over the high office of President, then 
Congress is left with no choice but to do its duty to protect 
the public and the republic from clear and present danger. We 
must impeach this President.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Jeffries seek recognition?
    Mr. Jeffries. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Jeffries. Donald Trump pressured a foreign government 
to target an American citizen for political gain. And at the 
same time, withheld $391 million in military aid from a 
vulnerable Ukraine without justification as part of a scheme to 
solicit foreign interference in the 2020 election. The July 25 
rough transcript is a smoking gun, and Donald Trump's words 
pulled the trigger. Five words: Do us a favor, though. An 
essential question for us to resolve on this committee, is 
whether the President sought a political favor, or is he, as my 
Republican colleagues suggest, an anticorruption crusader?
    That notion is laughable, but let's just check the record 
to see what it says. Donald Trump spoke to the Ukrainian 
President twice. Once on April 21, he did not use the word 
``corruption'' once. He had a second call with the President of 
Ukraine on July 25. He did not use the word ``corruption'' 
once. Donald Trump's own Department of Defense wrote a letter 
to the Congress on May 23 and said that the new Ukrainian 
Government, the new Ukrainian Government, has satisfied all 
necessary preconditions to receive the aid, including the 
implementation of anticorruption protocols. That was Donald 
Trump's Department of Defense saying there are no corruption 
concerns that should justify the withholding of the aid. That 
is why so many Trump-appointed witnesses came forward and were 
troubled.
    And I just want to enter into the record three, Lieutenant 
Colonel Alexander Vindman, who was on the call, reported his 
concern because, quote, ``They had significant national 
security implications for the country,'' and Lieutenant Colonel 
Vindman said it is improper for the President of the United 
States to demand a foreign government investigate a U.S. 
citizen for a political opponent.
    That was Lieutenant Colonel Vindman, Iraq war veteran, 
Purple Heart recipient, 20 years of active duty. Gordon 
Sondland, ambassador appointed by Donald Trump, what did he 
say? Everybody was in the loop. It was no secret. Was there a 
quid pro quo? The answer is yes. Is Sondland a Never Trumper? 
He was appointed by Donald Trump. He gave $1 million to Trump's 
inauguration.
    And then, of course, there is Bill Taylor, West Point 
graduate. What did he say? To withhold that assistance for no 
good reason other than help with a political campaign made no 
sense. It was illogical. It could not be explained. It was 
crazy. That is the record evidence that has been established.
    Donald Trump did not care about alleged corruption in 
Ukraine; he sought a political favor. And at the same time that 
Donald Trump was allegedly concerned with corruption in 
Ukraine, he authorized $8 billion in weapon sales to the 
corrupt kingdom of Saudi Arabia and other gulf states. $8 
billion in April, he authorized, but he was supposedly 
concerned about corruption.
    This is a regime that butchered a Washington Post 
journalist with a bone saw, and then lied about it. And at the 
same time he was withholding money from Ukraine, he authorized 
$8 billion in weapon sales over the objection of Congress. The 
President pressured a foreign government to target an American 
citizen for political gain. He solicited foreign interference 
in the 2020 election. The record is clear. He abused his power. 
He must be held accountable because in America, no one is above 
the law.
    I yield back, Mr. Chair.
    Chairman Nadler. The gentleman yields back.
    For what purposes does Mr. Collins seek recognition?
    Mr. Collins. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. I have listened to this and this idea of the 
process, and I fully support this amendment because, frankly, 
we are in a position right here where we don't need to be, but 
it has also been very interesting just to listen all day today 
to the trying to build a case out of nothing. And like I said, 
I have already went through the fact that the majority has 
already disparaged beyond belief Mr. Zelensky. I am not sure 
why they chose to delve in character assassination, but they 
did and they still are. I am not sure why they choose to 
continue to put out articles saying that members of the Ukraine 
military died because of aid that was withheld.
    That was--it is just a lie, and even their own articles to 
proves it says, Well, we can't actually say that that is true, 
but keep sending it out there. Believe me, the American people 
are watching this farce. But it is amazing to me to listen to 
my colleagues now talk about how we do proper process in 
subpoenas.
    Let me just take you on a little wonderland trip back 
through this committee this year in which we issued more 
subpoenas, and did more things that were just amazingly 
outrageous than I could ever imagine.
    In fact, we have learned some stuff this year, and no 
offense to my chairman, he has been doing as best he could to 
satisfy the many demands of being the chairman that has to go 
over to get impeachment over, but we have learned this year 
that subpoenas were, you know, they just help you look better 
in court.
    We learned that subpoenas are a conversation starter. I am 
not sure what that is about, but I know in court that they are 
not a conversation starter, they are a compelling information. 
They are actually wanting us to move forward, and so when you 
really look at this, and you start talking about how the 
Democrats have been denied process and denied this, it is 
really interesting to me that, again, 70-something days--the 
other day, I think, the gentlelady from California said that--
tried to make a comparison was not fast that the Ken Starr 
investigation--but that was after almost 3-1/2 years of 
investigation. In this one, we have had since September till 
now.
    The majority, frankly, is acting like petulant children who 
are not getting their way quick enough because Santa Claus 
hasn't come yet. Believe me, they are getting ready to vote for 
their Christmas present. I think the American people next 
November will remember this Christmas present. But he goes back 
even further. I remember a time--if we want to talk about the 
sanctity of subpoenas, then why did the majority withdraw from 
the Kupperman suit? Why did they withdraw from that?
    If they wanted to continue, they could have done this, they 
could have had this charade and still stayed in court. No, it 
is just a waste of time. We are not going to do it. So don't 
hand me these high and mighty arguments about process. This is 
not about obstructing Congress right now. It is about Congress 
just being petulant, and saying we don't want what we don't 
want because we wanted it now, and I can turn back to February 
of this year, Acting Attorney General Whitaker.
    You remember this? I will remind some of the folks because 
many of you are here who wrote about this. They were trying to 
get Acting Attorney General Whitaker here because they were 
trying to make political points before--as the year got 
started, because there was nothing rolling yet, Mueller hadn't 
happened, so they couldn't talk about it except in broad 
generic terms. Bill Barr wasn't sworn in yet and 1 week before 
Bill Barr was sworn in, we brought in Mr. Whitaker.
    Now, we threatened him with a subpoena and made public 
declaration about a subpoena, until we found out the night 
before they sent him a letter saying, if you show up, we won't 
do that subpoena. No, we won't do that. I mean, we found it all 
right here. We talked about it. So it is a little bit hard for 
me to hear how this Congress, this committee--and we are not 
even going to get started on Mr. Schiff, who, again, loves a 
camera, loves a microphone, loves his own gavel, but doesn't 
like to actually have to answer questions about his own work, 
and what he has actually done. He doesn't like to have to 
answer questions of him and Mr. Goldman last week when Mr. 
Goldman was here on who actually ordered the matching of that 
so that they could unmask ranking member and journalists when 
they could have just as easily put in if it had been proper 
member one, Congressperson one, individual--it doesn't matter. 
They could use whatever they wanted to, but no, they did it for 
drive-by purposes.
    So tonight, as we hear the angst, and we hear the just 
plain out, just flying out hypocrisy, remember, that this is a 
majority that had one thing in mind, and I will not deny that 
they have not passed bills, but I will also deny that they have 
not passed bills enough that actually can get any 
bipartisanship in the Senate which is known for that. We have 
done that before in this committee.
    We pass bills that actually get signed into law. Instead, 
we want to talk about subpoenas that we don't enforce, 
processes we don't follow. Why? Because you can't make the 
argument. You don't have abuse of power and you definitely 
don't have obstruction of Congress.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mrs. Demings seek recognition?
    Mrs. Demings. Move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Demings. Mr. Chairman, I rise in opposition to this 
amendment. One of my colleagues said a minute ago that we are 
using the law as a weapon. Well, the law is a weapon against 
people who violate it, don't respect it, don't obey it. My 
Republican colleagues have claimed that there is not enough 
here to impeach a President. I have heard them previously say 
that this is merely about eight lines from one phone call. 
Well, perhaps they forgot that the pressure against Ukraine 
lasted for months. Perhaps they forgot that trying to limit 
this to merely eight lines on one phone call underestimates the 
risk to our national security and our national interests. For 
you see, Ukraine's ability to protect themselves against 
Russian aggression is directly tied to our ability to protect 
ourselves from Russian aggression, but that is right. This 
President only cares about, and I quote, ``the big stuff.'' Big 
stuff. Big things that are directly tied to his personal 
agenda, but my colleagues also seem to ignore the pattern of 
behavior, the pattern of misconduct, and certainly the abuse of 
power.
    First, the President welcomed interference in the 2016 
election. His campaign had multiple contacts with Russia, and 
he himself publicly invited Russia to interfere. Remember this? 
Russia, if you are listening, I hope you are able to find the 
30,000 emails that are missing. Then, after the special counsel 
was assigned to investigate the President's conduct, the 
President tried to cover it up by obstructing the investigation 
and refusing to cooperate.
    Then this one really, as someone used to say, takes the 
cake, just one day after the special counsel testified before 
Congress, the President was at it again. Apparently, undeterred 
and emboldened. He demanded interference into the 2020 
elections, telling a vulnerable ally, I would like you to do us 
a favor, though, and conditioned official acts on the 
announcement of a sham investigation into the President's chief 
political rival.
    And true to form, after the President's scheme was exposed, 
after he was caught, and Congress launched an investigation, 
the President tried to cover it up by trying to undertake a 
complete blockade of Congress's investigation. The President's 
misconduct is a part of a pattern.
    First, the President invites foreign powers to interfere in 
our elections, and then he obstructs lawful inquiries into his 
behavior whether by Congress or by law enforcement, and then he 
does it again. Because, remember, he believes he is above the 
law, and he certainly has the full support of my colleagues on 
the other side of the aisle.
    Most recently, the President suggested publicly that China, 
why don't you come on in. The water's warm. China should 
interfere in our elections by investigating former Vice 
President Joe Biden. The President has taken no accountability 
for his misconduct. He has shown no remorse. No surprises 
there. Rather, he has doubled-down and made clear that he will 
continue to solicit interference in our election for his own 
personal gain, not the gain of the American people. He will 
continue to disregard a coequal branch of government that were 
designed to keep the executive branch in check.
    In other words, unless he is stopped, the President will 
continue to erode our democracy and the values on which our 
country was founded. We cannot, and we will not, allow that to 
happen.
    And Mr. Chair, I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Ratcliffe seek recognition?
    Mr. Ratcliffe. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Ratcliffe. I yield to Mr. Reschenthaler.
    Mr. Reschenthaler. I thank the gentleman from Texas. There 
is a saying, and it is that facts don't care about your 
feelings, so let's go through some facts. Let's talk about the 
Trump administration and how much they actually have cooperated 
with Congress. In the report, the Schiff report, Chairman 
Schiff argued that President Trump has obstructed the 
impeachment inquiry.
    In letters sent to request deposition witnesses, Chairman 
Schiff wrote, and I quote: ``Any failure to appear for a 
scheduled deposition shall constitute evidence of obstruction 
of the House's impeachment inquiry,'' end quote. However, there 
is ample evidence of the administration complying with the 
congressional oversight in investigations during 2017 and 2018, 
even with congressional probes the administration did not find 
legitimate.
    For example, over 25 administration officials testified 
before the House Oversight Committee, over 20 administration 
officials had testified before the House Judiciary Committee. 
Additionally, as of the start of the Democrats' impeachment 
inquiry, the administration has produced more than 100,000 
pages of documents to the House Oversight Committee. That is 
over 100,000 pages of documents. I must say, they produced them 
in a timely manner. They didn't dump them within 48 hours of a 
hearing, but again, I digress. The administration also engaged 
in investigations that they disagreed with.
    For example, the House Oversight Democrats initiated a 
sweeping investigation into the White House security clearances 
practices, despite the President's broad authority to grant 
security clearances to whomever the administration wishes. In 
that investigation, the administration provided the current 
White House security officer to brief both members and staff of 
the White House security clearance process.
    The administration has also provided committee staff with 
in camera reviews of over 500 pages of White House documents 
and policies related to the security clearance process. The FBI 
has also allowed committee staff to review in camera hundreds 
of documents pertaining to the rule the White House security 
clearance has played has briefed both members of the committee 
staff on their role on the White House security clearance 
process and provided committee staff with multiple follow-up 
briefings regarding their own internal security clearance 
process.
    We have heard Democrats talk this evening about the border, 
so let's just talk about the border and the administration's 
willingness to open themselves up to review in that regard, 
too. The administration has produced more than 9,600 documents 
in response to the committee's subpoenas related to child 
separation at the border. Again, that is over 9,600 documents. 
Additionally, in August and September of 2019, the 
administration accommodated nine separate multi-day surprise 
congressional visits to ICE and DHS facilities across the 
country. The administration has worked with the committee staff 
to observe 11 CBP holding facilities, 13 ICE detention 
facilities, and six State licensed, privately run facilities 
that contract with HHS. So contrary to the assertions from the 
Democrats, the Trump administration has cooperated 
substantially in matters related to the border and elsewhere. 
But let's just contrast that with the Democrats combative 
posture.
    In letters to the State Department employees, the committee 
threatened witnesses that, and I quote: Any failure to appear, 
any failure to appear in response to a mere letter requesting 
their presence for deposition shall, and I quote, ``constitute 
evidence of obstruction.'' This is just letters, not subpoenas.
    In letters to State Department employees and in letters to 
the State Department employees, the committee threatened 
witnesses that if they insist on having agency counsel present 
to protect the executive branch in a confidentiality interest, 
or if they make any effort to protect confidentiality interests 
at all, these officials will have their salaries withheld, 
withholding of salaries.
    The committees have not afforded the President basic 
protections, such as the right to seal evidence, the right to 
present evidence, the right to call witnesses, the right to 
have counsel present at hearings, the right to cross-examine 
all witnesses, the right to make objections relating to 
examination of witnesses, or the admissibility of testimony and 
evidence, and not afford the President the right to respond to 
evidence and testimony presented.
    Thank you. I yield the remainder of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Swalwell seek recognition?
    Mr. Swalwell. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Swalwell. My colleagues, the urgency of this moment is 
the grave risk that the President will, again, abuse his power 
of the presidency to try and secure his re-election. We have 
reason to be concerned. The presidency gives him great powers 
to cause others to interfere in our elections. And the only 
protection we have is to act now, because the President is 
cheating right now. And to any of my colleagues who ask, Why 
move on this right now? It is a crime spree in progress. And as 
Chairman Schiff said earlier this week, what are we supposed to 
do? Just let him cheat one more time, expect him to eventually 
do the right thing?
    And here is what my colleagues' logic amounts to if we 
wait. It amounts to this: Allow the building to burn, collapse, 
fall to the ground, and then you should call the fire 
department. This President has set our democracy on fire and we 
must act to save it. And there is an urgency to act and this 
President is not only being impeached because of what he has 
done, it is because of what he continues to do. We know what he 
has done. Not really disputed. Abused his power, asked a 
foreign government to help him cheat, jeopardized our national 
security, integrity of our elections for his own personal gain. 
But this was not a one-off. We have come to learn, as Mrs. 
Demings just explained, this is what he does and this is what 
he will keep doing.
    In 2016, as he said, Russia, if you are listening, hack my 
opponent's emails. You will be rewarded. Turns out, Russia was 
listening. Turns out, Russia hacked his opponent's emails. That 
day they sought to hack his opponent's emails. And that 
investigation, he went to great lengths to obstruct it.
    So why is it so urgent that we act right now? The 
President's lawyer was just in Ukraine. The President's lawyer 
said in May, I am not meddling in an election; we, not I, we, 
Donald Trump and I, are meddling in an investigation, and that 
meddling continues today, but the President's own words tell us 
about his current intent.
    On October 2, the President said, ``and you know we have 
been investigating on a personal basis through Rudy and others 
corruption in the 2016 election. I think that, if we are honest 
about it, they should start a major investigation into the 
Bidens. That simple.'' On October 3, the President stood on the 
White House lawn and confirmed that he wanted Ukraine to 
investigate the Bidens. But then, he added a country, because 
that is what he does--Russia, Ukraine. He said China should 
also investigate the Bidens.
    My colleagues, we should not have to hope or pray that 
China wasn't listening when he said that, but fortunately, 
people on this committee are listening. Americans are 
listening. People who know right from wrong, our children are 
listening. Are you listening? And what we hear deeply concerns 
us about what the President will do next. And we are not 
helpless and, in fact, we know that the courage to act is the 
only thing that has stopped this President. That is not a leap 
of faith.
    You see, it was the courage of Dr. Fiona Hill and 
Lieutenant Colonel Vindman to, quote, ``go to the lawyers''' 
when they heard that the President was conditioning a White 
House visit for investigations. It was the courage of the 
whistleblower to come forward. That is what got Ukraine the 
aid. The President got caught, then Ukraine got the aid. If 
those people were not courageous and acted, Ukraine would not 
have the aid today. So we must follow their pattern conduct and 
act.
    We have pattern evidence that not only Donald Trump acts 
corruptly, but that when you show courage and act against him, 
you can stop him. It is actually the only way to extinguish his 
corrupt ways. If unchecked, my colleagues, Donald Trump does 
not get better, he gets worse. He gets more corrupt, and we 
can't wait till the next election to hold him accountable. Not 
when he is trying to rig the next election, so we must act to 
protect our national security, the integrity of our elections, 
and honor our oath to the Constitution.
    I yield back.
    Chairman Nadler. The gentleman yields back. The question is 
on the amendment. Those in favor say, aye.
    Mr. Collins. Mr. Chair? Mr. Chair? Mr. Chair, we have 
someone asking for time.
    Chairman Nadler. I didn't see a request.
    Mr. Collins. I see it right here. You saw it. You now 
recognized him. You have now recognized him.
    Chairman Nadler. I will recognize Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. Move to strike the last 
word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. Well, they are right, they can't wait until the 
next election, but it is not the reason they say. The reason 
they can't wait till the next election is because they have 
taken a look at their candidate field and they have 
fundamentally changed every standard that they have set for 
themselves for impeachment for the American people. Whether you 
like President Trump or don't like President Trump, it would at 
least be worth acknowledging the Democrats have moved the 
goalposts on what it would require to bring us to this point, 
and to harm our Nation and to distract us so much from the 
critical needs of American people, who probably wonder why we 
are not focused on them right now.
    First, they told us it has to be bipartisan. Now, I get 
folks watching at home might think that I am somebody who 
really likes the President and I would probably be a hard vote 
for him to get for impeachment. But it is not just that they 
can't convince the President's supporters not to abandon him, 
they can't even convince the President's critics to abandon 
him. I mean, Jeff Van Drew, Collin Peterson, two members of 
Congress, two Democrats, they are not fans of the President; 
they are critics of the President. And yet, they didn't vote 
with Democrats, they voted with Republicans. We have even got 
some Republicans, my colleague Will Hurd from Texas, he doesn't 
mind being a critic of the President and he was honest with 
Democrats. He told them, this is not impeachable conduct.
    They told us that the process would be fair. And yet, when 
even members of this committee sought the opportunity not to 
read a transcript, or see someone's second performance of their 
testimony, but to see their first-hand account how they 
reacted, how they were breathing, did they fidget when they 
responded, we wanted to see those things and we were excluded 
by the Intelligence Committee.
    Democrats said that to put our country through this, it 
would require compelling and overwhelming evidence. And each 
and every time, they try to cast doubt on the President's 
conduct, we are able to show a legitimate concern the President 
had in corruption. We are able to cite the transcript that 
demonstrates no conditionality. And time and again, Democrats 
say, Well, there is just no factual debate about what the 
President did. The factual debate comes from President 
Zelensky. It is President Zelensky who said I wasn't pressured. 
And they said, Oh, well, Zelensky might not have known, but 
Yermak, he knew. Sondland talked to Yermak and conveyed this 
shakedown. And the very day they introduced Articles of 
Impeachment, Yermak gives an interview and says, We never 
really perceived this as an exchange of military for aid for 
any one thing.
    Time and again, they let us down in their claims, but one 
thing we know for certain, is that this was a sad 
inevitability. I had someone ask me recently, do you feel some 
sense of history, some sense of moment that you are about to 
vote on impeachment? And sadly, I knew this time was coming 
since the Democrats took control of the House of 
Representatives. Because they didn't lay out a plan to 
appropriate for the budget, work with us on critical 
generational issues. They set out a plan for impeachment. How 
do we know that?
    When the chairman himself campaigned for the lead Democrat 
role in the Judiciary Committee, he didn't say, pick me because 
I am a great legislator around some particular issue set; he 
said pick me because I will be the person that can best lead 
our caucus through a potential impeachment. They have had a 
blood lust for impeachment. It has been their obsession. And it 
is deeply saddening to us. We take absolutely no joy in the 
fact that it is so consuming.
    But here we stand on the verge of it, and my expectation is 
that this new standard in this second article with just the 
notion of obstruction of Congress is their excuse for not being 
able to prove obstruction of justice. Public reporting has been 
how the chairman went to the Democratic caucus and sought 
support to bring an article for obstruction of justice, and 
couldn't get their support, so now here we are with obstruction 
of Congress, sort of the low energy version of the obstruction 
of justice claim that they wanted.
    They hoped they were going to be able to convict and accuse 
and evidenced some claim on bribery. That is what their 
pollsters and pundits told them would be best as they solemnly 
tell us this is sad to them. They were out polling what 
lexicon, what word choice would help them make the case to the 
American public, and so they settled on bribery. You all in the 
media heard it. You heard them on every show talking about, oh, 
this is the new standard. Speaker Pelosi speaking in this new 
language, and then we asked the witnesses, were you apart of 
bribery? Did you see bribery? And the evidence wasn't there, 
and so instead of bribery, instead of treason, extortion, you 
have abuse of power, the low energy version.
    I am disappointed in my colleagues, but probably even those 
who don't support the President would share that disappointment 
in this very moment.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Reschenthaler. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Nadler. I recognize Mr. Reschenthaler for the 
purpose of a unanimous consent request.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    I ask unanimous consent to enter the letter I referenced, 
which is a letter from Chairman Engel to John Sullivan in which 
Chairman Engel says that officials who insist on counsel will 
have their salaries withheld.
    Chairman Nadler. Without objection.
    [The information follows:]

      


               MR. RESCHENTHALER FOR THE OFFICIAL RECORD

=======================================================================

      
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Reschenthaler. Thank you.
    Chairman Nadler. The question now occurs on the amendment. 
Those in favor say, aye. Aye. Those opposed, no. No. In the 
opinion of the chair, the noes have it and the amendment is not 
agreed to.
    Mr. Collins. Roll call.
    Chairman Nadler. The roll call is requested. The clerk will 
call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen?
    Mr. Cohen. No.
    Ms. Strasser. Mr. Cohen votes no.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin.
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Ms. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Sensenbrenner votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck?
    Mr. Buck. Aye.
    Ms. Strasser. Mr. Buck votes aye.
    Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline?
    Mr. Cline. Aye.
    Ms. Strasser. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Chairman Nadler. Has every member voted who wishes to vote? 
The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 17 ayes and 23 noes.
    Chairman Nadler. The amendment is not agreed to. Are there 
any further amendments to the amendment in the nature of a 
substitute?
    Mr. Jordan. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Jordan seek 
recognition?
    Mr. Jordan. I have an amendment at the desk.
    Ms. Lofgren. I reserve a point of order.
    Chairman Nadler. The gentlelady reserves a point of order. 
The clerk will report the amendment.
    Ms. Strasser. Amendment to the amendment in the nature of a 
substitute, H. Res. 755, offered by Mr. Jordan of Ohio, page 4, 
strike line 23, and all that follows through page 5, line 5. 
Page 8, strike lines 10 through 17.
    [The amendment of Mr. Jordan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The gentleman is recognized for the 
purpose of explaining his amendment.
    Ms. Lofgren. I withdraw my point of order.
    Chairman Nadler. Point of order is withdrawn.
    Mr. Jordan. Thank you, Mr. Chairman. This simply strikes 
the last eight lines in Article I and the last eight lines in 
Article II. Look, you have a rigged and rushed process when you 
don't have the facts on your side. We have been through these 
facts many times. Ukraine didn't know aid was held up at the 
time of the call, but the Democrats assert that President Trump 
was pressuring Zelensky on the call to investigate the Bidens 
in order to get the aid that he didn't even know was on hold. 
That is their argument. And, oh, by the way, down the road, 
President Zelensky says, there was no pressure on the call. No 
pushing, no linkage whatsoever. But you have a rigged and 
rushed process when you don't have the facts. You have a rigged 
and rushed process when you can't accept the will of the 
American people.
    Speaker of the House Pelosi, Nancy Pelosi called the 
President an imposter just 3 weeks ago. The Democrats have 
never accepted the will of the American people, and that is why 
they have been out to get this President since even before he 
was elected. And, of course, you have a rigged and rushed 
process when you are afraid that you can't beat the President 
at the ballot box. When you are nervous about next fall's 
election, you have this kind of process, a rigged and rushed 
process.
    This is not about the concern. This is not really about the 
concern Mr. Swalwell talked about earlier, concern that somehow 
the President was going to do something wrong and try to 
influence the election. No, no. This is about their concern 
that they can't win next year, based on what the President has 
accomplished in the past 3 years. I mean, it is an amazing 
record in spite of the Democrats being completely against the 
President, in spite of the mainstream press being against the 
President, frankly, in spite of a few Republicans being against 
the President, it is amazing what has been accomplished. Taxes 
have been cut, regulations reduced, the economy growing at an 
unbelievable rate, lowest unemployment in 50 years; 266,000 
jobs added last month alone; 54,000 in the manufacturing 
sector; Mr. Gorsuch, Mr. Kavanaugh on the court; a lot of other 
Federal judges confirmed; out of the Iran deal; embassy in 
Jerusalem; hostages home from North Korea; new NAFTA agreement 
going to be voted on next week.
    Yeah, you guys, you guys--it is a rigged, rush process, 
because you are nervous about next November. Mr. Green says we 
have to impeach him because he is going to win the election. We 
know what this is about.
    Think about this President. Think about--this is why the 
American people like him so much is because he is doing what he 
said he would do. Every presidential election I have been able 
to participate in, both candidates, Republican and Democrat 
candidates, when they campaigned for the job, they tell--they 
tell the country, if you elect me, I am going to move the 
embassy to Jerusalem. Republicans, Democrats, they all campaign 
on it. Then they get elected and they come up with a million 
reasons why they can't do what they said they were going to do.
    More importantly, what the American people elected them to 
do, and they never get it done. But this President said nope. I 
am going to do it even though the same people, the same 
interagency consensus that we have heard so much about over the 
last 3 months in this impeachment inquiry, even though that 
same interagency consensus was probably against him on that 
move, this President said I am going to do it. And it has been 
a good thing. And that is what the American people appreciate, 
and that is why we got this rigged and rushed process because 
it is really about next November. They are all afraid.
    Some of their colleagues have said it straight up. They are 
all afraid that they can't beat him at the ballot box, so they 
are going to do this rigged, rushed, and wrong impeachment 
process. So I would urge a yes vote on the amendment, and I 
would yield the remainder of my time to the gentleman----
    Mr. Gohmert. Well, I just wanted to ask the gentleman from 
Ohio a question. Based on the standards the Democrats are 
asserting here, if somebody is in the House or Senate running 
for President, and they support or push impeachment of the 
President, would they be subject to being expelled for abusing 
their position? Just curious.
    Mr. Jordan. I think I will let my colleague answer that 
question, but what I do know is, I think my colleagues on the 
other side of the aisle are, as I said, nervous about their 
prospects next November against President Trump based on his 
amazing record of leadership in the last 3 years.
    With that, I would yield back. Thank you.
    Chairman Nadler. The gentleman yields back.
    I will recognize myself to speak in opposition to the 
amendment. I think that the facts amply demonstrate the charges 
in these two Articles of Impeachment, namely, that the 
President put his own interest in front of the interest of the 
country, that he sought to use the power of the presidency to 
withhold military aid from an ally and to extort that ally into 
making an announcement of a bogus investigation of a political 
opponent for his own personal benefit, and that he obstructed 
Congress by refusing all cooperation and instructing the 
executive branch not to cooperate with Congress in the 
impeachment inquiry.
    This amendment simply takes the last two paragraphs out of 
each article. It takes the paragraph that says wherefore, the 
President should be impeached. It renders the two articles 
simply a catalog of various bad acts by the President, but 
takes the force and effect of the articles entirely away. It is 
silly. If you believe that the President is guilty of what the 
articles charge him with, you should vote for the Articles of 
Impeachment. If you believe he is not, you should vote against 
the Articles of Impeachment. But to try to have this amendment, 
which simply renders the articles--catalogs of bad acts and 
takes out the effective sentences, is silly, so I urge a no 
vote on this amendment. And I will then urge, of course, that 
we adopt the Articles of Impeachment.
    I yield back the balance of my time.
    Mrs. Lesko. Mr. Chair.
    Mr. Collins. Mr. Chairman.
    Chairman Nadler. What purpose does Mr. Collins seek 
recognition?
    Mr. Collins. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. I think it is really interesting how you just 
described this because, really, this is what we have seen this 
entire time. The facts here is really all that you have. You 
just keep throwing around these bad facts that you don't like, 
and it is interesting to me also that the catalog--and you 
finally got to it. It took a little bit to get there, but the 
catalog of bad acts that you don't like and that this simply 
takes away the punishment, if you would, or what the actual end 
result would be. It should not surprise anyone here, though, 
because this is what the Democratic party and majority have 
done all year.
    In fact, they did it one time on the floor of the House 
when the Speaker of the House broke the rules of the House on 
the floor and instead of owning up to breaking the rules of 
decorum on the floor, she had everybody come back down on the 
majority side and vote to restore her right to speak, even 
though she blatantly broke the rules.
    So don't give me this high and mighty, Oh, we are taking 
away the rules and just having a list of ideas here. That is 
what we have been doing all year. I told the audience just the 
other--I told the group just the other day, that you can always 
judge many things by what you spend time on and what you spend 
money on. Spend time on; spend money on. I have said already 
that this is an impeachment of talking calendar, and I believe 
that to be true because we are seeing it tonight. We are seeing 
it in this whole process--three hearings--two hearings, I am 
sorry, two hearings and a markup. That is all we are doing 
here. The rubber stamp in this committee is out. So it is a 
time issue, because they have been told, and I understand the 
leadership wants this to happen. This is why it is happening. 
They have got no choice. I feel for the chairman in that regard 
because he doesn't have a choice in this. The Speaker and 
others have told him, this is what is going to happen, and we 
see how it is playing out, but it goes back to even further at 
the first of the year. This is a time and money issue. This is 
a calendar and clock issue, because the committees, the 
Intelligence Committee and the Judiciary Committee decided 
early on to spend money to bring outside help in to prepare for 
tonight. They didn't know exactly it was going to be like this 
in January or November and December when they did hire that 
extra help to come in, but they knew they were going to get to 
it somehow. They just didn't know how.
    And they kept waiting and they kept waiting, so they hired 
extra outside counsel. They did it on the Intelligence 
Committee and they wanted it because all they were going to do 
is investigate the President. And they did.
    The only thing I can say on that part is, congratulations, 
they finally made it to what they have always wanted to do, and 
that is what we are seeing right here. But to describe this 
tonight and describe it as it was just described is simply 
taking away the punishment and just listing a lot of bad acts. 
I could do that about this majority all year in these committee 
and these investigations. We have had more hearings in which 
they got to basically screaming at administration witnesses, 
but yet offering no solutions. It is mind-boggling. It is 
dehumanizing, as one of my colleagues said. We were talking 
about immigration.
    Now, today, to, again, come before this committee to take 
all of this and never have a fact witness, I think it was 
really interesting what my friend from Florida said, it is 
actually there is a purpose to see people at witness even if 
they have testified before to see how they would actually 
answer questions.
    And in this committee that would have been a good thing, 
but we don't have that. But to say, with a straight face, and I 
appreciate this, to say, Well, at the end of the day, all we 
are doing here is taking away the punishment because you have a 
list of bad actors, when the majority have done that all year, 
and especially the classic case of the Speaker on the floor of 
the House breaking the law of the rules of the floor and then 
having the majority come down and restore her rights just 
simply because they didn't like the fact that she had broke the 
rules.
    You see, this is where we are at. It is a money and time 
issue. It would be nice if it was high and noble. It would have 
been nice except for all the crimes they have talked about. 
Extortion, bribery, fraud. It would have been nice if they 
could have found actual facts enough to put that into an 
article. They couldn't. They won't. Why? Because they can't--
maybe it is because also they are having trouble explaining 
those because they couldn't--poll testing wasn't good enough, 
and also they got members who need to go back to their 
districts and say, Oh, my, I was forced to do this, but really 
the President's a bad guy and this is an abuse of power.
    Again, say it long enough, somebody might believe it, but 
this is where we are at and it is really interesting, again, 
from obstruction of Congress to watch this Congress, this 
majority work is just truly, truly amazing. And to say this, 
when no facts put together abuse of power, obstruction of 
Congress, this is all they have got, all they have to make this 
excuse, good luck. That dog ain't hunting anymore. Nobody is. 
It just ain't working.
    With that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Mrs. Lesko. Mr. Chair.
    Chairman Nadler. Does anyone else seek recognition?
    Mrs. Lesko. Mr. Chair.
    Chairman Nadler. What purpose does Mrs. Lesko seek 
recognition?
    Mrs. Lesko. Thank you, Mr. Chair. I think it is an 
appropriate time--or I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Lesko. Thank you, Mr. Chair. I think it is an 
appropriate time to remind you again of your own words that 
were stated just a few months ago last year. During an 
interview on MSNBC's Morning Joe on November 26, 2018, Chairman 
Nadler outlined a three-prong test that he said would allow for 
a legitimate impeachment proceeding. And now I quote Chairman 
Nadler's remarks. There really are three questions, I think. 
First, has the President committed impeachable offenses? 
Second, do those offenses rise to the gravity that is worth 
putting the country through the drama of impeachment? And 
number three, because you don't want to tear the country apart, 
you don't want half of the country to say to the other half for 
the next 30 years, we won the election; you stole it from us.
    You have to be able to think at the beginning of the 
impeachment process that the evidence is so clear, of offenses 
so grave that once you have laid out all the evidence, a good 
fraction of opposition, voters will reluctantly admit to 
themselves they had to do it.
    Mrs. Lesko. Otherwise, you have a partisan impeachment, 
which will tear the country apart. If you meet these three 
tests, then I think you do the impeachment.
    Now, let's see if Chairman Nadler's three-prong test has 
been met. First, has the President committed an impeachable 
offense? No. There has been no witness, no Democrat witness, 
fact witness, that can prove that fact. Second, do those 
offenses rise to the gravity that is worth putting the country 
through the drama of impeachment? Absolutely not. And third, 
have the Democrats laid out a case so clear that even the 
opposition has to agree? No.
    You and House Democrat leadership are tearing the country 
apart. You said the evidence needs to be clear. It is not. You 
said offenses need to be grave. They are not. You said that 
once the evidence is laid out, that the opposition will admit 
they had to do it. Well, that hasn't happened. In fact, polling 
and the fact that not one single Republican voted on the 
impeachment inquiry resolution or the Schiff report, and I 
doubt that one single Republican will vote on these Articles of 
Impeachment tonight or on the floor of the House of 
Representatives reveals that the opposite is, in fact, true.
    In fact, what you and your Democratic colleagues have done 
is the opposite of what you said had to be done. This is a 
partisan impeachment and it is tearing the country apart.
    And, with that, I yield back.
    Chairman Nadler. The gentlelady yields back.
    Does anyone else seek recognition?
    Mr. Johnson of Louisiana. Mr. Chairman, I seek recognition.
    Chairman Nadler. For what purpose does Mr. Johnson seek 
recognition?
    Mr. Johnson of Louisiana. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Louisiana. Thank you.
    Mr. Chairman, I am just rising to speak in support of this 
amendment from Mr. Jordan, and I think it is really 
appropriate. I don't think we are asking for anything 
extraordinary here, because I am reading this resolution as it 
is drafted, and the language just jumps off the page.
    I mean, this is really personal. The lines that he is 
seeking to strike with this amendment should be struck. I mean, 
the vitriol, the hatred just drips from the pleading here. I 
mean, it sounds like it came right out of the Peter Strzok-Lisa 
Page exchanges, the vitriol, the hatred for Donald Trump. 
Listen to what it says right here. This is right here on the 
page, the lines that we want to strike, it says, in part: 
President Trump warrants impeachment and trial, removal from 
office, and disqualification to hold and enjoy any office of 
honor or trust or profit under the United States.
    I mean, look, they don't just want to remove him from the 
Oval Office, okay. They want to crush him. They want to destroy 
Donald Trump. They want to banish him from the marketplace. I 
mean, it is just so over the top. It is so over the top.
    Professor Turley is, again, the only witness--I remind 
everybody, this is the only witness that we have been allowed 
in the Judiciary Committee, the committee that has appropriate 
jurisdiction over this issue. We got one witness in the 
process. And he was not a Donald Trump supporter. He came in 
famously and said, I didn't vote for him, don't support him, 
but I came to give objective analysis, because my allegiance is 
to the Constitution. That is what Professor Turley said.
    You know what he got for that objective analysis that he 
delivered to this committee so well, so articulately? He got 
death threats. He had to publish an op-ed a few days later 
explaining that there was this outcry, a call for him to be 
removed from his teaching position at his university, his law 
school. Death threats because he gave an objective view of the 
Constitution. The vitriol, the DEFCON level. The political 
DEFCON scale is at one right now, and it is so crazy, and it is 
because of language like this in the resolution that is pushing 
this.
    But I will tell you what Professor Turley said, a couple of 
excerpts in his summary of all this. He said, quote, as I have 
stressed--this is in his written report that he submitted to 
us. As I have stressed, it is possible to establish a case for 
impeachment based on noncriminal allegation of abuse of power. 
Right. But although criminality is not required in such a case, 
clarity is necessary.
    That comes from a complete and comprehensive record that 
eliminates exculpatory motivations or explanations. The problem 
is that this is an exceptionally narrow impeachment resting on 
the thinnest possible evidentiary record. Even under the most 
flexible English impeachment model, there remained an 
expectation that impeachments couldn't be based on presumption 
or speculation on key elements. If the underlying allegation 
could be noncriminal, the early English impeachments followed a 
format similar to a criminal trial, including calling of 
witnesses and all the rest.
    He said, the history of American Presidential impeachment 
shows restraint even when there are substantive complaints 
against the conduct of Presidents. Indeed, some of our greatest 
Presidents could have been impeached for acts in direct 
violation of their constitutional oaths of office, but it 
didn't happen because cooler heads prevailed in the Congress.
    Professor Turley continues: This misuse of impeachment has 
been plain during the Trump administration. Members have called 
for removal based on a myriad of objections against this 
President. Representative Al Green of Texas filed a resolution 
in the House for impeachment after Trump called for players 
kneeling during the National Anthem to be fired.
    I mean, come on. You don't like his political positions, 
great, but you can't impeach a President because you don't like 
him. That is not how this system works. We are in a 
constitutional republic. There are rules here. There are 
standards. You don't get to make that decision; the voters in 
this country do. And we have an election coming up in about 11 
months. Let the people decide. Don't put yourselves in their 
place. You don't have the right to do it. You are not following 
the proper procedure. You are not doing this the right way. It 
is a rarely used constitutional device in our history. It is 
supposed to be.
    Professor Turley ended this way, and I will too. He said, 
quote: ``Despite my disagreement with many of President Trump's 
policies and statements, impeachment was never intended to be 
used as a midterm corrective option for a divisive or unpopular 
leader,'' unquote.
    Look, we get it, you don't like him. That doesn't mean you 
can banish him from the marketplace. You can't send him out of 
his businesses and say he can't hold a position of honor or 
trust. You don't get the right to do that; the people of this 
country do. We live in a republic. I am just sick of this.
    I yield back. I don't yield back. I yield to the gentleman, 
Mr. Jordan. Do you want the time? I got 30 seconds.
    Mr. Jordan. Thirty seconds, thank you.
    Look, in 2016, the Democrats had the insurance policy, 
Peter Strzok and Lisa Page. That was their deal in 2016, the 
FBI. 2020, it is impeachment. 2020, they are going to use 
impeachment. Insurance policy didn't work in 2016. Impeachment 
is not going to work in 2020, because the American people 
appreciate what this President is getting done on their behalf.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Does anyone else seek recognition?
    Mr. Gohmert. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Gohmert seek 
recognition?
    Mr. Gohmert. Ask to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gohmert. Thank you.
    It truly is amazing. We have heard over and over that this 
was all about the Bidens, all about getting information on a 
Presidential candidate, the Bidens. But if you look at what the 
President said, he is talking about, you know, we have been 
through, this country, our country has been through a lot, and 
Ukraine knows a lot about it. I would like you to find out what 
happened with this whole situation with Ukraine.
    They say CrowdStrike. It is news to me, but my Democrat 
friends will know better. I didn't know Biden was involved with 
CrowdStrike. I didn't know he was involved with the DNC server 
being hacked. I didn't know that was all part of his thing, but 
that is what the President is asking about, because there has 
been information that there were some people in Ukraine that 
knew something about that, and that is what he is asking about. 
So I appreciate the revelation from my friends across the aisle 
Biden was in the middle of all that.
    So I guess you have one of your wealthy people. The server, 
they say Ukraine has it. Again, I didn't know Biden was all in 
up to his eyeballs in that. But there are a lot of things that 
went on, the whole situation. And I think you are surrounding 
yourself with some of the same people. I would like to have the 
Attorney General call you and your people. I would like to get 
to the bottom of it.
    So that was the whole thing about the 2015, 2016 election, 
but according to our friends, Biden was in the middle of all of 
this mess.
    So, anyway, it is interesting. But my friend from Ohio has 
a brilliant amendment. They say it is not personal, that this 
isn't just about an election; that this is trying to undo the 
unfairness of the prior election, even though it turns out 
there was no Russia collusion. And it sounds like that there 
was, despite what the media is saying, that we know the 
Ukrainian Ambassador came out lambasting Trump.
    Clearly, that would not have been done without official 
okay. They were all in for Hillary Clinton. That is why it was 
reported that they were figuring, after the election that Trump 
won, maybe we better try to warm up to Trump. But there has 
been so much made of the fact that President Trump did not ask 
the former corrupt administration for help in rooting out 
corruption. That is just almost unfathomable that that point 
would continue to be made all day today.
    In 2019, you had the election of a man in Ukraine, 
Zelensky, that said he was going to fight corruption. And 
President Trump heard from our own people, we think he is 
sincere, we really think he is going to try to fight 
corruption. So, of course, this is the first time that he talks 
to a Ukrainian leader, because he knew he couldn't trust the 
other ones. They were supporting Hillary Clinton. They were 
corrupt. Why would he talk to them about helping root out the 
corruption?
    So to say this was all about Biden, for heavens sake, that 
is ridiculous. But my friend from Ohio's amendment puts our 
friends to the test. Is it really about trying to correct what 
you say was an unfair election, which we know now from the 
Horowitz report it was unfair, but it was from the Democrat 
side, from the Trump hater side. So if that is really the case, 
then let's just strike the part that says he can't ever run for 
office again or be reelected again. Right? Wouldn't that help 
some of your vulnerable Democrats if you made it more 
reasonable like that, or do you want to continue to persist in 
making it so personal that it is walk off the plank time for 
anybody that wants to try to be reasonable about what is going 
on here?
    So we will see, but it is a good amendment. I would 
encourage my colleagues on both sides of the aisle. Help some 
of your vulnerable people out. Vote for Mr. Jordan's amendment. 
You will be better off. The country will be better off, because 
I feel sure he will be reelected.
    And the scary part for me, though, is the bar has been set 
so low, I am really afraid, no matter what party is in the 
White House, if there is an opposing party in Congress, they 
are going to use this tactic to try to take them down. One 
silver lining, though. It has been hard to know who all the 
deep state people were, especially in the State Department. By 
our friends going through this, we now know who the people are 
that don't want the swamp drained, and we can deal with that.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    I now recognize myself.
    Mr. Swalwell. Mr. Chairman.
    Chairman Nadler. I recognize myself--oh, I am sorry. For 
what purpose does Mr. Swalwell seek recognition?
    Mr. Swalwell. I yield to the Chairman.
    Chairman Nadler. Thank you.
    Impeachment was put into the Constitution because the 
Framers recognized that a President might arise who posed such 
a threat to the country, to our democratic system, to our free 
elections, that we couldn't wait until the next election to 
cure it. That is why impeachment was put into the Constitution.
    Now, we have heard a lot of very distracting facts about 
what Hunter Biden may or may not have done about all kinds of 
things, and about what our Members may have said 3, 4 years 
ago. All of that is irrelevant. What is relevant is, that there 
are ample facts to demonstrate that President Trump put his 
personal interests above the interests of the country, its 
citizens, and the Constitution. This is the highest of 
constitutional crimes, an abuse of power.
    Abuse of power is the preeminent crime, which the Framers, 
even in the Federalist Papers, talked about as high crimes and 
misdemeanors for the purpose of impeachment. In President 
Trump's abuse of power, he did it in two ways. Number one, he 
endangered our free elections by inviting foreign powers to 
interfere to influence our elections twice. He invited the 
Russians in 2016. Remember, ``if the Russians, if you are 
listening, please find the emails.'' That was a direct 
solicitation and, in fact, they tried to hack into the emails 
of the Democrats that very night. And then he tried to cover it 
up.
    And then for 2020, he asked the Ukrainians to announce a 
bogus investigation of the person he perceived as his major 
political opponent in the 2020 election. And it is basically 
admitted. Mick Mulvaney said, ``we did it.'' The President on 
the transcript shows very clearly that he did it. The 
circumstances of the withheld aid shows very clearly it was a 
quid pro quo.
    Yes, we know that eventually the aid was released, and that 
the President said there was no quid pro quo. Both of those 
things happened after he was caught and it was public. 
Obviously, the bank robber caught in the act afterwards says, I 
didn't mean to rob the bank. But he was, in fact, caught in the 
act.
    He tried to cover it up again. He obstructed Congress by 
directing the entire administration, everybody in the executive 
branch, to not answer any questions. Do not testify. Do not 
give any documents. Fundamentally different from what other 
Presidents have done on occasion, which is to oppose certain 
subpoenas on grounds of privilege. He didn't assert any 
privilege. He just said nobody should cooperate. I will decide 
whether it is a valid impeachment inquiry. I will take the 
function of Congress to myself, because I don't recognize 
Congress' right. That is a threat to the separation of powers 
and a threat to our liberty.
    It is noteworthy that Members of the minority speak about 
every other subject, but they hardly bother to dispute the 
facts of the case, which are clear. That is why we have heard 
so much today with distracting and irrelevant issues. Even I 
would say other things. It is clear that it is an abuse of 
power for the President or any Member of Congress, for that 
matter, to condition official actions on their own personal 
gain.
    I was impressed by Mr. Ratcliffe's honesty, but I was 
startled to hear him say that it is okay for a President to 
invite foreign interference in our elections. It is okay for a 
President to cheat and try to rig the election.
    The urgency of this impeachment, the reason why we cannot 
wait for the next election is that the President has tried to 
rig the last election and this one too, and he is repeating it. 
He goes out on the White House lawn and he says, China, why 
don't you come in and try to rig the election. He had Mr. 
Giuliani in the Ukraine this past week trying to enlist 
assistance to rig the election.
    So the President must be impeached to safeguard the 
security of our elections and to safeguard the separation of 
powers, both of which are essential to safeguard our liberties.
    I thank the gentleman for yielding. I yield my time back to 
him.
    Mr. Ratcliffe. Mr. Chairman, since I have been referenced, 
may I respond?
    Chairman Nadler. It is Mr. Swalwell's time.
    Mr. Swalwell. I do not yield. And I yield back.
    Chairman Nadler. The gentleman yields back.
    Mr. Ratcliffe. You don't want to correct the false 
statement?
    Chairman Nadler. The gentleman yields back.
    Who else seeks recognition?
    For what purpose does Mr. Sensenbrenner seek recognition?
    Mr. Sensenbrenner. Mr. Chairman, I move to strike the last 
word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. I yield to the gentleman from Texas.
    Mr. Ratcliffe. I appreciate my colleague yielding to 
correct the record where the chairman of the House Judiciary 
Committee just made a false statement, said that I said that it 
was okay to solicit foreign interference in an election. I 
never used the word ``interference.''
    Chairman Nadler. Okay.
    Mr. Ratcliffe. I said foreign involvement in 
investigations, and I used as an example for that the Obama 
administration. It was just a few hours ago, you may not 
remember.
    I can't believe we are sitting here at the end of this, an 
impeachment inquiry in the House of Representatives. And I look 
at how all of this started. It started with a phone call, a 
congratulatory phone call between two Presidents. And the very 
next day, someone contacted someone, and a week later, someone 
walked into the office of Chairman Schiff. And that person 
walked out, a week later, a whistleblower, went to the 
Inspector General and filed a complaint where they falsely 
claimed that President Trump had made a demand of President 
Zelensky. They made a false statement in writing and then they 
made a false statement verbally in the course of what should 
have been an investigation.
    We sit here today about to vote on impeaching a President 
where neither the House Judiciary Committee, the House 
Intelligence Committee, or any House committee where the 
Democrats are in charge has asked a single question of a single 
witness about how this started, because you go back to that 
phone call. And the two people that were on it, the only two 
people that know, not just what they said, but what they meant 
when they said it, and they both said it was a great call.
    So, first, let me say I am sorry. Let me say I am sorry to 
the President of Ukraine. I am sorry that as a result of all of 
this, you have been labeled a pathological liar by my 
Democratic colleagues. And I am sorry that they pretend to care 
about the Ukraine, but they have just made it incredibly hard 
and more difficult for your country ever to get military 
assistance.
    I am also sorry to the other person that was on that call 
who knew what he said when he meant it, President Trump. I am 
sorry, President Trump, that you have tried to keep every 
promise. You have given us a great economy, and you did it 
against incredible headwinds where you were falsely accused of 
treason. You were accused of being a Russian agent by the folks 
in this room. And when that failed, we sit here today because 
now they are framing you because you said, I would like you to 
do us a favor, though, because our country has been through a 
lot.
    My last apology is to the American people. I am sorry. I am 
sorry that you have had to view this spectacle. I am sorry to 
the 63 million of you that are so deplorable that as a result 
of this, you are being told your votes don't count.
    I yield back.
    Mr. Sensenbrenner. I yield back as well.
    Chairman Nadler. The gentleman yields back.
    Does anyone else seek recognition on this amendment?
    Mr. Reschenthaler. Mr. Chairman.
    Chairman Nadler. For what purpose does Mr. Reschenthaler 
seek recognition?
    Mr. Reschenthaler. To strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    We have been here a while, and I do want it to be noted 
that I do have several other amendments for tonight. But 
speaking on this amendment, speaking in support of my colleague 
Jim Jordan's amendment, but I think that we are getting way too 
caught up in the weeds in particular.
    So we have got to just zoom out and think about why we are 
here. We are here because the Democrats, again, are terrified 
that the President is going to win reelection. Let's just go 
through a list of his accomplishments.
    Donald Trump signed the largest scale criminal justice 
reform legislation in decades, in decades. And I should add, if 
it weren't for this waste of time with impeachment, we could be 
working on more bipartisan criminal justice reform. 
Particularly, I have a criminal justice bill called Clean Slate 
that would expunge nonviolent felony offenses for hundreds of 
thousands of individuals. Lisa Blunt Rochester is working with 
me on that. She is a Democrat, as you know. But anyhow, I 
digress again.
    Donald Trump is also ensuring our warfighters can be 
warfighters. I was a defense attorney in the Navy. I actually 
defended a Navy SEAL who was falsely accused of covering up 
abuse on a well-known terrorist. And I can tell you that when 
our warfighters are dragged into the court-martial process, 
they have to constantly then second-guess themselves on the 
battlefield. And finally, we have a President that is 
recognizing that warfighters should be warfighters, and they 
should be focused on capturing and killing targets, not 
worrying about wrongful prosecutions back at home.
    Additionally, the President has placed two conservative 
Justices on the Supreme Court, who will uphold the 
Constitution. Additionally, under this administration, we are 
seeing a natural gas renaissance. Just come to western 
Pennsylvania and just see how the economy is roaring, because 
we are finally taking advantage of the natural resources we 
have. And we can use this natural gas for energy. We can use it 
for manufacturing. We can use it for petrochemicals. It is 
fantastic that we are finally taking advantage of the natural 
resources we have.
    Additionally, this President has done a lot for 
manufacturing, particularly the steel industry, which is coming 
back. And, again, just come to western Pennsylvania where steel 
manufacturing is coming back.
    Donald Trump is also investing and focused in our border 
security and building a wall. Under this President's 
leadership, we are enhancing our national security and going 
after terrorists and others who wish to do us harm.
    But, again, we are here because the Democrats don't want to 
talk about the red hot Trump economy. They don't want to talk 
about the lowest unemployment rates in 50 years. We are here 
because Democrats don't want to talk about how President Trump 
has finally held China accountable for currency manipulation, 
for dumping steel and aluminum in American markets. Someone is 
finally holding China accountable for IP theft and forced IP 
transfers. That is President Trump who is doing that.
    President Trump has also renegotiated trade deals to 
benefit American workers and farmers. We should have passed 
USMCA months ago, months ago. But, again, we haven't done it 
because we are dealing with impeachment. The President has also 
worked on free trade agreements with Japan. He has worked on 
free trade agreements across South America.
    President Trump has also reduced regulations. You know, 
there is only one way to increase revenue, and that is to 
increase GDP. There are only two ways to increase GDP. You 
either cut taxes or you reduce regulations. You can do both, 
but this President supports both. That is why you have such a 
strong economy.
    But, again, the Democrats don't want to talk about this. So 
instead, we are talking about impeachment, because it distracts 
from their real agenda, which includes such ludicrous ideas as 
banning airplanes, getting illegal immigrants taxpayer-funded 
healthcare, abolishing or defunding ICE, banning fracking, 
banning fossil fuels. Good luck making a cell phone without 
petrochemicals. They also don't want to talk about taking 
private healthcare away from American citizens.
    So, again, that is really why we are here. This whole 
process is a distraction, is an attempt to hide a radical far 
left agenda. And it is also an attempt to hide the facts. 
Again, the facts indicate that there was no quid pro quo and 
there was no obstruction of Congress.
    With that, I yield.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Cicilline seek recognition?
    Mr. Cicilline. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cicilline. It seems important to remind my Republican 
colleagues why we are here. Well, of course, we have policy 
disagreements with the President. This is not about a policy 
disagreement. This is about an obligation we have to protect 
and defend the Constitution of the United States. We all began 
our term of office by raising our right hand and promising to 
protect and defend the Constitution.
    And we are here because the President of the United States 
engaged in a scheme to drag a foreign power into our elections, 
to corrupt our elections, for his own personal benefit, and he 
used hundreds of millions of dollars of taxpayer money to 
attempt to achieve that objective.
    And think about this. There is nothing more sacred than 
protecting the right to free and fair elections in this 
country. It is the heart and soul of our democracy. And the 
President of the United States reached out to a foreign power 
in an attempt to drag them into corrupting our elections, to 
help him cheat and win in the election in 2020.
    And so when my Republican colleagues say people are worried 
about the election, we are worried. But the person who is 
really worried about the outcome is clearly President Trump, 
because he is reaching out to a foreign power asking them to 
help him cheat in the 2020 election. And we have a solemn 
responsibility to stand up and to protect our democracy and 
prevent this President or any President from attempting to 
corrupt our elections.
    And so if we don't do that, if we allow President Trump to 
get away with trying to cheat in 2020, particularly in light of 
what he did in 2016, we won't have a democracy. We will have a 
king or a monarch. The American people will lose their voice 
and their right to self-determination and to elect their own 
leaders.
    And so, you know, my Republican colleagues should remember 
that Trump administration officials, many of them saw this 
scheme and became very alarmed. The President's own Ambassador, 
Mr. Bolton, Ambassador Bolton called it a drug deal. Dr. Fiona 
Hill, another Trump administration official, called it a 
domestic political errand.
    The investigation began by the Intelligence Committee, 17 
witnesses, 100 hours of testimony, 260 text messages examined, 
transcripts of the President's own words on the call, emails 
exchanged between high-level Trump officials.
    And we know the direct evidence. The President put the 
Three Amigos--Ambassador Sondland, Perry, and Volker--in charge 
of this. The President refused to have a meeting or to release 
the funds that were put on hold until a public announcement of 
a bogus investigation against his chief political rival. He 
told the Vice President, don't go to the inauguration. He spoke 
to Ambassador Sondland. And Ambassador Sondland testified it 
was a quid pro quo.
    The President hired his personal lawyer, Rudy Giuliani, to 
lead this effort. He smeared Ambassador Yovanovitch and then 
fired her because she stood in the way. She was an 
anticorruption champion, and she stood in the way of the 
President's scheme. And the President and those acting on his 
behalf demanded that Zelensky, President Zelensky publicly 
announce investigation of his chief political rival.
    And it should be remembered, the American people should 
know that President Zelensky--the evidence is filled with 
examples of Trump administration officials who say things like 
President Zelensky is sensitive about Ukraine being taken 
seriously, not merely as an instrument in Washington domestic 
reelection politics.
    And Ambassador Taylor has a call with Ambassador Sondland 
saying, during our call, Sondland tried to explain to me that 
President Trump is a businessman, and when a businessman is 
about to sign a check to someone who owes him something, the 
businessman asks that person to pay up before signing the 
check, and that I argued to both Ambassador Volker and 
Ambassador Taylor that Donald Trump isn't owed anything by the 
Ukrainians. And I quote, ``and holding up security assistance 
for domestic political gain is crazy.''
    And so there is tremendous evidence in the record. The 
President of the United States attempted to leverage foreign 
military assistance to Ukraine to drag a foreign power to 
corrupt our elections and allow him to cheat in 2020. We can't 
allow this to happen.
    If we don't hold this President accountable and move 
forward with impeachment, we can have every confidence the 
President will continue to do this. He is continuing to do it. 
Rudy Giuliani was in Ukraine last week. This is a crime in 
progress. And either we are going to do something about it and 
protect the rights of the American people to decide their own 
future and elect their own President or we are going to let 
some foreign power do it. And you know who has the right to 
elect the American President? The citizens of this country and 
no one else. Men and women have died on the battlefield to 
protect our democracy. The least we can do is show the courage 
to stand up tonight and do our part to protect our democracy.
    And, with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Does anyone else seek recognition on the amendment?
    Mr. Armstrong. For what purpose does Mr. Armstrong seek 
recognition?
    Mr. Armstrong. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Armstrong. And I am going to go back to actual language 
of the amendment, and particularly the removal from office and 
disqualification to hold and enjoy any office of honor, trust, 
or profit under the United States.
    So at numerous points in time during today's debate, my 
friends on the other side of the aisle have held up a pocket 
Constitution, waved it around. I think it is interesting nobody 
has read from it yet, and I think there is a reason for that, 
but I am going to read from the Constitution.
    And if we want to talk about Article I, which we are so 
fond of, then let's go to Article I, section 2, clause 5. The 
House of Representatives shall choose their Speaker and other 
officers and shall have the sole power of impeachment. Article 
I, section 2 deals with the U.S. House of Representatives. 
Article I, section 3 deals with the Senate. The Senate shall 
have the sole power to try all impeachments. Article I, section 
3, clause 6. Judgement in case of impeachment shall not extend 
further than to removal from office and disqualification to 
hold and enjoy any office of honor, trust, or profit under the 
United States. Article I, section 3, clause 7.
    The language in this bill is overbroad, gives the U.S. 
House of Representatives and this impeachment article more 
power than the Constitution allows.
    We have heard through the course of this investigation, 
when we have complained about process, when we have talked 
about secrecy, when we have not been allowed to use minority 
rights, that this is more akin to a special counsel. Adam 
Schiff has referred to himself as a special counsel. Or it is 
more akin to an investigation or a grand jury. Well, right now, 
what we are doing is becoming the judge, jury, and executioner.
    The Senate has determined that issues of removal and 
disqualification are divisible from other Articles of 
Impeachment. Essentially, what happens in the Senate is there 
is a two-thirds vote if an impeachment is granted and then a 
simple majority in which to say whether they are going to hold 
from other office. And while the House has the sole power of 
impeachment, the Constitution also provides that the Senate has 
the sole power to trial impeachment. The Constitution describes 
the Senate's conviction power, which allows the Senate to 
remove an official from office and disqualification of that 
official from holding future office.
    The Democrat Articles of Impeachment state the President 
should be removed from office and disqualified to hold future 
office. The House has no constitutional authority to include 
this language that suggests the President should be removed 
from office. At best, it is unnecessary and, at worst, it is an 
overbroad description of what the actual power of this body is.
    To include the language that the President should be 
disqualified from office is prejudicial to the constitutionally 
prescribed process that the Senate will take up. And I agree 
with my friend from Ohio and others on my side, it really shows 
the true motives of the Senate.
    It is circular how this has all gone. It started in 2016. 
Now we are back to 2020. In the middle, we had, again, 
collusion, conspiracy, obstruction, quid pro quo, bribery, 
extortion, all of these other crimes. We have come to the 
nebulous part of this.
    There have been a lot of smart lawyers on my friends' side 
on the other side of this case, so I can't imagine this is an 
omission. And what we are truly doing is taking power away from 
the United States Senate, which is at their sole discretion. 
You have the right to proceed with this, we know this. And we 
have seen how this has gone. It has been fast-tracked and 
railroaded since day one. And you can equate yourself to a 
grand jury, a special counsel, an investigation, but you have 
no right, as the U.S. House of Representatives, to be judge, 
jury, and executioner. So while you may say taking this 
language out is ridiculous, I think it is actually 
constitutional.
    And, with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    Does anyone else seek recognition on this amendment?
    For what purpose does Mr. Gaetz seek recognition?
    Mr. Gaetz. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gaetz. Thank you, Mr. Chairman.
    There has been much said about motive this evening from my 
Democratic colleagues. They seek to opine as to the President's 
motives rather than looking at his own words reflecting in the 
transcript. They seek to opine into his motive rather than 
listening to the direct statements of President Zelensky that 
he felt no conditionality and no pressure in communications 
with the administration.
    But this amendment, this amendment shows the true motive of 
the Democrats, because it is not about some cleansing of the 
office. It is not about some restoration of national security. 
If it was about national security, they would have been all up 
in arms when President Obama withheld military aid to the 
Ukrainians. But they weren't. It is all just a show to 
demonstrate some attack on the President.
    Four facts never change. President Trump and President 
Zelensky both deny conditionality. The transcript shows no quid 
pro quo. Ukraine was not aware of any delay in military aid at 
the time of the call, and the aid was ultimately delivered, in 
the absence of the investigations the Democrats are talking 
about. Nothing has changed those four facts.
    But I do wonder, if we had had the opportunity to hear 
witnesses, what more would we have learned beyond that? If we 
would have been able to call Chairman Schiff as a witness, like 
we had asked, maybe we would have learned about his office's 
contact with the whistleblower. Maybe we could have asked 
Chairman Schiff why he felt it appropriate to go engage in some 
weird theatrical reperformance of a transcript that never 
existed. It was just a fake thing that he did in the 
Intelligence Committee. Maybe we could have asked him why he 
wasn't fully forthcoming about his office's contact with the 
whistleblower when he was asked about it on national 
television.
    We could have asked Chairman Schiff his reasons for 
omitting exculpatory evidence in the majority's report. And 
most certainly, we would have wanted to ask Chairman Schiff 
whether it was his decision or someone else's decision to 
publish correspondence and communications between the 
President's personal lawyer and others, journalists, and even a 
Member of Congress.
    We could have also learned a lot probably from the 
whistleblower. We could have learned about who the multiple 
sources were that they spoke to and whether or not the 
information was accurate, whether or not it was reliable and 
verifiable. We could have asked the whistleblower why the 
outreach to Chairman Schiff's staff in this particular way, 
whether or not it was truly a sincere concern or the result of 
some political bias. We could have asked the whistleblower 
about potential contacts with Presidential campaigns.
    We could have asked Nellie Ohr a lot of questions too. She 
was on our witness list. We probably would have wanted to know 
from Nellie Ohr how is it that one of the top people at the 
Department of Justice can have a spouse that goes and 
moonlights for people trying to dig up dirt on a Presidential 
campaign and then see that very dirt shuttled into the 
Department of Justice, injected into the bloodstream of our 
intelligence community, and then used as an illegitimate basis 
to go and spy on American citizens. We probably would have 
asked Nellie Ohr which Ukrainian legislators she was talking to 
to dig up dirt on the President. What was on the thumb drive 
that she gave to her husband?
    We would have had a lot of questions for Alexandra Chalupa. 
Alexandra Chalupa was the intermediary between the DNC and 
elements of the Ukrainian Government that were working against 
President Trump. We could have asked Alexandra Chalupa whose 
idea at the DNC was it to have a specific operative assigned to 
the Ukraine to impair our elections? Whose idea was that? Who 
funded it? Was it some specific donor? Was it some elected 
official that was out there trying to bring Ukraine into our 
elections? We could have asked Alexandra Chalupa who at the 
Ukrainian Embassy were you talking to? What elements in the 
Ukrainian Government were engaged in trying to see President 
Trump defeated?
    I mean, we already saw Ukraine engaging in our elections in 
plain view when you have the Ambassador from Ukraine writing 
op-eds criticizing the President, animating the President's 
legitimate concern that, hey, maybe we ought to ask a few 
questions of these folks. Maybe we ought to verify that 
Zelensky is the real deal that he, in fact, turned out to be.
    I don't know that we have learned a great deal at these 
hearings, other than the fact that the Democrats have been 
hell-bent on impeachment since they first took the majority, 
that they have been unfair in their process, that they have 
been unable to evidence accusations against the President with 
anything other than hearsay and conjecture, but I would have 
liked to have known a lot more. And that is why the rules of 
the House allow it. That is why no matter who is in charge, the 
minority gets to call witnesses and bring forward evidence, 
because you know what, it is clear to the American people 
watching that the President did not do something to justify 
this impeachment. But I think we could have done a lot more to 
fulfill the President's promise to drain the swamp if we would 
have actually followed the rules.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Richmond seek recognition?
    Mr. Richmond. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Richmond. Mr. Chairman, I would start by yielding time 
to my colleague from California, Ms. Lofgren.
    Ms. Lofgren. Thank you.
    You know, there is a doctrine where if you can't argue the 
facts, you can't argue the law, argue a lot, you know. In the 
Constitution, it has the very language that is in the article, 
and I would just like to read this.
    ``Wherefore, William Jefferson Clinton, by such conduct, 
warrants impeachment and trial and removal from office and 
disqualification to hold and enjoy any office of honor, trust, 
or profit under the United States.'' The exact same language 
that is being complained about this evening with Mr. Trump was 
put into the articles by the Republicans relative to Mr. 
Clinton.
    And I yield back with thanks.
    Mr. Richmond. Thank you to my colleague from California.
    And I would just remind, because it was brought up by my 
colleague from Louisiana that this was some extraordinary 
language designed to go after Donald Trump. This committee, the 
Judiciary Committee in the House, when it impeached Judge 
Thomas Porteous from Louisiana, which my colleague is very 
aware of, and it went over to the Senate and was voted on 
unanimously, 96 to 0, had the same exact language in it.
    There is nothing extraordinary about the language in this. 
What is extraordinary is the gymnastics and hurdles that my 
colleagues on the other side are going through to make sure 
that they just throw a whole bunch of stuff at the wall, hope 
that they confuse the American people, hope that something 
sticks.
    My friend on the other side just mentioned that this 
President wanted to make sure that this new Ukrainian 
administration was not corrupt like the last one. Well, he gave 
the last corrupt administration $550 million.
    Again, what a judge will tell you when you are on a jury is 
you get to apply common sense. And if it doesn't make sense, 
you don't have to believe it. So if you gave $550 million to an 
administration you knew that was corrupt, what happens between 
2018 and 2019, besides you being scared to death of your next 
political opponent? But what the judge will also tell you is 
that you do not have to take everything that everybody says as 
fact.
    But in this case, let's look at the three witnesses that 
testified under oath. Vindman, Lieutenant Colonel, Purple 
Heart. He said it was a meeting in exchange for an 
investigation into the Bidens. Sondland, Trump supporter, said 
that it was a quid pro quo. Bill Taylor, West Point, said that 
it was crazy to withhold military aid for an investigation. All 
under oath, all with the penalty of perjury.
    Who do they offer on the other side? President Trump. 
14,435 lies to date since he has been President, not under 
oath, but we should take his word for it. Then it is so absurd, 
because in a call--we know the President's vocabulary. We know 
what he does and what he does not say. He may say bigly, he 
might say great, he might say winning a lot. But in his 
ordinary conversation, he does not use the words ``quid pro 
quo.''
    So when he has the conversation after the whistleblower is 
known to everybody, he gets a call. First thing out of his 
mouth, hey, I don't want a quid pro quo. Where did that come 
from? It came from the fact that you are guilty of the crime 
that is charged. Just like a kid who just got caught going into 
the cookie jar with crumbs on his mouth when his mother says, 
what are you doing? I didn't eat that cookie. That is what we 
have, a call out of the blue. The first thing he says is, I 
don't want a quid pro quo, I want them to do the right thing.
    No, you would not have held up their vital military aid. 
You have to understand that this is a country that is being 
occupied by his friend Putin, and he is holding up the vital 
aid for them to protect their country, because he says it is 
about corruption.
    But we know from the facts in this case, from the three 
people who testified under oath, that all this was about was 
making sure that he gets an investigation into Joe Biden. Why 
was that important? Because when you panic, you go back to what 
worked the first time. And an investigation where he got to run 
around the country saying, lock her up, he figured if he can 
get another investigation, he can run around the country 
saying, lock him up, and it might work again.
    With that, Mr. Chairman, I yield back.
    Chairman Nadler. The gentleman yields back.
    Who else seeks recognition?
    For what purpose does Mr. Chabot seek recognition?
    Mr. Chabot. Move to strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Chabot. Thank you.
    Mr. Chairman, you didn't give us a lot of witnesses in this 
committee and no fact witnesses, but we did get one professor, 
Professor Turley, who early on in his talk mentioned that he 
didn't vote for the President, and none of the other witnesses 
did either.
    One thing he did say, the evidence that you have against 
him that you are bringing these impeachment charges on is wafer 
thin, wafer-thin evidence. What is not wafer thin is the 
partisan resolve by the Democrats, at least on this committee, 
to get rid of this President.
    And they have been looking for an excuse to impeach this 
President for a long time. And now they think they have got 
one, but we obviously know he is not going to be removed from 
office. But it is embarrassing and it is a mark and it is 
really unfortunate, because the country really shouldn't be put 
through this.
    But I think one of the things that we ought to do is look 
at the things that this President has actually accomplished 
that they are talking about getting rid of. This is a President 
that has successfully grown this economy. If you look at the 
savings accounts and 401(k) accounts of so many Americans and 
so many retirees, they are up as the stock market is. Now, that 
is not going to go on forever, but it is certainly something 
positive that most Americans can be pleased about.
    There are more Americans now employed than ever before in 
our Nation's history. Manufacturing jobs, which we really used 
to be hurting in this country and have been in decline for a 
long time, are now coming back. Manufacturing jobs are 
increasing by hundreds of thousands. Unemployment, as I 
mentioned, 50-year low. Four million Americans no longer need 
to rely upon food stamps. That is a positive thing.
    Retail sales are up. We are finally becoming energy 
independent. In fact, the U.S. is now a net natural gas 
exporter for the first time in 60 years, 60 years, we are now 
an exporter of natural gas. Right-to-Try, that I remember the 
President, and I am sure my Democratic colleagues remember this 
too, the President was encouraging us to pass a Right-to-Try 
law, which allows people who oftentimes don't have a lot of 
chance. They have got a disease that has been considered fatal, 
and they would like to try some drug that maybe comes out some 
years down the road, but they are willing to try it now. 
Because of this, it is giving some people hope and hopefully 
will save some lives. That was the President's idea.
    Our military is stronger than it has been in a long, long 
time. And thank God, we are actually increasing the pay for our 
men and women in uniform, and they deserve even more. There are 
two great judges, I would argue, some of my Democratic 
colleagues would probably disagree with me here, but two great 
judges on the Supreme Court now.
    Elections have consequences. They would have been very, 
very different had Hillary Clinton been elected last time. 
Elections have consequences. And there are many circuit court 
judges that they are filling in the Senate, and thank God for 
that.
    The President withdrew us from that awful Iran deal, which 
essentially allowed money, billions of dollars to go to 
terrorists, that is now being used against us by Iran. We have 
seen the embassy, our U.S. Embassy move to Jerusalem. Thank God 
for that.
    Finally, we are starting to strengthen our southern 
borders, although we have got a long way to go there.
    Despite all these things, when the Democrats took over the 
House earlier this year in January, one of the first things 
they did, Articles of Impeachment were introduced earlier this 
January in the House. And that very same day, one of their 
Members in a profanity-filled speech famously said, we are 
going to impeach the bleep. She didn't bleep it, obviously. And 
another said, if we don't impeach the President, he might well 
get reelected. I mean, is that a reason to impeach a President, 
because he might get reelected? Well, it was to them.
    You know, it really goes back 2 years inauguration that--
the hatred for this President when he got elected. We saw it in 
the streets here in Washington. Now, a lot of people came up 
here to protest, and that is fine. We also saw a lot of windows 
broken. We saw one person, you know, say that she was dreaming 
about blowing up the White House and that sort of thing. So it 
really did get ugly.
    The bottom line is here they have been looking for an 
excuse for years now to impeach this President. They are wafer 
thin. We should not be moving forward on something like this. 
The country deserves a lot better than they are getting in this 
impeachment process. And I will be glad when we get beyond 
this, because it is bad for the country, very divisive.
    And I yield back.
    Chairman Nadler. The gentleman yields back.
    Does anyone else seek recognition on this amendment?
    For what purpose does Mr. Buck seek recognition?
    Mr. Buck. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Buck. Thank you, Mr. Chairman.
    I hear my colleague from Rhode Island say that this isn't 
about policy differences. This is about our obligation to 
protect and defend our Constitution. It is about courage.
    Well, of course, it is about policy differences, because 
you said nothing on your side when President Obama sent his 
surrogates out to lie about Benghazi. You said nothing when 
President Obama's administration entered into a gun-running 
deal with Mexican cartels and the Fast and Furious program was 
developed. You said nothing about Democrat leaders.
    This is about a policy difference. And it is not about 
courage. I don't question anyone's courage on the other side of 
the aisle. I question your judgment. I don't question your 
courage. And I think that the American people are getting 
tired, and I say that because I have a friend from college, 
Jim. And Jim sent me a text.
    And just so you know a little bit about Jim, his dad was a 
pastor south of the Mason-Dixon Line in the sixties and 
seventies, who was a leader in the civil rights movement. Jim 
didn't vote for Donald Trump, he didn't vote for Mitt Romney, 
he didn't vote for John McCain. But Jim sent me a text and he 
said, would you tell your Democrat colleagues that I am voting 
for Donald Trump this next time around. And by the way, he 
tells me that he believes that your party is overreaching at 
this point. Overreaching.
    The last text he sent me was kind of interesting. He said 
the stock market closed at a record high. They are losing.
    But I thought about that overreach comment, and I thought 
about what was the most ludicrous of the ways that this group 
of Democrats in the House have tried to take out this 
President. And there are a lot to choose from. My favorite 
happens to be the 25th Amendment. I thought when you all came 
up with the 25th Amendment, it was right at the top.
    You call in a professor from Yale, and that professor from 
Yale could have been right out of a movie about the old Soviet 
Union. She says, testifying in Congress, well, it takes a 
majority of the Cabinet to invoke the 25th Amendment, but this 
President might be--he would need an examination. And when 
asked by a member could he be detained, could the President of 
the United States be detained for purposes of an examination, 
she said yes. Right out of the old Soviet Union. That was my 
favorite.
    My second favorite was the Emoluments Clause, because I had 
to run to the Constitution to figure out what in the heck you 
guys were talking about with the Emoluments Clause. But I guess 
anybody that is successful and that has worldwide businesses is 
going to be subject to an Emoluments Clause argument. 
Thankfully, you didn't include that in this set of articles.
    You have had four now on the floor of the House, and you 
think that somehow we are not showing courage when we stand 
here and tell you you don't have the facts to convict this 
President on these charges. And you don't.
    The thing that is going to change is when this moves over 
to the Senate, you lose the narrative. Because the Republicans 
in the Senate will call Hunter Biden. They will call the 
whistleblower. And you better wait and see what the American 
public does when all of the facts are out. You don't get to 
hide the facts in the basement anymore. All the facts are going 
to be coming out.
    So I asked a few of my friends whether they had any 
favorites, and I will yield to my friend from Arizona, if he 
would like to talk about some of his more outrageous scenarios 
that our friends the Democrats have proposed on this President.
    Mr. Biggs. I thank my friend for yielding.
    And you really took--the 25th Amendment really was right at 
the top of the heap there. But, I mean, virtually every time 
the President tweets something, I have heard criticism that he 
should be impeached for tweeting. In fact, the Harvard Law 
professor who was in here last week wrote a piece that he 
should be impeached for tweeting, in 2017. That was fun.
    The other one is the bribery, the bribery issue. That was 
fun too, because when Professor Karlan tried to explain it, it 
took her 5 minutes to try to explain what the bribery was. And 
then we didn't hear any more from our colleagues about what 
bribery was.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    Who seeks recognition?
    Mr. Jeffries. Mr. Chairman?
    Chairman Nadler. Mr. Jeffries seeks recognition. For what 
purpose does the gentleman seek recognition?
    Mr. Jeffries. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Jeffries. My colleague suggested that we are here 
because we have policy disagreements with this President. We do 
have some policy disagreements with this President. We disagree 
with the fact that you passed as your signature legislative 
accomplishment in the last Congress a GOP tax scam where 83 
percent of the benefits went to the wealthiest 1 percent. You 
exploded the deficit and the debt. We disagree with that.
    We disagree with your policy of separating God's children 
from their parents and caging those children. That was 
unacceptable, unconscionable, and un-American. We disagree with 
that.
    We disagree with your effort, which is ongoing, to strip 
away healthcare protections from more than 100 million 
Americans with preexisting conditions. We disagree with that as 
well.
    But we are not here at this moment undertaking this solemn 
responsibility because we disagree with his policy positions. 
We will deal with that next November. We are here because the 
President pressured a foreign government to target an American 
citizen for political gain, thereby soliciting foreign 
interference in the 2020 election by withholding $391 million 
in military aid without justification.
    Now, the President says that was perfect. Here is what 
others have had to say about that. Ambassador Sondland, who 
gave the President a million dollars for the inauguration, said 
it was a quid pro quo. Lieutenant Colonel Vindman, Iraq war 
veteran, said it was improper. Dr. Fiona Hill, Trump appointee, 
what does she say? Political errand. Ambassador Taylor, West 
Point graduate, appointed by Reagan, Bush, and Trump, Vietnam 
war hero. He said it was crazy. And John Bolton, a super 
conservative, Trump National Security Advisor, said it was a 
drug deal. What would the Framers of the Constitution have 
said? Impeachable.
    I yield to my colleague from California, Eric Swalwell.
    Mr. Swalwell. I thank the gentleman.
    In my colleagues' efforts to defend this President, you 
want him to be someone he is not. You want him to be someone he 
is telling you he is not. You are trying to defend the call in 
so many different ways, and he is saying, guys, it was a 
perfect call. He is not who you want him to be.
    Mr. Swalwell. And let me tell you how selfish his acts 
were. And, Ranking Member Collins, you can deny this as much as 
you want. People died in Ukraine at the hands of Russia. And 
Ukraine, since September 2018 when it was voted on by Congress, 
was counting on our support. 1 year passed, and people died. 
And you may not want to think about that. It may be hard for 
you to think about that, but they died when this selfish, 
selfish President withheld the aid for his own personal gain.
    And I get it. Oh, Obama, you know, he only gave them XYZ. 
We have proven the record that President Obama gave them not 
only military capabilities, military training, and medical 
equipment, so don't tell yourself the Ukrainians didn't die. 
They died.
    Ambassador Taylor, he said these were weapons and 
assistance that allowed the Ukrainian military to deter further 
incursions by the Russians against Ukrainian territory. If that 
further incursion, further aggression were to take place, more 
Ukrainians would die, so it is a deterrent effect these weapons 
provided. But you didn't only hurt Ukraine, Mr. President, by 
doing this. You helped Russia.
    And to my colleagues who believe we have such an 
anticorruption President in the White House, I ask you this: 
How many times did this anticorruption President meet with the 
most corrupt leader in the world, Vladimir Putin? How many 
times did he talk to him? Sixteen times between meetings and 
phone conversations. And how many conditions did the President 
put on Vladimir Putin to get such an audience with the most 
powerful person in the world at the highest office? Zero 
conditions. That is who you are defending, so keep defending 
him. We will defend the Constitution, our national security, 
and our elections.
    I yield back.
    Chairman Nadler. The gentleman yields back. Who seeks 
recognition? Mr. Cline, for what purpose do you seek 
recognition?
    Mr. Cline. Mr. Chairman, I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cline. Mr. Chairman, first, I want to thank the 
gentleman, my colleague, Mr. Jeffries, for laying bare what we 
all have known is that they have policy differences, and as he 
said, they will deal with it next November. They are not really 
interested in removing this President from office. They don't 
think that the Senate is going to remove him from office. They 
get it. This is all a political exercise on their end just to 
help them in next November's election. That is what it is all 
about for them. And it is infuriating to me that they put on 
this show and wave their Constitutions, which they must have 
just found because, you know, I have been at this a long time, 
and I don't see folks on their side of the aisle waving the 
Constitution, much less reading from it very often, but it is 
good to know what their--that they are actually finally talking 
about what their real motives are: to use this as a political 
maneuver for advantage in the 2020 election.
    And, with that, I yield to the ranking member.
    Mr. Collins. Thank you for yielding. Mr. Swalwell, I am not 
sure if the hearing is bad on that end because, undoubtedly, it 
is. I did not say no one died. Undoubtedly, you can have 
trouble reading an article that said people died. No one said 
that. And you can accuse whatever because you are just sitting 
there just telling untruths because you don't get it because 
you have a personal agenda. And maybe you are auditioning for 
the prospect of being an impeachment manager. That is great. 
But you can't get into this one. Because as someone who sat 
there and watched people die on the battlefield, I know when 
people die. I know when they come into the hospital, and they 
have been shot up, and they have been hit with IEDs.
    So to come in here and to take a shot and say, oh, Mr. 
Collins doesn't think people died, that is a load of hogwash. 
In fact, it is so wrong to give a cheap shot to say what didn't 
happen when you can't even read your own article you put into 
commission. I mean, maybe we can go by word by word: although 
there is no way to link Markiv's or dozens of other deaths 
directly to lack of aid. Under Secretary Hale said this was 
prospective, not at the time.
    I am not sure what part, and I can maybe draw a picture and 
put it on a chart for you. That is the most ridiculous comment, 
and there has been a lot of them here. That is the most 
amazing, amazing lack of honesty and integrity that I have seen 
so far. Looking at your own article to say that I never said no 
one died. We know people died. Let me explain it to you. In 
wars, people die. Is that difficult to understand? Maybe that 
is why you are back here with us tonight. It is not hard to 
understand. And to say that.
    Again, two things, the most amazing things today. Tearing 
down the Ukrainian President, President Zelensky, and 
besmirching the folks who died. That is just amazing to me, 
even for this majority, to sit there and keep repeating the lie 
after lie after lie. They died. Mr. Hale, Under Secretary of 
State, said that was prospective money, not current money. 
People died when there was money released earlier. Are we going 
to claim that that was because we didn't give them enough 
money? I don't know.
    I get it. Y'all got an agenda to push, and the clock is 
ticking. But to sit there and come back with that one, and to 
accuse me that I said that they didn't--that nobody died? I 
never said nobody died. Undoubtedly, you don't understand that 
because your own article that you wanted to get in so quickly 
said there is no way to actually tell what they died of because 
even this was an article that was slanted against the position 
that the President had.
    So, if you want to continue this debate, go right ahead. 
Because for the men and women out there who served in the 
military, who have watched--and been overseas, who watched this 
and understand the world who were fighting, even in the Ukraine 
and others right now, for you to say that is just wrong. But 
they will get it.
    Mr. Deutch. Will the gentleman yield?
    Mr. Collins. I am not yielding to anyone. I mean, maybe--
like I said, maybe it is a reading comprehension problem. Maybe 
we just don't have it. Maybe it is just because we don't have 
the facts to make the argument. I will go back to the facts 
that always is. We know nothing happened. We know that you 
couldn't actually make the case. Otherwise, you would have 
wrote them in the Articles of Impeachment. You can't do it.
    So what do we do? Today, we have taken the tack of tearing 
down Mr. Zelensky, just tearing him down, and then also 
continuing the unfortunate misrepresentation of money and 
deaths of soldiers fighting for their country. That is the dark 
stain that we see today. I yield back.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman Nadler. Mr. Cline's time has now expired.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman Nadler. Ms. Jackson Lee, for what purpose do you 
seek recognition?
    Ms. Jackson Lee. Strike the last word, Mr. Chairman.
    Mr. Nadler. The gentlelady is recognized.
    Ms. Jackson Lee. I am going to take a different perspective 
than my good friend from Georgia, Mr. Collins. Just remind us 
of the words of George Washington. The Constitution is a guide 
which I will never abandon. To the American people who have 
watch this debate, to the men and women who are wearing a 
uniform around the Nation, I hope that you will understand that 
we will never abandon the Constitution. That is why we are here 
today to discuss the Articles of Impeachment.
    When I began my words yesterday, I said: We the people of 
the United States, as evidenced by James Madison, promote the 
general welfare but establish the Constitution for the United 
States of America.
    Let me speak very briefly to say that the language the 
gentleman is trying to strike has already been established, 
that it was in the constitutional articles or the Articles of 
Impeachment in 1998.
    Let me also say that my good friends are speaking to an 
audience of one, a person who now is absorbing all the 
accolades and all the great work that he has done, and I have 
no quarrel with their representation of their President. But I 
don't serve a man or a President. Benjamin Franklin, to the 
throngs of those who were outside the Constitutional 
Convention, answered the question when they shouted out, ``Mr. 
Franklin, what do we have, a monarchy or a Republic,'' and he 
said, ``A Republic if we can keep it.''
    Today, the majority, the Democrats, are attempting to keep 
this Republic and to maintain that the President of the United 
States cannot abuse his power and cannot obstruct Congress. 
Chairman Rodino made it very clear. He made it very clear by 
stating that the President of the United States at that time in 
the Nixon proceedings, could not design for himself how the 
impeachment inquiry would work.
    And then, to talk about the President's use of his public 
office with public funds to, in essence, get a foreign entity 
to help him with his campaign besmirching the elections, 
undermining the integrity of the elections for the American 
people.
    I disagree with the President on cutting SNAP for poor 
people, on separating children. I disagree as a Texan for the 
wall because my fellow Texans are against it. But the real 
issue is the power imbalance between the President of Ukraine, 
newly elected President, a President who would run on the ``get 
corruption out'' campaign. Literally, he campaigned--his party 
was an anticorruption party. And he comes hat in hand on this 
conversation because he missed the President at the 
inauguration. He did not go. He sent Sondland, and he sent 
Perry. Mr. Pence did not go. And so he wanted to say anything 
that he could to make sure that he would get these dollars. And 
calling for an investigation on an opponent, it was not beneath 
him. How do you think that he would admit now publicly that he 
is willing to do it?
    But let me show you the atmosphere in which Ukraine lived. 
Putin relations reclaims Crimea. Right on their border, 
arrogantly, without in any defense by Ukraine. They lost. 
Crimea was taken. Just like we would have lost Mississippi or 
Texas or New York or California.
    And then they lived in the atmosphere of a jetliner 
explodes over Ukraine, shot down by Russian weapons, by 
separatists supported by Ukraine--by Russia. And then Ukraine--
in Ukraine, the U.S. trains an Army in the west to fight the 
east, impacting our national security.
    So let me say to my colleagues: I read the Constitution 
regularly. My predecessor always said: Keep a Constitution in 
your hand. Barbara Jordan said: We the people. But I am clear 
that the imbalance of power between Ukraine and the United 
States and two heads of State would have caused that President 
to do almost anything. And as Ambassador Sondland said, he will 
do anything you desire him to do, and he will call for 
investigations. And so he was willing to go on CNN and announce 
those investigations.
    The President has abused his power. The President has tried 
to obstruct Congress in trying to create his own way of us 
doing our impeachment inquiry. I believe we are doing the right 
thing, and I support the Articles of Impeachment.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. McClintock seek recognition.
    Mr. McClintock. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. McClintock. Mr. Chairman, dare I state the obvious? I 
have not heard a new point or an original thought from either 
side----
    Mr. Cohen. Amen.
    Mr. McClintock [continuing]. In the last 3 hours. The same 
talking points have been repeated over and over again ad 
nauseam by both sides. Repeating a fact over and over doesn't 
make it true, and denying a fact over and over doesn't make it 
false. Everybody knows this. Everybody watching knows this. 
This hearing has been enough of an institutional embarrassment 
without putting it on an endless loop, so if I could just offer 
a modest suggestion. If no one has anything new to add, that 
they resist the temptation to inflict what we have already 
heard over and over again, with. And, with that, I yield back.
    Ms. Scanlon [presiding]. The point is well taken.
    Who else seeks recognition? Okay.
    Mrs. Roby. For what purpose do you seek recognition.
    Mrs. Roby. Move to strike the last word.
    Ms. Scanlon. The gentlewoman is recognized.
    Mrs. Roby. I yield to Mr. Jordan.
    Mr. Jordan. Yeah, and I thank the gentlelady for yielding. 
I heard the last speaker from Texas on the other side talk 
about election interference, talking about campaigns. How about 
the FBI spying on four American citizens associated with the 
Trump campaign in 2016? And the people running that 
investigation, Peter Strzok and Lisa Page, people running that 
investigation were the ones who said: We are going to stop 
Trump.
    They are the ones who said: Trump should lose 100 million 
to zero.
    They are the ones who said: We have an insurance policy.
    They are the ones who ran that investigation when they went 
to the FISA court and lied to the court--we just learned this 2 
days ago--lied to the court 17 times, didn't tell the court the 
guy who wrote the dossier was, quote, desperate to stop Trump, 
the dossier they are using to get a warrant to further spy on 
the Trump campaign. Didn't tell the court the guy who wrote the 
dossier was working for the Clinton campaign. That is probably 
a pretty important fact that they get to the court. They didn't 
do that.
    Didn't tell the court that guy that wrote the dossier, 
Christopher Steele, was fired by the FBI because he was out 
talking to the press. Didn't tell them all that, so we are 
talking about election interference. How about that fact? And 
now, now in 2020, now in 2020, we don't have the FBI spying on 
people with the Trump campaign yet. We don't have them going to 
the FISA court and lying. What we have instead, insurance 
policy instead now is impeachment. That is what they are doing. 
That is how they are going to make it a little tougher on the 
President to win reelection. That is what this is about, and 
that is why it is so wrong. Let the American people decide. We 
are 11 months away, less than 11 months away from the next 
election. Let the American people decide.
    We already had the FBI try to weigh in 2016 and do all the 
things that Mr. Horowitz just told us about this week. Now, in 
2020, the Democrats in Congress are trying to create some kind 
of insurance policy with this impeachment effort. Let the 
American people decide. I yield back to the gentlelady from 
Alabama.
    Mrs. Roby. I thank the gentleman. I will yield the 
remainder of my time to Mr. Reschenthaler.
    Mr. Reschenthaler. Thank you. I appreciate it. There has 
been some talk about Javelin missiles tonight, and I just want 
to--I just want to draw attention to some of what the Democrat 
witnesses have said. I have just got to find it on my desk.
    You know what? Let's talk about the law instead. I have 
heard it be said tonight when the facts aren't on your side and 
when the law isn't on your side, just argue for a long time. 
The facts are on our side, and so is the law. If you look at 
the legal definition again, it is very clear that the Democrats 
cannot make out a prima facie case. It is interesting to note, 
too, that the Democrats have become originalists all of a 
sudden.
    So let's just go back to the statute. The Federal bribery 
statute contains the following elements: whoever being a public 
official corruptly demands or seeks personally anything of 
value in return for being influenced in the performance of an 
official act.
    So we can take any one of those elements and deconstruct 
it.
    Let's just start at official act because we haven't hit 
that yet tonight. Official act. A meeting in the White House is 
not a, quote/unquote, official act under the Supreme Court's 
McDonnell precedent. Setting up a meeting, talking to another 
official, or organizing an event without more does not fit the 
definition of an official act. So, right there, under Supreme 
Court precedent, you don't have an official act.
    We can also look at the element ``anything of value.'' The 
Department of Justice Criminal Division Public Integrity 
Section opined in September that something as nebulous as an 
investigation is not of sufficient concrete value to constitute 
something of value under the Federal campaign finance laws. 
Presumably, the same would be true under the bribery statute. 
So, again, if we are arguing the law, I will sit here and argue 
it all night because the law is on our side. You cannot make 
out a prima facie case.
    Again, I was a district judge in Pennsylvania. I decided 
cases at the preliminary hearing level. I would have dismissed 
this every single time it came before me because there are not 
the elements needed to support a prima facie case.
    I only have 30 seconds left, so if someone would yield me 
more time, I would appreciate it, but let me just go back into 
corruptly. The President did not have corrupt intent. Again, 
the Democrats are using a parody version of Chairman Schiff 
when he was talking about the President when he said, quote/
unquote, make up dirt about my opponent. The President didn't 
actually say that. That was a parody of Chairman Schiff, and, 
unfortunately, it is being used to support this element. If 
anybody has more time, I would appreciate if it would be 
yielded to me.
    With that, I yield back.
    Ms. Lofgren. Mr. Chairman. Mr. Chairman.
    Chairman Nadler [presiding]. Who seeks recognition on this 
amendment?
    Mr. Biggs. Mr. Chairman.
    Ms. Lofgren. It is on this side.
    Mr. Biggs. I have not already gone. You are incorrect, sir. 
Did you recognize me?
    Chairman Nadler. No. I am told you have already spoken on 
this.
    Mr. Biggs. That would be an error, sir.
    Chairman Nadler. I am sorry?
    Mr. Biggs. The amendment of Jordan?
    Chairman Nadler. No. You have spoken on the amendment 
already.
    Mr. Biggs. No, not on Jordan. Not on Jordan.
    Chairman Nadler. On this amendment. That is what our 
records say. Does anyone else seek recognition? No one else 
seeks recognition?
    Mr. Biggs. Mr. Chairman, point of order. Mr. Buck yielded 
to me.
    Chairman Nadler. Mr. Ratcliffe is recognized. Does Mr. 
Ratcliffe seek recognition?
    Mr. Ratcliffe. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Ratcliffe. I yield to my friend from Arizona.
    Mr. Biggs. Thank you, Mr. Ratcliffe.
    I guess this means we are not doing the minority hearing 
day. Does anyone know? I would just say that James Madison--we 
have heard people intone James Madison. He said at the 
Convention of 1787 that impeachment was for, quote, removal of 
an officer who had rendered himself justly criminal in the eyes 
of the majority of the people, closed quote. Majority of the 
people. You don't have that. What you have here is a slop 
bucket that you are calling your Articles of Impeachment.
    So what we have heard over the last 2 days is basically 
every grievance that Democrats have against this President. You 
have stuck the ladle in that slop bucket, and you try to throw 
it out there, and you have tried to pigeonhole that grievance 
into one of two things, either the obstruction of Congress or 
abuse of power. That is the problem that you have here is that 
you are all over the map because you can't deliver a crime. 
There is no high crime. There are no misdemeanors. There is no 
bribery.
    Remember, Professor Collins tried to explain bribery, what 
the bribery might have been. It took her almost a full 5 
minutes. And after she was done, we didn't hear anybody talking 
about bribery any more as an impeachable offense. We talked 
about quid quo pro, and that was pretty much off the table 
until tonight. It has kind of revved back up again. But the 
bottom line is this: You don't have a specific charge, so you 
used the two amorphous, weak areas to go forward. So, I mean, 
you have been trying different avenues for 3 years now.
    And I am reminded that one of my colleagues on the other 
side said: You want Trump to be something he isn't when the 
reality is that is projection. The reality is you want him to 
be something he isn't. That is why you are trying to impeach 
him. That is why you have tried all kinds of theories that have 
all fallen flat, and the big one was the Mueller--the Mueller 
impeachment. You really wanted that one. That didn't work so 
well. It didn't work so well because there was nothing there.
    I will say something about President Zelensky and this 
discussion with the President. He himself, President Zelensky, 
without instigation in this conversation at all about 
Ambassador Yovanovitch after she had been recalled said her 
attitude towards me was far from the best, and she admired the 
previous President, and she was on his side. This is the 
anticorruption crusader you keep talking about. And then you 
talk about Poroshenko, President Poroshenko as being corrupt, 
and I am not saying he wasn't, but President Zelensky said: 
Yovanovitch was on his side. She would not accept me as the new 
President well enough.
    So the reason I bring that up is because you have 
repeatedly said there is nothing contested here. The facts are 
not contested, but I go back to something that I think is very 
important. All of the inferences you have drawn have been 
designed to go against this President and paint him in the 
light least favorable, and that is because you have tried to 
project him into being something you want him to be. But when 
you look at this facts and the direct evidence, the direct 
evidence is real clear. Ukraine received the aid, provided 
nothing in return, and they stated, President Zelensky and 
Foreign Minister--the Foreign Minister, Yermak, said they felt 
no pressure. There was no pressure there.
    And even Ambassador Sondland, who you relied on over 600 
times in your effort said: Hey, you know what? I don't have--
nobody in the world told me anything. I just presumed it. You 
don't have a case. You have never had a case. You just wanted 
to have a case. And that is the sadness about it. You are 
impeaching him because you have wanted to for 3 years. You 
can't beat him in a reelection, you are not going to beat him 
in a reelection, so you had to go to impeachment, and that is a 
tragedy for America. I yield.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Mr. Neguse seek recognition?
    Mr. Neguse. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Neguse. Thank you, Mr. Chair.
    And with much respect to my colleague who quoted James 
Madison, you know, there has been this description of abuse of 
power as amorphous by some and nebulous, I think was the word 
that one of my colleagues has used in this long debate tonight. 
And I would offer you the following quote, which is that 
liberty may be endangered by the abuse of liberty but also by 
the abuse of power. That quote is from James Madison.
    The part of this debate that has been so frustrating for me 
and I think for a lot of Americans who are watching tonight is 
the diminishment of the public servants, the patriots, who 
stepped forward and provided the evidence that demonstrates 
that this President abused his power, people like Lieutenant 
Colonel Vindman who served this country bravely overseas; 
people like Ambassador Bill Taylor, a West Point graduate, a 
Vietnam veteran; people like Dr. Fiona Hill; people like Laura 
Cooper; official after official after official from the Trump 
administration. These individuals serve in the President's 
administration.
    Ambassador Taylor was not appointed by President Obama. He 
was appointed by President Trump. So I would hope that my 
colleagues, as we proceed with the solemn duty that this 
committee is charged with, that we respect the people who came 
forward, who have served under Republican and Democratic 
administrations, that tell the truth under oath, and to help 
this committee as it seeks to hold this administration 
accountable.
    And, with that, I yield to Ms. Lofgren from California.
    Ms. Lofgren. I thank you, Mr. Neguse. I was just listening 
to this debate, and you know, we are most of us here lawyers, 
but the idea that the Founding Fathers in 1789 would be 
considering the U.S. Code precedent and the McConnell case 
precedent and the honest services Supreme Court case precedent 
in 1789 is simply ridiculous. Mr. Neguse has pointed out what 
the Founding Fathers had in mind with the impeachment clause, 
and we know that high crimes and misdemeanors is essentially 
actions that the President uses with the extraordinary power 
that he has been given under the Constitution to subvert the 
constitutional order, to prevent the constitutional system from 
working. And that is the concern that we have here, not only 
that the President has done that, but that he is not contrite. 
He is not correcting his behavior. He is continuing to do it. 
He is presenting an ongoing threat that he will continue to 
subvert the constitutional order. So I thank Mr. Neguse for 
yielding to me on the idea that these court cases would have 
been precedent in 1789. I yield back to Mr. Neguse.
    Mrs. Lesko. Mr. Chair.
    Mr. Neguse. Mr. Chair, I would yield the balance of my time 
to Mr. Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Neguse. I just want to remind 
my colleagues we have introduced in the record a letter from 
500 scholars that really reinforces the point Mr. Neguse just 
made, and I will read from it. Impeachment is an especially 
essential remedy for conduct that corrupts elections. The 
primary check on a President's power is political. If a 
President behaviors poorly, voters can punish him or his party 
at the polls. But a President who corrupts the system of 
elections seeks to place himself beyond the reach of this 
political check. At the Constitutional Convention, George Mason 
described impeachable offenses as attempts to subvert the 
Constitution. Corrupting elections subverts the process by 
which the Constitution makes the President democratically 
accountable. Put simply, if a President cheats in his efforts 
at reelection, trusting the Democratic process to serve as a 
check through that election is no remedy at all. This is what 
impeachment is for.
    I ask my Republican colleagues, how many of you would allow 
or solicit a foreign power to help in your reelections? Please 
raise your hands. Not one of you because you know it would 
violate the Constitution----
    Mr. Buck. Will the gentleman yield?
    Mr. Cicilline [continuing]. And you now it would corrupt 
the rights of the American people to decide who will represent 
them in the Congress of the United States. You know, I was the 
mayor of Providence. It would be like if I got a federal grant 
of a million dollars to fight gang violence, and my police 
chief called me and said, ``Where is that money,'' and I said, 
``You know what, Chief, before I send it over, do me a favor 
and announce an investigation into my political rival,'' I 
would be arrested on the spot. That is what we are talking 
about.
    Chairman Nadler. The gentleman----
    Mrs. Lesko. Mr. Chairman.
    Chairman Nadler. The gentleman's times has expired. For 
what purpose does the gentlewoman----
    Mrs. Lesko. Thank you. Mr. Chairman, I move to strike the 
last word.
    Chairman Nadler. No. You have already spoken on this 
amendment.
    Mrs. Lesko. Oh, I apologize. I thought----
    Chairman Nadler. The question is now on the amendment.
    Those in favor, say aye.
    Opposed, no.
    In the opinion of the chair, the nays have it.
    Mr. Collins. Roll call.
    Chairman Nadler. The amendment is not agreed to.
    Mr. Collins. Roll call.
    Chairman Nadler. A roll call vote has been requested. The 
clerk will call the roll.
    Ms. Strasser. Mr. Nadler.
    Chairman Nadler. No.
    Ms. Strasser. Mr. Nadler votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    Ms. Strasser. Ms. Lofgren votes no.
    Ms. Jackson Lee?
    Ms. Jackson Lee. No.
    Ms. Strasser. Ms. Jackson Lee votes no.
    Mr. Cohen?
    Mr. Cohen. No.
    Ms. Strasser. Mr. Cohen votes no.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. No.
    Ms. Strasser. Mr. Johnson of Georgia votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Strasser. Mr. Deutch votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Strasser. Ms. Bass votes no.
    Mr. Richmond?
    Mr. Richmond. No.
    Ms. Strasser. Mr. Richmond votes no.
    Mr. Jeffries?
    Mr. Jeffries. No.
    Ms. Strasser. Mr. Jeffries votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Strasser. Mr. Cicilline votes no.
    Mr. Swalwell?
    Mr. Swalwell. No.
    Ms. Strasser. Mr. Swalwell votes no.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. No.
    Ms. Strasser. Mr. Raskin votes no.
    Ms. Jayapal?
    Ms. Jayapal. No.
    Ms. Strasser. Ms. Jayapal votes no.
    Mrs. Demings?
    Mrs. Demings. No.
    Ms. Strasser. Mrs. Demings votes no.
    Mr. Correa?
    Mr. Correa. No.
    Ms. Strasser. Mr. Correa votes no.
    Ms. Scanlon?
    Ms. Scanlon. No.
    Ms. Strasser. Ms. Scanlon votes no.
    Ms. Garcia?
    Mr. Garcia. No.
    Ms. Strasser. Ms. Garcia votes no.
    Mr. Neguse?
    Mr. Neguse. No.
    Ms. Strasser. Mr. Neguse votes no.
    Mrs. McBath?
    Mrs. McBath. No.
    Ms. Strasser. Mrs. McBath votes no.
    Mr. Stanton?
    Mr. Stanton. No.
    Ms. Strasser. Mr. Stanton votes no.
    Ms. Dean?
    Ms. Dean. No.
    Ms. Strasser. Ms. Dean votes no.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. No.
    Ms. Strasser. Ms. Mucarsel-Powell votes no.
    Ms. Escobar?
    Ms. Escobar. No.
    Ms. Strasser. Ms. Escobar votes no.
    Mr. Collins?
    Mr. Collins. Aye.
    Ms. Strasser. Mr. Collins votes aye.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. Aye.
    Ms. Strasser. Mr. Sensenbrenner votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Strasser. Mr. Chabot votes aye.
    Mr. Gohmert?
    Mr. Gohmert. Aye.
    Ms. Strasser. Mr. Gohmert votes aye.
    Mr. Jordan?
    Mr. Jordan. Yes.
    Ms. Strasser. Mr. Jordan votes yes.
    Mr. Buck?
    Mr. Buck. Yes.
    Ms. Strasser. Mr. Buck votes yes.
    Mr. Ratcliffe?
    Mr. Ratcliffe. Yes.
    Ms. Strasser. Mr. Ratcliffe votes yes.
    Mrs. Roby?
    Mrs. Roby. Aye.
    Ms. Strasser. Mrs. Roby votes aye.
    Mr. Gaetz?
    Mr. Gaetz. Aye.
    Ms. Strasser. Mr. Gaetz votes aye.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. Aye.
    Ms. Strasser. Mr. Johnson of Louisiana votes aye.
    Mr. Biggs?
    Mr. Biggs. Aye.
    Ms. Strasser. Mr. Biggs votes aye.
    Mr. McClintock?
    Mr. McClintock. Aye.
    Ms. Strasser. Mr. McClintock votes aye.
    Mrs. Lesko?
    Mrs. Lesko. Aye.
    Ms. Strasser. Mrs. Lesko votes aye.
    Mr. Reschenthaler?
    Mr. Reschenthaler. Aye.
    Ms. Strasser. Mr. Reschenthaler votes aye.
    Mr. Cline?
    Mr. Cline. Aye.
    Ms. Strasser. Mr. Cline votes aye.
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    Ms. Strasser. Mr. Armstrong votes yes.
    Mr. Steube?
    Mr. Steube. Yes.
    Ms. Strasser. Mr. Steube votes yes.
    Chairman Nadler. Are there any members of the committee who 
wish to vote who haven't voted?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 17 ayes and 23 noes.
    Chairman Nadler. The amendment is not agreed to. The 
committee will now stand in recess for half an hour.
    [Recess.]
    Chairman Nadler. The pending matter before the committee is 
the amendment in the nature of a substitute.
    Mr. Sensenbrenner. Mr. Chairman.
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Sensenbrenner. To strike the last word on the amendment 
in the nature of a substitute.
    Chairman Nadler. The gentleman is recognized.
    Mr. Sensenbrenner. Mr. Chairman, this debate is going to be 
the last of a very long day that we have had. I would like to 
start out by commending the chairman for following the rules. 
You know, I think that this markup has been a lot better than 
it could have been, and I think the chairman has been probably 
very evenhanded on that.
    With that being said, you know, let me say that the 
chairman and those on his side of the aisle are dead-wrong on 
all of the issues that we have been debating, both today and 
last night as well as beforehand.
    The Constitution says that the President and other civil 
officials can be impeached for treason, bribery, or other high 
crimes and misdemeanors. I think it is very obvious that there 
was no treason or bribery alleged here. And it goes down to 
what has been alleged in these two articles, whether they 
really are high crimes and misdemeanors. I would submit the 
answer on both of them is an emphatic ``no.''
    What is accused of being, you know, an abuse of power is, 
in my opinion, a policy disagreement on how the President 
should have approached the issues that are outlined there.
    And let me say that, as far as foreign aid goes--and the 
issue of the $391 million of foreign aid to Ukraine is the one 
in the center--is that practically every bit of foreign aid 
that the United States disburses following a congressional 
appropriation is contingent on some thing or another. And one 
of the common threads, whether it is so stated in the foreign 
aid enactment or not, is whether or not there is any type of 
corruption that is involved in that.
    I think we all have conceded that Ukraine has been a pretty 
corrupt country and that President Zelensky was elected on an 
anticorruption platform, and we wish him well in cleaning the 
place up. But the fact is that I think the President would have 
been derelict in his duty, at least, had he held off or just 
given the foreign aid without trying to check on corruption. 
And that was what was going on.
    As far as obstruction of Congress is concerned, earlier 
today, I talked a bit about the fact that this article is 
drafted so loosely and so weakly that it turns the United 
States into a parliamentary form of government. And the 
consequence of that is that, whenever we have a President and 
the majority of the House of Representatives controlled by 
opposite parties, you are going to attempt to see the majority 
in the House of Representatives try to impeach the President.
    But I would like to, finally, say that we have heard an 
awful lot about the fact that if Donald Trump is not impeached 
or removed from office he is going to steal the 2020 election. 
That is one of the most outlandish predictions that I have ever 
heard.
    The 2020 election is going to be looked at very closely by 
representatives of both of the candidates, by the news media, 
by a lot of citizens, whether they are involved with the 
campaigns of the candidates or not. And it is going to be 
pretty darn hard to steal the 2020 election after all of this 
has happened.
    But what is happening here is there is an attempt to steal 
the 2016 election 3 years after the fact. Because if Donald 
Trump is impeached and removed from office based on this flimsy 
record, based upon all of the problems of extinguishing 
minority rights, both in the Intelligence Committee and before 
tonight here, that will end up stealing the 2016 election. It 
will end up voiding the votes of the 63 million people who 
voted for Donald Trump for President of the United States. And 
I think that that will be something that will haunt this 
country for decades to come.
    The time to stand up for the Constitution is now. The time 
to determine how you stand up to the Constitution is by voting 
no on both Articles of Impeachment.
    And I yield back the balance of my time.
    Chairman Nadler. The gentleman yields back the balance of 
his time.
    For what purpose does the gentleman from Tennessee seek 
recognition?
    Mr. Cohen. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Cohen. Thank you, sir.
    I join with Mr. Sensenbrenner in commending the chairman on 
his running this committee tonight. It has been very difficult. 
It has been a long day, and all of our--we are a little bit 
tired. At least, I am. And the chairman has done a great job.
    But I totally disagree with Chairman Sensenbrenner in his 
summation of what we have before us. I think they are dead-
wrong in their opinion on the Articles of Impeachment.
    There are two articles. This is in no way stealing an 
election. If Donald Trump is removed from office, the election 
of 2016 is not nullified. Mike Pence will be the President, and 
that is no walk in the park. It is the same policies; some of 
them may be even worse. Maybe a little bit better ethics and 
morals and a little bit more civility, but as far as policies, 
they would be about the same.
    There has been a lot of discussion of what we have had 
here, but basically this is an issue about abuse of power based 
on testimony of Lieutenant Colonel Vindman, Ambassador 
Yovanovitch, Ambassador Taylor, and Dr. Hill. These are four 
independent class acts, people we should all look to.
    I mean, we all talk about them as patriots. They are 
patriots, but they are career Foreign Service folk who have 
done great jobs for America, are nonpartisan. And they came 
forth out of a sense of duty to testify. And what they have 
testified to is what happened with Ukraine was wrong, that 
there was an abuse of power. And that is why they came forth.
    And to say that this whole process is corrupt is basically 
an affront to each of those four patriots who came forward, to 
those four career Foreign Service officials, those four people 
who are nonpartisan. They did a service to this country.
    The fact is, the facts are undisputed that what happened 
was ``a favor, though,'' ``although I'd like to ask you for a 
favor, though,'' and then Mulvaney going out, ``Get used to it, 
that's politics, that's what happened.'' And then we had 
Sondland say they were all in on it, and it was the 
requirement, and to get the military aid, you have to announce 
the investigation. There is nothing other than that.
    And we have been here--the last few hours, they have been 
using it as a campaign ad for Trump. ``He had the markets up,'' 
all that kind of stuff. SNAP payments are being cut 
drastically, and poor people are going to be hurt. And they 
didn't benefit from the Trump tax scam.
    Bob Corker, who served in the Senate, said the two biggest 
mistakes he made when he was up here were voting for the tax 
scam, which he didn't call it that, and then voting for the 
budget that came afterwards, exploding the debt.
    And somebody on the other side talked about how we need to 
be up here and fighting the--they have exploded the debt. They 
have no traditional Republican philosophy whatsoever.
    The Kurds? Sayonara. They have ruined us in the Middle East 
forever. Trump just sold them out for his friend in Turkey. And 
the Kurds were--to hell with you. And we gave Syria to the 
Russians.
    And, just yesterday, Trump met with Lavrov, the Russian 
Ambassador. No report of what they talked about, except the 
White House said they talked about influence, not to have 
influence in the next election, that Trump told him, ``You 
shouldn't try to influence our next elections.'' Lavrov said, 
``We didn't discuss the elections. That's not true.'' It is 
hard to figure out which one is lying. Neither one of them have 
a very good track record.
    So I hope we can get it finished today, pass these two 
articles, and do what is important to protect our democracy, 
support our oath, abide by our oath, support the Constitution, 
and support our national security, all of which have been 
jeopardized by Donald J. Trump by his self-dealing with 
Ukraine.
    I said earlier today that the President of Ukraine was an 
actor and a politician. I wasn't saying anything bad about him. 
A lot of actors are great. I love actors. I love politicians. I 
am a politician. But that is why he couldn't say that he was 
under any duress or any influence or he felt like he was being 
pressured. He couldn't say that, because he is in an inferior 
position. It is like a battered wife with her husband around 
who beat her up. He can't say to the police some, oh--she can't 
say ``he beat me up'' because he is there and when the police 
leave he'll do it again. And so he was in a terrible position.
    I look forward to meeting him. I am going to be in Ukraine 
in February. And I think he is going to do a wonderful job.
    And for some people over there that said Ukraine was the 
third-worst in the world, it is, like, 120th in the rankings 
out of 180. Not good, but not the third-worst.
    I yield back the balance of my time, and God bless the 
United States of America.
    Chairman Nadler. The gentleman yields back. I think we all 
share those sentiments.
    Who else seeks recognition?
    For what purpose does Mr. Chabot seek recognition?
    Mr. Chabot. I move to strike the last word, Mr. Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Chabot. Thank you, Mr. Chairman.
    Before I get into impeachment, I just have to respond to 
the gentleman from Tennessee who made a couple remarks. I would 
start off by saying I really like the gentleman from Tennessee, 
Mr. Cohen. It is mutual. We have worked on a number of bills 
together, introduced them, and he is really a good guy.
    But he is flat-out wrong about the taxes. The tax cuts have 
really helped this country. That is one of the main reasons we 
are seeing the economy take off and people's bank accounts and 
their savings accounts and their retirement accounts are so 
much better and more positive right now, because the Republican 
and a Republican Congress passed those tax cuts, without a 
single Democratic vote.
    And the difference--one big difference between the two 
parties is Republicans want to cut your taxes and Democrats, in 
general--not every one of them, but most of them--want to raise 
your taxes. Just a big difference.
    But relative to impeachment, back in the early 1970s, I was 
a college student, and our Nation was going through another 
impeachment at the time, Richard Nixon. I had actually voted 
for him. He was the first President I voted for, in 1972. And, 
obviously, he got in trouble and was going to be impeached, but 
he resigned before he was--the Articles of Impeachment were 
voted out of the Judiciary Committee, this committee, but then, 
before the House took it up, he resigned from office.
    And little did I know that about 25 years later our Nation 
would be going through another impeachment, and that was Bill 
Clinton, obviously, and that I would be very closely involved 
in that. And of the 41 people on this committee, 5 of us were 
here in those days: Mr. Sensenbrenner and I on the Republican 
side, and the chairman, Mr. Nadler, and Ms. Lofgren and Ms. 
Jackson Lee. All five of us were in that.
    Mr. Sensenbrenner and I happened to be House managers, the 
prosecutors in the case. And some of the folks on the other 
side are going to get that opportunity, and good luck. And Mr. 
Sensenbrenner remembers, Henry Hyde was our leader at the time, 
and he said, ``We are not going to be very welcome over 
there,'' and we weren't. So we will see what happens when you 
all are over there.
    But, you know, Bill Clinton, he was impeached by the House, 
and then the Senate, obviously, did not remove him from office. 
And I think it is very likely that is what we are going to see 
happen in this case.
    But, back then, Bill Clinton had put his hand on the Bible 
and swore to tell the truth, the whole truth, and nothing but 
the truth. And then he lied. He committed perjury. And that is 
something hundreds of people were in jail across the country 
for at the time. And I thought and still think the President 
shouldn't be above the law.
    He had committed a high crime and misdemeanor. Very 
different from this case. They are not even alleging a crime in 
this case. There is clearly not a high crime and misdemeanor. 
And that is why I will be voting against impeaching the 
President in this instance.
    And I think the Democrats have been looking for an excuse 
to impeach this President for a long time now. In fact, when 
they took over the House, one of their Members filed Articles 
of Impeachment that very day. And, really, since inauguration 
day, many of them wanted to impeach him.
    This is really all about--in my view, it is all about 
politics. It is all about hurting the President, hurting his 
reputation. They dislike him intensely, as I mentioned the 
other day. They really loathe this President. And they are 
trying to hurt his chances in the next election. It may well do 
just the opposite.
    But one of my real concerns--and I have a lot of them--
about this whole thing, but the one that I really--and I 
mentioned this earlier today--am very concerned about is that 
the Democrats are really lowering the bar for impeaching a 
President in the future.
    It is becoming too routine. It is becoming the new normal. 
For 200 years in our Nation, we had had one impeachment, one, 
in 200 years, Andrew Johnson. And, now, in less than 50 years, 
we are in our third one this time around.
    And I really am concerned that, from now on, in all 
likelihood, when you have the President of the United States 
and you have the House of Representatives and they are opposite 
parties, you are going to end up with the base in the House of 
Representatives pushing very hard at Members to impeach that 
President.
    And it is very divisive for the Nation. So many other 
things don't get done when you are going through an 
impeachment. You know, for example, opioids. About 70,000, 
almost, Americans lost their lives last year, but we have done 
very little about opioids in this committee, and we have 
jurisdiction over it. Doing something about our southern 
border, which is still like a sieve. Far too many people come 
in illegally. This committee's responsibility, but we do almost 
nothing there. And overall in Congress, our infrastructure, 
roads and highways, it is crumbling, but we do very little 
about that.
    So I think the American people deserve a lot better than 
what they are getting from this committee or from this 
Congress.
    So, in any event, I want to thank the folks out there, and 
God bless America.
    Chairman Nadler. The gentleman's time has expired.
    For what purpose does Mr. Deutch seek recognition?
    Mr. Deutch. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I want to start by agreeing with Mr. 
Sensenbrenner. It is always the right time to defend the 
Constitution. And that is the very reason that we are here.
    There are two Articles of Impeachment. The first is abuse 
of power. The President of the United States abused his power 
by soliciting foreign interference in our elections, cheating 
the American voters.
    How did he do it? He leveraged lifesaving, taxpayer-funded 
military aid that Ukraine desperately needed for assistance in 
his reelection campaign. And he leveraged a White House meeting 
that he had promised to the new Ukrainian President that 
President Zelensky desperately needed to show Vladimir Putin 
that the United States is willing to stand with Ukraine. And he 
leveraged that meeting for assistance in his reelection 
campaign. That is abuse of power.
    Now, my colleagues have suggested that, somehow, abuse of 
power is not a serious offense, that we should make light of 
the President's actions, not treat it as the constitutional 
violation that it is. In fact, abuse of power was a principle 
concern of the Framers of the Constitution. And it was clear 
what it meant: the exercise of official power to obtain an 
improper personal benefit while ignoring or injuring the 
national interest. That is abuse of power.
    It is rooted in the President's duty, constitutional duty, 
to faithfully execute the law, to put service over self, to put 
the country over his personal interests.
    I note for my colleagues that all four of the 
constitutional scholars who testified, including the 
Republicans' own witness, have confirmed that abuse of power is 
an impeachable offense.
    President Trump's actions, in fact, exemplify the Framers' 
fears and the very reason that abuse of power is a high crime. 
Worse--worse--than President Nixon, President Trump pressured a 
foreign government to aid in his corrupt scheme.
    That is the abuse-of-power article.
    But there is a second article: obstruction of Congress.
    We know that no President in history--in history--has 
directed the entire executive branch not to cooperate with an 
impeachment inquiry, has told every member of the executive 
branch not to speak to any of the impeachment inquiry--to any 
of the impeachment inquiry issues.
    Now, the question is, when you look at the abuse of power, 
which is a constitutional violation, and then you look at the 
President's obstruction of Congress, it leads to some questions 
I would like my colleagues to think about as we head toward 
this important vote.
    Think about the people who the President has blocked from 
speaking. Think about Mick Mulvaney. Now, Mick Mulvaney 
acknowledged--the Acting Chief of Staff acknowledged a quid pro 
quo, says it happens all the time. That is abuse of power. Then 
the President wouldn't let him speak. That is obstruction of 
Congress. Why won't he let him speak? What does he have to 
hide?
    Think about Secretary Perry. Ambassador Taylor described a 
highly irregular Ukraine policy channel led by Rudy Giuliani 
that included Sondland, Volker, and Rick Perry. That 
contributes to the abuse of power, it highlights the abuse of 
power, but it also is obstruction of Congress. Why won't the 
President allow him to speak? What is he afraid of?
    Think about John Bolton. Fiona Hill testified that Bolton 
told her to notify NSC counsel about the rogue effort. He said, 
``I am not a part of whatever drug deal Sondland and Mulvaney 
are cooking up.'' Bolton, in fact, called Giuliani a ``hand 
grenade who's going to blow everybody up.'' That is the abuse 
of power. Obstruction of Congress is clear. Why won't the 
President let him testify? What is he hiding?
    And, finally, John Eisenberg. Lieutenant Colonel Vindman 
couldn't believe what he heard on the call. He reported it to 
Eisenberg. Now Eisenberg can't speak. What is it that the 
President is afraid he will say? That is obstruction of 
Congress.
    Abuse of power and obstruction of Congress together, that 
is what these articles are about. We are protecting the 
Constitution. We are protecting the American people and our 
elections. That is why we need to proceed with these Articles 
of Impeachment.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Reschenthaler seek recognition?
    Mr. Reschenthaler. I move to strike the last word, Mr. 
Chairman.
    Chairman Nadler. The gentleman is recognized.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    You know, I have been a prosecutor, and I was a prosecutor 
in Baghdad when I was in the Navy, prosecuted terrorists, 
actually, in the Iraqi court system. I was a defense attorney 
in the Navy. I actually got to defend a Navy SEAL against 
trumped-up charges by the Obama administration. And I had the 
honor of serving as a district judge in my hometown in the 
South Hills of Pittsburgh.
    So I have been all sides of a courtroom, and I can tell you 
that I would defend this case every single day. And it is 
because the facts just aren't there.
    Let's go through each article. Abuse of power, or quid pro 
quo, bribery--call it whatever your focus group wants to call 
it, because, at the end of the day, you don't have the facts to 
make out the case.
    You don't have the facts because the other party on your 
quid pro quo, your alleged quid pro quo, never felt pressure. 
We have a primary document, a primary source of information--
that is, the transcript of the call--that shows there was no 
connection. We also have the other party, President Zelensky, 
who said at no time did the Ukrainians feel any pressure to 
have an investigation.
    We also know that no investigation of Biden ever took 
place. We also know that aid was given to Ukraine, aid that 
they never knew at the time was being under review, and aid 
that came in the form of Javelin missiles, not what the Obama 
administration gave, which were well wishes and blankets.
    So, again, no case can be made for abuse of power.
    Obstruction of Congress, this is what we would describe as 
ripe--or, not ripe. It isn't ripe because only letters have 
been sent; there has been no subpoena.
    And how this works is, a subpoena is issued. The executive 
branch exercises their executive privilege, just like Obama 
did, and then the courts decide this. The courts have never 
decided this. So where is the obstruction? It doesn't exist.
    So I would defend this case every single day. As a judge, I 
would dismiss this for lack of merit. Even if the facts are 
viewed in light most favorable to the Democrats, you still, 
again, cannot make out what we as lawyers call a prima facie 
case. This case would be dismissed on day one in a courtroom.
    But I will tell you what case I would prosecute. I would 
prosecute Schiff for abuse of power any day of the week. Why? 
How about the fact that he subpoenaed phone records from a 
Member of Congress? How about the fact that he singled out 
Devin Nunes's cell phone number and leaked that? How about the 
fact that he dumped over 8,000 pages on the Judiciary Committee 
48 hours before we had a hearing in this committee? That is 
abuse of power, and that is what I would prosecute every day of 
the week.
    Obstruction? I would prosecute the Democrats for 
obstruction of Congress too. How about the fact that I had a 
motion to subpoena the whistleblower, the whistleblower who--by 
the way, you cannot point to any statute--there is no statute 
that gives that whistleblower the right to be anonymous. Does 
not exist, no matter what you say. I had a motion to subpoena 
the whistleblower 2 weeks ago. That motion was denied. I never 
got my subpoena. And it was done in a partisan fashion, 
straight down partisan line.
    So that is the obstruction, and I would prosecute that 
every single day.
    Folks, that is the legal analysis. This is nothing more 
than a political hit job.
    Thanks, and I yield the remainder of my time.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Scanlon seek recognition?
    Ms. Scanlon. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Scanlon. You know, I want to reiterate, this is not 
about disagreements with the President's policies or 
personality or even his tweets. We are not judging the 
President himself; we are judging his actions.
    And I understand that he ran to disrupt the government. The 
problem is, he went further. By abusing his power, he 
endangered our elections and our national security.
    He remains an ongoing threat to both. He has shown a 
pattern of inviting foreign interference in our elections and 
trying to cover it up twice. He is threatening to do it again.
    So we have heard a lot of loose talk about what evidence we 
have or don't have. There is plenty of direct evidence of the 
President's wrongdoing, including, for example, his July 25 
call record, in which he said to the Ukrainian President, ``I 
want you to do us a favor, though,'' and then proceeded to 
request investigations into his political rival and a debunked 
conspiracy theory that the Senate and all of our national 
security services have rejected.
    We have the testimony of his appointees, Ambassadors 
Sondland and Volker, about the May 23 meeting in which the 
President said to them, ``Talk to Rudy.''
    We have testimony of three firsthand witnesses to the July 
25 call, two of whom promptly reported the call to their 
superiors and to legal counsel.
    We have the testimony of David Holmes, who overheard the 
President ask Ambassador Sondland whether President Zelensky 
was going to, quote, ``do the investigation.''
    We have the President's many public statements, including 
his October 3 statement that Ukraine and China should 
investigate his political rival.
    Even the minority counsel, Mr. Castor, admitted that there 
was direct evidence. He said, quote, ``We had some direct 
evidence on certain things, and we had some direct evidence on 
the May 23 meeting, and Sondland gave some direct evidence,'' 
end quote.
    The secondhand accounts are also extensively corroborated. 
For example, Ambassador Taylor and Mr. Morrison both testified 
that, during a September 7 phone call with Ambassador Sondland, 
President Trump said there was no quid pro quo but that 
President Zelensky had to go to the microphone and announce 
investigations, kind of giving with one hand and taking away 
with the other.
    Ambassador Sondland testified he had no reason to dispute 
Ambassador Taylor's and Mr. Morrison's testimony about this 
conversation.
    There is also circumstantial evidence. There was no 
contemporaneous explanation given for the President's decision 
to withhold the military aid that had bipartisan support from 
Congress. That didn't come until after the Articles of 
Impeachment were filed.
    And the uniform consensus of the State Department, the 
Defense Department, and White House witnesses is that the aid 
should have been released. Given these facts, the only logical 
explanation, as Ambassador Sondland concluded, was that, like 
the White House meeting, the aid was being used to leverage 
pressure on President Zelensky.
    At the end of the day, the evidence is overwhelming and 
indisputable. President Trump's personal lawyer, Rudy Giuliani, 
pushed Ukraine to investigate his political rival and a 
debunked conspiracy theory. His efforts had nothing to do with 
U.S. policy and were taken on the President's behalf and with 
the President's knowledge. President Trump directed U.S. 
officials and President Zelensky himself to work with Mr. 
Giuliani.
    President Trump ordered the critical military aid for 
Ukraine be withheld. Ukrainian officials were informed the aid 
would not be released unless President Zelensky publicly 
announced an investigation. And President Trump refused to 
release the aid until his pressure campaign on the Ukraine was 
exposed.
    President Trump refused to arrange a meeting with President 
Zelensky, and President Trump's agents advised Ukrainian 
officials that the White House meeting would be scheduled only 
after President Zelensky committed to the investigations.
    President Trump ignored the anticorruption talking points 
prepared for his calls. President Trump asked President 
Zelensky directly to investigate President Trump's chief 
political rival. And President Trump stonewalled Congress's 
investigation.
    You know, I don't know what more you can ask for here. I 
mean, we have admissions from the President; we have 
corroboration from people he has appointed. The only thing you 
can do is stick your head in the sand if you are not willing to 
see what happened here.
    And, with that, I would yield to my colleague from Florida. 
Is she here? Okay.
    Ms. Mucarsel-Powell. Oh, thank you.
    Ms. Scanlon. You are welcome.
    Ms. Mucarsel-Powell. Two seconds. I will wait for the next 
yield.
    Ms. Scanlon. I am sorry. Okay.
    Chairman Nadler. The time of the gentlelady has expired.
    Ms. Scanlon. Sorry.
    Chairman Nadler. For what purpose does Mr. Armstrong seek 
recognition?
    Mr. Armstrong. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Armstrong. So, for weeks, my Democratic colleagues 
talked about quid pro quo, and then they poll-tested bribery. 
But they had a problem, because these things will never change: 
There was no pressure. Both President Zelensky and President 
Trump said that there was no pressure, no victim. The aid was 
released, and there was no investigation.
    And you know what else? There was no whistleblower. There 
was no Adam Schiff.
    So we are left with abuse of power and obstruction of 
justice. An impeachment is either a solemn constitutional 
affair, which this is absolutely not, or whatever the majority 
wants it to be, which this absolutely is. If you cannot prove 
any of it, I guess you are going to use all of it.
    So why not expand it to all the way back to where this 
thing all started? Bob Mueller. And buried in the bottom of 
Article II of this impeachment is the language, ``These actions 
were consistent with President Trump's previous efforts to 
undermine United States Government investigations into foreign 
interference in United States elections.''
    This is nothing more than a legislative drive-by, or, 
probably more accurate, the majority's attempt to return to the 
scene of a noncrime. But I guess after 2 years, 19 lawyers, 40 
agents, 500 warrants, 2,800 subpoenas, $30 million, there is 
simply no way they could leave it out.
    So here is just a reminder: ``The investigation did not 
establish that members of the Trump campaign conspired or 
coordinated with the Russian Government in its election 
interference activities''--Mueller report, page 2.
    This started the day President Trump won the election. This 
has been the forgone conclusion since the day the Democrats won 
back the majority. This was never about facts or fairness. So 
here we are, where we were always going to be, on a purely 
partisan impeachment that is destined to fail in the Senate.
    And, with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purposes does Ms. Lofgren seek recognition?
    Ms. Lofgren. To strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Lofgren. You know, I have listened carefully to this 
very long debate this evening and throughout the last 2 weeks, 
and I think it is important to look back to the Founders and 
the foundation of what it is that we are doing here.
    The Founders knew that the powers given to the President 
needed to have the capacity to be curbed in the case of abuse. 
The Framers of the Constitution consciously adopted a 
particular phrase from the English practice to help define the 
constitutional grounds for removal. The content of the phrase 
``high crimes and misdemeanors' '' for the Framers is to be 
related to what the Framers knew on the whole about the English 
practice, the broad sweep of English constitutional history, 
and the vital role impeachment had played in the limitation of 
royal prerogatives and the control of abuses of ministerial and 
judicial power.
    Now, when you are coming to private affairs in ordinary 
criminal law, it is possible in advance to define what it is 
you can't do. You can't steal that money; you can't hit that 
person. But when you are talking about the abuse of 
Presidential power, you can't always specifically define what a 
bad actor in the White House might do. And, therefore, you have 
the term ``high crimes and misdemeanors' '' and you have the 
abuse of Presidential power.
    It is important to note that in the second Article of 
Impeachment against Richard Nixon there was an article for 
abuse of power. The article principally addressed President 
Nixon's use of power, including the powers vested solely in the 
President, to aid his political allies, harm his political 
opponents, gain improper personal political advantages. He used 
his power--and this is a quote: ``It was undertaken for his 
personal political advantage and not in furtherance of any 
valid national political objective. His Presidential powers''--
and, again, this is a quote--``were seriously incompatible with 
our system of constitutional government and warranted removal 
from office.''
    We have a situation similar here, but I want to address the 
issue raised by my colleague from Ohio. Because I do agree that 
there can be a tendency in the country these days to 
immediately think, ``Well, I don't like that. Let's go to 
impeachment.'' And that has, frankly, been prevalent since the 
Clinton impeachment.
    Lying under oath is a crime. Lying about sex is a shame. 
But neither one involved the use of Presidential powers. And 
the use of impeachment in that instance--really, in the proper 
way, it was never the abuse of Presidential power--I think put 
in the public mind that this is a tool to be used for 
disagreements about policy. Nothing could be further than the 
truth.
    I was disappointed--I voted against the Iraq war, but the 
Congress voted. Some people thought we should have Articles of 
Impeachment about that. No, that did not undercut the 
constitutional order. Congress voted. It was a mistake, but it 
was the President and the Congress together. It was not the 
President usurping the powers of another branch of government.
    Here we have a situation that is so obvious. If you look at 
the facts, it is just inconceivable--the things I have heard 
today are just stunning to me, that you could reach a 
conclusion as the, really, defense counsel here grasping at 
straws.
    The President misused his Presidential power to gain a 
personal benefit, to the detriment of the interests of the 
United States. It was an abuse of power that harmed us, and it 
is ongoing. It is a threat to the constitutional order. It 
meets the definition of high crimes and misdemeanors. It is 
abuse of Presidential power.
    And it is our responsibility to use the tool that our 
Founders gave us in the Constitution to preserve that 
constitutional order. We must impeach.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Who seeks recognition?
    For what purpose does Mr. Gohmert seek recognition?
    Mr. Gohmert. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Gohmert. Thank you.
    Just a quick comment, comments about President Clinton's 
actions. When you lie under oath, it is perjury. It is a crime. 
And I understand the comment that he wasn't acting in his 
official capacity. That would set back the #MeToo movement, if 
they took that position, you know, having sex with an employee 
that is that much younger, when you are President of the United 
States. That is not in his official capacity.
    But no matter how long we spend today, tonight, tomorrow, 
it doesn't make up for the fact that we did not have fact 
witnesses.
    I mean, this reminds me, historically, of the trial of 
Socrates. You know what? He got convicted by the jury of 501 
people. Why? Because he was arrogant. You want to try Donald 
Trump for being arrogant? I am sure you would have a lot of 
Republicans vote with you on that. Yeah, he is arrogant. He has 
a lot to be arrogant about. But that is not a crime. It is not 
a high crime, for sure. And it is certainly not a misdemeanor. 
It is bothersome to people. Some people like it. But that is 
not what impeachment is supposed to be about.
    And to have had a trial, what few hearsay, gossip-mongering 
witnesses there were, come into a Star Chamber and secrete 
their testimony so people can't see them, can't hear them--but 
we have Adam Schiff put it together in a big report. And we 
received the report. Don't have much time to review it. But 
that is all we need. We don't even get to hear from the 
preparer of the report and get to cross-examine him. This is a 
Stalinesque-type proceeding. That is the way it worked under 
Stalin. You didn't get to find out what the fact witnesses--
because usually there weren't any, just like here.
    So what do you have? You have people come in and give 
appearance, give their impressions, and give an appearance and, 
``Oh, gee, we are well-educated.'' You know, great. That is 
fine.
    And if you are ever not sure about being good at 
rationalizing, go to law school. You are trained to do that, so 
that when you hate a person, like the three witnesses obviously 
do Donald Trump, you can come in and just misrepresent facts 
and use those to base your opinions on them. Just great.
    But look at what really started it. It started before 
Mueller. It started back--Carter Page had worked for the CIA to 
help them against the Russians. And what do they do? They 
pervert that, lie to the FISA court, and say, ``Oh, he has 
worked with Russians,'' misrepresent who he is, what he did, 
and what a patriot he was, and then get a warrant. And then, as 
time goes on, they lie about it.
    And where did this all come from? It came from Hillary 
Clinton's campaign, the Democratic National Committee. And they 
hired Fusion GPS. They hired a foreigner to affect our 
election. And they worked with an Australian, an Italian. And 
they--actually, Christopher Steele admitted, ``You know what? 
Those people that gave me that information, they may have been 
Russian. They may have been Ukrainians.'' It would be nice to 
know, but the majority doesn't want us to get there.
    And the very week we find out how bad this travesty was, 
the top people in the FBI and the Department of Justice 
perverted justice because they didn't like the guy that might 
get elected. They did everything they could, they used all 
these foreign resources to try to change the outcome of the 
2016 election. And when that didn't work, then they came 
forward with impeachment. It was, ``Oh, let's project what we 
did on Donald Trump.'' But it turned out he didn't do that.
    And even Mueller and Weissmann, as much as they hated 
Trump, they couldn't find anything to use against President 
Trump. So we had to drop the Russian collusion, we had to drop 
the treason. Oh, what about obstruction of justice? Well, it is 
not obstruction of justice when you know you are innocent and 
you know the Department of Justice is trying to set you up and 
you are trying to expose the truth.
    No, it was others who were obstructing the true justice. 
Vindman? For heaven's sake, you set that guy up as a hero. He 
is no hero. He was mad because Trump didn't do what he told 
him.
    For those who believe in praying for this country, pray for 
mercy. We can't afford justice or the country ends.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Garcia seek recognition?
    Ms. Garcia. I move to strike the last word, Mr. Chairman.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Garcia. Mr. Chairman, 5 more minutes--5 more minutes in 
a very long, long day. But when you look at what the other side 
has presented in defense of the President, what do we get? 
Nada. Nothing.
    None of you all will defend the President's actions, 
because, quite simply, you cannot defend the indefensible. You 
just can't. Even if you like him or support his actions, you 
just won't defend what he did.
    It is really quite simple. It is not complicated at all. He 
offered official acts in exchange for a political favor. He is 
a clear and present danger to do it again. He ignored the power 
of the people, and he will do it again. It is really just that 
simple.
    The President is an imminent threat. The President has 
shown us his pattern of conduct. He has made clear that he will 
continue to abuse his power to corrupt the 2020 elections. We 
must act with a sense of urgency to protect our democracy and 
defend our Constitution.
    In the Clinton case, the House voted to impeach 72 days 
after it authorized an inquiry. It has been 94 days since 
Congress launched its investigation into the President's 
dealings with Ukraine. Impeachment is a charging decision, like 
a grand jury or a prosecutor makes, and we have seen more than 
enough evidence here to charge and move to trial in the Senate.
    It is the President who is abusing his power. What is not 
fair is the President's blanket refusal to participate in this 
inquiry for the sole purpose of hiding the facts from the 
American people.
    Federal courts have ruled that Congress has a 
constitutional right to obtain documents and testimony from the 
Trump administration. One Federal court said that the 
President's obstruction is a farce and he is openly 
stonewalling. And I agree. He is the first President to engage 
in wall-to-wall stonewalling and, in some respects, an outright 
cover-up of his own behavior.
    He has refused to comply with all of the congressional 
subpoenas that have been issued to try to uncover the truth 
about his misconduct--an act that no other citizen can do 
without consequence. As has been stated before, even President 
Nixon shared documents and allowed current and former aides to 
testify as part of the impeachment process, and the committee 
still recommended an Article of Impeachment against him for 
obstruction.
    Last night, I reminded us that all this is really about 
preserving and protecting our democracy for the little boys and 
girls across this Nation so that they will know about what it 
means to make a promise, to make a pledge, and to keep it. 
Because democracy is a gift that each generation gives to the 
next. And that is why we have to take action, we have to move 
forward, and we must impeach the President.
    With that, Mr. Chairman, I yield the remainder of my time 
to my colleague from Florida, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Ms. Garcia.
    I just wanted to answer to what Mr. Chabot said earlier and 
clarify that I, along with so many of my colleagues, so many of 
us that you see sitting on this dais, we did not come here to 
impeach the President of the United States. We came to lower 
healthcare costs, and that is exactly what we did today. We 
voted on H.R. 3 today to lower prescription drug prices.
    They say, ``Let the American people decide.'' Well, that is 
why, last week, we voted on the Voting Rights Amendment Act, 
which many of my Republican colleagues voted against.
    ``Let Americans decide.'' Yes, that is exactly why we are 
here, because we don't want Russia, Ukraine, or China making 
the decision for us in our American Government. This President 
has committed the highest crime by abusing the power of his 
office, inviting foreign interference in our elections, and 
that is why we are here today.
    Please, don't confuse Americans with false claims and 
pushing debunked conspiracy theories. We are here to tell the 
American people the truth.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    Who seeks recognition?
    For what purpose does Mr. McClintock seek recognition?
    Mr. McClintock. To strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. McClintock. Mr. Chairman, I have lost track of the 
number of newspaper articles that have been entered into the 
record in these proceedings, but I think it is a telling 
commentary on the quality of the case that this committee is 
relying on to support the exercise of one of the most profound 
actions that we can take. I think it underscores the 
dereliction of duty of a Judiciary Committee drafting Articles 
of Impeachment without a single fact hearing. Virtually the 
entire record is the Schiff report and newspaper clippings.
    As I reminded the committee yesterday, this week, Mr. 
Schiff's report on FISA abuse was categorically and completely 
contradicted by the inspector general's report. Mr. Schiff's 
work is not exactly what you can call the gold standard of 
accuracy, reliability, or incisive analysis.
    And newspaper clippings, with all due respect, are not 
exactly the solid foundation that can support our wielding such 
power. Impeachment should be made of sterner stuff. A matter so 
momentous as this should be considered thoroughly and 
dispassionately and fairly.
    Mr. Chairman, to substitute our judgment for that of the 
American people, by nullifying a national election, is a very 
weighty matter. If you are going to do that, you should have a 
record of fact that no reasonable person can deny. If a one-
sided report from Adam Schiff and a newspaper scrapbook is the 
foundation of impeachment, then I predict we will crumble and 
disintegrate before the Senate finishes its consideration.
    Abuse of power is exactly the vague and expansive ground 
that the Founders considered as maladministration and rejected 
in favor of the narrow ground of treason, bribery, or other 
high crimes and misdemeanors. The lawful exercise of the 
President's constitutional authority is not impeachable. And 
the moment that we make it so, the President becomes a servant 
of Congress, and the separation of powers which is, which has 
protected our freedom for nearly two-and-a-half centuries, will 
be greatly diminished.
    And, similarly, the President's assertion of long-
established boundaries that maintain the separation of powers 
is also not impeachable. And once we make it so, we also 
clearly diminish the separation of powers.
    The overwrought political hyperbole that we have heard over 
and over through these hearings ought to warn us that we are 
straying into partisan motives, which must never animate the 
impeachment power of Congress. Public opinion has not coalesced 
around this act, which should also alert us to the danger that, 
by proceeding, we would further divide and alienate the 
American people and roil and agitate the political waters of 
this Nation.
    You have failed to define any law that the President has 
violated. If you could, you should clearly articulate that, you 
should support it with legally admissible evidence, and put it 
in the articles. Otherwise, your case is simply a disagreement 
with decisions the President is authorized to make.
    And, again, this is a matter that our Constitution reserves 
to the voters and not to the Congress. And by denying the 
witnesses requested by the minority, you have blinded the 
committee to getting the whole story. If you are truly 
confident of your case, you should have nothing to fear from 
what a full airing of testimony would offer.
    The most chilling observation I have heard is that we can 
do this because we are not restricted like the Department of 
Justice is. Well, the same rights of due process and the same 
fidelity to the Constitution are required of us.
    In the impeachment of Andrew Johnson, Congress made many of 
the same mistakes that we are making tonight. I would urge my 
colleagues to carefully consider how history has judged them 
and how it will judge us.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Ms. Jayapal seek recognition?
    Ms. Jayapal. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Jayapal. Thank you.
    Mr. Chairman, we just continue to hear the same excuses for 
the President's behavior. And this is such a grave moment that 
we are in. We are talking about the highest constitutional 
crimes: abuse of power and obstruction of Congress. And so let 
me once again just review the facts.
    First, my Republican colleagues have said that this is 
about corruption. But all of President Trump's agencies, all of 
his advisors, everyone unanimously told him that Ukraine had 
passed all the anticorruption benchmarks. The Department of 
Defense said that Ukraine had passed their review on 
anticorruption benchmarks and no further corruption policies 
were needed. President Trump's administration cut programs 
designed to fight corruption in Ukraine.
    And President Trump was given talking points by the 
National Security Council that specifically said, ``Say these 
things about corruption.'' But guess what happened on those 
calls in April and July? President Trump did not mention 
corruption. He did not use the talking points that he was 
given. The only two names that he mentioned on the July 25 call 
were Joe and Hunter Biden.
    Second, the Republicans suggested that this was all about 
President Trump's concerns with burden-sharing with our allies. 
But that wasn't true. That wasn't true. Mr. Holmes testified 
that burden-sharing was not a problem. Europe was actually 
contributing four times as much money as the United States did. 
And Ambassador Sondland testified that he was never asked to go 
to the European Union and ask for more money. And, remember, 
Mr. Sondland is President Trump's Ambassador to the European 
Union.
    What was Ambassador Sondland told to communicate to Ukraine 
by President Trump? He was told to say that resumption of aid 
would likely not occur unless President Zelensky announced the 
investigation. Specifically, he said that, quote, ``unless 
Zelensky went to the mike and announced these investigations, 
there would be a stalemate over the aid.'' And what were those 
investigations? 2016 election interference and Burisma, meaning 
the Bidens.
    So, finally, left with nothing else to argue in defense of 
the President, the Republicans have raised one more thing, 
which is that President Trump had a legitimate reason, somehow 
a legitimate reason, to investigate Vice President Biden. But, 
once again, that makes no sense. It makes no sense. Because the 
facts are that that issue of Biden and Burisma went back to 
2015, and President Trump released aid in 2017 and 2018. So he 
clearly didn't have a problem with the issues of 2015, because 
he had two opportunities to release aid and he did. But 
something changed in 2019, and the only thing that changed is 
that Vice President Biden suddenly started beating President 
Trump in the polls.
    So the evidence is clear. President Trump said, ``Do us a 
favor, though.'' And who was the ``us''? Well, he told us. He 
told us exactly what he meant by ``us.'' He told President 
Zelensky that ``us'' meant deal with Rudy Giuliani, President 
Trump's personal attorney, who knows--and this is a quote--
``very much knows what is going on.''
    President Trump could have gone through official channels, 
if he wanted, if this investigation was actually legitimate. He 
could have asked the Department of Justice to initiate an 
investigation into the Bidens and Burisma. But he didn't do 
that. He did not do that. And the Department of Justice said 
that he didn't do that. He never asked them to do an 
investigation or even talk to Ukraine. Instead, President Trump 
asked his personal attorney.
    Because ``us'' was not about America. This wasn't about 
official policy. This wasn't about what was right for our 
country. This was not about putting America first.
    Ms. Jayapal. Every witness testified to that as well. This 
was personal. It was all for President Trump's personal, 
political gain. This was to benefit Trump's own re-election 
campaign and that is why he had his personal attorney do this. 
He abused his power, he abused the power that the people 
entrusted to him, he abused the office, and he placed our 
safety, millions of dollars of taxpayer money all at risk for 
his own personal political election and that is the one thing 
the President can't do.
    He cannot use our money, the powers of the office that we 
entrusted to him, we, the people, not for us, but for himself. 
That is the gravest abuse of power and this President has left 
us no choice but to impeach him.
    I yield back.
    Chairman Nadler. The gentlelady yields back.
    For what purpose does Mr. Johnson seek recognition?
    Mr. Johnson of Louisiana. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. This 
morning I began by outlining our important role today. Most of 
us are attorneys on this committee and in this case we are also 
called to serve as finders of fact. We are supposed to 
carefully and objectively analyze the claims not against our 
personal preferences, but against the record of evidence. And 
now we have done that for the past 12 hours and it is time to 
summarize our case. At the end of the day, now, literally, the 
end of the day, there are just two short articles to this 
impeachment resolution they brought before us--abuse of power 
and obstruction of justice, and let's review both.
    On the first, the Democrats know there is zero direct 
evidence in the record of these proceedings to show that 
President Trump engaged in any scheme of any kind as they have 
alleged or that he intended in his dealings with Ukraine to 
influence the 2020 election.
    All they have argued today is based on hearsay, 
speculation, and conjecture completely. The truth is, there is 
not a single fact witness that could provide testimony to 
support their paper thin case, which is precisely why we have 
been given no opportunity for a fact witness or a minority 
hearing. What the evidence does show is that President Trump 
holds a deep-seated genuine and reasonable skepticism of 
Ukraine due to its history of pervasive corruption and his 
administration sought proof that the newly-elected President 
Zelensky was a true reformer.
    President Trump wanted to ensure that American taxpayer 
funded security assistance would not be squandered overseas by 
what is reported to be the third most corrupt Nation in the 
world. The Trump-Ukraine discussions were never about what will 
happen in 2020, but rather about what already happened in 2016.
    The Democrats' second claim is that President Trump 
obstructed justice by simply doing what virtually every other 
President in the modern era has also done, to assert a 
legitimate executive privilege and legal immunity to avoid 
subpoenas issued to various White House officials. There is 
simply no evidence of any impeachable offense here either. And 
if they had not promised an impeachment to their liberal base 
by Christmas, the Democrats could and should have simply gone a 
few blocks away to the Federal Court to get a simple order 
compelling the extra documents and information they subpoenaed, 
but that is what is always been done in the past, but they 
didn't have time for that here because they are trying to meet 
their own arbitrary, completely reckless, and Machiavellian 
timeline to take down a President they loathe.
    The real abuse of power here is on the part of the House 
Democrats, as they have feverishly pursued this impeachment 20 
times faster than the impeachment investigation of Bill Clinton 
to reach their predetermined political outcome. Along the way, 
they have steam rolled over constitutionally guaranteed due 
process, previously sacrosanct House rules, and the Federal 
rules of civil procedure. They have ignored or blocked 
exculpatory evidence, intimated witnesses, restricted 
Republican lines of questioning, denied defense witnesses an 
involvement of the President's counsel, restricted Republican 
review of evidence, denied minority hearing, and violated 
proper minority notice and fairness at every single stage.
    The founders of this country warned against a single party 
impeachment for good reason. They feared that it would bitterly 
and perhaps irreparably divide our Nation. Our chairman, Mr. 
Nadler, gave a speech about that 20 years ago when he was 
opposing the impeachment of Bill Clinton. The obvious truth is 
that our liberal colleagues have vowed to impeach President 
Trump since the day of his election. Their reason of the day 
changed at least a half of dozen times over the last 3 years, 
but they could never get any traction or any facts to justify 
those various conspiracy theories.
    As the next election in 2020 is drawing so close now and 
their candidates for President are so terribly weak, they 
obviously met somewhere at liberal high command about 75 days 
ago and convinced Nancy Pelosi they had to pull the trigger. 
The problem is, they have done that and in all those hearings 
in the basement, they couldn't uncover a single fact to justify 
their latest conspiracy theory about Ukraine.
    So what to do? They are left with no choice. To desperately 
create a totally fraudulent, unprecedented process to try to 
railroad Donald Trump. The results are what our expert witness 
testified as quote, the shortest proceeding with the thinnest 
evidentiary record and the narrowest grounds ever used to 
impeach a President.
    I am a constitutional law attorney by profession and have 
actually enjoyed the sparse 4 minutes of real intellectual 
debate we had to today on the actual contours of Article II, 
Section 4, but every high school civic student at home can read 
its plain language and see what is expressly required to 
impeach a President.
    You need treason, bribery, or a high crime or misdemeanor. 
None of that exists here. And everybody knows it. Those high 
school students at home know it, our constituents know it, and 
in their heart of hearts, even our friends on the other side of 
the room tonight know it. My good friend Mr. Cohen said in his 
closing a few moments ago that he is proud to be a politician, 
but I would say with all sincerity this moment doesn't call for 
politicians. The weight of history is upon us here, and this 
moment calls for statesmen.
    This impeachment is going to fail. And the Democrats are 
going to justly pay a heavy political price for it, but the 
Pandora's box they have opened today will do irreparable damage 
to our country in the years ahead and that is the real tragedy 
of the vote we are about to take. God help us.
    I yield back.
    Chairman Nadler. The gentleman yields back. For what 
purpose does Ms. Bass seek recognition?
    Ms. Bass. I move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Ms. Bass. A little while ago, one of my colleagues on the 
other side of the aisle was saying that the President was not--
the reason why aid was withheld was because the President 
wanted to investigate corruption. The idea that the most 
corrupt President that we have seen in recent history withheld 
military aid because he was concerned about corruption is 
ludicrous.
    As my colleagues have pointed out, both calls that 
President Trump had with President Zelensky, Trump never 
mentioned corruption. The Department of Defense vetted giving 
the aid and said that it was okay. Once upon a time, President 
Trump loved his generals. This time he ignored them. 'Members 
of Congress authorized the aid and lobbied the White House to 
release the aid. Staff from the Office of Management and Budget 
resigned because they were worried about what was going on and 
why the aid was withheld. They were worried about what the 
President was doing and they believed that withholding the aid 
was wrong.
    Trump even cut funding for programs to deal with corruption 
in countries like Ukraine, so a man that is so concerned about 
corruption also has interesting friends. He has bromances with 
some of the world's most corrupt leaders, the leaders from 
Saudi Arabia, Turkey. He had the President Erdogan from Turkey 
just a couple of weeks ago at the White House, but we know his 
number 1 pal is President Putin.
    So all the President's men, all the men around him that 
were indicted, arrested, incarcerated, my mother used to say 
that if you lay down with dogs, don't be surprised if you get 
up with fleas. The man who claimed he wanted to clean up the 
swamp created his own swamp and he is drowning in it now.
    I do have to say, though, that I have empathy for my 
Republican colleagues because I don't believe that they have a 
choice. They have to defend the President and they dare not 
step out of line because if they do, they will suffer the 
consequences.
    A few of my Republican colleagues earlier did try to say 
that they didn't believe that the President's conduct was 
appropriate and they got slapped quickly. The President said, 
his conduct, he said, the call was absolutely perfect, and so 
now you don't hear any of them saying or questioning whether 
his behavior was appropriate.
    You have to fall in line and not only do you have to fall 
in line, you have to praise him constantly, like those famous 
press conferences we have seen in the Oval Office where they 
one by one go around the table and talk about their praise for 
him. It makes me feel like a meeting that would take place in 
North Korea where you have to praise dear leader.
    So you have to fall in line because the entire reason was 
corruption, but I know that you know better. You have to say 
that he did nothing wrong. One of my colleagues said that we 
are lowering the bar on impeachment. I believe that we have 
lowered the bar on the Presidency. It is so sad to see my 
colleagues who I believe know what is better. They are not able 
to say it. They know that the man is corrupt.
    When it comes to impeachment, there is no higher crime than 
for the President to use the power of his office to corrupt our 
elections. We will move to impeach President Trump because of 
the abuse of power through self-dealing, the betrayal of 
national security in the service of foreign interest and the 
corruption of our elections that undermine our Democratic 
system.
    So, if my colleagues on the other side of the aisle can't 
bring themselves to do what is right and impeach a President 
that they know is a threat to our election, that they know is a 
threat to our standing in the world, then we will have to do it 
and we will have to move to impeach.
    I yield now to Representative Jackson Lee.
    Ms. Jackson Lee. I thank the gentlelady for yielding. My 
conclusory remarks are simply this: To my friends on the other 
side of the aisle, to the Americans who listened, to the 
soldiers everywhere who wear uniforms, I have no angst, I have 
no dislike of anyone who voted for anyone in 2016. I take issue 
at insult that one would suggest the work of this committee is 
about a dislike for those who voted for President Trump.
    President Trump is before this committee in Articles of 
Impeachment for his own behavior. For his desire to do with 
public monies and a public position to do a private matter and 
a political matter, and that is to get dirt on his 2020 
potential opponent. In honoring and defending the Constitution, 
we defend and honor ourselves and for that reason, as an 
indicting body through Articles of Impeachment, we will give 
the opportunity for the Congress to decide on President Trump's 
ultimate results. But I stand with the Constitution and stand 
for justice.
    I yield back.
    Chairman Nadler. The gentlelady's time is expired.
    For what purpose does Mr. Swalwell seek recognition?
    Mr. Swalwell. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Swalwell. Fool me once, shame on you. Fool me twice, 
shame on me. If we allow the President of the United States to 
again abuse his office for his own personal gain, it is shame 
on all of us. It is shame on our Constitution. We know he is 
going to do that again because on June 12th of this year he 
told George Stephanopoulos before this phone call with 
President Zelensky happened that if he could again receive help 
from a foreign government as he did from Russia, he would do it 
again.
    On July 24, Bob Mueller testified to our committee. He said 
that the President could be charged with up to ten crimes of 
obstruction of justice, but the Department of Justice prevents 
him from doing that. The next day the President did it again.
    Every prosecutor when they are assigned a case will open up 
the file and the first thing we all do is we look at the rap 
sheet. Was this an aberration or is this a pattern of conduct 
that the person engages in? But it is not just prosecutors who 
look or use a rap sheet, we all do it in our everyday lives.
    If you are a small business owner and you are hiring an 
employee and find out that they have multiple thefts in their 
past from their employer, you probably wouldn't hire them. If 
you are a parent looking for a night out in hiring a baby-
sitter and multiple references said the baby-sitter is always 
late, you wouldn't ask that person to watch your kids. If you 
are going to a restaurant for an anniversary and saw multiple 
bad Yelp reviews, you wouldn't go to that restaurant.
    The President doesn't just have bad reviews, he has really 
bad prior conduct. Serious priors. He is a repeat offender, 
crimes against our Constitution, and yes, crimes that one day 
may be prosecuted statutorily. He has abused his power in the 
past. He is abusing his power right now. He will abuse it 
tomorrow.
    We have a Department of Justice who will continue to 
protect him, but, fortunately, the American people have a 
Congress who can say that he is not above the law and we are 
not helpless in holding him accountable.
    And I will yield to the gentleman from Rhode Island.
    Mr. Cicilline. I thank the gentleman. You know, we have 
heard a lot of explanation about why we are here tonight that 
we don't like the policies of the President. We don't like the 
President, but the one thing we haven't heard, the real reason 
we are here tonight is the conduct of the President. The grave 
misconduct.
    And so I just want to recount very quickly, again, the 
evidence that was presented in text messages and call records 
and emails and hundreds of press statements and tweets. 
President Trump acknowledging that he had been engaged on a 
personal basis through Rudy his lawyer in investigating 
Ukraine.
    That President Zelensky is sensitive about Ukraine being 
taken seriously not merely as an instrument in Washington 
domestic re-election politics as Ambassador Sondland said; that 
David Holmes testified under oath, I was surprised the 
requirement was so specific and concrete. There was a demand 
that President Zelensky personally commit to a specific 
investigation of President Trump's political rival on cable 
news and the evidence goes on and on and on of the President's 
effort to use the enormous powers of his office to betray the 
national interests and cheat in the election in 2020 and to use 
hundreds of millions of dollars of taxpayer money to attempt to 
achieve that objective.
    Our founders talked about abuse of power because they 
recognized that the power of the Presidency was enormous and 
there was a danger that a President would use that power not 
for the public good, but for his own personal or political or 
financial advantage, and so they created Articles of 
Impeachment to give a final check against that abuse of power. 
No one is here because we want to do this. We are here because 
we have no choice. We are not acting out of hate; we are acting 
out of love of our country and love of our democracy.
    And when generations look back on this moment, they will 
ask what did we do to preserve our democracy and the only thing 
we can do to preserve that is to hold this President 
accountable because if we don't, they will ask us why we failed 
to preserve the greatest democracy on Earth that has been an 
example to the world. And in this moment, we have to find the 
courage to be sure we can answer that question for all future 
generations and not be part of an effort to undermine the 
greatest democracy known to man.
    And so I urge my colleagues tonight, we must approve these 
Articles of Impeachment so we can make it clear that nobody in 
this country, in the greatest country in the world, is above 
the law, even the most powerful person, the President of the 
United States.
    And with that, I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mr. Jeffries seek recognition?
    Mr. Jeffries. Move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Jeffries. The record is clear: Donald Trump abused his 
power by soliciting foreign interference in the 2020 election 
and thereby undermine the integrity of our democracy as well as 
our national security. But my Republican colleagues have spent 
all day arguing process. That is what you do when you can't 
defend the indefensible, you argue process.
    Well, here is a process concern that you might reflect 
upon. Earlier today, Mitch McConnell gave some indication as to 
how a possible trial in the Senate may run and this is what 
Senator McConnell said. I am going to coordinate with the 
President's lawyers so there won't be any difference between us 
on how to do this. In other words, the jury, Senate 
Republicans, are going to coordinate with the defendant, Donald 
Trump, on how exactly the kangaroo court is going to be run.
    I submit to you, respectfully, that is a process concern 
that the American people should be worried about. Now, America 
is a resilient Nation and we have been through moments of 
turmoil before and we have always come through. We are 
resilient Nation.
    Lincoln said during the height of the civil war, America is 
the last best hope on Earth. FDR said on the eve of the second 
world war, democracy is not dying. Reagan said in the midst of 
the Cold War, America is a shining city on a Hill. What exactly 
will history say about us? Will we put principle over party? 
Will we put the Constitution above corruption? Will we put 
democracy over demagoguery? What exactly will history say about 
us?
    I yield now to my distinguished colleague from the great 
State of Texas, Ms. Escobar.
    Ms. Escobar. Thank you, Mr. Chairman. I am going to speak 
directly to the American people, once again, and I am going to 
ask that they bypass the Republican talking points that they 
have heard over and over and over again, especially for those 
Americans who have been listening and watching all day, and 
instead go directly to the evidence yourself.
    Over 100 hours of testimony, testimony by some of America's 
greatest patriots, over 250 text messages, Mick Mulvaney's own 
words, Mr. Mulvaney is the President's chief of staff, and 
finally the President's own words. His own words inviting 
Russia, Ukraine, and China into our election.
    The Republican colleagues that we have on this committee 
claim there is not enough evidence. Review it for yourself. And 
as to obstruction, we have given a number of examples about 
obstruction, but we have a living example that was released 
just tonight. And actually before I talk about that example, if 
my colleagues, my Republican colleagues think the President is 
so free from wrongdoing, I would ask them to join us in calling 
on President Trump to release it all.
    Release the witnesses. Release the documents. Let the 
American public make up their own minds. Let them see it all. 
Call on transparency, join us. But they won't because the 
obstruction is convenient.
    Tonight there was a victory. The center for public 
integrity sued in Federal Court for documents related to the 
Ukraine scandal, and this is what they have got. They won in 
court, but what they got were heavily redacted documents. Why? 
Because the President doesn't want these documents to see the 
light of day.
    I ask for unanimous consent, Chairman, to enter these 
documents----
    Chairman Nadler. Without objection.
    [The information follows:]

      


                  MS. ESCOBAR FOR THE OFFICIAL RECORD

=======================================================================  
_______________________________________________________________________

      
    FOIA Production, December 12, 2019 DOD and OMB to Center 
for Public Integrity Submitted by the Honorable Veronica 
Escobar
    docs.house.gov/meetings/JU/JU00/20191211/110331/HMKP-116-
JU00-20191211-SD9007.PDF
    Ms. Escobar [continuing]. Into the record along, with the 
article ``Trump Administration Resists Ukraine Disclosures 
Ordered By Court.''
    Chairman Nadler. Without objection.
    Ms. Escobar. I yield back.
    Chairman Nadler. The time of the gentlelady has expired.
    For what purpose does the Ranking Member, Mr. Collins seek 
recognition?
    Mr. Collins. I move to strike the last word.
    Chairman Nadler. The gentleman is recognized.
    Mr. Collins. Thank you, Mr. Chairman.
    As we are coming to the end here, it is amazing to me, 
especially from hearing from one of the--my--frankly, either 
side of the aisle, one of my closest friends on this dais, Mr. 
Jeffries, make a statement that said that the only thing we had 
to offer was a process argument all day. He may have had to 
come in and out--I am not sure--but for the most part for over 
12 hours we have ordered the fact and argued the facts that 
there is over and over and over again that the call, the aid 
was released, there was nothing done. And that has been our 
argument.
    We have a process argument because the process argument has 
a lot to do with where we are at right now, but the facts have 
been taken on and rebuffed every single hour of this day since 
9:00. It is amazing to me also, though, that one thing that my 
friend said, though, is, as we look forward to this and going 
forward, it has to be said. This is basically the concerning 
part for many of us is the focus group impeachment.
    When you couldn't make, as one of my colleagues Mr. 
Richmond said, quid pro quo is not something we all use but 
bribery is something somebody understands. Extortion is what 
somebody understands. You know, doing something illegal is 
something we understand.
    And what we have heard today from my colleagues is a lot of 
discussions about crimes that they couldn't charge, crimes that 
they wouldn't put in the Article of Impeachment. If they were 
so set that he did all of these crimes that were always 
mentioned, then put them in the articles but you can't. That is 
the biggest flaw and struggle you are having right now. And I 
know we still have just a little bit of debate left, but that 
is the issue we are dealing with. You can't put them in there.
    And for those who have said that you will not defend the 
actions of this President, we are defending the President's 
actions. We defend them that there is nothing wrong, and I will 
do them right now. For someone to say we haven't, again, is not 
listening. The problem we are having is this is a clock-and-
calendar impeachment. It never got answered.
    One of the things that has just disturbed me most, as I 
have worked with this chairman now in the minority and majority 
on both ways, and it is amazing to me how little we have gotten 
in this. I wrote six letters to this chairman about issues of 
how we are to actually conduct it, what has now become the real 
short rubber stamp version of impeachment which we have tonight 
in the Judiciary Committee. I received an answer to none of 
those letters, except one, just the other night when it was 
rejected of any of our witnesses, not a chance that we have any 
of our witnesses.
    So in some ways I turn it back on the Democrats. What were 
you scared of? What were you afraid of that they might actually 
say? Because we didn't get it--we just summarily rejected them. 
So my question would be honest, what are you afraid of from the 
witnesses, some of which had already been called, that we 
wanted to call?
    When we are understanding of the fact that we have now 
become a committee that unfortunately mirrored what the 
chairman said over 20 years ago. We have accepted the facts 
from other places and not checked them out ourselves. We have 
regurgitated, thrown out, talked about other peoples' work, but 
yet not having a chance to look at it ourself. We are the 
rubber stamp.
    This is no longer the Judiciary Committee that actually is 
a trier of fact or a witness interrogator. It is a rubber stamp 
to what someone else, Mr. Schiff, in particular, has told us 
and that is sad, because that is not what this committee is 
about.
    I have watched last Congress as my friends, who are now in 
the majority were in the minority, make passionate arguments 
for hours at a time on very little, nothing including the rules 
of the committee. We went almost I think it was 7 or 8 hours on 
the rules of the committee. Pass it. I understand that. That is 
what this committee is about.
    But can you tell me honestly from the majority's 
perspective that we have almost spent less hours percentage-
wise on impeachment of actually doing anything remotely related 
to a hearing as you did in the minority when you were arguing 
about the rules of the committee and the oversight? That should 
tell you a lot about what this is about.
    Because we are spending more time in the minority arguing 
about things that really in the end of the day were not moving 
the needle and we are spending less time percentage-wise 
arguing about what unfortunately called the highest of all 
calls that you are doing and honoring the Constitution and 
honoring the call that you have had as a commitment to serve in 
this body.
    I think it is just not congruent with what you are doing. 
The other problem I have is this is going to be never-ending. 
It does not matter. In just a matter of a few weeks, whenever 
the Senate finishes up whatever they do, then we are back to 
this again; and I know that because Adam Schiff told me so. I 
know this because Al Green has told me so. They will impeach 
him over and over and over again, investigate him over and over 
and over again. I guess I am waiting for the committee hearings 
schedule in February to see what we are investigating next. I 
guess that will dominate us because it is all it has here.
    But the one most disturbing thing of all today is at the 
end of the day, if you can't make that President Zelensky felt 
threatened, then you attack President Zelensky. I cannot 
believe just in the last little bit here he was actually called 
a battered wife, President Zelensky called a battered wife. The 
absolute destruction in compared to a battered wife is just 
amazing that this is where we have stooped in this committee at 
this time during this important moment.
    Vote no on this impeachment debacle.
    I yield back.
    Chairman Nadler. The gentleman yields back.
    For what purpose does Mrs. Demings seek recognition?
    Mrs. Demings. Move to strike the last word.
    Chairman Nadler. The gentlelady is recognized.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Just a couple of things I want to clear up right off the 
bat. I feel compelled to say that Lieutenant Alexander Vindman 
is a hero because he received the Purple Heart for sustaining 
injuries in Iraq, and I am extremely proud of him for his 
courage on and off the battlefield.
    Secondly, we can say this one more time. The Intelligence 
Committee did not subpoena the phone records of any Member of 
Congress or any member of the press. Abuse of power has been 
defined as official misconduct, commission of an unlawful act 
done in an official capacity which affects the performance of 
official duties.
    President Trump sought an announcement of political 
investigations in return for performing two official acts. 
Number 1, he conditioned release of vital military assistance 
in Ukraine on President Zelensky's public announcement of the 
investigations. Now imagine if there was a mayor who withheld 
critical dollars from a police chief to fight terrorism until 
that chief went to a microphone and simply announced an 
investigation of the mayor's political opponent. I do not 
believe any community, anywhere would allow that.
    Number 2, the President conditioned a head-of-state meeting 
at the White House on Ukraine, publicly announcing the 
investigations.
    And, finally, President Trump acted corruptly throughout 
this course of conduct because he offered to perform these 
official acts in exchange for a private, political benefit 
rather than because it was in the country's interest.
    This last element, the President acting corruptly is 
perhaps the most important act and it bears repeating because 
it explains why this article is structured as an abuse of 
power. It has been suggested that it is as simple as we hate 
the President. I don't hate the President. I attended President 
Trump's inauguration. I wanted to be there to watch the 
peaceful transfer of power. I felt it was my duty. Before 
coming to Congress, I had provided dignitary protection for 
Republican and Democratic Presidents. I always considered it an 
honor.
    But President Trump, with all that has been said, with all 
of the excuses that we have heard today, President Trump used 
his office to serve himself, to serve his private benefit and 
by doing so, he jeopardized America's national security 
interests and the integrity of our precious elections. Every 
vote should count. And went all out to completely obstruct any 
investigation into his wrongdoing.
    Yes, we have heard it many times. Yes, the President was 
duly elected by the American people. We know that, and we take 
it very seriously. I want my vote to count and everybody, I 
believe, who pressed their way to the polls want their vote to 
count. But are you suggesting that the American people will 
allow the President to do anything that he wants to do anytime, 
anyplace, anywhere?
    To my Republican colleagues, I reject what you are willing 
to settle for. We have a responsibility to hold the President 
accountable, and I plan on doing my constitutional duty. He 
shall be held accountable.
    And with that, Mr. Chairman, I yield back.
    Chairman Nadler. The gentlelady yields back.
    There being no further amendments, we have concluded debate 
on the amendment in the nature of a substitute. The question 
occurs on the amendment in the nature of a substitute.
    All those in favor respond by saying aye.
    Opposed no.
    In the opinion of the Chair, the ayes have it and the 
amendment in the nature of a substitute is agreed to.
    To be clear, the ayes have it and the amendment in the 
nature of a substitute is agreed to.
    To be clear, the vote this committee just took was not a 
vote on final passage of the article. It was a procedural vote 
which precedes final passage of each of the articles. It has 
been a long two days of consideration of these articles, and it 
is now very late at night. I want the members on both sides of 
the aisle to think about what has happened over these last few 
days and to search their consciences before we cast our final 
votes.
    Therefore, the committee will now stand in recess in 
tomorrow morning at 10:00 a.m. at which point I will move to 
divide the question so that each of us may have the opportunity 
to cast up or down votes on each of the Articles of Impeachment 
and so that history be our judge.
    The committee is in recess.
    Mr. Collins. Mr. Chairman, Mr. Chairman, there was no 
consulting for the ranking member on your schedule for tomorrow 
in which you have just blown up schedules for everyone? You 
chose not to consult the ranking member on a schedule issue of 
this magnitude? So typical. This is--this is the kangaroo court 
that we are talking about. Not even consult.
    Mr. Gohmert. It's Stalin-esque. Let's have a dictator. It 
is good to hear about that.
    Mr. Collins. Unbelievable.
    Chairman Nadler. Ten a.m. tomorrow.
    [Whereupon, at 11:15 p.m., the committee recessed, to 
reconvene at 10:00 a.m., Friday, December 13, 2019.]



MARKUP OF H. RES. 755, ARTICLES OF IMPEACHMENT AGAINST PRESIDENT DONALD 
                                J. TRUMP

                              ----------                              


                       FRIDAY, DECEMBER 13, 2019

                       House of Representatives,

                      Committee on the Judiciary,

                            Washington, DC.

    The committee met, pursuant to call, at 10:03 a.m., in Room 
1100, Longworth House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Deutch, Bass, Richmond, Jeffries, 
Cicilline, Swalwell, Raskin, Jayapal, Demings, Correa, Scanlon, 
Garcia, Neguse, McBath, Stanton, Dean, Mucarsel-Powell, 
Escobar, Collins, Sensenbrenner, Chabot, Gohmert, Jordan, Buck, 
Ratcliffe, Roby, Gaetz, Johnson of Louisiana, Biggs, 
McClintock, Lesko, Reschenthaler, Cline, Armstrong, and Steube.
    Staff Present: Amy Rutkin, Chief of Staff; Perry Apelbaum, 
Staff Director and Chief Counsel; Aaron Hiller, Deputy Chief 
Counsel and Chief Oversight Counsel; Barry Berke, Counsel; Norm 
Eisen, Counsel; Arya Hariharan, Deputy Chief Oversight Counsel; 
James Park, Chief Constitution Counsel; Joshua Matz, Counsel; 
Sarah Istel, Counsel; Matthew Morgan, Counsel; Kerry Tirrell, 
Counsel; Sophia Brill, Counsel; Charles Gayle, Counsel; Maggie 
Coodlander, Counsel; Matthew N. Robinson, Counsel; Ted Kalo, 
Counsel; Priyanka Mara, Professional Staff Member; William S. 
Emmons, Legislative Aide/Professional Staff Member; Madeline 
Strasser, Chief Clerk, Rachel Calanni, Legislative Aide/
Professional Staff Member; Julian Gerson, Professional Staff 
Member; Anthony Valdez, Fellow; Thomas Kaelin, Fellow; David 
Greengrass, Senior Counsel; John Doty, Senior Advisor; Moh 
Sharma, Member Services and Outreach Advisor; John Williams, 
Parliamentarian; Jordan Dashow, Professional Staff Member; 
Shadawn Reddick-Smith, Communications Director; Daniel Schwarz, 
Director of Strategic Communications; Kayla Hamedi, Deputy 
Press Secretary; Kingsley Animley, Director of Administration; 
Tim Pearson, Publications Specialist; Janna Pickney, IT 
Director; Faisal Siddiqui, Deputy IT Manager; Nick Ashley, 
Intern; Alex Espinoza, Intern; Alex Thomson, Intern; Mariam 
Siddiqui, Intern; Catherine Larson, Intern; Kiah Lewis, Intern; 
Brendan Belair, Minority Staff Director; Bobby Parmiter, 
Minority Deputy Staff Director/Chief Counsel; Ashley Callen, 
Minority Chief Oversight Counsel; Danny Johnson, Minority 
Oversight Counsel; Jake Greenberg, Minority Oversight Counsel; 
Paul Taylor, Minority Chief Counsel, Constitution Subcommittee; 
Daniel Flores, Minority Chief Counsel, Antitrust Subcommittee; 
Ella Yates, Minority Member Services Director; Jon Ferro, 
Minority Parliamentarian; and Erica Barker, Minority Deputy 
Parliamentarian.
    Chairman Nadler. The Judiciary Committee will come to 
order, a quorum being present.
    Thank you.
    The Judiciary Committee will come to order, a quorum being 
presented. Having agreed yesterday to the amendment in the 
nature of a substitute of the Articles of Impeachment against 
President Donald J. Trump, the pending business is reporting 
the resolution favorably to the House.
    A reporting quorum being present, the question is now on 
the motion to report the resolution H. Res. 755 as amended 
favorably to the House. Pursuant to Clause 5 of House Rule 16, 
because the resolution contains two distinct propositions, we 
will divide the question between the two articles. The question 
now is on Article I of the resolution, impeaching Donald J. 
Trump for abusing his powers.
    The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Yes.
    Ms. Strasser. Mr. Richmond votes yes.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Yes.
    Ms. Strasser. Mr. Correa votes yes.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. My vote is no.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has everybody member voted who wishes to 
vote?
    Mr. Gohmert. Mr. Chairman----
    Chairman Nadler. The clerk----
    Mr. Gohmert [continuing]. May I ask how I am recorded?
    Chairman Nadler. How is the gentleman recorded?
    Ms. Strasser. Mr. Gohmert, you are recorded as no.
    Mr. Gohmert. I want to make sure.
    Chairman Nadler. The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 23 ayes and 17 noes.
    Chairman Nadler. The article is agreed to.
    The question now is on Article II of the resolution, 
impeaching President Donald J. Trump for obstructing Congress.
    The clerk will call the roll.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Strasser. Mr. Deutch votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Yes.
    Ms. Strasser. Mr. Richmond votes yes.
    Mr. Jeffries?
    Mr. Jeffries. Aye.
    Ms. Strasser. Mr. Jeffries votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Swalwell. Aye.
    Ms. Strasser. Mr. Swalwell votes aye.
    Mr. Lieu?
    [No response.]
    Ms. Strasser. Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Yes.
    Ms. Strasser. Mr. Correa votes yes.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean.
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Sensenbrenner. No.
    Ms. Strasser. Mr. Sensenbrenner votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mrs. Roby. No.
    Ms. Strasser. Mrs. Roby votes no.
    Mr Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. Biggs. No.
    Ms. Strasser. Mr. Biggs votes no.
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mrs. Lesko. No.
    Ms. Strasser. Mrs. Lesko votes no.
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Has every member of the committee who 
wishes to vote voted?
    The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 23 ayes and 17 noes.
    Chairman Nadler. The article is agreed to. The resolution 
is amended as ordered reported favorably to the House. Members 
will have 2 days to submit views. The resolution will be 
reported as a single amendment in the nature of a after 
substitute. Without objection, the staff is authorized to make 
technical and conforming changes.
    Without objection, the committee is adjourned.
    Mr. Collins. Mr. Chairman----
    Chairman Nadler. For what purpose does the gentleman seek 
recognition?
    Mr. Collins. Pursuant to Clause 2(L) of Rule 11, I give 
notice of intent to file dissenting views.
    Chairman Nadler. The notice is heard.
    Without objection, the committee is adjourned.
    [Whereupon, at 10:10 a.m., the committee was adjourned.]
</pre></body></html>
